For cover photo credits see pages 288-289.
2005 Annual Financial Report




   TABLE     OF     CONTENTS

   Message from the Secretary of the Navy                                                    3

   Message from the Assistant Secretary of the Navy (Financial Management & Comptroller)     5

   M ANAGEMENT ’ S D ISCUSSION   AND   A NALYSIS                                             7



   D EPARTMENT   OF THE   N AVY G ENERAL F UND

          Principal Statements                                                              77

          Notes to the Principal Statements                                                 89

          Supporting Consolidating/Combining Statements                                    143

          Required Supplementary Stewardship Information                                   157

          Required Supplementary Information                                               165

          Other Accompanying Information                                                   175



   N AVY W ORKING C APITAL F UND

          Principal Statements                                                             179

          Notes to the Principal Statements                                                191

          Supporting Consolidating/Combining Statements                                    235

          Required Supplementary Information                                               263

          Other Accompanying Information                                                   269



   AUDIT OPINIONS                                                                          271




                                                                                                 1
                                      D e pa r t m e n t o f t h e N a v y




    THE HONORABLE GORDON R. ENGLAND
          SECRETARY OF THE NAVY




2
2005 Annual Financial Report




                               3
                                             D e pa r t m e n t o f t h e N a v y




     THE HONORABLE RICHARD GRECO, JR.
      THE ASSISTANT SECRETARY OF THE NAVY
    (FINANCIAL MANAGEMENT AND COMPTROLLER)




4
2005 Annual Financial Report




                               5
    D e pa r t m e n t o f t h e N a v y




6
                    DEPARTMENT OF THE NAVY




                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                             7
                                                             D e pa r t m e n t o f t h e N a v y




    “The challenge for the future is ensuring we are
    maintaining the proper investment balance between
    the needs of today and the requirements of tomorrow.”
                     -- The Honorable Gordon R. England, Secretary of the Navy, February 2005




8
2005 Annual Financial Report


INTRODUCTION
The Department of the Navy continues to invest in its transformation efforts while responding to a full spectrum of
military operations. The Department has used financial resources appropriated by Congress to significantly increase
its operational readiness, to finance new research and development, to begin the procurement of new classes of
ships and aircraft, and to advance its Human Capital Strategy goals. Additionally, the Department’s joint war-fighting
team, the U.S. Navy and U.S. Marine Corps, has continued to answer the nation's call in the Global War on Terror
and to perform essential global stability and security operations.

The costs of new weapon systems, operations and maintenance, and personnel are rising, however, and the
Department must find the proper investment balance to serve both its immediate needs and the requirements of
tomorrow. Our challenge today is to achieve the appropriate readiness posture at the right cost to win the Global
War on Terror, to support the military's needs, and to continue the naval transformation that will enable the Navy-
Marine Corps team to fight and win tomorrow's battles.




                                                                      THE DEPARTMENT OF THE NAVY
ORGANIZATION AND MISSION                                              Founded 30 April 1798

                                                                      Our Mission:
The Department of the Navy (DON) is organized under the
Secretary of the Navy. It operates under the authority, direction,    • Control and maintain freedom of the seas
and control of the Secretary of Defense (Section 5011, Title 10       • Project power beyond the sea
U.S. Code). The chart below provides a simplified illustration of     • Influence events and advance U.S. interests
the DON organizational structure. The full structure is shown           across the full spectrum of military operations
online at http://www.navy.mil/palib/organization/org-top.html.




                                                                                                                          9
                                                                                          D e pa r t m e n t o f t h e N a v y


     NAVAL LEADERSHIP
     Three key leaders within the Department of the Navy are the Secretary of the Navy, the Chief of Naval Operations,
     and the Commandant of the Marine Corps. Below is a brief description of their leadership roles.

     Secretary of the Navy. The Secretary of the Navy is mandated under Title 10 of the U.S. Code to conduct all of the
     affairs of the Department of the Navy, consistent with the national security policies and objectives established by the
     President and the Secretary of Defense.

     Chief of Naval Operations. The Chief of Naval Operations is responsible to the Secretary of the Navy for the
     command of the Navy shore establishment and operating forces. He is responsible also for the operating efficiency
     of those forces and for their utilization of resources.

     Commandant of the Marine Corps. The Commandant of the Marine Corps is responsible to the Secretary of the
     Navy for the performance of the Marine Corps, including the administration, discipline, internal organization, training,
     efficiency, and readiness of the service and for meeting all of its resource requirements.




     NAVAL OPERATING FORCES: PART                                       OF THE         TOTAL JOINT FORCE
     The Department of the Navy provides naval forces, including fleet and Marine Corps forces, to the five Geographic
     and four Functional Commands - the Unified Commands.

     The map on the right shows the areas of responsibility of the five Unified Commands that are defined by geographic
     region and the naval forces that support them.




                       UNITED STATES NAVY                                    UNITED STATES MARINE CORPS
             THE NAVY SHALL BE   ORGANIZED, TRAINED, AND              THE MARINE CORPS    SHALL BE ORGANIZED, TRAINED,
            EQUIPPED PRIMARILY FOR PROMPT AND SUSTAINED               AND EQUIPPED TO PROVIDE FLEET MARINE FORCES OF
             COMBAT INCIDENT TO OPERATIONS AT SEA.   IT   IS            COMBINED ARMS, TOGETHER WITH SUPPORTING AIR
         RESPONSIBLE FOR THE PREPARATION OF NAVAL FORCES               COMPONENTS, FOR SERVICE WITH THE FLEET IN THE
          NECESSARY FOR THE EFFECTIVE PROSECUTION OF WAR              SEIZURE OR DEFENSE OF ADVANCED NAVAL BASES AND
         EXCEPT AS OTHERWISE ASSIGNED AND, IN ACCORDANCE              FOR THE CONDUCT OF SUCH LAND OPERATIONS AS MAY
          WITH INTEGRATED JOINT MOBILIZATION PLANS, FOR THE              BE ESSENTIAL TO THE PROSECUTION OF A NAVAL
          PEACETIME COMPONENTS OF THE      NAVY TO MEET THE            CAMPAIGN.   (SECTION 5063, TITLE 10 U.S. CODE)
         NEEDS OF WAR.   (SECTION   5062, TITLE 10 U.S. CODE)

                     FOUNDED 13 OCTOBER 1775                                     FOUNDED 10 NOVEMBER 1775
                          http://www.navy.mil                                         http://www.usmc.mil




10
2005 Annual Financial Report




  1. U.S. Northern Command (USNORTHCOM): USNORTHCOM has few permanently assigned forces.
     However, naval personnel (civilians and uniformed services) are among the civil service employees and
     uniformed service members at USNORTHCOM headquarters (Peterson Air Force Base, Colorado).
     www.northcom.mil

  2. U.S. European Command (USEUCOM): U.S. Naval Forces Europe and 6th Fleet
     (www.naveur.navy.mil); U.S. Marine Corps Forces, Europe (www.mfe.usmc.mil)

  3. U.S. Pacific Command (USPACOM): U.S. Pacific Fleet, 3rd and 7th Fleets (www.cpf.navy.mil);
     U.S. Marine Corps Forces, Pacific and Fleet Marine Force, Pacific (www.mfp.usmc.mil)

  4. U.S. Central Command (USCENTCOM): U.S. Naval Forces Central Command and 5th Fleet
     (www.cusnc.navy.mil); U.S. Marine Corps Forces Central Command (www.marcent.usmc.mil)

  5. U.S. Southern Command (USSOUTHCOM): U.S. Naval Forces Southern Command
     (www.cusns.navy.mil); U.S. Marine Corps Forces, South (www.mfs.usmc.mil)




                                                                                                             11
                                                                                         D e pa r t m e n t o f t h e N a v y


     Additionally, the Department of the Navy provides naval forces to support the missions of the four Functional
     Commands, as illustrated below.

             U.S. JOINT FORCES COMMAND                               U.S. STRATEGIC COMMAND
             U.S. Fleet Forces Command and 2nd Fleet                 Ballistic Missile Submarines
             (www.cffc.navy.mil)                                     (www.chinfo.navy.mil)

             U.S. Marine Corps Forces, Atlantic                      U.S. Marine Corps Forces, Strategic Command
             (www.marforlant.usmc.mil)                               (www.marforlant.usmc.mil)


             U.S. SPECIAL OPERATIONS COMMAND                         U.S. TRANSPORTATION COMMAND
             U.S. Naval Special Warfare Command                      Military Sealift Command
             (www.navsoc.navy.mil)                                   (www.msc.navy.mil)




                                   The guided missile destroyers USS Fitzgerald (DDG 62) (in
                                   foreground) and USS John Paul Jones (DDG 53) underway in the
                                   Coral Sea in support of Exercise Talisman Sabre 2005. Talisman
                                   Sabre is an exercise jointly sponsored by the U.S. Pacific
                                   Command and Australian Defence Force Joint Operations
                                   Command. The exercise focuses on crisis action planning
                                   and execution of contingency response operations.

12
2005 Annual Financial Report


REPORTING ENTITIES
For financial reporting purposes, the Department of the Navy is organized into two reporting entities: the Department
of the Navy General Fund and Navy Working Capital Fund. The General Fund is the larger of the two reporting
entities, accounting for 94 percent of total Department of the Navy assets in fiscal year (FY) 2005. (See "Financial
Reporting Results" for a discussion of the FY2005 financial performance of the Department of the Navy General
Fund and the Navy Working Capital Fund.) The next two sections provide more information on these reporting
entities.




DON GENERAL FUND
The DON General Fund supports overall Department operations, including the operations of the major commands.
Direct appropriations from Congress comprise the DON General Fund account structure. Examples of DON General
Fund appropriations include military personnel; operation and maintenance; and procurement. (For a complete list of
DON General Fund appropriations, see "General Fund Other Accompanying Information.")

MAJOR COMMANDS
The U.S. Navy and U.S. Marine Corps together comprise DON's joint war-fighting team. Both services have
numerous major commands that operate under the authority and responsibility of a commander or other designated
official and that typically support a network of subordinate commands. Each major command has a clearly defined
mission that supports the overall Department mission.

There are four groupings of major commands within the General Fund: the Secretariat, Navy Operating Forces,
Navy Shore Establishment, and the Marine Corps Organization. The following section provides a brief outline of the
mission, organization, and recent major initiatives or accomplishments of representative commands within each
grouping. The breadth and depth of the DON organization precludes discussion here of every command. Full details
of all commands are available online at http://www.navy.mil.



SECRETARIAT
ORGANIZATION AND MISSION
The Secretariat is comprised of the offices of the four Assistant Secretaries of the Navy (see below) and includes the
Assistant for Administration to the Under Secretary of the Navy, which performs administrative functions for the
Secretary of the Navy, the Under Secretary of the Navy, the Assistant Secretaries of the Navy, and the General
Counsel.

 •   Office of the Assistant Secretary of the Navy (Research, Development and Acquisition) (ASN(RD&A)). The
     Office of the ASN(RD&A) is responsible for the development and acquisition of Navy and Marine Corps
     platforms and weapon systems. http://www.hq.navy.mil/rda/

 •   Office of the Assistant Secretary of the Navy (Manpower and Reserve Affairs) (ASN(M&RA)). The Office of the
     ASN(M&RA) provides leadership to the DON in recruiting, developing, and retaining individuals for military and
     civilian service. http://www.hq.navy.mil/mra/

                                                                                                                         13
                                                                                          D e pa r t m e n t o f t h e N a v y


      •   Office of the Assistant Secretary of the Navy (Financial Management and Comptroller) (ASN(FM&C)).
          The Office of the ASN(FM&C) directs and manages the financial activities of the DON by overseeing the
          management of the annual budget and supporting processes, and providing informed recommendations to
          DON senior leadership regarding the efficient and effective allocation of assets, consistent with the national
          security priorities of the President and the Secretary of Defense. http://www.finance.hq.navy.mil/fmc/

      •   Office of the Assistant Secretary of the Navy (Installations and Environment) (ASN(I&E)). The Office of the
          ASN(I&E) is responsible for the formulation of DON-wide policies and procedures and for overseeing all DON
          functions and programs relating to the environment ashore and afloat, real property, housing, and other
          facilities. http://www.hq.navy.mil/ie/main.html

     Unique to the Secretariat is the Office of Naval Research (ONR). The ONR reports to the Chief of Naval Research,
     who operates under the authority, direction, and control of the Assistant Secretary of the Navy (Research,
     Development, and Acquisition). The mission of the
     ONR is to coordinate, execute, and promote science
     and technology programs of the U.S. Navy and the
     U.S. Marine Corps through schools, universities,
     government laboratories, and nonprofit and for-profit
     organizations; to provide technical advice to the Chief
     of Naval Operations and the Secretary of the Navy;
     and to work with industry to improve technology
     manufacturing processes.




     ORGANIZATIONAL CHANGES
     The Office of General Counsel realigned its personnel
     to establish the Navy Litigation Office. This new office
     consists of high-level attorneys and support staff who
     handle major DON litigation in the principal areas of
     contracts, environmental and civilian personnel law,
     including bankruptcy and fraud cases.

     Additionally, the DON established the Naval
     Acquisition Integrity Office to bolster efforts in
     deterring, detecting, and monitoring procurement
     fraud. The responsibilities of this new office include
     coordination of the naval procurement fraud program,
     delivery of procurement fraud training, dissemination
     of procurement fraud guidance, and collaboration with
     other Department of Defense entities that have
     established similar fraud programs.

                                                                 The Office of Naval Research vessel YP-679, Afloat Lab,
                                                                 prepares to dock at the South Street Seaport in preparation for
                                                                 New York City's 18th annual Fleet Week.




14
2005 Annual Financial Report


WORKFORCE TRENDS
The Naval Criminal Investigative Service has seen an increase in personnel as a result of the Global War on Terror.
In FY2005, the Naval Criminal Investigative Service gained 140 personnel and anticipates an additional 190
personnel in FY2006. These increases support requirements such as deployable/protective operations, technical
surveillance countermeasures, and force protection for DON port visits.

In contrast, the Office of Naval Research faces workforce attrition in the next five years, with 46 percent of its civilian
workforce eligible for retirement. The average age of the command's civilian workforce is 50 years; only three
percent of its civilian workforce is under the age of 30.




MAJOR INITIATIVES AND ACCOMPLISHMENTS
The Marine Corps, in collaboration with the Office of Naval Research, has sponsored research in next-generation
protective coatings for Marine Corps equipment, weapons, and vehicles. These new coatings will provide better
camouflage and protection from chemical warfare agents and will be easier to apply than previous coatings.
They also will contain none of the volatile organic chemicals that have in the past been linked to respiratory
disorders, such as asthma.

Additionally, the Office of Naval Research has funded research to counter the phenomenon of increasing bacterial
resistance to antibiotics. Several types of bacteria, such as those that cause tuberculosis, typhoid fever, and
pneumonia, have evolved to resist conventional treatment, a fact that represents one of the major threats to health in
the United States. The research indicates that interfering with certain of the proteins present in the bacteria may
prevent their further evolution; work is underway to develop new antibiotics that can act against these bacterial
proteins.




   The hospital ship USNS Comfort (T-AH 20) moored pier side in New Orleans on September 28, 2005 to assist in the
   Hurricane Katrina relief efforts. Comfort’s medical staff worked alongside local civilian physicians to treat over 1,800 patients.



                                                                                                                                        15
                                                                                                     D e pa r t m e n t o f t h e N a v y


     NAVY OPERATING FORCES

     ORGANIZATION AND MISSION
     The Navy Operating Forces ("the Fleet") embody forward presence, crisis-response, and fighting power in support of
     the Unified Combatant Commanders. Representative examples include the Fleet Forces Command, Pacific Fleet
     Command, and Naval Reserve Force Command. (NOTE: The Commander, Fleet Forces has dual responsibility as
     Commander, Atlantic Fleet.)


                                                U. S. Na v y Op e r a t i n g Fo r c e s
                                  C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s



                        16,400
                        12,400
                         8,400
                         4,400
                           400
                                                                   FY 2005



                         Fleet Forces               Pacific Fleet                N a va l R e s e r ve F o r c e

                                                                                  *Full-time equivalent workyears



     FLEET FORCES COMMAND
     Mission: To organize, man, train, and equip Navy forces and provide planning support to the Combatant
     Commanders; to deter, detect, and defend against homeland maritime threats; and to articulate Fleet war-fighting and
     readiness capabilities to the Chief of Naval Operations.
     http://www.cffc.navy.mil/

     PACIFIC FLEET COMMAND
     Mission: To support the U.S. Pacific Command's theater strategy, and to provide interoperable, trained, and combat-
     ready naval forces to the Fleet and other U.S. Unified Commanders.
     http://www.cpf.navy.mil/

     NAVAL RESERVE FORCE COMMAND
     Mission: To provide mission-capable units and individuals to the Navy-Marine Corps Team throughout the full range
     of operations from peace to war.
     http://navyreserve.navy.mil/




16
2005 Annual Financial Report




           A pilot assigned to the "Gladiators" of Strike Fighter Squadron One Zero Six (VFA-106)
           smiles as he watches squadron personnel perform pre-flight checks on his F/A-18F Super
           Hornet on the flight deck aboard USS Harry S. Truman (CVN 75).




                                                                                                    17
                                                                                          D e pa r t m e n t o f t h e N a v y


     ORGANIZATIONAL CHANGES

     The Fleet continued to improve organizational alignment in FY2005. Some examples of organizational changes
     appear below.

     Fleet Forces Command. The Fleet Forces Command restructured its organization to achieve effectiveness and
     efficiency in naval capabilities. Some of these changes included establishment of regional maintenance centers and
     the disestablishment of field activities and detachments. The Fleet Forces Command is planning similar changes in
     FY2006.

     Pacific Fleet Command. The Pacific Fleet Command restructured its organization to respond to the increased
     importance of the Pacific Rim to world economics and domestic security. During FY2005, the command considered
     several different staffing models to organize a staff structure that could effectively command the Fleet over more than
     100 million square miles. With the new staff organization in place, current operations and training are now under one
     director to ensure tactical and real-time lessons learned can be quickly incorporated into daily Fleet operations.



     WORKFORCE TRENDS

     The Fleet Forces Command continued its military-to-civilian conversions in FY2005 in support of Department-wide
     efforts to reduce military end strength. Military-to-civilian conversions involve the transfer of civilian-related duties
     performed by military personnel to the civilian workforce. This conversion allows military personnel to return to more
     traditional war fighting roles. The command plans to continue military-to-civilian conversions through FY2008.



     MAJOR INITIATIVES AND ACCOMPLISHMENTS

     The Fleet implemented a broad range of initiatives in FY2005 to increase naval capabilities. Some examples of
     initiatives and accomplishments appear below.

     Fleet Forces Command. The Fleet Forces Command reviewed the maintenance and training schedules of non-
     deployed naval forces to determine whether higher levels of training and material readiness could be sustained. This
     review reflects a refinement of the Fleet Response Plan (see "Strategic Management, Combat Capability" for more
     information on the Fleet Response Plan).

     Pacific Fleet Command. The Pacific Fleet Command provided an immediate response to the December 26, 2004
     earthquake and tsunami that struck Southeast Asia. Within hours, the command had ordered naval forces to move
     toward the affected areas, with the USS Abraham Lincoln (CVN 72) Carrier Strike Group arriving on the scene less
     than one week after the incident.

     The USS Bohomme Richard (LHD 6) and USS Essex (LHD 2) Expeditionary Strike Groups joined the effort shortly
     thereafter. None of the groups had humanitarian assistance and disaster relief as their primary mission areas, yet
     they were able to bring relief and aid to hundreds of thousands of people across the region.




18
2005 Annual Financial Report


Naval Reserve Force Command. The Naval Reserve Force Command, in collaboration with the Fleet Forces
Command, continued efforts toward Active Reserve Integration (ARI). ARI is an initiative directed by the Chief of
Naval Operations that will fully integrate the Naval Reserve Force with the active force to create a more cohesive,
surgeable, ready force. The Fleet Forces Command and Naval Reserve Force Command have been engaged in a
comprehensive zero-based review of naval reserve capabilities. As more progress is made toward ARI, the need for
a large reserve infrastructure will decrease, as manpower functions shift to the Navy Personnel Command and
training and readiness requirements shift to active commands.




                         Members of Explosive Ordnance Disposal Mobile Unit 11 Detachment
                         Nine participate in a fast rope exercise from an HH-60H Seahawk
                         helicopter aboard the USS Carl Vinson (CVN 70). The Carl Vinson
                         Carrier Strike Group is deployed to the 6th Fleet area of operations.




                                                                                                                      19
                                                                                                     D e pa r t m e n t o f t h e N a v y


     NAVY SHORE ESTABLISHMENT
     ORGANIZATION AND MISSION
     The Navy Shore Establishment provides support to the Navy operating forces in the form of personnel, bases,
     activities, equipment, and facilities. Examples of major commands within the shore establishment include:

            •   Naval Sea Systems Command (NAVSEA),

            •   Naval Air Systems Command (NAVAIR),

            •   Space and Naval Warfare Systems Command (SPAWAR),

            •   Naval Facilities Engineering Command (NAVFAC),

            •   Naval Supply Systems Command (NAVSUP),

            •   Strategic Systems Programs (SSP),

            •   Bureau of Medicine and Surgery (BUMED),

            •   Navy Personnel Command (NAVPERS),

            •   Naval Education and Training Command (NETC),

            •   Office of Naval Intelligence (ONI),

            •   Field Support Activity (FSA), and

            •   Navy Installations Command (CNI).



                                              U. S . Na v y S h o r e Es t a b l i s h m e n t
                                   C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s
                                                                                                            NA V S EA

                        25,200                                                                              NA V A IR
                        23,300                                                                              S PA W A R
                        21,400
                        19,500                                                                              NA V FA C
                        17,600
                        15,700                                                                              NA V SUP
                        13,800                                                                              SSP
                        11,900
                        10,000                                                                              B UMED
                         8,100
                         6,200                                                                              NA V PERS
                         4,300                                                                              NET C
                         2,400
                           500                                                                              ONI
                                                                                                            FSA
                                                           FY 2005
                                                                                                            CNI




20
2005 Annual Financial Report


NAVAL SEA SYSTEMS COMMAND
Mission: To keep America’s Navy #1 in the world by providing the Navy operationally superior and affordable ships,
systems, and ordnance throughout their lifecycle…for today, tomorrow, and the Navy after next.
http://www.navsea.navy.mil

NAVAL AIR SYSTEMS COMMAND
Mission: To provide sustainment (current readiness), systems acquisition (future readiness), decision support; and
to make the Navy more capable, ready, and affordable in a joint environment.
http://www.navair.navy.mil

SPACE AND NAVAL WARFARE SYSTEMS COMMAND
Mission: To provide the warfighter with knowledge superiority by developing, delivering, and maintaining effective,
capable, and integrated command, control, communications, computer, intelligence, and surveillance systems.
http://www.spawar.navy.mil

NAVAL FACILITIES ENGINEERING COMMAND
Mission: To manage the planning, design, construction, contingency engineering, real estate, environmental, and
public works support for U.S. Navy shore facilities around the world; and to provide the Navy’s forces with the
operating, expeditionary, support, and training bases they need.
http://www.navfac.navy.mil

NAVAL SUPPLY SYSTEMS COMMAND
Mission: To provide U.S. Naval, Joint, and Allied forces with quality supplies and services on a timely basis with
“One Touch Supply.”
http://www.navsup.navy.mil

STRATEGIC SYSTEMS PROGRAMS
Mission: To serve our nation by providing credible and affordable sea-based deterrent missile systems.
(No website available)

BUREAU   OF   MEDICINE AND SURGERY
Mission: To provide a comprehensive healthcare delivery system of shore-based treatment facilities and operating
forces for the Navy and Marine Corps; and to ensure the provision of medical and dental care and services for Navy
and Marine Corps personnel, other uniformed services personnel, and eligible beneficiaries authorized by law or
regulation.
http://navymedicine.med.navy.mil

NAVY PERSONNEL COMMAND
Mission: To support the needs of the Navy by providing the Fleet with the right person in the right place at the right
time; and to satisfy our Sailors’ quality of service by providing them with meaningful and rewarding career
opportunities, promoting and retaining the best, and ensuring fair and equitable treatment of all hands at all times.
http://www.npc.navy.mil




                                                                                                                         21
                                                                                           D e pa r t m e n t o f t h e N a v y


     NAVAL EDUCATION AND TRAINING COMMAND
     Mission: To educate and train those who serve by providing the tools and opportunities that ensure fleet readiness
     and mission accomplishment, enhance professional and personal growth and development, and enable life-long
     learning.
     https://www.cnet.navy.mil/index.asp

     OFFICE   OF   NAVAL INTELLIGENCE
     Mission: To provide products and services to meet Navy, Department of Defense, and national maritime intelligence
     requirements, and to perform such other functions and tasks as may be assigned by higher authority.
     (No website available)

     FIELD SUPPORT ACTIVITY
     Mission: To initiate action in matters pertaining to the provision of funds, manpower, and facilities to assigned unified
     commands, Navy headquarters and activities; and to evaluate the utilization of such resources and initiate or
     recommend appropriate corrective action.
     (No website available)

     NAVY INSTALLATIONS COMMAND
     Mission: To enable and enhance Navy combat power by providing the most effective, efficient and cost-wise shore
     services and support.
     http://www.cni.navy.mil




                     A Damage Controlman 2nd Class, assigned to the guided missle destroyer USS Mustin (DDG 89),
                     receives a final brief before conducting Maritime Security Operations in the Persian Gulf.




22
2005 Annual Financial Report




           A Landing Craft, Air Cushion (LCAC) assigned to Assault Craft Unit Four (ACU-4), exits the well deck of
           the amphibious assault ship USS Kearsarge (LHD 3).



ORGANIZATIONAL CHANGES

Shore Establishment commands continued to improve organizational alignment in FY2005. Some examples of
organizational changes appear below.

Space and Naval Warfare Systems Command (SPAWAR). SPAWAR successfully executed a reorganization of its
C4I (Command, Control, Communication, Computers and Intelligence) and space program office in FY2005. The
new organizational structure reduces the total number of program offices and combines functional and platform-
based capabilities to more coherently drive the acquisition process and to facilitate development and delivery of
integrated C4I capabilities across naval and joint platforms.

Naval Facilities Engineering Command (NAVFAC). NAVFAC continued the transformation of its worldwide
organization. In coordination with the Navy Installations Command, Naval Supply Systems Command, and
Headquarters, U.S. Marine Corps, NAVFAC is aligning its component commands into Facilities Engineering
Commands. This alignment will enable NAVFAC to improve accountability and responsiveness to Regional
Commanders, and to create savings that can be reinvested by Navy and Marine Corps senior leadership.
NAVFAC anticipates completion of this structural alignment by FY2006.




                                                                                                                     23
                                                                                          D e pa r t m e n t o f t h e N a v y


     Naval Supply Systems Command (NAVSUP). NAVSUP, in collaboration with the Commander, Fleet and Industrial
     Supply Centers, continued its organizational transformation. Specifically, NAVSUP initiated the transfer of selected
     industrial logistics operations from Naval Air Systems Command, Naval Sea Systems Command, and the Space and
     Naval Warfare Systems Command to the Fleet and Industrial Supply Centers. Also, NAVSUP began a worldwide
     movement of supply chain management and contracting responsibilities from Commander, Navy Installations to the
     Fleet and Industrial Supply Centers. The benefits of these initiatives will allow for the leveraging of enterprise-wide
     capabilities, streamlining of delivery models, and elimination of duplicate tasks.

     Strategic Systems Programs (SSP). SSP completed the reorganization and downsizing of its program management
     offices. The purpose of these changes is to improve efficiency, better align field activity support, consolidate common
     functional activities, and leverage core competencies.

     Bureau of Medicine and Surgery (BUMED). BUMED continued the realignment of its organization. Specifically, the
     military command of the Chief, BUMED is now responsible for all Navy medical and dental commands. Also,
     BUMED is centralizing policy functions at headquarters level and transferring execution functions to the regional
     commands. BUMED plans to complete its decentralization initiative by fiscal year-end 2006.

     Navy Personnel Command (NAVPERS). The Office of the Chief of Naval Operations integrated the mission and
     functions of the Director, Naval Education and Training and the Deputy Chief of Naval Operations (Manpower and
     Personnel) to create a single resource sponsor for manpower and training - Deputy Chief of Naval Operations
     (Manpower, Personnel, Training and Education).

     Naval Education and Training Command (NETC). NETC continued its organizational transformation under the
     Revolution in Training (RIT) initiative. The purpose of this initiative is to improve the development and delivery of
     naval education and training. Formal implementation of this initiative began in November 2002 with the Secretary
     of the Navy's approval of six learning centers. Since then, several NETC organizational changes have occurred,
     including the disestablishment of training centers in San Diego, California; Mayport, Florida; and Norfolk, Virginia.




                        A U.S. Navy Aviation Warfare Systems Operator 1st Class checks on the lowered search and
                        rescue swimmer during a search and rescue mission over New Orleans.




24
2005 Annual Financial Report


Field Support Activity (FSA)

        • Naval Legal Service Command. The Commander, Navy Installations and the Judge Advocate General
          executed a Memorandum of Agreement that establishes regional legal services offices. The goal of this
          organizational change is to improve legal service support. The memorandum will serve as a charter for
          additional regional legal services offices in subsequent fiscal years.

        • Naval Historical Center. The Vice Chief of Naval Operations Corporate Board directed realignment of all
          Navy museums under the Director of Naval History. The purpose of this realignment is to provide
          increased visibility and accountability for the Navy's museums.

        • Naval Safety Center. The Naval Safety Center completed an internal reorganization to better align
          resources to customer needs and to focus on areas where the greatest risk of loss exists.

        • U.S. Naval Academy. The Naval Academy created an Officer Development System (ODS) to strengthen
          and align all officer development functions for midshipmen. ODS was created through the internal
          reorganization of the Character Development staff and the Department of Leadership, Ethics and Law
          under one Navy Captain, the Director of Officer Development.

Navy Installations Command (CNI). CNI has begun to establish a Financial Management Center of Excellence that
will provide support to all CNI regions and activities worldwide. As a result, CNI expects a decrease in manning
requirements in FYs 2006 and 2007.



WORKFORCE TRENDS

Workforce trends vary among the Shore Establishment commands. Some examples of these trends appear below.

Naval Air Systems Command (NAVAIR). NAVAIR's future workforce will likely be the result of an extensive human
capital strategy that it has begun to develop. The command has been examining all areas of human capital,
including diversity, workforce aging, and skill mix.

Naval Facilities Engineering Command (NAVFAC). NAVFAC's civilian and contractor workforce has declined over
the last three fiscal years due to its ongoing transformation initiative. NAVFAC expects further reductions in
workforce, including military personnel, as it continues to streamline its organization.

Naval Supply Systems Command (NAVSUP). NAVSUP's civilian workforce has declined nearly 70 percent from
1,517 personnel to 500 personnel over the past few years. This decline is primarily due to shifting some employees
at the Fleet and Industrial Supply Centers from the General Fund (Operation and Maintenance, Navy appropriation)
to the Navy Working Capital Fund.

Strategic Systems Programs (SSP). SSP workforce demographics remained unchanged over the last four years,
with approximately forty percent in the age bracket of 50-59 years. Nine percent of SSP personnel are 60 years
or older.




                                                                                                                     25
                                                                                         D e pa r t m e n t o f t h e N a v y


     Bureau of Medicine and Surgery (BUMED). BUMED increased its efforts over the last three years to recruit and
     retain Navy Medicine civilian practitioners in areas such as nursing and pharmacy due to competition from the private
     and public sectors. Recruitment and retention incentives, flexible hiring authorities, special salary rates and appeals
     to patriotism have made it possible to replace clinical staff that the command has lost to the private sector and to
     other federal government health care providers, such as the Veterans Administration and National Institutes of
     Health. However, over the next six years, BUMED anticipates an upward trend in its Navy Medicine civilian
     workforce due to military-to-civilian conversions.

     Naval Education and Training Command (NETC). NETC's civilian and military workforce has declined since FY2004
     due to its Revolution in Training initiative. NETC expects further reductions in workforce due to organizational
     realignments under Base Realignment and Closure 2005.

     Office of Naval Intelligence (ONI). ONI anticipates an increase in its civilian workforce in FY2006 due to
     reinstatement of civilians under reimbursable appropriations.

     Field Support Activity (FSA)

             • Naval Legal Service Command. The command plans to reduce its military workforce in FY2006 under
               the military-to-civilian conversion program. Replacement of enlisted personnel with civilians will generate
               savings for the Navy due to lower personnel costs.

             • Naval Historical Center. The center's workforce remained steady over the last three fiscal years while
               the fleet's demand for history steadily increased. The center anticipates an increase in workload after
               FY2005 due to records, artifacts, and artwork from deactivating units and installations.

             • Naval Safety Center. The Naval Safety Center reduced its civilian workforce in FY2004 and plans to
               disestablish a reserve detachment in FY2006, which will result in a reduction in military personnel.

             • U.S. Naval Academy. Shortfalls in funding have resulted in insufficient funds to replace retiring full-time
               tenure track faculty members with other full-time tenure track candidates. As a result, the percentage of
               part-time adjunct faculty members has doubled, from 8.15 percent in FY2002 to 16.05 percent in FY2005.
               This trend has a direct negative impact on the quality of academic education at the Naval Academy.
               Navy leadership has addressed this funding shortfall and the trend should begin to reverse in FY2006.

     Navy Installations Command (CNI). With the migration of many regions and their activities under CNI, the command
     faces inherent Navy concerns of an aging workforce and the potential loss of continuity and expertise.




26
2005 Annual Financial Report


MAJOR INITIATIVES AND ACCOMPLISHMENTS

Shore Establishment commands implemented a broad range of initiatives in FY2005 to increase naval capabilities
and to improve command organizations and business practices. Some examples of initiatives and accomplishments
appear below.

Naval Sea Systems Command (NAVSEA). NAVSEA Program Executive Offices, in collaboration with the NAVSEA
Comptroller's Office, initiated a project designed to streamline the funding document process by using Lean Six
Sigma methods. NAVSEA successfully conducted five concurrent pilots. The command will continue to identify
efficiencies that will improve the effectiveness of the funding document process.

Naval Air Systems Command (NAVAIR). NAVAIR applied Lean Six Sigma methods in a pilot project designed to
improve its funding document process. As a result, NAVAIR was able to reduce the cycle time of document reviews
while maintaining the fiscal integrity of the process.

Space and Naval Warfare Systems Command (SPAWAR). SPAWAR accelerated progress in network centric warfare
by developing a comprehensive Command, Control, Communication, Computers and Intelligence (C4I) Integrated
Roadmap. This roadmap will become the path to FORCEnet, the operational construct and architectural framework
for integrating network centric warfare capabilities across the naval enterprise, the Department of Defense, and
coalition partners.

Naval Facilities Engineering Command (NAVFAC). NAVFAC continued to exceed Department of Defense
environmental cleanup goals. For the fourth consective year, NAVFAC completed more environmental cleanup than
expected, reducing cost of completion by $500 million.

Naval Supply Systems Command (NAVSUP). NAVSUP channeled its business transformation efforts toward
improving the quality of its products and services. The command has begun implementing Lean Six Sigma methods
to achieve this goal.

Strategic Systems Programs (SSP). SSP continued to demonstrate effective management of the Trident II (D5)
program. Trident II is an intercontinental ballistic missile launched from nuclear-powered Ohio-class submarines.
Trident II (D5) met and, in some cases, exceeded Commander, U.S. Strategic Command confidence and reliability
requirements.

Bureau of Medicine and Surgery (BUMED).
BUMED achieved greater responsibility in the
Operation Iraqi Freedom medical mission. This
responsibility includes the field hospital in Kuwait
and support of intra-theater air evacuation
capabilities.

Office of Naval Intelligence (ONI). ONI
broadened its sphere of influence in community,
theater, and fleet intelligence. Specifically, the
command increased its level of contribution,
virtual and physical presence, and participation
in intelligence products, services, and system
architecture development.                              A Tactical Tomahawk Block IV cruise missile.



                                                                                                                    27
                                                                                                    D e pa r t m e n t o f t h e N a v y


     Field Support Activity (FSA)

             • Naval Legal Service Command. The Judge Advocate General (JAG) gained more decision-making
               authority over JAG Corps requirements. This was the direct result of a JAG Corps realignment authorized
               by the Chief of Naval Operations.

             • Naval Historical Center. The Director of Naval History gained more decision-making authority over
               museum operations. This was the direct result of a museum realignment authorized by the Vice Chief of
               Naval Operations Corporate Board.

             • Naval Safety Center. The Naval Safety Center broadened its sphere of influence within the Department.
               Specifically, the command, in collaboration with the Naval Education and Training Command, established
               a presence on the Navy Knowledge Online, a learning portal.

             • U.S. Naval Academy. The Naval Academy graduated a total of 976 graduates, of which 973 were
               commissioned graduates. The commissioned graduates will enter service with an accredited Bachelor of
               Science degree that includes a core curriculum of math, science, and engineering.

     Navy Installations Command (CNI). CNI progressed toward its goal of financial management competence.
     Specifically, the command issued a professional development guide that includes a matrix of recommended training
     courses and other professional development vehicles that can assist personnel in obtaining financial knowledge and
     expertise.




                  Pilots and Maintenance Personnel assigned to the Blue Angels Maintenance and Support Team stand
                  at parade rest in front of their F/A-18 Hornets at Boeing air field, following the first day of practice for
                  Seattle’s Seafair air show.




28
2005 Annual Financial Report


MARINE CORPS ORGANIZATION
ORGANIZATION AND MISSION

The Marine Corps Organization is comprised of headquarters offices, operating forces, reserves, and supporting
establishment.

                                            HEADQUARTERS, U.S. MARINE CORPS



                 OPERATING FORCES                        RESERVES                   SUPPORTING ESTABLISHMENT




HEADQUARTERS, U.S. MARINE CORPS
Headquarters, U.S. Marine Corps is comprised of the Commandant of the Marine Corps and staff offices and
commands that advise and assist in discharging his responsibilities. This includes the administration, discipline,
internal organization, training requirements, efficiency, and readiness of the service.




          A formation of Marines assigned to Marine Forces Pacific, Hawaii perform the ceremonial “Rifle Volley Salute”
          during the 60th Anniversary of the end of World War II held aboard the USS Missouri (BB 63) Memorial.


                                                                                                                          29
                                                                                             D e pa r t m e n t o f t h e N a v y


     OPERATING FORCES
     Renowned as the "First to Fight," the Marine Corps Operating Forces - the heart of the Marine Corps - comprise the
     forward-presence, crisis-response, and fighting power that the Corps makes available to U.S. Unified Combatant
     Commanders. The Marine Corps has established two combatant command level component commands: Marine
     Corps Forces Atlantic and Marine Corps Forces Pacific.


     MARINE CORPS FORCES ATLANTIC
     During peacetime the Marine Corps Forces Atlantic provide the II Marine Expeditionary Force to the Commander,
     U.S. Joint Forces Command. When directed by the Secretary of Defense, forces are assigned for contingency
     planning to the geographic combatant commands.


     MARINE CORPS FORCES PACIFIC
     Marine Corps Forces Pacific provide the I and III
     Marine Expeditiionary Forces to the Commander,
     U.S. Pacific Command. Marine Forces are
     apportioned to the geographic combatant
     commands when directed by the Secretary of
     Defense and assigned for contingency planning.


     RESERVES
     The Marine Corps Reserves are responsible
     for providing trained units and qualified
     individuals to be mobilized for active duty in time
     of war, national emergency, or contingency
     operations and provide personnel and
     operational temporary relief for active
                                                             Marines assigned to the 26th Marine Expeditionary Unit (MEU) practice
     component forces in peacetime. Marine Corps             fast roping from the back ramp of an CH-46 Sea Knight helicopter on the
     force expansion is made possible by activation          flight deck.
     of the Marine Corps Reserves, which like the
     active forces, consist of a combined-arms force
     with balanced ground, aviation, and combat
     service support units. Organized under the Commander, Marine Forces Reserve, units are located at 185 training
     centers in 47 states, Puerto Rico, and the District of Columbia. The reserve component has been closely integrated
     with the active component under the Marine Corps Total Force concept. The ethos for Marine Forces Reserve is
     mobilization and combat readiness. This ensures the men and women of the Reserve stand ready, willing, and able
     to answer the nation's call at home and abroad at a moment’s notice.




30
2005 Annual Financial Report


SUPPORTING ESTABLISHMENT
The Marine Corps Supporting Establishment consists of those personnel, bases, and activities that support the
Marine Corps operating forces, and provides the necessary infrastructure for enabling combat-ready operating forces.
This infrastructure primarily consists of 15 major bases and stations in the U.S. and Japan, as well as the personnel,
equipment, and facilities to operate them. Included are the Marine Corps Recruiting Command, the Marine Corps
Combat Development Command, the Marine Corps Logistics Command, and the Marine Corps Systems Command.

MARINE CORPS RECRUITING COMMAND
Mission: To procure qualified individuals, in sufficient numbers to meet the established personnel strength levels,
officer and enlisted, of the Marine Corps.

MARINE CORPS COMBAT DEVELOPMENT COMMAND
Mission: To develop Marine Corps war-fighting concepts and to determine associated required capabilities in the
areas of doctrine, organization, training and education, equipment, support, and facilities to enable the Marine Corps
to field combat-ready forces; and participate in and support other major processes of the Combat Development
System.

MARINE CORPS LOGISTICS COMMAND
Mission: To provide worldwide, integrated logistics/supply chain and distribution management; depot level
maintenance management; and strategic prepositioning capability in support of the operating forces and other
supported units to maximize their readiness and sustainability and to support enterprise and program level Total Life
Cycle Management.

MARINE CORPS SYSTEMS COMMAND
Mission: To serve as the Commandant's principal agent for acquisition and sustainment of systems and equipment
used by the Operating Forces to accomplish their warfighting mission. The Marine Corps Systems Command has
charted a course to world-class status in acquisition services. Its innovative business processes will serve as the
cornerstones of mission achievement to provide and expertly manage the life cycle of quality systems and equipment
for the operating forces. We envision a high-performance staff operating in a professional environment based on our
guiding principles of integrity, mutual respect, accountability, excellence, innovation, teamwork, customer-focus, and
open communication.




WORKFORCE TRENDS
Marine Corps demographics remained relatively unchanged over the last three years. The majority of Corps officers
(at least 50 percent) are between the ages of 26 and 35 years. Nearly 50 percent of enlisted personnel are 19 to 22
years of age.




                                                                                                                         31
                                                                                         D e pa r t m e n t o f t h e N a v y


     MAJOR INITIATIVES AND ACCOMPLISHMENTS
     The Marine Corps continued to play a vital role in restoring stability and security in Iraq. Most notably, the Corps has
     been helping the Iraqi people rebuild their national infrastructure and providing humanitarian assistance. Other
     notable achievements include the Marine Corps Financial Improvement Initiative and establishment of the Marine
     Corps Business Enterprise Office. The Marine Corps Financial Improvement Initiative provides an integrated financial
     management roadmap for implementing corrective actions, with the goal of achieving accurate, timely, reliable, and
     auditable financial information in support of the warfighter. To achieve this goal, the Marine Corps developed a
     coherent and realistic strategic plan that integrates its financial improvement initiatives. Key characteristics of the
     plan include well-defined objectives, results-oriented performance measures, and improved visibility of resource
     utilization to support the Marine Corps mission. Also, the plan addresses business processes in five key strategic
     areas: Information Systems, Management Control, Policies and Procedures, Organization and Infrastructure, and
     People. The plan is a "living" document that enables the Marine Corps to assign accountability and responsibility for
     improving financial operations. The Marine Corps will adapt the plan as required to changing environments and
     business practices to achieve data integrity and to produce auditable financial statements.

     Additionally, the Marine Corps established a Business Enterprise Office to ensure that its business processes provide
     effective support to the warfighter, Marines, and family members without consuming any unnecessary resources.
     The Marine Corps Business Enterprise Office crosses all organizational boundaries and includes all resources,
     processes, and products and services that support the warfighter. The Marine Corps is aggressively pursuing
     business initiatives to drive innovation and change, initiating end-to-end process improvements, and developing the
     business skills and capabilities of Marines and Civilian Marines to accomplish Corps objectives. (See "Strategic
     Management, Improved Business Practices" for more information on the Marine Corps Business Enterprise Office.)




              U.S. Marine Corps Organization
         Civilian Full-Time Equivalent Workyears

       20,000
                              15,792
       15,000


       10,000


        5,000
                             FY 2005




                                                            Commandant of the Marine Corps, General Michael Hagee recognizes
                                                            selected Marines for their sustained superior performance during a
                                                            ceremony on the flight deck aboard the amphibious assault ship USS
                                                            Kearsarge (LHD 3).




32
2005 Annual Financial Report


NAVY WORKING CAPITAL FUND

In contrast to the DON General Fund (discussed in the preceding section), the second DON reporting entity - the
Navy Working Capital Fund - is a revolving fund established to meet the diverse requirements of the Navy and
Marine Corps operating forces. Under the revolving fund concept, an appropriation or a transfer of funds finances
initial Navy Working Capital Fund (NWCF) operations; payments from customers for goods delivered or services
performed subsequently replenish this initial working capital and enable a continuous cycle of operations, negating
the need for annual appropriations by Congress.

The goal of the NWCF is to break even over time by matching revenues earned to costs incurred. Achievement of
this goal is occasionally complicated by the requirement that NWCF business areas maintain stable prices for goods
and services, to protect their customers from unforeseen price fluctuations.



BUSINESS AREAS AND RELATED ACTIVITIES

NWCF has five business areas: Supply Management, Depot Maintenance, Research and Development,
Transportation, and Base Support. Each business area is responsible for one or more business activities
(see illustration).


                       NAVY WORKING CAPITAL FUND BUSINESS ACTIVITIES    BY   BUSINESS AREA




                                                                                                                      33
                                                                                                    D e pa r t m e n t o f t h e N a v y


     The NWCF business areas use specific performance measures to assess the effectiveness and efficiency of
     operations. Examples of these performance measures include average customer wait time (Supply Management);
     direct labor indicators (Depot Maintenance, Research and Development, and Base Support); and readiness
     (Transportation).

     NWCF customers include primarily the Navy and Marine Corps operating forces but also include the Departments of
     the Air Force and Army, Department of Defense agencies, and other Federal agencies.

     Below is a brief discussion of each NWCF business area, identifying the mission, number of personnel, and major
     initiatives or accomplishments of that business area for FY2005.




     SUPPLY MANAGEMENT
     ORGANIZATION AND MISSION

     Supply Management, Navy operates under the purview of the Naval Supply Systems Command. Supply
     Management, Marine Corps operates under the purview of the Marine Corps Logistics Command.


                                                  Na v y Wo r k i n g C a p i t a l Fu n d
                                   Su p p l y M a n a g e m e n t Bu s i n e s s A c t i v i t i e s
                                   C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s


                         6,800

                         4,800

                         2,800

                           800
                                                                   FY 2005

                                                         N a vy       Marine Corps




     SUPPLY MANAGEMENT, NAVY
     Mission: To provide Navy, Marine Corps, Joint and Allied Forces quality supplies and services on a timely basis.

     SUPPLY MANAGEMENT, MARINE CORPS
     Mission: To perform inventory management functions that result in sale of consumable and reparable items to
     support both the Department of Defense and other government agencies.




34
2005 Annual Financial Report


ORGANIZATIONAL CHANGES

Supply Management, Navy. Fleet and Industrial Supply Center (FISC) Sigonella, Italy was officially established in
March 2005, becoming the seventh and newest FISC to join the Commander, Fleet & Industrial Supply Centers
(COMFISCS) worldwide network.

Supply Management, Marine Corps. At fiscal year-end 2005, the Direct Support Stock Control in Twentynine Palms,
California will no longer be included within the supply management business area. The General Services
Administration will become the supply source for this operation.



WORKFORCE TRENDS

Supply Management, Navy. The civilian workforce has grown from 5,743 actual end strength in FY2003 to 6,993 end
strength in FY2005. The growth is attributable to functional transfers that took place in FY2005, such as the Navy
Regional Contracting Center and Portsmouth Naval Shipyard supply and contracting functions, and the change in
categorizing some FISC employees from the General Fund (Operations and Maintenance, Navy) to NWCF.
Additionally, in FY2006 there will be significant growth in the civilian workforce (approximately 1,000 civilian
personnel) due to implementation of the Material Support Integration effort at COMFISCS. This effort also includes
personnel transfers resulting from the stand-up of FISC Sigonella.

Supply Management, Marine Corps. The civilian workforce has declined since FY2004 due to cost reduction efforts.
The Marine Corps anticipates civilian workforce to remain constant after FY2005.




                  Sailors assigned to the underway replenishment detail aboard the Nimitz class aircraft
                  carrier USS Harry S. Truman (CVN 75) heave in a line while preparing to receive relief
                  supplies.



                                                                                                                     35
                                                                                                   D e pa r t m e n t o f t h e N a v y


     MAJOR INITIATIVES AND ACCOMPLISHMENTS

     Supply Management, Navy. The Naval Supply Systems Command and Naval Air Systems Command (NAVAIR)
     Supply Maintenance Aviation Reengineering Team (SMART) Enterprise Resource Planning (ERP) pilot was a
     success. The SMART ERP Pilot, which was retired in April 2005, was able to integrate the supply, maintenance,
     and financial processes for both wholesale and retail material into a single database. These achievements helped
     pave the way for the larger Navy Converged ERP.

     Supply Management, Marine Corps. The Marine Corps continued to focus on the transformation of distribution and
     maintenance systems as outlined in the Logistics Modernization plan. The purpose of the plan is to improve the
     processes and technology supporting Marine Air Ground Task Force (MAGTF) operations. These business process
     re-engineering efforts are enhancing managers' knowledge of customers' operational requirements and enabling
     more efficient and effective budget forecasting.



     DEPOT MAINTENANCE
     The Depot Maintenance activities operate under the purview of their respective commands:

        •   Depot Maintenance, Shipyards - Naval Sea Systems Command

        •   Depot Maintenance, Aviation - Naval Air Systems Command

        •   Depot Maintenance, Marine Corps - Marine Corps Logistics Command




                                                   Na v y Wo r k i n g C a p i t a l Fu n d
                                    De p o t M a i n t e n a n c e Bu s i n e s s A c t i v i t i e s
                                    C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s



                          11,000
                           9,000
                           7,000
                           5,000
                           3,000
                           1,000
                                                                     FY 2005

                                            Shipyards              A vi a t i o n     Marine Corps




36
2005 Annual Financial Report


DEPOT MAINTENANCE, SHIPYARDS
Mission: To provide logistics support for assigned ships and service craft; perform authorized work in connection
with construction, overhaul, repair, alteration, drydocking and outfitting of ships and craft as assigned; perform design,
manufacturing, refit and restoration, research and development, test work, and provide services and material to other
activities and units as directed by competent authority.

DEPOT MAINTENANCE, AVIATION
Mission: To provide responsive worldwide maintenance, engineering, and logistics support to the Fleet and ensure a
core industrial resource base essential for mobilization; repair aircraft, engines, and components, and manufacture
parts and assemblies; provide engineering services in the development of hardware design changes, and furnish
technical and other professional services on maintenance and logistics problems.

DEPOT MAINTENANCE, MARINE CORPS
Mission: To provide the quality products and responsive maintenance support services required to maintain a core
industrial base in support of mobilization, surge, and reconstitution requirements.


ORGANIZATIONAL CHANGES
Depot Maintenance activities did not undergo organizational changes in FY2005.


WORKFORCE TRENDS
Depot Maintenance, Shipyards. Civilian end strength and workyear estimates have been matched to workload and
reflect continued streamlining of shipyard processes and increased productivity.

Depot Maintenance, Marine Corps. The Marine Corps plans to reduce the current depot maintenance workforce in
FYs 2006 and 2007. This will be accomplished through the release of the majority of temporary employees hired to
support the combat effort. The remaining workforce will consist of permanent personnel augmented by temporary
personnel.

The Marine Corps Maintenance Centers are working toward maintaining a permanent workforce that is appropriately
sized for years when workload is reduced to a minimum. Due to declining Marine Corps customer funding levels, it
will be imperative to seek additional workload in order to maintain the expertise of more than 70 different skill sets of
personnel. Having trained personnel readily available to perform work will ensure there is no impact to the readiness
levels of the critical war fighting assets. This will also enable the Maintenance Centers to meet any unplanned
requirements for reconstitution of battle-damaged equipment that materializes.




                                                                                                                             37
                                                                                         D e pa r t m e n t o f t h e N a v y


     MAJOR INITIATIVES AND ACCOMPLISHMENTS
     Depot Maintenance, Shipyards. "One Shipyard" is a new maintenance concept to support the Fleet as it transitioned
     from rotational force to a surge force. One Shipyard initially focused on resource and infrastructure sharing among
     the shipyards, both public and private, through partnerships and flexible contracting vehicles to meet Fleet Response
     Plan requirements. The concept has evolved over the last year and a half to focus on standardizing and improving
     shipyard processes for efficiency and effectiveness, in support of Sea Enterprise objectives.

     The Shipyard Lean Transformation represents NAVSEA's means of achieving the Naval Shipyard Intelligent Target
     Savings under One Shipyard. These savings commence in FY2006.

     Depot Maintenance, Aviation. The Naval Air Systems Command depots at Cherry Point, North Carolina;
     Jacksonville, Florida; and North Island, California received numerous awards in FY2005. Examples of awards
     include: the Chief of Naval Operations Environmental Quality Award given to NAVAIR Depots Cherry Point and North
     Island; and the Secretary of the Navy Safety and Occupational Health Shore Safety Award given to NAVAIR Depot
     Jacksonville.

     Depot Maintenance, Marine Corps. The Marine Corps Maintenance Centers in both Albany, Georgia and Barstow,
     California have been focusing on refining and expanding the already successful implementation of the Theory of
     Constraints (TOC) and the application of Lean Thinking to eliminate wasteful steps in shop-level procedures. TOC is
     the result of a successful partnership between production theories and better business practices. The success of this
     merger has representatives from the Army and Air Force depots traveling to Albany to see an exceptional example of
     a highly proficient, productive, and profitable depot. This also provides justification for continued implementation of
     TOC and Lean Thinking at the Maintenance Center in Barstow.

     The registration of the Marine Corps Maintenance Centers under the International Organization for Standardization
     (ISO 9002) resulted from successful implementation of efforts such as Compass Contract, Manufacturing Resource
     Planning, and Earned Value Management. This has guaranteed the Maintenance Centers to be a viable participant
     to share business revenues with ISO-registered civilian contractors.




                            Rear Admiral Michael P. Nowakowski, Commander Amphibious Group Two, addresses
                            the crew and Marines of the Second Marine Expeditionary Brigade (2nd MEB) saying,
                            “When you look in the mirror, you are looking at a hero.”
38
2005 Annual Financial Report


RESEARCH AND DEVELOPMENT
The Research and Development business area consists of the Naval Research Laboratory and four naval warfare
centers, all of which operate under the purview of their respective commands:

    •   Naval Research Laboratory - Chief of Naval Research, Assistant Secretary of the Navy (Research,
        Development, and Acquisition)

    •   Naval Surface Warfare Centers and Naval Undersea Warfare Centers - Naval Sea Systems Command

    •   Naval Air Warfare Centers - Naval Air Systems Command

    •   Space and Naval Warfare Systems Centers - Space and Naval Warfare Systems Command

                                           Na v y Wo r k i n g C a p i t a l Fu n d
                          Re s e a r c h & De v e l o p m e n t Bu s i n e s s A c t i v i t i e s
                             C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s



                 16,000
                 14,000
                 12,000
                 10,000
                  8,000
                  6,000
                  4,000
                  2,000
                                                              FY 2005

                                     Na v a l Re s e a r c h L a b o r a t o r y
                                     Na v a l Su r f a c e Wa r f a r e Ce n t e r
                                     Na v a l Un d e r s e a Wa r f a r e Ce n t e r
                                     Na v a l A ir Wa r f a r e Ce n t e r
                                     S p a c e a n d Na v a l W a r f a r e S y s t e ms Ce n t e r s


NAVAL RESEARCH LABORATORY
Mission: To operate the Navy's full spectrum corporate laboratory, conducting a broadly based multidisciplinary
program of scientific research and advanced technological development directed toward maritime applications of new
and improved materials, techniques, equipment, systems and ocean, atmospheric, and space sciences and related
technologies.

NAVAL SURFACE WARFARE CENTERS
Mission: To operate the Navy's full spectrum research, development, test and evaluation, engineering and fleet
support center for ship hull, mechanical, and electrical systems, surface combat systems, coastal warfare systems,
and other offensive and defensive systems associated with surface warfare.

NAVAL UNDERSEA WARFARE CENTERS
Mission: To operate the Navy's full spectrum research, development, test and evaluation, engineering and fleet
support center for submarines, autonomous underwater systems, and offensive and defensive weapons systems
associated with undersea warfare.



                                                                                                                     39
                                                                                            D e pa r t m e n t o f t h e N a v y


     NAVAL AIR WARFARE CENTERS

     AIRCRAFT DIVISION
     Mission: To operate the Navy's principal research, development, test and evaluation, engineering, and fleet support
     activity for naval aircraft engines, avionics, and aircraft support systems and ship/shore/air operations.

     WEAPONS DIVISION
     Mission: To operate as the Navy's full spectrum research, development, test and evaluation in-service engineering
     center for air warfare weapons systems (except anti-submarine warfare systems), missiles and missile subsystems,
     aircraft weapons integration, and assigned airborne electronic warfare systems; and as the DON's air, land, and sea
     test ranges.

     SPACE AND NAVAL WARFARE SYSTEMS CENTERS
     Mission: To operate the Navy's full spectrum research, development, test and evaluation, engineering, and fleet
     support centers for command, control, and communication systems and ocean surveillance and the integration of
     those systems that overarch multiple platforms.




                       Sailors assigned to the Weapons Department, G-1 division aboard the aircraft carrier USS
                       Abraham Lincoln (CVN 72), watch as an HH-60H Seahawk brings ordnance aboard.




40
2005 Annual Financial Report


ORGANIZATIONAL CHANGES
Naval Air Warfare Centers. The Naval Air Warfare Centers established Centers of Excellence for Budgeting (Aircraft
Division) and Accounting (Weapons Divisions). The Centers of Excellence have enabled the Naval Air Warfare
Centers to further streamline their budgeting and accounting processes and reduce institutional costs.



WORKFORCE TRENDS
Naval Research Laboratory (NRL). The NRL workforce remained fairly stable with approximately 2,500 civilian
employees, of which over 1,700 are scientists, engineers, and technicians. At least 1,100 personnel have post-
graduate degrees, with over 800 holding doctorate degrees. Given that science and technology funding levels are
anticipated to remain steady, NRL does not expect major changes in its workforce.

Space and Naval Warfare Systems Centers (SSCs). Like many naval organizations, the SSCs have a high
proportion of the current workforce that is eligible to retire in the near future. The SSCs will continue their efforts to
attract and retain talented professionals to revitalize the workforce.



MAJOR INITIATIVES AND ACCOMPLISHMENTS
Naval Research Laboratory (NRL). NRL continued to maintain a balanced research and development program that
invests in: (1) a broad spectrum of new science and technology initiatives that have the potential to significantly
enhance the future war fighting capabilities of the Navy and Marine Corps; and (2) more focused development work
intended to rapidly transition recent research results and technological developments into both existing and
developmental military systems. Some examples of recent accomplishments include:

    • New flexible arm and leg protective armor for ground troops. The armor is designed to reduce the
      likelihood of severe injuries by protecting against the large number of smaller blast fragments generated by
      lethal explosive devices. The armor is already in production so that it can be provided to Marine Corps
      combat units in Iraq.

    • Self-decontaminating ultra-thin materials coating. The coating neutralizes toxins on contact leaving no
      hazardous residue, making it ideal for use in protective clothing, water purification filters, and chemical-spill
      clean-up wipes.

    • Universal Communication Interface Module (UCIM). UCIM provides a standardized Command, Control,
      Communications, Computers, and Intelligence (C4I) network architecture that can be implemented across
      multiple Marine Corps and Navy platforms. The UCIM is a team effort involving NRL, the Office of Naval
      Research, and the Marine Corps Systems Command's PM Communications.

Naval Surface Warfare Centers (NSWCs). NSWCs have launched a major initiative to implement Lean Six Sigma
principles. The ultimate goal is to be able to perform assigned work with fewer resources - people, capital, inventory,
and contractor support.




                                                                                                                             41
                                                                                                      D e pa r t m e n t o f t h e N a v y


     Space and Naval Warfare Systems Centers (SSCs). SSC-Charleston updated the FORCEnet Implementation
     Baseline (FIBL) tool in 2005. FIBL provides the Navy with a collaborative decision support environment to facilitate
     migration to FORCEnet, the operational construct and architectural framework for integrating network centric warfare
     capabilities across the naval enterprise, the Department of Defense, and coalition partners. Similarly, in support of
     FORCEnet, SSC-Charleston developed the Naval Tool for Interoperability Risk Assessment (NTIRA) and Global
     Engineering Methodology Initiative for Naval Integration and Interoperability (GEMINII). NTIRA is a decision support
     tool that facilities improvements to FORCEnet capabilities. GEMINII is a methodology for delivering network centric
     warfare capabilities across the FORCEnet enterprise.



     TRANSPORTATION
     At the heart of the Transportation business area is the Military Sealift Command, which has dual reporting
     responsibilities to the DON as an NWCF activity, and to the U.S. Transportation Command. As an NWCF activity,
     the command supports three distinct ship programs:

         • Naval Fleet Auxiliary Force. The NFAF provides fuel, food, ammunition, spare parts, and other supplies to
           enable the Navy fleet to operate at the highest possible tempo.

         • Special Mission Ships. These ships provide oceanographic and hydrographic surveys, underwater
           surveillance, missile flight data collection and tracking services, acoustic research and submarine support, and
           other support for Department of Defense sponsors.

         • Afloat Pre-Positioning Force Ships - Navy. These ships provide military equipment and supplies in key
           ocean areas for operating forces that later may be forward-deployed to those areas.



                                                   Na v y Wo r k i n g C a p i t a l Fu n d
                                                   M ilitar y Se alift Com m and
                                    C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s


                            8,000
                                                                     7,096


                            6,000


                            4,000


                            2,000
                                                                  FY 2005




     MILITARY SEALIFT COMMAND
     Mission: To provide ocean transportation of equipment, fuel, supplies, and ammunition to sustain U.S. forces
     worldwide during peacetime and in war for as long as operational requirements dictate.




42
2005 Annual Financial Report




                  The Military Sealift Command (MSC) ammunition ship USNS Shasta (T-AE 33) underway
                  following an ammunition transfer with the conventionally powered aircraft carrier USS Kitty
                  Hawk (CV 63).



ORGANIZATIONAL CHANGES
The Military Sealift Command (MSC) has been working diligently to become a more efficient and effective
organization. Under its organizational transformation initiative, MSC has been realigning its area commands with the
Navy fleet commands to engender more war-fighting efficiency and synergy. Organizational changes include the
following:

    • MSC Atlantic merged with Navy Logistics Squadron Two to become the Sealift Logistics Command Atlantic.

    • MSC assumed Navy Region Northwest's combat logistics force mission and operationally realigned with
      Commander, 3rd Fleet, MSC Pacific to become Sealift Logistics Command Pacific/Task Force 33.

    • MSC Europe merged with Task Force 63, Sixth Fleet to become Commander, Task Force 63, Sixth Fleet.
      Similar organizational paradigms will result from mergers between the Fifth Fleet and MSC Central, and the
      Seventh Fleet and MSC Far East.

Beginning in FY2006, MSC will establish a new type of command in the Tidewater area of Virginia: Military Sealift
Fleet Support Command (MSFSC). This new command will crew, train, maintain and equip MSC's civil service
mariner-crewed, government-owned/government-operated ships worldwide. Similarly, in support of fleet customers,
MSC will establish MSFSC Ship Support Units in Singapore, Italy, Japan, Guam, Bahrain, and San Diego, California
to coordinate ship husbanding, maintenance, and repair services for government-owned/government-operated ships.




                                                                                                                       43
                                                                                       D e pa r t m e n t o f t h e N a v y


     WORKFORCE TRENDS
     MSC anticipates military end strength to decrease by fiscal year-end 2005 primarily due to the elimination of USNS
     Capable (T-AGOS 16) military detachment and the transfer of communications function for the USNS Zeus (T-ARC 7)
     from military to civilian mariner operation.

     MSC civilian mariner end strength increased by approximately 356 personnel primarily due to increases in ships such
     as the USNS Kilauea (T-AE 26) and the USNS Zeus (T-ARC 7). However, MSC had a decrease in civilian ashore
     end strength of 40 personnel by fiscal year-end 2005 due to organizational transformation.




     MAJOR INITIATIVES AND ACCOMPLISHMENTS
     Many of MSC's more than 140 ships were heavily involved in providing humanitarian assistance and disaster relief to
     the people of Southeast Asia in response to the December 26, 2004 tsunami. Some examples of MSC’s involvement
     appear below.

         • The medical staff of MSC hospital ship, USNS Mercy (T-AH 19) treated more than 9,500 patients ashore and
           afloat.

         • Six MSC maritime prepositioning ships collectively transported equipment and supplies to support 15,000
           Marines for 30 days.

         • Two MSC fleet replenishment oilers, USNS Tippecanoe (T-AO 199) and USNS John Ericsson (T-AO 194),
           provided fuel to Navy ships.

         • Combat stores ship, USNS San Jose (T-AFS 7) and fast combat support ship, USNS Rainier (T-AOE 7)
           provided fuel and other supplies to Navy ships and activities ashore.

         • Two MSC oceanographic ships, the USNS Mary Sears (T-AGS 65) and USNS John McDonnell (T-AGS 51)
           conducted hydrographic surveys of the ocean bottom where the 9.0 magnitude earthquake occurred.

     Additionally, MSC has implemented cost-
     efficient measures that enable Sailors to
     focus on their primary mission of war-
     fighting. Specifically, MSC assigned civil
     service mariners aboard the USS
     Coronado (AGF 11) and USS Mount
     Whitney (LCC 20) with ship operation
     functions, such as navigation and
     engineering. This has enabled Sailors
     aboard these ships to shift their focus to
     combat systems and command, control,
     communication, computer system and
     intelligence missions.

                                                   Military Sealift Command (MSC) underway replenishment oiler USNS
                                                   Walter S. Diehl (T-AO 193) provides fuel and supplies.



44
2005 Annual Financial Report


BASE SUPPORT
The Base Support business area consists of the Facilities Engineering Commands and the Naval Facilities
Engineering Service Centers, operating under the purview of the Naval Facilities Engineering Command (NAVFAC).


                                               Na v y Wo r k i n g C a p i t a l Fu n d
                                      Ba s e Su p p o r t Bu s i n e s s A c t i v i t i e s
                                C i v i l i a n F u l l - T i m e Eq u i v a l e n t W o r k y e a r s



                           7,400
                           6,200
                           5,000
                           3,800
                           2,600
                           1,400
                             200
                                                                   FY 2005
                                 F a c i l i t i e s En g i n e e r i n g Co mma n d s
                                 Na v a l F a c i l i t i e s En g i n e e r i n g S e r v i c e Ce n t e r s




FACILITIES ENGINEERING COMMANDS
Mission: To provide the Department of Navy and other Defense and Federal clients with quality public works
support and services, including utilities services, facilities maintenance, transportation support, engineering services,
environmental services, and shore facilities planning support required by afloat and ashore operating forces and
other activities.

NAVAL FACILITIES ENGINEERING SERVICE CENTERS
Mission: To provide the Department of Navy and other Federal and Defense Agencies with quality specialized
engineering and technology products and services for Energy and Utilities, Amphibious and Expeditionary Systems,
Environment, Shore, Ocean, and Waterfront Facilities.




                   An artist's rendering shows the final design proposal for the Presidential Helicopter
                   (VXX) Program Support Facility that will support the test and evaluation of a new
                   helicopter fleet for the President.

                                                                                                                            45
                                                                                           D e pa r t m e n t o f t h e N a v y


     ORGANIZATIONAL CHANGES
     In FY2005, Base Support activities continued Phase I of the Public Works Departments transition to Facilities
     Engineering Commands (FECs). Specifically, Base Support activities established an FEC at each of the former
     Public Works Centers Guam, Pearl Harbor, and San Diego. New names for these organizations are FEC Marianas,
     FEC Hawaii, and FEC Southwest, respectively. Phase II will begin in FY2006 in coordination with the Navy
     Installations Command (CNI). All remaining Public Works Departments in the continental U.S. will transition to FECs
     during Phase II. Public Works Departments in Europe will transition to FECs in FY2008.



     WORKFORCE TRENDS
     Base Support activities have experienced fluctuations in workforce over the last three fiscal years. These fluctuations
     are due in part to management streamlining initiatives, workforce reshaping, and Installation Claimant Consolidation
     (ICC2). Base Support activities expect the workforce to increase with Public Works Departments transition and
     implementation.



     MAJOR INITIATIVES AND ACCOMPLISHMENTS
     The Naval Facilities Engineering Service Centers established a wind farm at Naval Station Guantanamo Bay, Cuba.
     The wind/diesel hybrid is one of the DON’s largest renewable energy projects to date. It is expected to save the
     Navy $1.2 million in energy costs annually.

     Additionally, the Naval Facilities Engineering Service Centers are working with the Bureau of Reclamation to test,
     evaluate, and document innovative water desalinization technologies. This project will help identify more energy
     efficient, cost-saving methods for generating drinking water from seawater for the Navy and Marine Corps team.




                                       Chief of Naval Operations, Admiral Mike Mullen in
                                       his office at the Pentagon.


46
2005 Annual Financial Report


STRATEGIC MANAGEMENT

“The Navy and Marine Corps Team has embraced a culture of
transformation that will enable us to develop new weapons systems,
realign infrastructure, establish new concepts of operations, and
streamline our business practices.”
                                      The Honorable Gordon R. England, Secretary of the Navy, February 2005

The DON has defined its vision for the near-term development of the Navy - Marine Corps Team in Naval Power 21.
This vision elevates and enhances naval combat and operational capabilities in assuring sea-based access;
projecting power, defense, and influence beyond the sea; and in support of continual transformation. Complementary
strategies, the Navy's Sea Power 21 and Marine Corps Strategy 21, support this vision by reinforcing and expanding
operational concepts, such as sea basing and expeditionary maneuver warfare, that will advance our Navy - Marine
Corps Team into the future as part of a joint force and that will ensure our team's dominance and success on
tomorrow's battlefields. Other complementary strategies include those issued by the Assistant Secretaries of the
Navy.

The Assistant Secretary of the Navy (Financial Management and Comptroller) (ASN (FM&C)) issued a new strategic
plan for the DON financial management community in April 2005 - Transforming Today to Win Tomorrow. The plan
focuses on three critical areas: the long-term development of human capital, the continuous improvement of
business practices, and the transparent communication of results to core constituents, especially the American
taxpayer.

The ASN (FM&C) plan identifies the development of a cohesive and high-performing workforce as the first step
toward more effective and efficient financial management, with retraining and new recruitment efforts seen as
essential to ensure that the Department realizes a dynamic human resource capability. Second, internal business
practices are to be improved to achieve accurate financial accounting and to ensure that managers have timely and
accurate program cost information to inform their decision-making. The inclusion of performance assessment
measures will become a routine part of funding and management decisions, to ensure that programs achieve their
expected results. Finally, communication with customers is to be improved, with the twin objectives of ensuring that
they are properly informed of DON activities and that the Department is properly responsive to their needs. In this
area, e-government initiatives in particular will be critical. (A copy of the ASN(FM&C) plan is available at
http://www.finance.hg.navy.mil/fmc/.)

Linking Naval Power 21 and the complementary naval strategies are the DON's annual priority objectives, as issued
by the Secretary of the Navy and included in the annual guidance of the Chief of Naval Operations and the
Commandant of the Marine Corps. The 2005 priority objectives included prosecuting the Global War on Terror,
advancing the DON Human Capital Strategy, and leveraging the 2005 Quadrennial Defense Review to influence the
strategic direction of the Department of Defense and the DON.

To measure performance relative to strategic goals and objectives, the DON uses the Balanced Scorecard method
and the related balanced scorecard for risk management. More information on DON performance measurement can
be found in section, "Managing Risk - Performance Results."



                                                                                                                       47
                                                                                         D e pa r t m e n t o f t h e N a v y


     BALANCED SCORECARD
     The DON Balanced Scorecard addresses four areas: People, Combat Capability, Technology Insertion, and
     Improved Business Practices. Objectives and selected achievements in these areas are discussed below.




     PEOPLE
     “A top priority of the DON is people — how they work, how they fight,
     how they live.”
                       Lead Statement, Office of the Assistant Secretary of the Navy (Manpower and Reserve Affairs) Vision



     The DON is striving to become a more efficient and effective organization. In the past three fiscal years, the
     Department has resized and realigned its organizational structure, in particular by reducing its civilian personnel
     levels and by converting military positions over to civilian staffing. It also has begun to develop a Human Capital
     Strategy that will provide a new framework for assessing, training, and developing its personnel, and for ensuring that
     they are appointed to positions in which they can work most effectively. This strategy is aligned with the Department
     of Defense’s Human Capital Initiative and has been made in accordance with the President’s Management Agenda
     and the priorities of the Secretary of Defense. Reshaping an organization as large and diverse as the DON is a long-
     term effort to which the Department is strongly committed.

                                                                              We also are committed to the safety, welfare,
                                                                              and development of our people. As outlined
                                                                              below, we are working hard to protect our
                                                                              naval forces, to enhance the quality of life of
                                                                              our personnel and their families, and to
                                                                              empowering our Sailors, Marines, and civilian
                                                                              workforce through the use of new
                                                                              technologies.




      A Sailor assigned to the amphibious dock landing ship USS Duluth
      (LPD 6) hugs his son after returning from a six-month deployment in
      Southeast Asia and the Persian Gulf.



48
2005 Annual Financial Report


PROTECTING OUR NAVAL FORCES
The growth of international terrorism and the changing nature of the modern battlefield have made force protection a
critical concern. Naval personnel on duty in Iraq and Afghanistan are particularly exposed to the dangers that this
implies, and Sailors and Marines deployed to these regions are issued personal protective equipment. The Marine
Corps Systems Command additionally has procured several thousand Armor Protection Enhancement Systems to
augment this personal protective equipment. The DON seeks constantly to improve its technology and hardware. For
example, the Marine Corps Systems Command and the Marine Corps Warfighting Lab, working in conjunction with
the Army Developmental Test Command, have tested a range of materials for use in vehicle hardening, and several
thousand vehicles already have been hardened. Other force protection efforts underway by the Department include
the use of unmanned aerial and ground vehicles, language translation devices, and counter-sniper technology.



SUPPORTING OUR NAVAL FORCES AND THEIR FAMILIES
The Department offers an array of services to enhance the quality of life of our Sailors and Marines and their families.
In October 2004, the Commander, Navy Installations and Commander, Navy Personnel joined forces to establish a
single Navy Personnel Support division. This collaborative relationship will ensure the best possible community
support programs for our Navy community. The Marine Corps Community Services (under the Personal and Family
Readiness Division under the Deputy Commandant for Manpower and Reserve Affairs) provides active duty, reserve,
and retired Marine Corps personnel and their families with sports and physical fitness activities, child development
and youth programs, and a variety of food and beverage services.




                           A Marine Sergeant, Arabic linguist with the 2nd Radio Battalion, II
                           Marine Expeditionary Force, spends a happy moment with his son after
                           arriving at Camp Lejeune from a 10-month deployment in Iraq.



                                                                                                                           49
                                                                                              D e pa r t m e n t o f t h e N a v y


     EMPOWERING OUR NAVAL FORCES

     In addition to providing training specific to their duties it is essential that the Navy also provide opportunities for its
     Sailors and Marines to pursue their personal development. To this end, the DON has been expanding the range and
     availability of the educational and training opportunities that it offers. For example, in November 2004 the Navy
     migrated Navy E-Learning, a distance learning system, to the Navy Knowledge Online website (http://nko.navy.mil).
     Navy E-Learning makes available and tracks and manages nearly 4,000 different E-Learning courses, offered at no
     cost to the user. Approximately 1.2 million active duty Sailors, Marines, DON civilian employees, Reservists, retirees,
     and family members are enrolled in the Defense Enrollment Eligibility Reporting System (DEERS) and are eligible for
     these courses. As another example, in May 2005 the Marine Corps Center for Advanced Operational Cultural Studies
     began operations online, at http://www.tecom.usmc.mil/caocl/#CAOCLWebsite. In response to the emerging
     requirements of the Global War on Terror and associated stability and support operations, the Marine Corps has set
     up this center to ensure that Marines and Marine units are equipped with the knowledge and skills needed to
     successfully navigate the “cultural terrain” of the new environments in which we are operating. The center addresses
     cultural factors such as religion, ethnicity, language, and customs.



     EMPOWERING OUR CIVILIAN WORKFORCE

     In FY2005 the Department of Defense began the first of three phases that will see civil service employees transition
     to the National Security Personnel System. Navy civilians at the Human Performance Center (under the Naval
     Education and Training Command) were among those selected to participate in this first transition phase. Mandated
     by the FY2004 National Defense Authorization Act, the National Security Personnel System is a management system
     covering staffing, workforce shaping, recruitment, compensation (pay banding), and performance management (pay
     for performance).




                       Marines attached to the 15th Marine Expeditionary Unit (Special Operations Capable) stand
                       clear of an explosion during demolitions training. The 15th MEU (SOC) is training in Kuwait
                       to maintain their combat readiness.



50
2005 Annual Financial Report


COMBAT CAPABILITY

“The Navy is first and foremost a fighting, sea-going service – always
has been. The weapons and technology change. The ships, aircraft,
and submarines…improve over time, but the job remains the same:
to take the fight to the enemy so that he cannot take it to us.”
                                                      Admiral Michael G. Mullen, Chief of Naval Operations, July 2005


“We remain the nation’s premier expeditionary combat force-in-
readiness….We project Marine forces from land or sea bases for
operations as part of a joint or combined force.”
                                             General Michael W. Hagee, Commandant of the Marine Corps, April 2005

The Navy–Marine Corps team is evolving into a more agile force, capable of conducting the full spectrum of
operational activities. In addition to combat, security, and force protection missions in Iraq and Afghanistan, for
example, the Navy performed a major role in providing assistance and relief to the people of Indonesia, Sri Lanka,
Thailand and other nations affected by the devastating Indian Ocean earthquake and tsunami in December 2004.
The humanitarian operations in this area were led by forces from the USS Abraham Lincoln (CVN 72) Carrier Strike
Group and the USS Bonhomme Richard (LHD 6) Expeditionary Strike Group, and included Marines from the 15th
Marine Expeditionary Unit.

In addition to humanitarian operations in Southeast Asia, the Navy performed a major role in providing assistance
and relief to the people of Mississippi and Louisiana after Hurricane Katrina ravaged the gulf coast on August 29,
2005. For example, twenty-four hours after Hurricane Katrina came ashore in New Orleans, Naval Facilities
Engineering Command (NAVFAC) Damage Assessment Teams were en route to the gulf coast naval installations
with structural and mechanical engineers, architects, roofing specialists and construction contract specialists. Fleet
and Family Support Center staff in Mississippi and Florida assisted displaced military, civilian employees, family
members, and civilian evacuees. Also, the USNS Comfort (T-AH 20), one of the largest trauma facilities in the
United States, sailed from its home port in Baltimore, Maryland to assist in the relief effort.

The Navy–Marine Corps team continues to pursue readiness transformation under the Fleet Response Plan. This
plan requires that the Navy become capable at all times of the immediate deployment of six forward-deployed or
ready-to-surge Carrier Strike Groups, and that it be able to deploy within 90 days two additional Carrier Strike Groups
from the basic training phase. In April 2005 the USS Boxer (LHD-4) amphibious assault ship demonstrated our ability
to meet the requirements of the Fleet Response Plan, deploying for the third time in three years. The Boxer had
previously deployed in January 2003 in support of Operation Iraqi Freedom, returning in July 2003; and again in
January 2004, in support of the Operation Iraqi Freedom force rotation, returning in late April that year.

The Navy–Marine Corps team must continue to innovate and adapt to new ways of fighting. The framework within
which the team will transform its core capabilities is that of sea basing. Sea basing capabilities will provide joint force
commanders with global command and control capability, and will extend integrated logistical support to the Army
and Air Force. In FY2005 we took a significant step closer to full sea basing capability with the construction of the
first Littoral Combat Ship and the commissioning of the first nuclear-powered Virginia-class fast attack submarine,
the USS Virginia (SSN 774).
                                                                                                                              51
                                                                                    D e pa r t m e n t o f t h e N a v y




     The amphibious assault ship USS Boxer (LHD 4) leaves her homeport of San Diego, California for her
     third deployment in three years.




     Sailors board the newly commissioned USS Virginia (SSN 774), the first nuclear-powered fast attack Virginia-
     class submarine.




52
2005 Annual Financial Report


TECHNOLOGY INSERTION

“Continued technology improvements will ensure Naval forces’ ability to
project offensive power, defend the homeland, and sustain operational
independence around the world.”

                                             The Honorable Gordon R. England, Secretary of the Navy, February 2005




The DON continues to develop and deploy new technology in support of the National Military Strategy. One
outstanding recent innovation is the FSF-1 Sea Fighter, or X-Craft. Launched in February 2005, the Sea Fighter is a
high-speed aluminum catamaran that will allow the Navy and Marines to conduct a variety of missions in near-shore
waters, such as battle force protection, anti-submarine warfare, and amphibious assault support. The Marine Corps
Warfighting Laboratory also continues to investigate new and potentially valuable technologies, evaluating their
potential impact on the ways in which the Marine Corps organizes, equips, and trains to fight. The laboratory is
studying, for example, command and control shared data environments, landing force technologies, and assault
vehicles.




          The Littoral Surface Craft-Experimental (X-Craft), christened Sea Fighter (FSF 1), at Whidbey Island,
          Washington.




                                                                                                                      53
                                                                                          D e pa r t m e n t o f t h e N a v y


     IMPROVED BUSINESS PRACTICES

     “…we have been faced with the challenge of making the Naval Team
     more efficient in order to develop a more effective fighting force....Our
     recent performance indicates the business initiatives we are pursuing are
     on the right track….”
                                                 The Honorable Gordon R. England, Secretary of the Navy, February 2005




     DON BUSINESS TRANSFORMATION
     Since the inception of the Chief Financial Officers Act of 1990, the DON has undertaken numerous initiatives to
     improve its financial management. Building on the lessons learned from this work, the Department, in conjunction
     with the Office of the Under Secretary of Defense (Comptroller), has developed a Financial Improvement Program
     with the goal of improving the quality, timeliness, and accuracy of its financial information. The program is a departure
     from the previous initiative, the Mid-Range Financial Improvement Plan, in that it does not take as its primary
     objective the achievement by FY2007 of an unqualified audit opinion. Progress toward a clean audit nonetheless will
     remain the outcome measure used by the DON to evaluate the efforts taken to improve its financial management.

     The framework for the DON business transformation comprises four key components:

     • Blueprint. Department of Defense Business Enterprise Architecture. A primary product of the Department of
       Defense Business Management Modernization Program, the Business Enterprise Architecture is a set of rules,
       standards, and principles that will guide selection of future business systems in support of internal control and
       interoperable business processes.

     • Cornerstone. Navy Enterprise Resource Planning Program. The Navy Enterprise Resource Planning Program is a
       key enabler for Sea Enterprise, which aims to transform business processes and to generate enterprise-wide
       efficiency savings in support of the recapitalization of naval forces. At the center of this program is the Navy
       Enterprise Resource Planning System. This system will integrate Navy business processes, such as procurement,
       supply chain, and finance, to improve accessibility across the Department to real-time data and information. The
       system is scheduled to become operational in FY2006.

     • Transition Tool. Functional Area Management. Use of the Functional Area Management construct, in conjunction
       with information technology portfolio management, will help the DON to select the optimal mix of information
       technology investments.




54
2005 Annual Financial Report


• Integrating Plan. Department of the Navy Financial Improvement Program. The DON Financial Improvement
  Program is a business transformation initiative to integrate business processes and related process
  enhancements, systems initiatives, and internal controls. At the core of the program is the DON Financial
  Improvement Plan, which is organized into sets of projects that are primarily linked to financial statement
  line items.




MARINE CORPS BUSINESS ENTERPRISE INITIATIVES
The Marine Corps is focused on optimizing its resources at every level to enable greater investment in core combat
capabilities. To this end, the Corps has established a Business Enterprise Office to improve its business practices. A
recently approved product of this office is the Marine Corps Business Enterprise Strategic Plan, to map the end-to-
end assessment and improvement of Marine Corps business processes through FY2012. The objectives of the plan
include the regionalization, competitive sourcing, process reengineering, divestiture, or elimination of non-core
functions.




          U.S. Navy and U.S. Marine Corps personnel load food into a CH-46 Sea Knight helicopter in support of
          Operation Unified Assistance – the humanitarian effort in the wake of the tsunami that struck Southeast
          Asia on December 26, 2004




                                                                                                                         55
                                                                                              D e pa r t m e n t o f t h e N a v y


     MANAGING RISK – PERFORMANCE RESULTS
     The DON is committed to accomplishing its mission in a way that delivers the best value to the nation. It expects also
     to be fully accountable for its results. To this end, the Department has brought together the objectives and
     performance management goals of the President’s Management Agenda with the four tenets of Department of
     Defense risk management—Force Management Risk, Operational Risk, Future Challenges Risk, and Institutional
     Risk—to form a balanced scorecard for risk management (http://navweb.secnav.navy.mil). These four tenets of risk
     management align with the four focus areas of the DON Balanced Scorecard: People, Combat Capability, Technology
     Insertion, and Improved Business Practices. This alignment provides the Department with a means of measuring,
     evaluating, and improving its strategic performance consistent with the goals of defense policy
     (http://www.defenselink.mil) and the President’s Management Agenda (http://www.whitehouse.gov/omb).

     Following are representative examples of cascading performance metrics/outcomes for each Department of Defense
     risk tenet for FY2004 and FY2005.




                Sailors assigned to USS Ashland (LSD 48) inspect the sprinklers and valves of the chemical, biological, and
                radiological wash down system on the ship’s flight deck.




56
2005 Annual Financial Report


PEOPLE (FORCE MANAGEMENT RISK)
Ensure Sustainable Military Tempo

The DON sustains a force structure capable of meeting the deployment requirements of the Global War on Terror and
other military operations. Its active duty and reserve personnel levels have been steadily declining over the past three
fiscal years, but the Navy has been able to accomplish its assigned missions by changing its force structure, utilizing
technology to become more efficient, altering the workforce mix, and adopting new manning practices. The active
duty and reserve personnel levels of the Marine Corps have remained steady since FY2004. By realigning its force
structure through military-to-civilian conversions, the Corps nonetheless has been able to improve the scalability and
interoperability of its forces.




                                       U.S. Na vy Milita r y Pe r s onne l


                    390,000                                                                           90,000
                                            88,156


                    380,000       382,235                            82,558

                                                                                                      80,000
                                                          373,197                            76,473
                    370,000


                                                                                   362,941
                    360,000                                                                           70,000
                                   FY 2003                  FY 2004                   FY 2005

                                                     Ac t i ve         R e s e r ve




                                 U.S. Ma r ine Cor ps Milita r y Pe r s onne l


                     182,000                                                                          42,000

                                      41,046
                                                                                          180,029
                     180,000
                                                                  39,658                  39,858      40,000
                                     177,779
                     178,000                                     177,480



                     176,000                                                                          38,000
                                   FY 2003                  FY 2004                   FY 2005

                                                       Ac t i ve           R e s e r ve




                                                                                                                           57
                                                                                                            D e pa r t m e n t o f t h e N a v y


     Maintain Reasonable Force Costs

     The DON is committed to becoming a leaner, more efficient organization. Over the past three fiscal years, DON has
     reduced civilian personnel levels and increased military-to-civilian conversions to improve operational efficiency.



                                  C i v i l i a n Fu l l - T i m e Eq u i v a l e n t W o r k y e a r s

                                                    9,708
                                                                      9,558                 9,649
                                                    17,921
                                                                      15,208               15,195
                                                   170,324          169,909              167,381




                                              FY 2003             FY 2004            FY 2005

                                                      S e c r e t a r i a t / D e p t o f N a vy
                                                      Ma r i n e C o r p s
                                                      N a vy




     COMBAT CAPABILITY (OPERATIONAL RISK)
     Ensure Force Levels

     The DON is committed to maintaining the operational levels necessary to ensure that it can conduct the full spectrum
     of joint military activities. In FY2005, battle force ships and Marine Corps land forces continued to provide the combat
     capabilities required to shape the international environment and to respond to the full spectrum of crises.

     For a complete description of the roles and characteristics of U.S. Navy ships, see “Fact File” at http://www.navy.mil.


                                     Ba t t l e Fo r c e Sh i p s              A ircraft Carriers
                                               FY 2005
                                           (Total: 281)                        Fleet B allistic M issile Submarines

                                               17      12    14
                                         17                                    Guided M issile Submarines
                                                               4
                                                                               Surface Co mbatants
                                    30
                                                                               Nuclear A ttack Submarines



                                   34                                99        A m p h i b i o u s Wa r f a r e S h i p s


                                                                               Co mbat Lo gistics Ships


                                                                               M i n e Wa r f a r e S h i p s
                                              54
                                                                               Suppo rt Ships




58
2005 Annual Financial Report




      Sailors man the rails and render honors to the USS Arizona Memorial as the Nimitz-class aircraft carrier
      USS Ronald Reagan (CVN 76) pulls into Naval Station Pearl Harbor, Hawaii.




      The Los Angeles-class nuclear-powered fast attack submarine USS Salt Lake City (SSN 716) is
      underway after departing Naval Submarine Base Point Loma, California to conduct routine exercises
      in the Pacific Ocean.



                                                                                                                 59
                                                                                                   D e pa r t m e n t o f t h e N a v y


                                U . S . M a r i n e C o r p s L a n d F o r c e s, F Y
                                                        2005
                                                             3   4
                                                 21




                                                                               52
                                             Ma r i n e Ex p e d i t i o n a r y F o r c e s
                                             Ma r i n e Ex p e d i t i o n a r y B r i g a d e s
                                             A c tiv e Battalions
                                             Re s e r v e Ba t t a lio n s




     Marine Expeditionary Force: the largest Marine air-ground task force, with as many as 90,000 personnel.

     Marine Expeditionary Brigade: a Marine air-ground task force that is larger than a Marine Expeditionary Unit
     (comprises approximately 2,000 personnel), but smaller than a Marine Expeditionary Force.

     Battalion: a tactical unit of a Marine Expeditionary Force, Marine Expeditionary Brigade, or a Marine
     Expeditionary Unit, with as many as 1,200 personnel.

     For more information on U.S. Marine Corps forces, see “Units” at http://www.usmc.mil.




               A U.S. Marine, assigned to 3rd Battalion, 2nd Marine Regiment, radios in to confirm the destruction of a
               hostile vehicle during Operation Spear in the city of Karabilah, Iraq.

60
2005 Annual Financial Report


Ensure Force Readiness

The increasingly diverse threats of the 21st century mean that the Navy–Marine Corps team must be able
simultaneously to provide homeland defense, to deploy a force forward, and to surge with overwhelming and decisive
combat power. In FY2005 the Navy–Marine Corps team continued to demonstrate its readiness. Measures of force
readiness include steaming days per quarter (the number of days that ships are away from their home port) and
monthly flying hours per crew.




                              Active Force Ship Ope ra tiona l Te mpo
                               Ste a ming Da ys Pe r Qua rte r (Actua l)

                                                  65               67            60            60
                      51            56

                       27          28             28                29             25               25



                       2000          2001          2002            2003          2004           2005
                                                       Fis cal Ye ar

                                  De p lo y e d Na v a l Fo r c e s ( Go a l: 5 1 Da y s )
                                  No n - De p lo y e d Na v a l Fo r c e s ( Go a l: 2 4 Da y s )



                                      M o n t h l y Fl y i n g H o u r s P e r C r e w
                                      U.S. Na vy & U.S. Ma r ine Cor ps
                                                      (Com bine d)

                       20.9         21.4           23.1           22.1                          22.3
                                                                                 19.3

                        11           11             11             10.1         11.3            10.2




                      2000          2001           2002            2003          2004           2005
                                                       Fi s c a l Ye a r

                                                 A c t i ve         R e s e r ve




                                                                                                                     61
                                                                                                 D e pa r t m e n t o f t h e N a v y


     TECHNOLOGY INSERTION (FUTURE CHALLENGES RISK)
     Define and Develop Transformational Capabilities

     The DON continues to invest in transformational capabilities that will define and develop the Navy–Marine Corps
     team of the future. Representative examples of major platforms funded by the DON Research, Development, Test,
     and Evaluation appropriation include the Joint Strike Fighter, DD(X), and V-22.


                               Re s e a r c h & De v e l o p m e n t - M a j o r Pl a t f o r m s
                                                   ($ in M illions )


                                                           $2,082                       $2,145
                                $1,662
                                                            $1,015                      $1,164
                                 $668
                                                             $357                        $264
                              $387

                                2003                        2004                         2005
                                                       Fis cal Ye ar

                                         Joint Str ike Fighter           DD( X)        V-22



     • Joint Strike Fighter. An aircraft that in its different configurations meets the needs of the Navy, Marine Corps, Air
       Force, and allied forces. The timetable for delivery of the Joint Strike Fighter Program has been set back to
       ensure that there is sufficient time available for key technology challenges to be properly addressed.

     • DD(X). A family of advanced multi-mission warships capable of long-range firepower in support of forces ashore.
       Advance procurement funding has been budgeted for FY2006 to support a lead ship detail design and
       construction contract award in FY2007.

     • V-22. A joint aircraft program designed to meet the amphibious/vertical assault needs of the Marine Corps and the
       strike rescue needs of the Navy, and to supplement the special mission aircraft. The Department will maintain
       production at a minimum rate of 12 aircraft in FY2006, pending completion of operational testing.




        An F/A-18C Hornet prepares to make an arrested landing aboard the Nimitz-class aircraft carrier USS Harry S. Truman (CVN 75).



62
2005 Annual Financial Report


IMPROVED BUSINESS PRACTICES (INSTITUTIONAL RISK)
Streamline Decision Processes; Drive Financial Management; Acquisition Excellence

The DON is transforming its business processes, as exemplified by the Navy–Marine Corps Intranet (NMCI). NMCI is
a comprehensive, enterprise-wide initiative that will make the full range of network-based information services
available to Sailors and Marines on a daily basis and in times of war. In FY2005 the Department increased
connectivity to NMCI, as demonstrated by the rise in seats cut over (that is, the number of desk tops on which NMCI
is installed); enhancements in network security; the expansion of knowledge sharing across the globe; and an
improvement in systems reliability.




                                       N a vy - Ma r ine Cor ps Intr a ne t
                                        Num be r of Se a ts Cut Ove r
                                                                                 259,984
                                                     216,959


                             109,604




                                2003                    2004                    2005
                                                   Fis cal Ye ar




                  An E-2C+ Hawkeye increases performance and safety along with better maintenance techniques.
                  Other improvements to the airframe include the Group II Mission Computer Replacement Program,
                  which speeds up the Hawkeye’s computers eight times faster than the older models.




                                                                                                                      63
                                                                                          D e pa r t m e n t o f t h e N a v y


     Readiness and Quality of Key Facilities

     DON facilities slated for improvement notably include the housing units it provides for Sailors and Marines and their
     families. The Department has accelerated improvement of its family housing stock by engaging in public–private
     ventures that leverage private-sector capital and expertise to build and manage family housing units.




                                               Num be r of Pr iva tiza tion
                                               P r o j e c t s / U n i t s , FY 2 0 0 5

                                                               26,083




                                                            On Track to
                                                             Eliminate
                                                            Inadequate
                                                              Housing
                                                            Units by FY
                                                                2007




     MANAGEMENT INTEGRITY
     Commanders and managers throughout the DON must ensure the integrity of their programs and operations. Part of
     this responsibility entails compliance with laws and regulations, including in particular the 1982 Federal Managers
     Financial Integrity Act and the 2002 Improper Payments Information Act. A discussion of these two statutes and the
     Department’s compliance with them appears below.


     FEDERAL MANAGERS FINANCIAL INTEGRITY ACT
     The 2002 passage of the Sarbanes–Oxley Act, which applies to publicly traded companies, provided the impetus for
     the federal government to reevaluate its internal control policies under the 1982 Federal Managers Financial Integrity
     Act. Consequently, in December 2004 the Office of Management and Budget (OMB) issued a revised version of
     Circular A-123, entitled Management’s Responsibility for Internal Control. Effective in FY2006, the revised circular
     includes updated internal control standards and new requirements for assessing the effectiveness of internal control
     over financial reporting. In the interim, federal agencies, including the DON, must continue to follow Circular A-123 of
     June 1995, Management Accountability and Control.




64
2005 Annual Financial Report


As required by Circular A-123 and related implementing guidance from the Department of Defense, the DON annually
must evaluate its system of internal accounting and administrative controls (that is, its management controls). The
objective of this evaluation is to determine whether reasonable assurance exists that:

   • obligations and costs are in compliance with applicable laws;

   • funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation;
     and

   • revenues and expenditures applicable to agency operations are properly recorded and accounted for to
     permit the preparation of reliable accounting, financial, and statistical reports and to maintain accountability
     over assets.

In FY2005, DON issued a qualified statement of assurance, citing material weaknesses in management controls that
preclude an unqualified statement. Specifically, DON’s system of internal accounting and administrative controls in
effect during the 12-month period ending June 30, 2005, taken as a whole, provides reasonable assurance that DON
can execute its mission effectively and protect its critical assets, with the exception of material weaknesses reported.
The basis for reasonable assurance includes an established control environment, continued emphasis on risk
assessment, specific control activities, continuous communication and flow of information, and monitoring performed
by both command management and the audit/inspection community. Additionally, the effective execution of missions
during recent military actions confirms the strength of DON’s management controls.




         Three Catapult Officers simultaneously launch an F/A-18F Super Hornet, assigned to the "Bounty Hunters"
         of Strike Fighter Squadron VFA-2, aboard the Nimitz-class aircraft carrier USS Abraham Lincoln (CVN 72).




                                                                                                                           65
                                                                                         D e pa r t m e n t o f t h e N a v y


     DON reported seven uncorrected material weaknesses in FY2005. The first six weaknesses are new for FY2005.
     A description of the weaknesses can be found in the FY2005 statement of assurance, which is available at the
     Assistant Secretary of the Navy (Financial Management and Comptroller) website,
     http://www.finance.hq.navy.mil/fmc.

       1. Top Secret / Sensitive Compartmented Information Requirements Process

       2. Certification and Accreditation of DON Information Technology Systems

       3. Accurate and Complete Reporting of Accounts Payable, DON General Fund

       4. Identification and Reporting of Environmental Disposal Liabilities

       5. Reporting of Military Equipment

       6. Valuation of Inventory and Operating Materials and Supplies

       7. Navy and Marine Corps Intranet (NMCI) Continuity of Operations Plan



     IMPROPER PAYMENTS INFORMATION ACT
     One component of the President's Management Agenda is an initiative to reduce improper payments. Improper
     payments are those which should not have been made or that were made in incorrect amounts under statutory,
     contractual, administrative, or other legally applicable requirements. Examples of improper payments include
     overpayments, underpayments, duplicate payments, and payments for services not received.

     DON programs and activities that are susceptible to erroneous payments include primarily those for which the
     Department has the responsibility for calculating entitlements or the responsibility for disbursing government funds.
     Examples of two such activities include Personnel Support Activities and Detachments, which are responsible for
     calculating travel payments, and Disbursing Officers, aboard ships and at other isolated locations, that are
     responsible for the disbursement of government funds. (Note that the Defense Finance and Accounting Service
     performs the vast majority of the Department's entitlement computation and disbursement functions.)

     As required by implementing guidance from the OMB under the 2002 Improper Payments Information Act, the DON
     identified $3.6 million of improper payments in FY2005. This amount is significantly less than the OMB threshold of
     $10 million. The Department has instituted internal controls to reduce the occurrence of improper payments in the
     future.




66
2005 Annual Financial Report




                 Assistant Secretary of the Navy (Financial Management and Comptroller), Richard Greco, Jr.
                 speaks to Marines of the 1st Reconnaissance Battalion at Camp Pendleton, California.


FINANCIAL REPORTING RESULTS
“We must accurately account for the taxpayers’ money and give our
managers timely and accurate program cost information to inform
management decisions and control costs.”
               The Honorable Richard Greco, Jr., Assistant Secretary of the Navy (Financial Management and Comptroller), July 2005



In support of the DON Financial Improvement Program, the DON General Fund and Navy Working Capital Fund
financial statements provide the scorecard mechanisms by which the Department evaluates progress toward
improving the quality, timeliness, and accuracy of financial information. Examples of progress made in FY2004 and
FY2005 include:

• Validation of balance sheet line items for audit readiness
    - Investments (DON General Fund)
    - Debt (Navy Working Capital Fund)

• Identification and evaluation of deficiencies in the DON General Fund balance sheet line items
     - Other assets
     - Environmental liabilities (Defense Environmental Restoration Program (DERP) and Base Realignment
       and Closure (BRAC))
     - Other liabilities

  The Navy and the Marine Corps Financial Improvement Plans provide other examples of progress made.
  Specifically, on June 30, 2005 the Navy and Marine Corps issued new Financial Improvement Plans to the Office
  of the Under Secretary of Defense (Comptroller) for review. The Marine Corps will execute its plan as a pilot for
  the implementation of the overall DON Financial Improvement Program.


                                                                                                                                     67
                                                                                            D e pa r t m e n t o f t h e N a v y


     A discussion follows of financial performance relative to the DON General Fund and Navy Working Capital Fund
     financial statements for FY2004 and FY2005.


     DON GENERAL FUND
     Discussion of the financial performance of the DON General Fund focuses on two principal statements: the
     Consolidated Balance Sheet and the Combined Statement of Budgetary Resources. The balance sheet is similar to
     that used within the private sector, presenting assets, liabilities, and net position (stockholder’s equity in the private
     sector). The private sector does not use a statement of budgetary resources.


     ASSET COMPOSITION
     The Consolidated Balance Sheet as of September 30, 2005 presents total assets of $312 billion, which represents an
     increase of $16 billion (or five percent) from FY2004. The increase in total assets is primarily attributed to changes in
     significant line items described below.

     Fund Balance with Treasury. Fund Balance with Treasury (FBWT) is an account that reflects available spending
     authority for the DON. In FY2005, FBWT increased by $3.9 billion (or five percent). This increase is the result of a
     $7 billion increase in appropriations received for FY2005. See Note 3, DON General Fund Notes to the Principal
     Statements, for more information on FBWT.

     Accounts Receivable. Accounts Receivable represents amounts owed to the DON for goods and services ordered by
     other federal government entities (intragovernmental) and by the public (nonfederal). In FY2005, Intragovernmental
     Accounts Receivable increased by $30 million (or 12 percent). This increase is primarily attributed to a $54 million
     increase with the Department of Homeland Security (specifically, the Federal Emergency Management Agency) for
     customer orders related to Hurricane Katrina relief efforts.

     Additionally, Nonfederal Accounts Receivable increased by $372 million (or 13 percent) in FY2005. This increase is
     primarily attributed to a change in the DON's methodology for determining the estimated amount of uncollectible
     accounts receivable. See Note 5, DON General Fund Notes to the Principal Statements, for more information on
     Intragovernmental and Nonfederal Accounts Receivable.

     General Property, Plant and Equipment (PP&E). General PP&E consists of real property, military and general
     equipment, internal use software, and construction-in-progress. In FY2005, General PP&E increased by $6.6 billion
     (or four percent). The majority of this increase is the result of:

      • $6 billion in additional military equipment,
      • $1 billion in new buildings and structures due to the completion of several large military construction projects, and
      • $781 million decrease in construction-in-progress due to the completion of several military construction projects.

     See Note 10, DON General Fund Notes to the Principal Statements, for more information on General PP&E.
     Other Assets. Other Assets consists of advances, prepayments, and outstanding contract financing payments. In
     FY2005, Other Assets increased by $2 billion (or 45 percent). The majority of this increase is due to:




68
2005 Annual Financial Report


 • $4 million increase in advances and prepayments from other federal government entities (Intragovernmental
   Other Assets), and
 • $2 billion increase in outstanding contract financing payments (Nonfederal), primarily related to the Aircraft and
   Weapons Procurement programs.

See Note 6, DON General Fund Notes to the Principal Statements, for more information on Other Assets.



                                      Ge n e r al Fu n d A s s e t s ( $ in T h o u s an d s )


                  $180,000,000
                  $160,000,000
                  $140,000,000
                  $120,000,000
                  $100,000,000
                   $80,000,000
                   $60,000,000
                   $40,000,000
                   $20,000,000
                            $0
                                              FY 2004                             FY 2005

                        G e n e r a l PP& E   Fund Balanc e     In v e n t o r y ( 1 )   Other ( 2)



                NOTE:
                  (1) “Inventory” includes operating materials and supplies, held for use.
                  (2) “Other” includes investments, accounts receivable, other assets, and cash
                      and other monetary assets.


ACCOUNTS RECEIVABLE METRIC
As part of the Office of the Under Secretary of Defense (Comptroller) (OUSD(C)) Financial Indicators Program, the
DON must track delinquent intragovermental and public (nonfederal) accounts receivable. Accounts receivable are
deemed “delinquent” when payment has not been received within 30 days of the date specified in the initial demand
letter (http://www.dod.mil/comptroller/fmr/). The purpose of this metric is to ensure proper stewardship of public funds
and cash management.

OUSD(C) has established a Department of Defense-wide goal of a 25 percent reduction in the total amount of
delinquent intragovernmental and public accounts receivable. In FY2005, the DON missed this goal by $1 million
primarily due to new reporting of delinquent accounts receivable from the Enterprise Resource Planning (ERP)
program. DON began tracking delinquent ERP accounts receivable in June 2005, and therefore had not included
delinquent ERP accounts receivable in the original baseline.




                                                                                                                           69
                                                                                                         D e pa r t m e n t o f t h e N a v y


     LIABILITY COMPOSITION

     The Consolidated Balance Sheet as of September 30, 2005 presents total liabilities of $29 billion, which represents
     an increase of $812 million (or three percent) from FY2004. The increase in total liabilities is primarily attributed to
     changes in significant line items described below.

     Environmental Liabilities. Environmental Liabilities includes Defense Environmental Restoration Program (DERP),
     Base Realignment and Closure, and environmental disposal of weapons systems. In FY2005, Environmental
     Liabilities increased by $1 billion (or six percent). The majority of this increase is the result of:

      • $1.3 billion increase in the environmental disposal of nuclear-powered aircraft carriers and submarines due to
        labor rate increases and program growth, and
      • $203 million decrease in DERP liabilities due to completion of cleanup projects.

     See Note 14, DON General Fund Notes to the Principal Statements, for more information on Environmental
     Liabilities.

     Accounts Payable. Accounts Payable represents amounts owed by the DON to other federal government entities
     (intragovernmental) and to the public (nonfederal) for goods and services ordered and received but not yet paid. In
     FY2005, Intragovernmental Accounts Payable decreased by $227 million (or 16 percent). This decrease is based
     upon intragovernmental elimination adjustments recorded at the Department of Defense component level.

     Additionally, Nonfederal Accounts Payable decreased by $480 million (or 34 percent) in FY2005. This decrease is
     primarily attributed to a decrease in the Military Personnel, Marine Corps account. See Note 12, DON General Fund
     Notes to the Principal Statements, for more information on Intragovernmental and Nonfederal Accounts Payable.




                                             Ge n e r a l Fu n d L i a b i l i t i e s ( $ i n T h o u s a n d s )

                         $17,500,000
                         $14,000,000
                         $10,500,000
                          $7,000,000
                          $3,500,000
                                  $-
                                                        FY 2004                                 FY 2005

                               E n vi r o n m e n t a l L i a b i l i t i e s   Other Liabilities (1)
                               Ac c o u n t s P a ya b l e ( 1 )                Mi l i t a r y R e t i r e m e n t


                        NOTE:
                          (1) “Other Liabilities” and “Accounts Payable” include intragovernmental debt.




70
2005 Annual Financial Report


BUDGETARY RESOURCES, OBLIGATIONS, AND OUTLAYS

The statement of budgetary resources has three primary components: budgetary resources, obligations, and outlays,
as follows:

    •   Budgetary resources. Budgetary resources include budget authority, such as appropriations received.
        Budget authority is the authority provided by law to enter into financial obligations that will result in immediate
        or future outlays involving federal government funds.

    •   Status of budgetary resources. Obligations incurred for the reporting period are included in the status of
        budgetary resources. Obligations incurred represent amounts of orders placed, contracts awarded, services
        received, and similar transactions during a given period that require payments during the same or future
        period.

    •   Relationship of obligations to outlays. The relationship of obligations to outlays is essentially a
        reconciliation of the obligated balance at the beginning and end of the reporting period. Included in the
        reconciliation are outlays. Outlays occur when a federal agency issues checks, disburses cash, or
        electronically transfers funds to liquidate an obligation. Outlays also occur when interest on the Treasury debt
        held by the public accrues; the federal government issues bonds, notes, or other cash-equivalent instruments;
        or a direct or guaranteed loan is disbursed.

Below is a discussion of budgetary resources, obligations incurred, and outlays reported by the DON in FYs 2004
and 2005.

Total budgetary resources. In FY2005, the DON reported $131 billion in budget authority, which represents 78
percent of total budgetary resources. FY2005 budget authority represents an increase of $7 billion (or six percent)
from FY2004. This increase is the result of continuing efforts to accomplish the overall DON mission.

Total obligations incurred. In FY2005, the DON incurred obligations of $151 billion, representing an increase of
seven percent from FY2004. This increase is the result of increased funding for procurement accounts.

Total outlays. In FY2005, the DON reported outlays of $126 billion, representing an increase of six percent from
FY2004. This increase is the result of increased funding for procurement and research and development accounts.

See Note 21, DON General Fund
Notes to the Principal Statements, for
more information on the FY2005
statement of budgetary resources.




                                             Secretary of the Navy, Gordon R. England answers questions from a live
                                             audience, as he outlines the processes the Department of Defense team is
                                             using to develop the National Security Personnel System.

                                                                                                                              71
                                                                                       D e pa r t m e n t o f t h e N a v y




              Budge ta r y Re s our c e s , Obliga tions Inc ur r e d,
                          Outla ys ($ in Thous a nds )

       $200,000,000

       $170,000,000

       $140,000,000

       $110,000,000

        $80,000,000

        $50,000,000
                                   FY 20 04                                  FY 2005

            B u d g e t a r y Re s o u r c e s   Ob l i g a t i o n s In c u r r e d    Outlay s




     A Navy Band member performs during a change of command ceremony aboard the aircraft
     carrier USS Nimitz (CVN 68) in San Diego, California.




72
2005 Annual Financial Report


NAVY WORKING CAPITAL FUND
Discussion of financial performance for the NWCF focuses on cash management at the Department level and on the
net cost of operations for the NWCF as a whole and by NWCF business area. (Note that the net cost of operations
for NWCF as a whole includes the five NWCF business areas, ordnance, and the NWCF component level.)



CASH MANAGEMENT
The DON manages working capital fund cash at the Departmental level. It must maintain cash levels at seven to ten
days of operational costs, and be sufficient to meet six months of capital outlays, as required by the Department of
Defense Financial Management Regulation (http://www.dod.mil/comptroller/fmr/). For FY2005, the seven-day cash
requirement was $762 million and the ten-day requirement was $1,036 million.

For the second quarter of FY2005, the DON had projected NWCF cash balances to fall below $200 million. When
weekly cash balances during February 2005 dipped to $97 million, the DON initiated advance billing of $279 million.
Advance billing enabled the DON to sustain an NWCF cash balance sufficient to meet monthly obligations.
Supplemental appropriations received during FY2005 also bolstered NWCF cash. Appropriations received were as
follows:

 • $200 million to finance the increased cost of Depot Maintenance, Aviation for the Global War on Terror;

 • $67 million for increased Defense Logistics Agency fuel rates for Military Sealift Command ships;

 • $20.1 million for 2004 hurricane damages; and

 • $7.2 million for 2005 hurricane damages.

Given the fluctuations in
                                                              Na v y Wo r k i n g C a p i t a l Fu n d
FY2005 cash flow (see chart),                     Fi s c a l Ye a r 2 0 0 5 M o n t h l y C a s h Ba l a n c e s *
the NWCF ended the fiscal year                                       ($ in Thous ands )
with a three percent increase of
$34,087 million in cash. This
                                        1,400,000
increase is primarily attributed
                                        1,200,000
to the following:
                                        1,000,000
                                          800,000
 • $79 million in advance
                                          600,000
   billing;
                                          400,000
                                          200,000
 • $200 million from the sale
                                                -
   of Supply Management
                                                     Oct Nov Dec Jan Feb Mar Apr May Jun                    Jul      Aug Sep
   consumables; and

 • $271 million for payroll
   accrued during the last           *NOTE:
   13 days of September.                      Cash balances above represent the combined total of monthly cash
                                              balances for the five NWCF business areas, ordnance, and the NWCF
                                              component level.



                                                                                                                               73
                                                                                              D e pa r t m e n t o f t h e N a v y


     The FY2005 NWCF ending cash balance also reflects the Congressionally directed transfer of $150 million from
     NWCF to the Operation and Maintenance, Navy appropriation, which was completed in September 2005.

     As part of the DON Financial Management Strategic Plan business transformation effort, a team is reviewing NWCF
     cash "as is" forecasting and execution practices in an effort to standardize business processes and tailor cash
     balances for each NWCF business area.


     NET COST      OF   OPERATIONS
     Net cost of operations is the "bottom line" on the federal sector's statement of net cost. It is similar to the private
     sector's net income (or net loss) on the income statement (also known as "the profit and loss statement"). Both the
     statement of net cost and the income statement present revenues earned and costs (or expenses) incurred for the
     reporting period. However, to arrive at the bottom line the federal sector calculates costs incurred less revenues
     earned, whereas the private sector calculates revenues earned less expenses incurred.

     In FY2005, net cost of operations for the five NWCF business areas, ordnance, and NWCF component level
     increased by $1.5 billion (or 149 percent). This increase is primarily attributed to:

     • Supply Management, Navy, which reported an increase in cost of goods sold as a result of the Depot Level
       Reparable carcass reconciliation, and
     • Transportation (Military Sealift Command), which incurred an increase in fuel consumption costs.

     To view the combined total of program costs and earned revenue for the five NWCF business areas, ordnance, and
     the NWCF component level, see the NWCF Consolidated Statement of Net Cost. Supporting details for this
     statement are in the NWCF Consolidating Statement of Net Cost.

     See Note 18, NWCF Notes to the Principal Statements, for more information on the FY2005 statement of net cost.



                                               Na v y Wo r k i n g C a p i t a l Fu n d
                                  C o m b i n e d T o t a l o f Ne t C o s t o f Op e r a t i o n s
                                                      ($ in Thous ands )


                         $3,000,000

                         $2,500,000

                         $2,000,000

                         $1,500,000

                         $1,000,000

                           $500,000

                                 $-
                                                 FY 2004                              FY 2005


                      NOTE:
                              Totals above represent the combined total of net cost of operations for the
                              five NWCF business areas, ordnance, and the NWCF component level.



74
2005 Annual Financial Report


NET COST      OF   OPERATIONS          BY   BUSINESS AREA
In FY2005, the total net cost of operations for the five NWCF business areas was $1.6 billion. This represents 62
percent of the combined total of net cost of operations for the five NWCF business areas, ordnance, and the NWCF
component level. In contrast, the total net cost of operations for the five NWCF business areas in FY2004 was $815
billion. This represented 79 percent of the combined total of net cost of operations for the five NWCF business
areas, ordnance, and the NWCF component level.



                                           Na v y Wo r k i n g C a p i t a l Fu n d
                                 Ne t C o s t o f Op e r a t i o n s b y Bu s i n e s s A r e a
                                                  ($ in Thous ands )


                    $1,440,000

                     $940,000

                     $440,000

                      $(60,000)                FY 2004                              FY 2005

                           S u p p l y Ma n a g e me n t          De p o t Ma i n t e n a n c e
                           Re s e a r c h & De v e l o p me n t   Tr ans por tation
                           Bas e      Support




               The T-6 Texan training aircraft takes off from the flight line at Naval Air Station (NAS) Pensacola. Only
               one model of aircraft will be used for training Air Force and Navy pilots, as part of the Department of
               Defense’s effort to streamline military training operations, reduce costs, while increasing efficiency.




                                                                                                                           75
                                                                                               D e pa r t m e n t o f t h e N a v y




     The T-34B Mentor trainer aircraft hangs in the North Atrium of the newly renovated Chevalier Hall building at the Naval Air
     Technical Training Center (NATTC) on board Naval Air Station Pensacola, Fla. Chevalier Hall was rebuilt after being
     devastated with heavy damage from Hurricane Ivan in September 2004. Chevalier Hall is the home of aviation technical
     schools where new Sailors receive their initial training before being assigned to the Fleet.

76
2005 Annual Financial Report


                                    DEPARTMENT OF THE NAVY


                                      GENERAL FUND
                               PRINCIPAL STATEMENTS




                                                                     PRINCIPAL STATEMENTS
                                                                        GENERAL FUND




                                                                     77
                                 GENERAL FUND PRINCIPAL STATEMENTS
                                                                                            D e pa r t m e n t o f t h e N a v y


     LIMITATIONS      TO THE    FINANCIAL STATEMENTS
     The financial statements have been prepared to report the financial position and results of operations for the entity,
     pursuant to the requirements of the Title 31, United States Code, Section 3515(b).

     While the statements have been prepared from the books and records of the entity, in accordance with the formats
     prescribed by the Office of Management and Budget, the statements are in addition to the financial reports used to
     monitor and control budgetary resources which are prepared from the same books and records.

     To the extent possible, the financial statements have been prepared in accordance with federal accounting
     standards. At times, the Department is unable to implement all elements of the standards due to financial
     management systems limitations. The Department continues to implement system improvements to address these
     limitations. There are other instances when the Department’s application of the accounting standards is different
     from the auditor’s application of the standards. In those situations, the Department has reviewed the intent of the
     standard and applied it in a manner that management believes fulfills that intent.

     The statements should be read with the realization that they are for a component of the U.S. Government, a
     sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that provides
     resources to do so.




78
2005 Annual Financial Report


PRINCIPAL STATEMENTS
The FY 2005 Department of the Navy, General Fund Principal Financial Statements and related notes are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual funds and accounts within the General
Fund for the fiscal year ending September 30, 2005, and are presented on a comparative basis with information
previously reported for the fiscal year ending September 30, 2004.

The following statements are included in the Department of the Navy, General Fund Principal Statements:

 •   Consolidated Balance Sheet
 •   Consolidated Statement of Net Cost
 •   Consolidated Statement of Changes in Net Position
 •   Combined Statement Budgetary Resources
 •   Consolidated Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act
of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                                                    79
                                                                            GENERAL FUND PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

     Department of Defense
     Department of the Navy
     CONSOLIDATED BALANCE SHEET
     As of September 30, 2005 and 2004
     ($ in thousands)

                                                                            2005 Consolidated       2004 Consolidated
        ASSETS (Note 2)

           Intragovernmental:
             Fund Balance with Treasury (Note 3)
                  Entity                                                $          85,734,659   $           81,874,818
                  Nonentity Seized Iraqi Cash                                               0                        0
                  Nonentity - Other                                                   344,546                  219,095
             Investments (Note 4)                                                       9,519                    9,457
             Accounts Receivable (Note 5)                                             281,304                  250,703
             Other Assets (Note 6)                                                    672,257                  272,723
                  Total Intragovernmental Assets                        $          87,042,285   $           82,626,796
           Cash and Other Monetary Assets (Note 7)                                    305,440                  234,865
           Accounts Receivable (Note 5)                                             3,267,657                2,895,966
           Loans Receivable (Note 8)                                                        0                        0
           Inventory and Related Property (Note 9)                                 55,584,837               53,340,667
           General Property, Plant and Equipment (Note 10)                        158,328,847              151,679,503
           Investments (Note 4)                                                             0                        0
           Other Assets (Note 6)                                                    6,988,791                5,000,348
        TOTAL ASSETS                                                    $         311,517,857   $          295,778,145

        LIABILITIES (Note 11)
          Intragovernmental:
            Accounts Payable (Note 12)                                  $           1,208,702   $            1,437,616
            Debt (Note 13)                                                                  0                        0
            Other Liabilities (Note 15 & Note 16)                                   3,826,048                3,984,802
                  Total Intragovernmental Liabilities                   $           5,034,750   $            5,422,418
          Accounts Payable (Note 12)                                                1,180,034                1,395,008
          Military Retirement Benefits and Other Employment-Related
            Actuarial Liabilities (Note 17)                                         1,532,819                1,575,815
          Environmental Liabilities (Note 14)                                      17,050,451               16,031,979
          Loan Guarantee Liability (Note 8)                                                 0                        0
          Other Liabilities (Note 15 and Note 16)                                   4,459,836                4,020,826
        TOTAL LIABILITIES                                               $          29,257,890   $           28,446,046

        NET POSITION
          Unexpended Appropriations                                     $          89,739,876   $           79,161,774
          Cumulative Results of Operations                                        192,520,091              188,170,325
        TOTAL NET POSITION                                              $         282,259,967   $          267,332,099

        TOTAL LIABILITIES AND NET POSITION                              $         311,517,857   $          295,778,145

     The accompanying notes are an integral part of these statements.

80
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Consolidated       2004 Consolidated
    Program Costs
       Intragovernmental Gross Costs                               $         39,245,021    $         39,171,720
       (Less: Intragovernmental Earned Revenue)                              (3,480,213)             (3,272,860)
       Intragovernmental Net Costs                                 $         35,764,808    $         35,898,860

        Gross Costs With the Public                                $         84,365,786    $         96,846,251
        (Less: Earned Revenue From the Public)                               (4,700,935)             (3,302,708)
        Net Costs With the Public                                  $         79,664,851    $         93,543,543

       Total Net Cost                                              $        115,429,659    $        129,442,403
    Costs Not Assigned to Programs                                                    0                       0
    (Less: Earned Revenue Not Attributable to Programs)                               0                       0
    Net Cost of Operations                                         $        115,429,659    $        129,442,403




The accompanying notes are an integral part of these statements.



                                                                                                                     81
                                                                                 GENERAL FUND PRINCIPAL STATEMENTS
                                                                                            D e pa r t m e n t o f t h e N a v y


     Department of Defense
     Department of the Navy
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the years ended September 30, 2005 and 2004
     ($ in thousands)


                                                                                2005 Consolidated       2004 Consolidated

      Cumulative Results of Operations
       Beginning Balances                                                   $        188,170,325    $        222,565,239
        Prior period adjustments (+/-)
         Changes in Accounting Principles                                                      0                       0
         Correction of Errors                                                                  0             (25,913,750)
       Beginning Balances, as adjusted                                      $        188,170,325    $        196,651,489
       Budgetary Financing Sources:
        Appropriations Received                                             $                  0    $                  0
        Appropriations transferred in/out (+/-)                                                0                       0
        Other adjustments (rescissions, etc) (+/-)                                             0                       0
        Appropriations used                                                          119,015,668             120,198,147
        Nonexchange revenue                                                                  205                       0
        Donations and forfeitures of cash and cash equivalents                            29,518                       0
        Transfers in/out without reimbursement (+/-)                                     150,000                 166,000
        Other budgetary financing sources (+/-)                                                0                       0
       Other Financing Sources:
        Donations and forfeitures of property                                                  0                       0
        Transfers in/out without reimbursement (+/-)                                      (1,652)                 11,883
        Imputed financing from costs absorbed by others                                  585,686                 585,209
        Other (+/-)                                                                            0                       0
       Total Financing Sources                                              $        119,779,425 $           120,961,239
        Net Cost of Operations (+/-)                                                 115,429,659             129,442,403
        Net Change                                                                     4,349,766              (8,481,164)
        Ending Balances                                                     $        192,520,091 $           188,170,325




         The accompanying notes are an integral part of these statements.

82
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Consolidated        2004 Consolidated
   Unexpended Appropriations
    Beginning Balances                                             $         79,161,774     $         50,781,179
     Prior period adjustments (+/-)
      Changes in Accounting Principles                                                0                        0
      Correction of Errors                                                            0               25,913,750
    Beginning Balances, as adjusted                                $         79,161,774     $         76,694,929
    Budgetary Financing Sources:
     Appropriations Received                                       $        130,972,538     $        123,917,983
     Appropriations transferred in/out (+/-)                                    164,674                  455,059
     Other adjustments (rescissions, etc) (+/-)                               (1,543,442)              (1,708,050)
     Appropriations used                                                   (119,015,668)            (120,198,147)
     Nonexchange revenue                                                               0                        0
     Donations and forfeitures of cash and cash equivalents                            0                        0
     Transfers in/out without reimbursement (+/-)                                      0                        0
     Other budgetary financing sources (+/-)                                           0                        0
    Other Financing Sources:
     Donations and forfeitures of property                                            0                        0
     Transfers in/out without reimbursement (+/-)                                     0                        0
     Imputed financing from costs absorbed by others                                  0                        0
     Other (+/-)                                                                      0                        0
    Total Financing Sources                                        $         10,578,102     $          2,466,845
     Net Cost of Operations (+/-)                                                     0                        0
     Net Change                                                              10,578,102                2,466,845
     Ending Balances                                               $         89,739,876     $         79,161,774




The accompanying notes are an integral part of these statements.

                                                                                                                      83
                                                                                  GENERAL FUND PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y


     Department of Defense
     Department of the Navy
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the years ended September 30, 2005 and 2004
     ($ in thousands)

                                                                            2005 Combined          2004 Combined
       BUDGETARY FINANCING ACCOUNTS
       BUDGETARY RESOURCES
         Budget Authority:
            Appropriations Received                                     $      131,002,361     $      123,948,477
            Borrowing Authority                                                          0                      0
            Contract Authority                                                           0                      0
            Net transfers (+/-)                                                    361,305                425,109
            Other                                                                        0                      0
         Unobligated Balance:
            Beginning of period                                                 18,027,994             14,695,238
            Net transfers, actual (+/-)                                             (46,631)              195,950
            Anticipated Transfers Balances                                                0                     0
         Spending Authority from Offsetting Collections:
            Earned                                                                        0                      0
               Collected                                                          8,830,640              7,706,650
               Receivable from Federal sources                                      696,667               (360,284)
            Change in unfilled customer orders                                            0                      0
               Advances received                                                    147,708                 56,010
               Without advance from Federal sources                                (636,393)               467,506
            Anticipated for the rest of year, without advances                            0                      0
            Previously unavailable                                                        0                      0
            Transfers from trust funds                                                    0                      0
            Subtotal                                                    $         9,038,622    $         7,869,882
         Recoveries of prior year obligations                           $       11,446,435     $       13,756,981
         Temporarily not available pursuant to Public Law                                 0                      0
         Permanently not available                                               (1,543,442)            (1,708,789)
         Total Budgetary Resources                                      $      168,286,644     $      159,182,848

       STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                                     $      137,694,376     $      132,268,522
             Reimbursable                                                       13,463,789              8,886,330
             Subtotal                                                   $      151,158,165     $      141,154,852
         Unobligated balance:
             Apportioned                                                $       15,607,505     $       13,973,108
             Exempt from apportionment                                                   0                      0
             Other available                                                             0                      0
         Unobligated Balances Not Available                                      1,520,974              4,054,888
         Total, Status of Budgetary Resources                           $      168,286,644     $      159,182,848




     The accompanying notes are an integral part of these statements.


84
2005 Annual Financial Report


Department of Defense
Department of the Navy
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Combined         2004 Combined

   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     Obligated Balance, Net-beginning of period                    $       63,856,224    $       63,520,894
     Obligated Balance transferred, net (+/-)                                       0                     0
     Obligated Balance, net-end of period:
         Accounts Receivable                                               (1,234,226)             (537,560)
         Unfilled customer order from Federal sources                      (2,166,588)           (2,802,982)
         Undelivered Orders                                                68,731,014            63,723,755
         Accounts Payable                                                   3,362,173             3,473,010
     Outlays:
        Disbursements                                                     134,815,308           126,955,319
        Collections                                                        (8,978,348)           (7,762,660)
        Subtotal                                                   $      125,836,960    $      119,192,659
     Less: Offsetting receipts                                               (115,805)             (115,027)
     Net Outlays                                                   $      125,721,155    $      119,077,632




The accompanying notes are an integral part of these statements.



                                                                                                                   85
                                                                               GENERAL FUND PRINCIPAL STATEMENTS
                                                                                                           D e pa r t m e n t o f t h e N a v y


     Department of Defense
     Department of the Navy
     CONSOLIDATED STATEMENT OF FINANCING
     For the years ended September 30, 2005 and 2004
     ($ in thousands)

                                                                                               2005                    2004
                                                                                            Consolidated            Consolidated


       Resources Used to Finance Activities:
       Budgetary Resources Obligated
         Obligations Incurred                                                           $       151,158,165     $        141,154,852
         Less: Spending Authority from offsetting collections and recoveries (-)                 (20,485,056)             (21,626,865)
          Obligations net of offsetting collections and recoveries                      $       130,673,109 $            119,527,987
          Less: Offsetting receipts (-)                                                             (115,805)                (115,027)
          Net obligations                                                               $       130,557,304 $            119,412,960
       Other Resources
          Donations and forfeitures of property                                                           0                        0
          Transfers in/out without reimbursement (+/-)                                               (1,652)                  11,883
          Imputed financing from costs absorbed by others                                           585,686                  585,209
          Other (+/-)                                                                                     0                        0
          Net other resources used to finance activities                                $           584,034     $            597,092
          Total resources used to finance activities                                    $       131,141,338     $        120,010,052

       Resources Used to Finance Items not Part of the Net Cost of Operations:
         Change in budgetary resources obligated for goods, services
          and benefits ordered but not yet provided
            Undelivered orders (-)                                                      $        (13,332,332) $             1,796,210
            Unfilled Customer Orders                                                                (488,685)                 523,516
         Resources that fund expenses recognized in prior periods                                   (269,715)               (115,122)
         Budgetary offsetting collections and receipts that do not affect Net
            Cost of Operations                                                                             0                       0
          Resources that finance the acquisition of assets                                       (14,697,475)             (12,412,218)
          Other resources or adjustments to net obligated resources that do not
            affect Net Cost of Operations
             Less: Trust or Special Fund Receipts Related to Exchange in the entity's
             budget (-)                                                                                    0                       0
             Other (+/-)                                                                              1,652                   (11,883)
          Total resources used to finance items not part of the Net
            Cost of Operations                                                          $       (28,786,555)    $        (10,219,497)
          Total resources used to finance the Net Cost of Operations                    $       102,354,783     $        109,790,555




     The accompanying notes are an integral part of these statements.


86
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                            2005 Consolidated          2004 Consolidated


   Components of the Net Cost of Operations that will not Require
   or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                 $              170,047     $             188,260
     Increase in environmental and disposal liability                                1,028,763                   427,489
     Upward/Downward reestimates of credit subsidy expense                                   0                         0
     Increase in exchange revenue receivable from the public (-)                             0                         0
     Other (+/-)                                                                        69,091                   193,243
     Total components of Net Cost of Operations that will require or
        generate resources in future periods                            $            1,267,901     $             808,992

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                      $           15,844,303     $           17,475,862
     Revaluation of assets and liabilities (+/-)                                    (1,785,299)                 1,114,040
     Other (+/-)
         Trust Fund Exchange Revenue                                                        (10)                 (30,297)
         Cost of Goods Sold                                                                   0                        0
         Operating Material & Supplies Used                                          (2,244,170)                 270,967
         Other                                                                           (7,849)                  12,284
     Total components of Net Cost of Operations that will not require
       or generate resources                                            $           11,806,975     $           18,842,856
      Total components of Net Cost of Operations that will
       not require or generate resources in the current period          $           13,074,876     $           19,651,848

      Net Cost of Operations                                            $          115,429,659     $          129,442,403




The accompanying notes are an integral part of these statements.



                                                                                                                                87
                                                                                            GENERAL FUND PRINCIPAL STATEMENTS
     D e pa r t m e n t o f t h e N a v y




88
2005 Annual Financial Report


                                                     DEPARTMENT OF THE NAVY


                                                    GENERAL FUND
                           NOTES   TO THE    PRINCIPAL STATEMENTS




                                                                                           GENERAL FUND PRINCIPAL STATEMENTS




                                                                                      89
                                     GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y


     NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
     1.A. Basis of Presentation
     These financial statements have been prepared to report the financial position and results of operations of the
     Department of the Navy (DON), as required by the "Chief Financial Officers (CFO) Act of 1990," expanded by the
     "Government Management Reform Act (GMRA) of 1994," and other appropriate legislation. The financial statements
     have been prepared from the books and records of the DON in accordance with the "Department of Defense
     Financial Management Regulation" (DoD FMR), the Office of Management and Budget (OMB) Circular No. A-136,
     "Financial Reporting Requirements," and to the extent possible, Federal Generally Accepted Accounting Principles
     (GAAP). The accompanying financial statements account for all resources for which the DON is responsible except
     that information relative to classified assets, programs, and operations has been excluded from the statement or
     otherwise aggregated and reported in such a manner that it is no longer classified. In addition to the DON financial
     statements, and pursuant to OMB directives, financial reports are also prepared by the DON that are used to monitor
     and control the DON's use of budgetary resources.

     The DON is unable to fully implement all elements of Federal GAAP and the OMB Circular A-136 due to limitations of
     its financial management processes and systems, including feeder systems and processes. Reported values and
     information for the DON's major asset and liability categories are derived largely from feeder systems, such as
     inventory systems and logistic systems. These systems were designed to support reporting requirements focusing
     on maintaining accountability over assets and reporting the status of federal appropriations rather than preparing
     financial statements in accordance with Federal GAAP. As a result, the DON cannot currently implement every
     aspect of Federal GAAP and OMB Circular A-136. The DON continues to implement process and system
     improvements addressing the limitation of its financial and feeder systems. A more detailed explanation of these
     financial statement elements is provided in the applicable note.

     Fiscal Year (FY) 2005 represents the tenth year that the DON has prepared audited financial statements as required
     by the CFO Act and the GMRA.

     1.B. Mission of the Reporting Entity
     The DON was created on April 30 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission of
     DoD is to organize, train, and equip armed forces to deter aggression and, if necessary, defeat aggressors against
     the United States and its allies.

     1.C. Appropriations and Funds
     The DON's appropriations and funds are divided into the general, revolving, trust, special, and deposit funds. These
     appropriations and funds are used to fund and report how the resources have been used in the course of executing
     the DON's missions.

     General funds are used for financial transactions arising under Congressional appropriations, including personnel,
     operation and maintenance, research and development, procurement, and construction accounts.

     Revolving funds receive their initial working capital through an appropriation or a transfer of resources from existing
     appropriations or funds and use those capital resources to finance the initial cost of products and services. Financial
     resources to replenish the initial working capital and to permit continuing operations are generated by the acceptance
     of customer orders. The National Defense Sealift Fund is the DON's only revolving fund.

     Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out
     specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.



90
2005 Annual Financial Report

Special funds account for receipts of the government that are earmarked for a specific purpose.

Deposit funds generally are used to (1) hold assets for which the DON is acting as an agent or a custodian or whose
distribution awaits legal determination, or (2) account for unidentified remittances.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity accounts
consist of resources that the agency has the authority to use, or where management is legally obligated to use funds
to meet entity obligations. Nonentity accounts are assets that are held by an entity but are not available for use in
the operations of the entity.

ENTITY ACCOUNTS:
General Accounts
17X0380    Coastal Defense Augmentation, Navy
17 0703    Family Housing, Navy and Marine Corps
17 0730    Family Housing Construction, Navy and Marine Corps
17 0735    Family Housing Operation and Maintenance, Navy and Marine Corps
17X0810    Environmental Restoration, Navy
17 1105    Military Personnel, Marine Corps
17 1106    Operation and Maintenance, Marine Corps
17 1107    Operation and Maintenance, Marine Corps Reserve
17 1108    Reserve Personnel, Marine Corps
17 1109    Procurement, Marine Corps
17 1205    Military Construction, Navy and Marine Corps
17 1235    Military Construction, Naval Reserve
17 1236    Payments to Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
17 1319    Research and Development, Test and Evaluation, Navy
17 1405    Reserve Personnel, Navy
17 1453    Military Personnel, Navy
17 1506    Aircraft Procurement, Navy
17 1507    Weapons Procurement, Navy
17 1508    Procurement of Ammunition, Navy and Marine Corps
17 1611    Shipbuilding Conversion
17 1804    Operation and Maintenance, Navy
17 1806    Operation and Maintenance, Navy Reserve
17 1810    Other Procurement

Revolving Funds
17 4557    National Defense Sealift Fund, Navy

Trust Funds
17X8008     Office of Naval Records and History Fund
17X8716     Department of the Navy General Gift Fund
17X8723     Ships Stores and Profits, Navy
17X8730     United States Naval Academy Museum Fund
17X8733     United States Naval Academy General Gift Fund

Special Funds
17X5095    Wildlife Conversion, etc., Military Reservations, Navy



                                                                                                                        91
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

     17X5185       Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
     17X5429       Rossmoor Liquidating Trust Settlement Account
     17X5562       Ford Island Improvement Account

     Non Entity Accounts
     17 3XXX      Receipt Accounts
     17X6XXX      Deposit Funds
     17 47X0535 Embassy Security, Construction and Maintenance, State
     17 11 1081   International Military Education and Training Funds, appropriated to the President (fiscal year)
     17 11X1081 International Military Education and Training Funds, appropriated to the President
     17 11 1082   Foreign Military Financing Program, Funds appropriated to the President (fiscal year)
     17 12X1105 State and Private Forestry, Forest Service

     1.D. Basis of Accounting
     The DON generally records transactions on a budgetary basis and not an accrual accounting basis as is required by
     Federal GAAP. For FY 2005, DON's financial management systems are unable to meet all of the requirements for
     full accrual accounting. Many of the DON's financial and feeder systems and processes were designed and
     implemented prior to the issuance of Federal GAAP and, therefore, were not designed to collect and record financial
     information on the full accrual accounting basis as required by Federal GAAP. The DON has undertaken efforts to
     determine the actions required to bring its financial and feeder systems and processes into compliance with all
     elements of Federal GAAP. One such action is the current revision of its accounting systems to record transactions
     based on the United States Standard General Ledger (USSGL). Until such time as all of the DON's financial and
     feeder systems and processes are updated to collect and report financial information as required by Federal GAAP,
     the DON's financial data will be based on budgetary transactions (obligations, disbursements, and collections), and
     transactions from feeder systems, adjusted for known accruals of major items such as payroll expenses, accounts
     payable, and environmental liabilities. However, when possible, the financial statements are presented on the
     accrual basis of accounting as required. One example of information presented on the budgetary basis is the data
     on the Statement of Net Cost. Much of this information is based on obligations and disbursements and may not
     always represent accrued costs.

     In addition, the DON identifies programs based upon the major appropriation groups provided by Congress. The
     DON is in the process of reviewing available data and attempting to develop a cost reporting methodology that
     balances the need for cost information required by the Statement of Federal Financial Accounting Standard (SFFAS)
     No. 4, "Managerial Cost Accounting Concepts and Standards for the Federal Government," with the need to keep the
     financial statements from being overly voluminous.

     1.E. Revenues and Other Financing Sources
     Financing sources for general funds are provided primarily through congressional appropriations that are received on
     both an annual and a multiyear basis. When authorized, these appropriations are supplemented by revenues
     generated by sales of goods or services through a reimbursable order process. The DON recognizes revenue as a
     result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is
     recognized when earned under the reimbursable order process.

     The DON does not include non-monetary support provided by U.S. Allies for common defense in mutual security in
     its list of other financing sources that appears in the Statement of Financing. The U.S. has agreements with foreign
     countries that include both direct and indirect sharing of costs that each country incurs in support of the same
     general purpose. Examples include countries where there is a mutual or reciprocal defense agreement, where U.S.
     troops are stationed, or where the U.S. fleet is in port. DoD is reviewing these types of financing and costs




92
2005 Annual Financial Report

reductions in order to establish accounting policies and procedures to identify what, if any, of these costs are
appropriate for disclosure in the financial statements in accordance with generally accepted accounting principles.
Recognition of support provided by host nations would affect both financing sources and recognition of expenses.

1.F. Recognition of Expenses
For financial reporting purposes, the DON policy requires the recognition of operating expenses in the period
incurred. However, because the DON's financial and feeder systems were not designed to collect and record
financial information on the full accrual accounting basis, accrual adjustments are made for major items such as
payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term
assets are not recognized as expenses in the DON's operations until depreciated in the case of Property, Plant and
Equipment (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net increases or
decreases in unexpended appropriations are recognized as a change in the net position. Certain expenses, such as
annual and military leave earned but not taken, are financed in the period in which payment is made. Operating
expenses were adjusted as a result of elimination of balances between DoD components.

1.G. Accounting for Intragovernmental Activities
The DON, as an agency of the federal government, interacts with and is dependent upon the financial activities of the
federal government as a whole. Therefore, these financial statements do not reflect the results of all financial
decisions applicable to the DON as though the agency was a stand alone entity.

The DON's proportionate share of public debt and related expenses of the federal government are not included.
Debt issued by the federal government and the related costs are not apportioned to federal agencies. The DON's
financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since
the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

The DON's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS).
Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social
Security. The DON funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and
FERS retirement systems is the responsibility of the Office of Personnel Management (OPM). The DON recognizes
an imputed expense for the portion of civilian employee pensions and other retirement benefits funded by the OPM in
the Statement of Net Cost; and recognizes corresponding imputed revenue from the civilian employee pensions and
other retirement benefits in the Statement of Changes in Net Position.

DoD reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in the
Military Retirement Fund (MRF) financial statements. DoD recognizes the actuarial liability for the military retirement
health benefits in the Other Defense Organization General Fund column of the DoD Agency wide
consolidating/combining statements.

To prepare reliable financial statements, transactions occurring between components or activities within the DON
must be eliminated. However, the DON, as well as the majority of the federal government, cannot consistently and
accurately identify all intragovernmental transactions by customer. The Defense Finance and Accounting Service
(DFAS) is responsible for eliminating transactions between components or activities of the DON. For FYs 1999 and
beyond seller entities within DoD provided summary seller-side balances for revenue, accounts receivable, and
unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records have


                                                                                                                           93
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

     been adjusted to recognize unrecorded costs and accounts payable. Intra-DoD intragovernmental balances were
     then eliminated.

     The Department of the Treasury, Financial Management Services (FMS) is responsible for eliminating transactions
     between the Department and other federal agencies. In September 2004, the FMS issued the "Federal
     Intragovernmental Transactions Accounting Policies Guide." The Department was not able to fully implement the
     policies and procedures in this guide related to reconciling intragovernmental assets, liabilities, revenues, and
     expenses for non-fiduciary transactions. The DON, however, was able to implement the policies and procedures
     contained in the "Intragovernmental Fiduciary Transactions Accounting Guide" as updated by the "Federal
     Intragovernmental Transactions Accounting Policies and Procedures Guide," revised July 1, 2005, for reconciling
     intragovernmental transactions. It can be found at http://www.fms.treas.gov/irri/. These transactions pertain to
     investments in Federal securities, borrowings from the Department of the Treasury and the Federal Financing Bank,
     Federal Employees' Compensation Act transactions with the Department of Labor (DoL), and benefit program
     transactions with the OPM.

     1.H. Transactions with Foreign Governments and International Organizations
     Each year, the DoD Components sell defense articles and services to foreign governments and international
     organizations, primarily under the provisions of the "Arms Export Control Act of 1976." Under the provisions of this
     Act, DoD has authority to sell defense articles and services to foreign countries and international organizations,
     generally at no profit or loss to the U.S. Government. Customers may be required to make payments in advance.

     1.I. Funds with the U.S. Treasury
     The DON's financial resources are maintained in Department of the Treasury accounts. The majority of cash
     collections, disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the U. S.
     Army Corps of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers.
     Each disbursing station prepares monthly reports, which provide information to the Department of the Treasury on
     check issues, electronic fund transfers, interagency transfers and deposits.

     In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
     appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
     Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in
     the Treasury's system. Differences between the DON's recorded balance in the FBWT accounts and Treasury's
     FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3.

     1.J. Foreign Currency
     The DON conducts a significant portion of its operations overseas. The Congress established a special account to
     handle the gains and losses from foreign currency transactions for five general fund appropriations (Operations and
     Maintenance, Military Personnel, Military Construction, Family Housing Operations and Maintenance, and Family
     Housing Construction.) The gains and losses are computed as the variance between the exchange rate current at
     the date of payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations
     related to other appropriations require adjustment to the original obligation amount at the time of payment. These
     currency fluctuations are not separately identified.

     1.K. Accounts Receivable
     As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from
     other federal entities or from the public. Allowance for doubtful accounts are based upon analysis of collection
     experience by fund type. The Department does not recognize an allowance for doubtful accounts from other federal
     agencies. Claims against other federal agencies are to be resolved between the agencies. Material disclosures are
     provided at Note 5.


94
2005 Annual Financial Report

1.L. Loans Receivable
Not Applicable.

1.M. Inventories and Related Property
The DON uses the Latest Acquisition Cost method as its inventory systems were designed for material management
rather than accounting purposes. The systems provide accountability for and visibility over inventory items. The
systems do not maintain the historical cost data necessary to comply with the SFFAS No. 3, "Accounting for
Inventory and Related Property." Neither can they directly produce financial transactions using the USSGL, as
required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). DoD is transitioning to a
Moving Average Cost methodology for valuing inventory and OM&S that when fully implemented will allow the DON
to comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between "inventory held for sale" and "inventory held in reserve for future sale." There is
no management or valuation difference between the two USSGL accounts. Further, the DoD manages only military
or government-specific material under normal conditions. Items commonly used in and available from the
commercial sector are not managed in the DoD material management activities. Operational cycles are irregular, and
the military risks associated with stock-out positions have no commercial parallel. The DoD holds material based on
military need and support for contingencies. Therefore, the DON does not attempt to account separately for items
held for current or future use.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for sale, are
valued at standard purchase price. The DoD uses the consumption method of accounting for OM&S, for the most
part, expensing material when it is issued to the end user. Where current systems cannot fully support the
consumption method, the DON uses the purchase method - that is, expensed when purchased. The DON reported
significant amounts using the purchase method either because the systems could not support the consumption
method or because management deems that the item is in the hands of the end user.

DoD implemented new policy in FY 2002 to account for condemned material (only) as "Excess, Obsolete, and
Unserviceable." The net value of condemned material is zero, because the costs of disposal are greater than the
potential scrap value. Material that can be potentially redistributed, presented in previous years as "Excess,
Obsolete, and Unserviceable," is included in the "Held for Use" or "Held for Repair" categories according to its
condition.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to
produce the reported values. Material disclosure related to inventory and related property is provided at Note 9.

1.N. Investments in U.S. Treasury Securities
For the Trust Funds, investments in U.S. Treasury securities are reported at cost, net of unamortized premiums or
discounts. Premium or discounts are amortized into interest income over the term of the investment using the
effective interest rate method or other methods if similar results are obtained. The DON's intent is to hold
investments to maturity; unless they are needed to finance claims or otherwise sustain operations. Consequently, no
provision is made for unrealized gains or losses on these securities.

The DON invests in non-marketable securities. The two types of non-marketable securities are par value and market
based Intragovernmental securities. The Bureau of Public Debt issues non-marketable Par Value Intragovernmental
Securities. Non-marketable, Market Based Intragovernmental Securities mimic marketable securities, but are not
traded publicly. See Note 4 for material disclosures.




                                                                                                                        95
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                         D e pa r t m e n t o f t h e N a v y

     1.O. General Property, Plant and Equipment
     General PP&E, exclusive of Military Equipment, is capitalized at historical acquisition cost plus capitalized
     improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds
     the DoD capitalization threshold of $100,000. Improvement costs over the DoD capitalization threshold of $100,000
     for General PP&E must also be capitalized. DON depreciates all General PP&E, other than land, on a straight-line
     basis. Land is not depreciated.

     When it is in the best interest of the government, the DON provides government property to contractors when
     deemed necessary to complete contracted work. Such property is either owned or leased by the DON, or purchased
     directly by the contractor for the government based on contract terms. When the value of contractor procured
     General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in the value of
     General PP&E reported on the DON's Balance Sheet. DoD is developing new policies and a contractor reporting
     process that will provide appropriate General PP&E information for future financial statement reporting purposes.
     Accordingly, the DON currently reports only government property in the possession of contractors that is maintained
     in the DON's property systems.

     To bring the DoD into fuller compliance with federal accounting standards, DoD has issued new property
     accountability and reporting regulations that require the DoD Components to maintain, in DoD Component property
     systems, information on all property furnished to contractors. This action and other DoD proposed actions are
     structured to capture and report the information necessary for compliance with federal accounting standards.
     Material disclosures are provided at Note 10.

     1.P. Advances and Prepayments
     Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported
     as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when
     the related goods and services are received.

     1.Q. Leases
     Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital
     or operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease)
     the DON records the applicable asset and liability if the value equals or exceeds the current DoD capitalization
     threshold. The DON records the amounts as the lesser of the present value of the rental and other lease payments
     during the lease term (excluding portions representing executory costs paid to the lessor) or the asset's fair value.
     The DON deems the use of estimates for these costs as adequate and appropriate due to the relatively low dollar
     value of capital leases. Imputed interest was necessary to reduce net minimum lease payments to present value
     calculated at the incremental borrowing rate at the inception of the leases. In addition, the DON classifies leases that
     do not transfer substantially all of the benefits or risks of ownership as operating leases and records payment
     expenses over the lease term.

     1.R. Other Assets
     DON conducts business with commercial contractors under two primary types of contracts: fixed price and cost
     reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the
     DON provides financing payments for certain contracts. One type of financing payment that the DON makes, for real
     property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, "Accounting for Selected
     Assets and Liabilities," such payments are treated as Construction-in-Progress and are reported on the General
     PP&E line and in Note 10, General PP&E, Net.




96
2005 Annual Financial Report

In addition, based on the Federal Acquisition Regulation (FAR), the DON makes financing payments under fixed price
contracts that are not based on a percentage of completion. The DON reports these financing payments as advances
or prepayments in the "Other Assets" line item. The DON treats these payments as advances or prepayment
because the DON becomes liable only after the contractor delivers the goods in conformance with the contract terms.
If the contractor does not deliver a satisfactory product, the DON is not obligated to reimburse the contractor for its
costs and the contractor is liable to repay the DON for the full amount of the advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract
financing; FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, "Prompt
Payment." DoD concluded that SFFAS No. 1 does not fully or adequately address the subject of progress payment
accounting and is considering what further action is appropriate.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a liability when
a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies include
the collectibility of receivables, pending or threatened litigation, possible claims and assessments. The DON's loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.

Other liabilities arise as a result of anticipated disposal costs for the DON's assets. This type of liability has two
components: non-environmental and environmental. Recognition of an anticipated environmental disposal liability
begins when the asset is placed into service, consistent with SFFAS No. 6, "Accounting for Property, Plant, and
Equipment." Based upon the DON's policies and consistent with SFFAS No.5 "Accounting for Liabilities of Federal
Government," a non-environmental disposal liability is recognized for an asset when management makes a decision
to dispose of the asset. The DON has agreed to the recognition of non-environmental disposal liability for nuclear
powered assets when the asset is placed in service. Such amounts are developed in conjunction with and not easily
identifiable separately from environmental disposal costs. Material disclosures are provided at Notes 14 and 15.

1.T. Accrued Leave
Civilian annual leave and military leave that has been accrued and not used as of the balance sheet date are
reported as liabilities. The liability reported at the end of the fiscal year reflects current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent amounts of authority, which are unobligated and have not been rescinded or withdrawn.
Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not yet
been incurred.

Cumulative results of operations represent the difference, since inception of an activity, between expenses and
losses and financing sources (including appropriations, revenue, and gains).




                                                                                                                             97
                                                                   GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                          D e pa r t m e n t o f t h e N a v y

     1.V. Treaties for Use of Foreign Bases
     The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have
     been obtained through various international treaties and agreements negotiated by the Department of State. DoD
     capital assets overseas are purchased with appropriated funds; however, title to land and improvements is retained
     by the host country. Generally, treaty terms allow the DoD Components continued use of these properties until the
     treaties expire. These fixed assets are subject to loss in the event treaties are not renewed or other agreements are
     not reached which allow for the continued use by the Department. Therefore, in the event treaties or other
     agreements are terminated whereby use of the foreign bases is no longer allowed, losses will be recorded for the
     value of any non-retrievable capital assets after negotiations between the U.S. and the host country have been
     concluded to determine the amount to be paid the U.S. for such capital investments.

     1.W. Comparative Data
     The Financial Statements and accompanying Notes to the Financial Statements report the financial position and
     results of operations for FY 2005. Financial statement fluctuations greater than 2 percent of total assets on the
     Balance Sheet and/or greater than 10 percent between FY 2005 and FY 2004 are explained within the Notes to the
     Financial Statements.

     1.X. Unexpended Obligations
     The DON obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
     statements do not reflect this liability for payment for goods and services not yet delivered.

     1.Y. Undistributed Disbursements and Collections
     Undistributed disbursements and collections represent the difference between disbursements and collections
     matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
     opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
     reported on the departmental accounting reports.

     The Department of Defense policy is to allocate supported undistributed disbursements and collections between
     federal and nonfederal categories based on the percentage of federal and nonfederal accounts payable and
     accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
     undistributed collections are recorded in other liabilities. The DON follows this procedure.

     1.Z. Data Collection Approach
     The DON financial statements include information from both financial systems and feeder systems. The Defense
     Finance and Accounting Service, Cleveland (DFAS-CL) and Kansas City (DFAS-KC) collect the financial system
     information and incorporate it into the financial statements. The DON collects financial information from feeder
     systems through a data call process and submits it to DFAS-CL & KC for incorporation into the financial statements.
     For FY 2005, the DON utilized a web-based data collection instrument (DCI) that captures all required financial
     information from feeder systems for the General Fund (GF) statements. This is the seventh year DON has used the
     DCI to collect information from feeder systems. The DON DCI identifies the information requirements to the source
     provider, provides an audit trail, and integrates into the financial statement preparation process.




98
2005 Annual Financial Report


NOTE 2. NONENTITY ASSETS

As of September 30,                                       2005                 2004
(Amounts in thousands)

1. Intragovernmental Assets:
     A. Fund Balance with Treasury                $        344,546       $            219,095
     B. Investments                                              0                          0
     C. Accounts Receivable                                      0                          0
     D. Other Assets                                             0                          0
     E. Total Intragovernmental Assets            $        344,546       $            219,095

2. Nonfederal Assets:
    A. Cash and Other Monetary Assets             $         305,440      $           234,865
    B. Accounts Receivable                                2,538,987                2,755,331
    C. Loans Receivable                                           0                        0
    D. Inventory & Related Property                               0                        0
    E. General Property, Plant and Equipment                      0                        0
    F. Investments                                                0                        0
    G. Other Assets                                               0                        0
    H. Total Nonfederal Assets                    $       2,844,427      $         2,990,196

3. Total Nonentity Assets                         $       3,188,973      $         3,209,291

4. Total Entity Assets                                 308,328,884              292,568,854

5. Total Assets                                  $     311,517,857      $       295,778,145


Fluctuation and/or Abnormalities
Intragovernmental Assets.
Fund Balance with Treasury (Line 1.A): DON reported an increase of $125,451 thousand, 57 percent, in FY 2005.
Nonentity Fund Balance with Treasury was affected by a reclassification of the majority of the 3000 series Treasury
Suspense accounts from Nonentity to Entity. This reclassification was done to bring DON's categorization of the
Suspense accounts into alignment with DoD's treatment. The reclassification had a net effect of $76,805 thousand.
Had the reclassification not occurred, the reported balance of $344,546 thousand would have been $267,741
thousand. Remaining in Nonentity are the 6000 series Deposit accounts which hold items such as withheld state and
local taxes and payroll savings allotments and several of the 3000 series. See Note 1C for a complete listing of the
entity and nonentity account symbols.

In previous years, aged transactions in the Treasury Suspense accounts were cleared at year-end by transferring the
balances to the primary appropriation accounts. In FY 2005, in accordance with new DoD and Treasury guidance,
the process to clear the aged transactions from the Treasury Suspense accounts was not performed.

Nonfederal Assets.
The overall increase of $70,575 thousand, 30 percent, in Cash and Other Monetary Assets is due to an increase of
$101,521 thousand in Foreign Currency, related to the Marine Corps Expeditionary Forces, Camp Lejeune,
Disbursing Officer depositing money into a Limited Depositary Account. This Limited Depositary Account, in
accordance with DoD FMR guidelines, is part of the Disbursing Officer's accountability for public funds and is
reported as a nonentity account. The increase in Foreign Currency was offset by a decrease of $30,947 thousand,
13 percent, in Cash held by various Disbursing Officers.

                                                                                                                       99
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  Information Related to Nonentity Assets

  Definitions
  Assets are categorized as:

  Entity accounts.
  Assets that the DON has the authority to use or that management is legally obligated to use to meet entity
  obligations.

  Nonentity accounts.
  Assets held by an entity, but are not available for use in the operations of the entity.

  Other Disclosures
  Nonentity Assets.
  As of FY 2005, DON holds $3,188,973 thousand nonentity assets. These assets are not available for use by the
  DON in its day-to-day operations but the DON maintains stewardship accountability and reporting responsibility.
  There are three categories of significant nonentity assets held by the DON: (1) the Intragovernmental Fund Balance
  with Treasury, (2) the Nonfederal Cash and Other Monetary Assets, and (3) the Nonfederal Accounts Receivable.

  Nonentity Nonfederal Accounts Receivable (Public).
  As of FY 2005, nonentity nonfederal accounts receivable contains principal of $1,333,494 thousand in advance
  payments made to contractors that remains in litigation and $1,187,906 thousand in associated accrued interest.
  These balances are being reported in nonentity accounts receivable since the original appropriation year has been
  cancelled, and any funds collected as a result of this litigation would go to the Department of the Treasury and not be
  available for the DON's use in normal operations. See Note 5 for additional information.

  Reference
  For Additional Line Item discussion, see:
  Note 3, Fund Balance with Treasury
  Note 4, Investments
  Note 5, Accounts Receivable
  Note 6, Other Assets
  Note 7, Cash and Other Monetary Assets
  Note 8, Direct Loans and/or Loan Guarantee Programs
  Note 9, Inventory and Related Property, Net
  Note 10, General Property, Plant, and Equipment (PP&E), Net

  For regulatory discussion on Nonentity and Entity Assets, see Department of Defense Financial Management
  Regulation, Volume 6B, Chapter 10.

  For regulatory discussion on Limited Depositary Accounts, see Department of Defense Financial
  Management Regulation, Volume 5, Chapter 14.




100
2005 Annual Financial Report


NOTE 3. FUND BALANCE             WITH   TREASURY

As of September 30,                                                       2005                  2004
(Amounts in thousands)

1. Fund Balances:
    A. Appropriated Funds                                        $         83,215,340     $         79,826,096
    B. Revolving Funds                                                      2,501,771                2,024,355
    C. Trust Funds                                                             14,564                   18,245
    D. Special Funds                                                            2,984                        0
    E. Other Fund Types                                                       344,546                  225,217
    F. Total Fund Balances                                       $         86,079,205     $         82,093,913



2. Fund Balances Per Treasury Versus Agency:
    A. Fund Balance per Treasury                                 $         86,922,093     $         83,080,322
    B. Fund Balance per DON                                                86,079,205               82,093,913

3. Reconciling Amount                                            $            842,888     $           986,409


Explanation of Reconciliation Amount:
(Amounts in thousands)
Receipt Accounts in Treasury Unavailable to DON                                  $        50,633
Canceling Years                                                                          792,297
Invalid Program Years                                                                        (42)
             Total Reconciling Amount                                            $       842,888

Fund Balance Per Treasury Calculation
(Amounts in thousands)
Undisbursed Appropriation Account Trial Balance (FMS 6654)                       $      86,826,953
Receipt Account Trial Balance (FMS 6655 - IAS 613)                                         125,063
Less: 6655 Trust Funds Balances included in 6654                                           (29,659)
Less: 6655 Special Funds Balances included in 6654                                            (264)
            Fund Balance Per Treasury                                            $      86,922,093



The Financial Management Service (FMS) 6653, which is the Undisbursed Appropriation Account Ledger, includes
the current month's transactions and cumulative balances for any appropriation that had financial activity during the
month. FMS 6653 is systematically interfaced with the Standard Accounting and Reporting System (STARS) for
posting expenditure transactions. FMS 6654, which is the Undisbursed Appropriation Account Trial Balance, includes
any activity and the cumulative balances for all appropriations regardless of whether they had activity for the month.
Since the FMS 6654 is all-inclusive, this report is used to calculate FBWT. FMS 6655 is the Receipt Account Trial
Balance.




                                                                                                                     101
                                                                GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

      4. Other Information

  Fluctuation and/or Abnormalities
  Appropriated funds (Line 1.A) increased by $3,389,242 thousand, 4 percent. This increase is in line with the 6
  percent increase in appropriations received.

  The only DON Revolving Fund (Line 1.B) is the National Defense Sealift Fund, Navy. The increase of $477,416
  thousand, 24 percent, is a result of additional funding to cover the increase in approved stabilized rates for the Surge
  Program and the hospital ship program, and for construction of combat logistics ships.

  The Trust Fund balance (Line 1.C) decreased $3,681 thousand, 20 percent, primarily due to a construction project
  capital outlay at the Naval Academy.

  Special Funds (Line 1.E) increased by $2,984 thousand, 100 percent,. This line includes the 5000 series of Treasury
  accounts. Amounts were reclassified from Other Fund Types (Line 1.E).

  Other Fund types (Line 1.E) increased by $119,330 thousand, 53 percent. Included in this line are the Treasury
  Suspense and Clearing accounts. There were substantial efforts to clear negative balances, primarily in Disbursing
  Officers suspense account 3885 and Interfund/IPAC suspense account 3875.

  Information Related to Fund Balance with Treasury

  Other Disclosures
  Check Issue Discrepancies.
  To deal with reconciliation of check issue discrepancies and deposit differences that are aged 90 days or greater, the
  following actions are being taken: (1) follow-up action with disbursing officers on the status of their resolving
  transactions listed on their statement of differences; (2) weekly teleconferences with the field sites and site visits, and
  (3) improving training.

  Deposits Differences.
  Deposit Statements of Difference result when the deposit amount reported by the Disbursing Office on its monthly
  Statement of Accountability submission to the Department of the Treasury does not equal the amount of deposit
  information reported by the banking network to the Department of the Treasury for the monthly period.

  Intragovernmental Payments and Collections.
  The Intragovernmental Payment and Collections (IPAC) Statements of Difference result when the amount reported by
  the Disbursing Office on its monthly Statement of Accountability report to the Department of the Treasury does not
  equal the amount of the details reported through the Treasury's IPAC system, which is one of the major components
  of the Government On-Line Accounting Link System II (GOALS II). The IPAC application's primary purpose is to
  provide a standardized interagency fund transfer mechanism for Federal Program Agencies (FPAs). IPAC facilitates
  the intragovernmental transfer of funds, with descriptive data from one FPA to another.

  Reference
  See Note Disclosure 1.I. - Significant Accounting Policies for additional discussion on financial reporting requirements
  and DoD policies governing Funds with the U.S. Treasury.

  See Note 2, Nonentity Assets for further discussions on Fund Balance with Treasury.




102
2005 Annual Financial Report

For regulatory discussion on Fund Balance with Treasury, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10.

Status of Fund Balance With Treasury

As of September 30,                                           2005                    2004
(Amounts in thousands)


1. Unobligated Balance
    A. Available                                       $         15,607,505     $       16,336,308
    B. Unavailable                                                1,520,974              1,691,688

2. Obligated Balance Not Yet Disbursed                           72,093,187             67,196,764

3. Non-Budgetary FBWT                                  $             267,741               219,095
4. Non-FBWT Budgetary Accounts                                   (3,410,202)             (3,349,942)

5. Total                                               $         86,079,205     $       82,093,913

Other Information Related to Status of Fund Balance With Treasury

Fluctuation and/or Abnormalities
Unobligated, Available represents budget authority that is currently available for new obligations. Unobligated,
Available (Line 1.A) decreased $728,803 thousand, 4 percent, in FY 2005. Unobligated, Unavailable represents
budget authority that is expired and not generally available for new obligations. Unobligated, Unavailable (Line 1.B)
decreased $170,714 thousand, 10 percent, in FY 2005. Line 5, Total Fund Balance with Treasury, increased
$3,985,292 thousand, 5 percent, in line with the increase in appropriations received and prior year unobligated
balances brought forward.

Other Disclosures
Unobligated, Available includes annual funds that are subject to the quarterly apportionment rule. They will become
available for obligation in subsequent periods as they are apportioned. Generally, unless special multi-year annual
funds have been received via supplemental appropriations, there are no Unobligated, Available funds at year-end.
For FY 2005, there are no annual funds subject to subsequent period apportionment.

Disclosures Related to Suspense/Budget Clearing Accounts

                                                                                          (Decrease)/
                                  2003               2004                2005          Increase from FY
As of September 30,                                                                      2004 to 2005
(Amounts in thousands)

Account
    F3875                    $     (262,678)   $     (253,211)     $       (27,725)    $        225,486
    F3880                            (3,631)            2,453                3,946                1,493
    F3882                            (4,172)          (37,698)              32,891               70,589
    F3885                          (412,370)         (133,156)             (53,025)              80,131
    F3886                                (2)                9                  429                  420
    Total                    $     (682,853)   $     (421,603)     $       (43,484)    $        378,119


                                                                                                                        103
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  Other Disclosures
  Other Information Related to Suspense/Budget Clearing Account.
  The DON, in conjunction with DFAS, has made a concerted effort to reduce balances in the suspense and budget
  clearing accounts as evidenced by the reductions disclosed in the table above. Additionally, the DON is establishing
  policies and procedures to ensure accurate and consistent use of these accounts.

  The suspense accounts F3875/3885/3886 temporarily hold collections or disbursements until they can be assigned
  or identified to the proper appropriation. Each suspense account represents a specific source of transactions, i.e.
  Disbursing Officer's (DO) suspense (F3875), Interfund/IPAC (F3885), and Payroll (TSP) (F3886) suspense.

  Clearance of Treasury Account Transactions.
  Public Law 107-314, HR4546, Section 1009, "Clearance of Certain Transactions Recorded in Treasury Suspense
  Accounts and Resolution of Certain Check Issuance Discrepancies" issued December 2, 2002 allows for the
  cancellation of certain transactions. In order for transactions to qualify for cancellation, there must have been efforts
  made to locate documentation necessary to identify the appropriation to be charged or credited.

  In FY 2005, $95,601 thousand net and $135,426 thousand absolute value were cancelled in accordance with this
  legislation.

  Definitions
  Absolute Value is the sum of the positive values of debit and credit transactions without regard to the sign.

  Note Reference
  See Note Disclosure 1.I. Significant Accounting Policies for additional discussion on financial reporting requirements
  and DoD policies governing Funds with the U.S. Treasury.

      Disclosures Related to Problem Disbursements and In-transit Disbursements


                                                                                                        (Decrease)/
                                                  2003              2004              2005             Increase from
      As of September 30,                                                                              2004 to 2005

      (Amounts in thousands)

        1. Total Problem Disbursements,
           Absolute Value
            A. Unmatched Disbursements
                (UMDS)                     $      144,000      $     183,570    $    1,313,996     $        1,130,426
            B. Negative Unliquidated
               Obligations (NULO)                  42,000             32,110            17,086                 (15,024)
        2. Total In-transit
                                           $       (11,621)   $      (23,714)   $      857,860     $          881,574
           Disbursements, Net


  Definitions
  Unmatched Disbursements.
  Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
  accounting system.




104
2005 Annual Financial Report

Negative Unliquidated Obligations.
Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment is greater
than the amount of the obligation recorded in the official accounting system. These payments use available funds for
valid receiving reports on delivered goods and services under valid contracts.

In-Transit Disbursements, Net..
In-Transit Disbursements, Net represents the net value of disbursements and collections made by a DoD disbursing
activity on behalf of an accountable activity but not yet posted in an accounting system. Of the $857,860 thousand
reported for DON General Fund, $54,487 thousand, 6 percent, is over 30 days old.

Other Disclosures
UMDs, NULOs, and In-transit Disbursements, Net represent disbursements of DON funds that have been reported by
a disbursing station to the Department of the Treasury but have not yet been precisely matched against the specific
source obligation giving rise to the disbursements. For the most part, these payments have been made using
available funds and are based on valid receiving reports for goods and services delivered under valid contracts.
The elimination of both Problem Disbursements and In-transits is one of the highest financial management priorities
of the OUSD(C). Problem Disbursements and In-transits represent a significant financial management concern
since: (1) accuracy of accounting reports is affected; (2) availability of funds is more difficult to determine, and (3) the
required research and resolution process becomes much more labor intensive as the age of the problem
disbursements increase. As a result, the DON has efforts underway to improve the systems and to resolve all
previous problem disbursements and process all in-transit disbursements.

In 2nd Quarter FY 2005, DFAS-Cleveland expanded the scope of the definition of a UMD. Formerly, transactions that
had not yet reached an accounting station were defined as undistributed. Now these transactions are being defined
as an UMD. This change in practice is the primary driver behind the $1,130,426 thousand increase reported in
UMDs.


NOTE 4. INVESTMENTS AND RELATED INTEREST

                                                                  2005                                          2004
                                                  Amorti-   Unamortized
                                    Par                                       Investments,   Market Value   Investments,
                                                  zation     (Premium/
                                 Value/Cost                                       Net         Disclosure        Net
As of September 30,                               Method     Discount)
(Amounts in thousands)

1. Intragovernmental
   Securities :
    A. Non-Marketable, Market-
       Based                     $      9,421      N/A      $          (2) $         9,419 $       9,419    $      9,409
    B. Accrued Interest                     100                           0            100           100               48
    C. Total Intragovernmental   $
      Securities                        9,521               $          (2) $         9,519 $       9,519    $      9,457

2. Other Investments:                None




                                                                                                                            105
                                                                    GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                          D e pa r t m e n t o f t h e N a v y

  Fluctuation and/or Abnormalities
  The DON reported an increase of $52 thousand, 108 percent, in Accrued Interest. This increase is reflective of the
  increase in interest rates over the past twelve months.

  Other Disclosures
  The two DON Trust Funds holding interest-bearing securities are the Naval Academy General Gift Fund and the
  Navy General Gift Fund, which have a total Investment net value of $9,519 thousand (including $100 thousand of
  accrued interest). These investments are Non-Marketable Market-Based securities reported at cost, net of amortized
  premiums and discounts.

  Reference
  See Note Disclosure 1.N. - Investments in U.S. Treasury for additional DoD policies governing Investments in U.S.
  Treasury Securities.

  For regulatory discussion on Investments, see Department of Defense Financial Management Regulation, Volume
  6B, Chapter 10.




  NOTE 5. ACCOUNTS RECEIVABLE

                                                                           2005                                2004

                                                 Gross Amount        Allowance For        Accounts          Accounts
                                                     Due            Doubtful Accounts   Receivable, Net   Receivable, Net
      As of September 30,
      (Amounts in thousands)

      1. Intragovernmental Receivables           $        281,304                 N/A $        281,304     $      250,703
      2. Nonfederal Receivables (From the
         Public):                                $    3,278,967      $       (11,310) $       3,267,657    $    2,895,966
      3. Total Accounts Receivable:              $    3,560,271      $       (11,310) $       3,548,961    $    3,146,669


  Information Related to Accounts Receivable

  Fluctuation and/or Abnormalities
  Intragovernmental Receivables.
  The DON reported an increase of $30,601 thousand, 12 percent, in Intragovernmental Receivables in FY 2005.
  The majority of the increase was due to a $54,078 thousand increase with the Department of Homeland Security
  (Level One).

  The increase was offset by the following trading partners:

      Trading Partner                                                    Level                   Amounts (in thousands)
      Other Defense Organizations General Funds                          Two                                   $15,173
      Other Defense Organizations Working Capital Funds                  Two                                     7,586




106
2005 Annual Financial Report

The DON General Fund (GF) acts as a seller of goods and services to other Federal agencies (DON GF's Level One
trading partners) and other organizations within DoD (DON GF's Level Two trading partners). Receipt of customer
orders, the resulting billing of receivables, and the collection of those receivables from other agencies, does not
consistently follow a predictable pattern. This revenue cycle is subject to the business conditions and requirements
of DON's trading partners. The value of accounts receivable is also subject to the processes used for billing and
collection.

After Hurricane Katrina devastated the Gulf Coast, the Federal Emergency Management Agency (FEMA), an agency
under the Department of Homeland Security, requested assistance from the Department of Defense, via the Joint
Chiefs of Staff, for humanitarian relief efforts. As of September 30, 2005, the DON has recognized approximately $60
million in customer orders from FEMA related to Hurricane Katrina. These orders were for diverse missions such as
helicopter search and rescue operations, medical assistance provided by the hospital ship USNS Comfort, and food,
water, and other supplies. When invoices are rendered to FEMA, and collections are received and posted to the
appropriate customer orders, the intragovernmental receivables related to FEMA will be liquidated.

Nonfederal Receivables.
Nonfederal receivables increased $371,691 thousand, 13 percent, primarily as a result of a change in the Allowance
Method used. See discussion below. Also, an increase in accrued interest of $59,164 thousand related to litigation
was recognized.

Allowance Method
Based upon an extensive analysis of historic Treasury Report on Receivables (TROR) data, DON revised the
methodology for determining the allowance for estimated doubtful accounts receivable in FY 2005. The allowance for
FY 2005 is $11,310 thousand. For comparison purposes, the allowance in FY 2004 was $307,659 thousand. This
change in estimated doubtful accounts added $296,349 thousand to nonfederal receivables.

Intragovernmental Accounts Receivable Adjustments
Allocation of Undistributed Collections.
Undistributed collections are allocated between federal and nonfederal categories based on the percentage of federal
and nonfederal Accounts Receivable as submitted in the field level general ledgers. This allocation was suggested
as appropriate in a DFAS Arlington memorandum dated October 4, 2000, which required disclosure to the audit
community of the applicable methodology used to allocate undistributed. For FY 2005 $388,077 thousand in
undistributed collections was allocated to accounts receivable.

Elimination Adjustments.
The DON's accounting systems do not consistently capture trading partner data at the transaction level in a manner
that facilitates trading partner aggregations. Therefore, the DON was unable to reconcile intragovernmental accounts
receivable balances with its trading partners. Through the ongoing Business Management Modernization Program
(BMMP), the Department intends to develop long-term systems improvements that will capture the data necessary to
perform reconciliations. The Intragovernmental Transaction System (IGTS) is one solution being designed to address
the Trading Partner elimination issue.

Intrafund transactions are eliminated based upon trading partner information obtained from the Naval Personnel
Command, the Standard Accounting and Reporting System - Field Level (STARS-FL), and the Standard Accounting
and Reporting System - Headquarters Module (STARS-HQ). The elimination data obtained from these systems
included seller appropriation, grantor (buyer) appropriation, grantor subhead, grantor code, reimbursable source
code, accounts receivable, revenue, unearned revenue, and amount collected.




                                                                                                                       107
                                                                GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  Other Disclosures
  Nonfederal Receivables (from the Public) includes nonentity nonfederal account receivables and entity nonfederal
  account receivables.

  Nonentity Nonfederal Accounts Receivables (from the Public) includes the following:


                                                                As of September 30,
                                                                       2005
      (Amounts in thousands)

      Contract Litigation Principal and Interest           $                  2,521,400
      CDS/MOCAS system debts                                                     11,311
      Penalties, Fines and Admin. Fees and Interes                                6,913
      Gross Nonentity Nonfederal A/R                       $                  2,539,624
      Less Allowance                                                              (637)
      Nonentity Nonfederal Receivables, Net                $                  2,538,987
      Entity Nonfederal Receivables, Ne                                         728,670

      Nonfederal Receivables (From the Public), Net        $                  3,267,657

  The contract litigation includes principal of $1,333,494 thousand, and accrued interest receivable of $1,187,906
  thousand, which represents an increase in accrued interest of $59,164 thousand from FY 2004.

  Definitions of debt system acronyms:
  CDS is the Contractor Debt System that manages debts owed by contractors.
  MOCAS is the Mechanization of Contract Administration System that manages debts owed by contractors.

  Entity accounts.
  Assets that the DON has the authority to use or that management is legally obligated to use to meet entity
  obligations.

  Nonentity accounts.
  Assets held by an entity, but are not available for use in the operations of the entity.

  Abnormal Account Balances.
  Abnormal Accounts Receivable balances may occur for two primary reasons: 1) the application of undistributed
  collections and 2) as a result of the intragovernmental transaction elimination process. DFAS Arlington provided
  guidance in a memorandum dated March 1, 2001 to record accruals, for financial statement presentation purposes,
  to correct abnormal balances resulting from these conditions.

  In accordance with the DoD FMR, Volume 6B, Chapter 13, adjustments are recorded, at the appropriation level, to
  bring the DON's intragovernmental accounts receivable into agreement with its trading partners' intragovernmental
  accounts payable.

  Reference
  See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Accounts Receivable.



108
2005 Annual Financial Report

For regulatory discussion on Accounts Receivable, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10.

See Note Disclosure 1.Y - Undistributed Disbursements and Collections for the definition of Undistributed
Collections.


NOTE 6. OTHER ASSETS

As of September 30,                                                   2005                   2004
(Amounts in thousands)

1. Intragovernmental Other Assets:
     A. Advances and Prepayments                              $          672,257      $          272,723
     B. Total Intragovernmental Other Assets                  $          672,257      $          272,723

2. Nonfederal Other Assets:
    A. Outstanding Contract Financing Payments                $        6,859,367      $        4,694,420
    B. Other Assets (With the Public)                                    129,424                 305,928
    C. Total Nonfederal Other Assets                          $        6,988,791      $        5,000,348

3. Total Other Assets:                                        $        7,661,048      $        5,273,071

4. Other Information:

Fluctuation and/or Abnormalities
Intragovernmental Other Assets.
The DON reported an increase of $399,534 thousand, 146 percent, in Advances and Prepayments, (Line 1.A), in FY
2005. The balances reported are determined by the Intragovernmental elimination process as submitted by DON's
trading partners. In processing the elimination data, increases to Advances and Prepayments are recorded to
compensate for the unresolved differences when needed. Furthermore, using historical data as a baseline, DON
recorded an overall Level One estimate for advances in the amount of $357,464 thousand.

Increase - The majority of the increase was with the following trading partners:

 Trading Partner                                    Level                    Amounts (in thousands)
 Navy Working Capital Fund                          Two                                   $180,959
 Department of Transportation                       One                                     95,578
 Department of Interior                             One                                     40,209
 Office of Personnel Management                     One                                     33,830

Nonfederal Other Assets.

Outstanding Contract Financing Payments.
DON reported an increase of $2,164,947 thousand, 46 percent, in Outstanding Contract Financing Payments (Line
2.A) in FY 2005.




                                                                                                                   109
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  Increase - The majority of the increase was in the following programs:


                        Program                                         Amounts (in thousands)
                        Aircraft Procurement                                       $1,463,711
                        Weapons Procurement                                           291,875



  Other Assets (With the Public).
  DON reported a decrease of $176,504 thousand, 58 percent, in Other Assets (With the Public) (Line 2.B.) in FY
  2005. $148,253 thousand in Marine Corps Procurement advances to contractors has been reclassified to
  Outstanding Contract Financing Payments per an audit recommendation. Travel advances in the Navy Military
  Personnel accounts decreased by $30,174 thousand, 33 percent.

  Information Related to Other Assets

  Other Disclosures
  Intragovernmental Other Assets - Advances and Prepayment.
  The buyer-side advances to others amounts were adjusted to agree with seller-side advances from others on the
  books of other DoD reporting entities (Level Two trading partners). Additionally, the buyer-side prepayment balances
  were adjusted to agree with seller-side deferred credits on the books of other DoD reporting entities. Advances and
  prepayments to Other Federal Agencies (Level One trading partners) were estimated since DON accounting systems
  are unable to identify the agency that is being advanced money from the buyer side perspective. The estimates
  were based upon historical trading partner data obtained from the Intragovernmental Review and Analysis System
  (IRAS).

  Nonfederal Other Assets - Outstanding Contract Financing Payments.
  The DON has reported outstanding financing payments for fixed price contracts as an advance and prepayment,
  because under the terms of the fixed price contracts, the DON becomes liable only after the contractor delivers the
  goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product, the DON is
  not obligated to reimburse the contractor for its costs and the contractor is liable to repay the DON for the full amount
  of the outstanding contract financing payments.

  The following table displays the Outstanding Contract Financing Payments attributed by program. Of note for FY
  2005 is an increase of $1,463,711 thousand, 50 percent, in the Aircraft Procurement program, primarily related to the
  V-22 Osprey and F/A-18 Hornet programs, and 291,875 thousand, 41 percent, in the Weapons Procurement account
  related to the requirement to replenish stocks of weapons and ammunitions.

                                                 As of
                                           September 30, 2005
      (Amounts in thousands)

      Aircraft Procurement                          $   4,378,635
      Shipbuilding and Conversion                         270,777
      Weapons Procurement                               1,002,682
      Procurement, Marine Corps                           274,754
      Other Procurement                                   793,293
      Other (O&M, RDT&E)                                  139,226
                    Total                           $   6,859,367


110
2005 Annual Financial Report

Reference
See Note Disclosure 1.R. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Other Assets.

For regulatory discussion on Other Assets, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10.


NOTE 7. CASH AND OTHER MONETARY ASSETS

As of September 30,                                        2005                   2004
(Amounts in thousands)

1. Cash                                            $          201,999     $              232,946
2. Foreign Currency (non-purchased)                           103,441                      1,919
3. Total Cash, Foreign Currency, & Other
   Monetary Assets                                 $          305,440     $              234,865


Fluctuation and/or Abnormalities
The overall increase of $70,575 thousand, 30 percent, in Total Cash (Line 3) is reflective of an increase of $101,522
thousand in Foreign Currency (Line 2) related to the Marine Corps Expeditionary Forces, Camp Lejeune, depositing
money into a Limited Depositary Account. This Limited Depositary Account, in accordance with DoD FMR guidelines,
is part of the Disbursing Officer's accountability for public funds. The increase in Foreign Currency was offset by a
decrease of $30,947 thousand, 13 percent, in Cash held by various Disbursing Officers.

Definitions
Cash - the total of cash resources under the control of the DON, which includes coin, paper currency, purchased
foreign currency, negotiable instruments, and amounts on deposit in banks and other financial institutions. Cash
available for agency use should include petty cash funds and cash held in revolving funds, which will not be
transferred into the U.S. Government General Fund.

Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in foreign
currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account
(formerly called FT accounts).

Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary Fund.
This category is principally for use by the Department of the Treasury.

Restriction on Cash - all cash and other monetary assets reported are classified as nonentity, which means that the
assets are not available for the DON's use in normal operations.

Other Disclosures
Cash and Foreign Currency reported consists primarily of cash held by Disbursing Officers to carry out their payment,
collection, and foreign currency accommodation exchange mission. The primary source of the amounts reported is
the Standard Form 1219, Statement of Accountability reported by DoD Disbursing Officers.




                                                                                                                       111
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                              D e pa r t m e n t o f t h e N a v y

  The DON translates foreign currency to U.S. dollars utilizing the Department of the Treasury Prevailing Rate of
  Exchange. This rate is the most favorable rate that would legally be available to the U.S. Government's acquisition
  of foreign currency for its official disbursement and accommodation of exchange transactions.

  Reference
  See Note Disclosure 1.J. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Foreign Currency.

  For regulatory discussion on Cash and Other Monetary Assets, see Department of Defense Financial Management
  Regulation, Volume 6B, Chapter 10.


  NOTE 8. DIRECT LOAN AND/OR LOAN GUARANTEE PROGRAMS
  Not Applicable.


  NOTE 9. INVENTORY AND RELATED PROPERTY
      Operating Materials and Supplies, Net

                                                              2005                                  2004

                                                             Revaluation
                                   OM&S Gross Value                          OM&S, Net            OM&S, Net       Valuation Method
                                                              Allowance
      As of September 30,
      (Amounts in thousands)

        1. OM&S Categories:
           A. Held for Use          $         51,202,582 $              0    $   51,202,582   $    49,608,556   LAC, MAC, SP, AC, O
           B. Held for Repair                  6,490,388       (2,108,133)        4,382,255         3,732,111   LAC, MAC, SP, AC, O
           C. Excess, Obsolete,
              and Unserviceable                1,227,767       (1,227,767)                0                 0          NRV
          D. Total                  $         58,920,737 $     (3,335,900)   $   55,584,837   $    53,340,667


          Legend for Valuation Methods:
          SP = Standard Price           NRV = Net Realizable Value
          AC = Actual Cost              O = Other
          MAC = Moving Average Cost     Adjusted LAC = Latest Acquisition Cost adjusted for holding gains


         2. Restrictions on Operating Materials and Supplies (OM&S): None

         3. Other Information Related to Operating Materials and Supplies




112
2005 Annual Financial Report

Fluctuation and/or Abnormalities
The DON reported an increase of $650,144 thousand, 17 percent, for OM&S, Held for Repair (Line 1.B) in FY 2005.
The majority of the increase is due to:
 • Increase of $471,986 thousand in Sponsor Owned Material (SOM) Held for Repair
 • Gains and losses in physical inventory
 • Price adjustments in revaluation allowance for OM&S Held for Repair

Information Related to Operating Material and Supplies, Net
General Composition of Operating Materials and Supplies (OM&S).
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration pods, and
centrally managed aircraft engines. The general composition of OM&S is as follows:

                                                         As of
                                                   September 30, 2005
(Amounts in thousands)

Ammunition and Munitions                             $         33,312,811
Appropriation Purchase Account (APA)
 Principal End Item                                             8,679,424
Sponsor Owned Material                                         10,493,632
APA Secondary Inventory                                         1,131,140
Real-time Reutilization Asset
 Management (RRAM)                                               1,583,393
Other                                                              384,437
Total                                                $         55,584,837


Balances.
In addition to the account balances shown in Table 9.B., the Statement of Federal Financial Accounting Standards
(SFFAS) No. 3 "Accounting For Inventory and Related Property" requires disclosure of the amount of OM&S held for
"Future Use." This information is not captured by current OM&S systems which were designed for material
management rather than accounting purposes.

Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned.
In order to standardize reporting of the categories Held for Use, Held for Repair, and Excess, Obsolete,
Unserviceable, DON implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition code crosswalk
as defined in the memorandum "Accounting for Excess, Unserviceable, and Obsolete Inventory and Operating
Materials and Supplies" dated August 12, 2002. In addition, the condition code crosswalk was amended to include
code "V" in the Excess, Obsolete, Unserviceable category in September 2002. OM&S was reported as follows:


           OM&S Category                      Condition Codes

     Held for Use                                 A, B, C, D
     Held for Repair                       E, F, G, J, K, L, M, N, R
     Excess, Obsolete, Unserviceable              P, H, S, V




                                                                                                                   113
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y

  Valuation Method for OM&S.
  On July 6, 2001, the OUSD(C) issued a memo requiring Moving Average Cost (MAC) as the approved valuation
  method for Inventory Held for Sale and Operating Materials and Supplies. "Each Military Department and Defense
  Agency responsible for material amounts of inventory or operating materials and supplies shall implement the moving
  average cost valuation method as systems are renovated or replaced." The DON is participating in the DoD
  Business Management Modernization Program that is currently reviewing and designing the Business Enterprise
  Architecture (BEA). The BEA provides for a master plan that includes guidance on transition plan strategy concepts,
  considerations, processes, and principles. MAC will be implemented as systems are renovated or replaced. Until
  then, the DON continues to value OM&S using different valuation methodologies such as standard purchase price or
  actual cost. These valuation methodologies vary by system.

  Government Furnished Material (GFM) and Contractor Acquired Material (CAM).
  Generally, the value of the DON's GFM and CAM in the hands of contractors is not included in the OM&S values
  reported above. DoD is presently reviewing its process for reporting these amounts in an effort to determine the
  appropriate accounting treatment and the best method to annually collect and report required information without
  duplicating information already in other existing logistics systems.

  Other Disclosures
  Ammunition and Munitions.
  Ammunition and Munitions are maintained and valued in the Conventional Ammunition Integrated Management
  System Open System Environment (CAIMS-OSE).

  APA Principal End Items.
  Principal End Items includes OM&S items such as shipboard hull, mechanical and electronic equipment, and
  uninstalled aircraft engines. Principal End Items are items of such importance that central inventory control is
  required. They normally possess one of the following characteristics: (a) essential for combat or training; (b) high
  dollar value; (c) difficult to procure or produce; or (d) critical basic materials or components.

  Sponsor Owned Material (SOM).
  SOM is defined as "programmatic material required in support of Program Manager mission requirements for
  production, life cycle maintenance, and installation of systems and equipment consistent with the mission charter".
  The material usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture, development,
  repair, or research and development.

  Real-time Reutilization Asset Management (RRAM).
  Material maintained and valued in RRAM is considered excess to the owner, but may not be excess to the Navy.
  Standard price is used to value all stock-numbered items. Part-numbered items are valued by best available
  information.

  Other Operating Materials & Supplies.
  Other OM&S totaled $384,437 thousand as of FY 2005. The majority of Other OM&S consists of $330,295 thousand
  in Fleet Hospitals and $43,471 thousand in materials for War Reserves in possession of the U.S. Coast Guard.
  During FY 2005, $53,014 thousand of Civil Engineering Support Equipment was issued from the Fleet Hospital and
  War Reserve program, which accounts for the decrease in the overall value of the Other OM&S on hand.

  Reference
  See Note Disclosure 1.M. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Inventory and Related Property.



114
2005 Annual Financial Report

For regulatory discussion on OM&S, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10.

NOTE 10. GENERAL PP&E, NET

                                                                                           2005                                                         2004
                                                 Depreciation/                                         (Accumulated
                                                                                 Acquisition
                                                 Amortization Service Life                             Depreciation/       Net Book Value           Net Book Value
                                                                                   Value
As of September 30,                                Method                                              Amortization)
(Amounts in thousands)


      1. Major Asset Classes:
        A. Land g                                    N/A          N/A        $        616,579                      N/A $           616,579 $                567,889
           Facilities                                S/L         20 - 40           35,398,692      $      (21,295,949)           14,102,743              12,853,775
        C. Leasehold Improvements                    S/L       lease term               7514                     (384)                7,130                     210
        D. Software                                  S/L       2-5 Or 10                 3,071                 (2,866)                 205                     1,949
        E. General Equipment                         S/L        5 Or 10             2,618,492              (2,123,230)             495,262                  517,749
        F. Military Equipment                        S/L        Various           447,870,000           (307,590,000)           140,280,000             134,130,000
                  [1]
          Lease                                      S/L       lease term                      0                       0                    0                   202
        H. Construction-in-Progress                  N/A          N/A               2,826,928                N/A                  2,826,928               3,607,729
         I. Other                                                                        0                         0                      0                       0
      2. Total General PP&E                                                  $ 489,341,276         $    (331,012,429) $         158,328,847     $       151,679,503

[1]
  Note 15. for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable



Fluctuation and/or Abnormalities
Land.
The increase of $48,690 thousand, 9 percent, in land in FY 2005 is attributed to two factors: DON purchasing
additional acreage at the Marine Corps Logistics Base (MCLB), Albany, Georgia and at the MCLB site at Blount
Island, Jacksonville, Florida; and the recognition in FY 2005 of previously unreported land rights and condemned
land.

Buildings, Structures and Facilities.
The increase of $1,248,968 thousand, 10 percent, in buildings, structures, and facilities in FY 2005 is attributed to
several large military construction projects being completed prior to the projected date due to positive weather
conditions.

While positive weather conditions facilitated military projects being completed earlier than scheduled, Hurricanes
Katrina and Rita caused damage to real property at several DON installations. Department of the Navy Damage
Assessment Teams consisting of structural and mechanical engineers, architects, roofing specialists and construction
contract specialists were deployed to the Gulf Coast area of the United States to assess damage caused by
Hurricanes Katrina and Rita.




                                                                                                                                                                       115
                                                                                          GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                   D e pa r t m e n t o f t h e N a v y

  The DON Damage Assessment Teams are providing support to local facilities management teams. Among the
  installations that the DON Damage Assessment Teams are providing engineering damage assessment are Naval Air
  Station/Joint Reserve Base New Orleans; Naval Support Activity New Orleans; Naval Station Gulfport, Mississippi;
  Naval Station Pascagoula, Mississippi; and Stennis Space Center, Mississippi. The DON Damage Assessment
  Teams will deal with three broad categories of buildings, structures, and utilities: (1) facilities that only have
  cosmetic/minor damage and therefore repair costs; (2) facilities that have major damage that it makes more
  economic sense to build new rather than repair and therefore new military construction; and (3) structures that have
  significant damage, but it makes more economic sense to repair them than to build new and therefore capitalized
  improvements. Once the assessments are completed and decisions are made, over time the values of the buildings,
  structures, and utilities on the financial statements will either increase due to new construction and capital
  improvements or values adjusted downward because they were demolished by the Hurricanes and/or require
  demolition.

  Leasehold Improvements.
  The DON reported an increase of $6,920 thousand, 3,295 percent, in Leasehold Improvements in FY 2005. The
  increase is due to the Office of Naval Research relocating to newly leased space, where major improvements were
  made to the site to accommodate their operations.

  Software.
  The DON reported a decrease of $1,744 thousand, 89 percent, in Software in FY 2005. The decrease is due to
  recognizing accumulated depreciation for the first time plus current depreciation.

  Assets Under Capital Lease.
  The DON reported a decrease of $202 thousand, 100 percent, in Capital Leases, net in FY 2005. The decrease is
  due to the expiration of three leases during FY 2005.

  Construction-in-Progress (CIP).
  The DON reported a decrease of $780,801 thousand, 22 percent, in CIP, net in FY 2005. This decrease is a result of
  the completion of a large number of projects since year-end FY 2004. Some of the projects include:


                                                               Cost of Project
      (Amounts in thousands)

      Project
      JTF Military Command Complex                         $           48,100
      Bachelor Enlisted Quarters Congress                              47,240
      Berthing Wharf-Phase 1 Congress                                  40,760

  Information Related to General PP&E, Net

  Military Equipment.
  The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards No.
  23, Eliminating the Category National Defense Property, Plant, and Equipment, in May 2003. This standard, which is
  effective for accounting periods beginning after September 30, 2002, establishes generally accepted accounting
  principles for valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons) in federal
  financial statements. The standard requires the capitalization and depreciation of the cost of military equipment,
  including the cost of modifications and upgrades.




116
2005 Annual Financial Report

The Department of Defense (DoD) has determined that it is not practicable at this time to accumulate from internal
records the information necessary to value military equipment in accordance with generally accepted accounting
principles, because DoD is currently working to revise its accounting processes and systems to support the
informational needs of management and compliance with generally accepted accounting principles. In the interim,
DoD will base the value of military equipment for financial statement presentation purposes on data provided by the
Bureau of Economic Analysis (BEA), Department of Commerce.

The data provided by BEA consists of investment and net book valuation data for 84 groups of equipment such as
aircraft, ships and combat vehicles. BEA uses DoD budget, expenditure, and delivery data to calculate DoD's annual
investment in equipment, after recognizing any equipment transfers or war losses. The DoD adjusts BEA data to
eliminate equipment items that are not accounted for as military equipment, such as spares, munitions, and inventory
items, which are accounted for and reported as Inventory and Related Property.

The DoD is completing a project to value military equipment in accordance with generally accepted accounting
principles. The DoD will complete this project in Fiscal Year 2006 at which time the DoD will discontinue use of BEA
information and report military equipment in accordance with the foregoing principles.

For the DON, the BEA analysis provided for an Acquisition value of $447,870,000 thousand for military equipment,
less an Accumulated Depreciation value of $307,590,000 thousand giving a Net Book Value of $140,280,000
thousand for military equipment as of FY 2005.

Property in the Possession of Contractors.
The value of the DON's General PP&E real property in the possession of contractors is included in the values
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General
PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of the General PP&E
above the DoD capitalization threshold in the possession of contractors. The net book amount of such property is
immaterial in relation to the total General PP&E net book value. Per the DoD FMR Volume 6B Chapter 10, DON is
not supplementing General PP&E information with values from the Defense Contract Management Agency's CPMS
(DD Form 1662) database. In accordance with an approved strategy with OMB, the GAO and the Inspector General,
DoD, the DoD is developing new policies and a contractor reporting process to capture General PP&E information for
future reporting purposes for compliance with Federal GAAP.

Other Disclosures
Real Property.
The Internet Naval Facility Asset Database Store (iNFADS) provides real property values for financial statement
reporting purposes.

Leasehold Improvements.
The DON's real property system (iNFADS) does not track leasehold improvements as a separate component of a
building's total value. However, the DON is surveying commands to determine the value of leasehold improvements
and began recognizing those values in 3rd Quarter FY 2004.

Software.
The DON uses the Defense Property Accountability System (DPAS) to capture costs associated with Internal Use
Software.

Construction-in-Progress (CIP).
CIP balances were obtained from the Facilities Information System (FIS). Data on construction that is performed for



                                                                                                                       117
                                                                GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  the benefit of non-DON customers, such as Air Force and several of the Defense Agencies, is provided to Air Force,
  the Defense Agencies, and the Defense Finance and Accounting Service; such work for others is not included in
  DON CIP balances.

  Preponderant Use.
  Per the DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determinant factor when establishing
  which DoD Component recognizes a particular General PP&E asset for accounting and reporting purposes. If the
  following four criteria are met, the preponderant user should report the property regardless of legal ownership or
  funding source:

  The asset embodies a probable future benefit;
  The DoD Component that reports the asset obtains the benefit and controls access to the benefit inherent in the
  asset;
  The transaction or event giving the Component the right to, and control over, the benefit has already occurred; and
  The predominantly used assets, taken as a whole, are material to the Component's financial statements.

  Per the Office of the Under Secretary of Defense (Comptroller) memo of July 5, 2005, the military departments and
  DoD activities meeting the criteria of preponderant user are responsible for reconciliation of preponderant use
  property. As reconciliations are completed and documented, DON General Fund will make the adjustments to the
  General Property, Plant and Equipment line.

  Reference
  See Note Disclosure 1.O. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing General PP&E.

  For regulatory discussion on General PP&E, see Department of Defense Financial Management Regulation, Volume
  6B, Chapter 10.

      Assets Under Capital Lease
      As of September 30,                                    2005             2004
      (Amounts in thousands)

      1. Entity as Lessee, Assets Under Capital Lease:

          A. Land and Buildings                          $          0    $              0
          B. Equipment                                              0                432
          C. Other                                                  0                   0
          D. Accumulated Amortization                               0                (230)

          E. Total Capital Leases                        $          0    $           202



      2. Description of Lease Arrangements

  Leased assets consist primarily of personal property reported in the DPAS system. Disclosures pertaining to future
  payments due are provided at Note 15.

      3. Other Information Related to Assets Under Capital Lease




118
2005 Annual Financial Report

Fluctuation and/or Abnormalities
The DON reported a decrease of $202 thousand, 100 percent, in Equipment Leases, net in FY 2005. The decrease
is due to the expiration of three leases during FY 2005.

Reference
See Note Disclosure 1.Q. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Leases.



NOTE 11. LIABILITIES NOT COVERED                 BY   BUDGETARY RESOURCES

As of September 30,                                                  2005                    2004
(Amounts in thousands)

  1. Intragovernmental Liabilities:
       A. Accounts Payable                                    $               0        $                 0
       B. Debt                                                                0                          0
       C. Other                                                       3,162,676                  3,438,795
       D. Total Intragovernmental Liabilities                 $       3,162,676        $         3,438,795

  2. Nonfederal Liabilities:
      A. Accounts Payable                                     $          28,049        $            89,472
      B. Military Retirement Benefits and Other
         Employment-Related Actuarial Liabilities                     1,532,819                  1,575,816
      C. Environmental Liabilities                                   16,513,000                 16,031,979
      D. Loan Guarantee Liability                                             0                          0
      E. Other Liabilities                                            3,550,457                  3,478,823
      F. Total Nonfederal Liabilities                         $      21,624,325        $        21,176,090

  3. Total Liabilities Not Covered by Budgetary
     Resources:                                               $      24,787,001        $        24,614,885

  4. Total Liabilities Covered by Budgetary
     Resources:                                                       4,470,889                  3,831,161

  5. Total Liabilities                                       $       29,257,890        $        28,446,046

  6. Other Information Related to Liabilities Not Covered by Budgetary Resources

Fluctuation and/or Abnormalities
Intragovernmental Liabilities.
No fluctuation and/or abnormalities need to be explained.

Nonfederal Liabilities.
Accounts Payable (Line 2.A) The DON reported a decrease of $61,423 thousand, 69 percent, in Accounts Payable, in
FY 2005. The decrease is a result of a net of Accounts Receivable and Accounts Payable for the FY 2000 canceling
year. The amounts recorded for Cancelled Year Accounts Payable are derived from the SF-133 Report on Budget
Execution.


                                                                                                                   119
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  Unfunded leave, a component of Other Liabilities (Line 2.E) increased by $186,887 thousand, 8 percent. Past
  practice was that an annual estimate was used for unfunded leave; now the accounting systems are beginning to
  update the estimate on a quarterly basis and thus the increase.

  An explanation of fluctuations and abnormalities for Total Liabilities Covered by Budgetary Resources is included in
  the specific note for that liability. See Notes 12 through 17.

  Definitions
  Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity, which are covered by
  realized budgetary resources as of the balance sheet date. Budgetary resources encompass not only new budget
  authority, but also other resources available to cover liabilities for specified purposes in a given year.

  Realized budgetary resources include:
    • New budget authority
    • Spending authority from offsetting collections (credited to an appropriation or fund account)
    • Recoveries of unexpired budget authority through downward adjustments of prior year obligations
    • Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances
       during the year, and
    • Permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law as of
       the balance sheet date, provided that the resources may be apportioned by the OMB without further action by
       the Congress or without a contingency first having to be met.

  Conversely, Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
  realized budgetary resources as of the balance sheet date. Budgetary Authority to satisfy these liabilities is expected
  to be provided in a future Defense Appropriations Act. When that future budgetary authority is provided, these
  respective liabilities will be recorded as Covered by Budgetary Resources with an associated funded expense. To
  prevent overstatement on the Balance Sheet and Statement of Net Cost, the liabilities previously recorded as Not
  Covered by Budgetary Resources and the associated unfunded expenses are reversed.

  Other Disclosures
  Intragovernmental Liabilities - Other (Not Covered by Budgetary Resources) (Line 1.C.) includes the following:

                                             As of
                                       September 30, 2005
      (Amounts in thousands)

      Federal Employees
       Compensation Act (FECA)
                                          $           554,282
      Unemployment                                      69,338
      Liabilities to Treasury                        2,539,056
             Total                        $         3,162,676



  Liabilities to Treasury
  Unliquidated progress payments and associated accrued interest receivables for contractor debt in litigation is
  reported as an unfunded liability to Department of the Treasury. Collections on this debt will be due and payable to
  Treasury as the appropriations are in a cancelled status. See Notes 2 and 5 for further disclosure.




120
2005 Annual Financial Report

Nonfederal Liabilities - Other (Not Covered by Budgetary Resources) (Line 2.E.) includes the following:

                                                                   As of
                                                             September 30, 2005
 (Amounts in thousands)

 Annual Leave                                                $           2,650,747
 Capital Lease Liabilities                                                       0
 Military Equipment (Nonnuclear
     Nonenvironmental Disposal Liabilities)                                665,022
 Disposal Liabilities for Excess/Obsolete Structures                       182,114
 Contract Incentive                                                         52,574
      Total                                                  $           3,550,457


Reference
For additional line item discussion, see:
  Note 8, Direct Loans and/or Loan Guarantee Programs
  Note 12, Accounts Payable
  Note 13, Debt
  Note 14, Environmental Liabilities and Disposal Liabilities
  Note 15, Other Liabilities
  Note 16, Commitments and Contingencies
  Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities



NOTE 12. ACCOUNTS PAYABLE

                                                                      2005                                   2004
                                                                 Interest,
                                       Accounts Payable        Penalties, and              Total             Total
 As of September 30,                                         Administrative Fees
 (Amounts in thousands)

   1. Intragovernmental Payables:      $         1,208,702              N/A            $     1,208,702   $    1,437,616
   2. Nonfederal Payables (to the
      Public):                                   1,180,033                         0         1,180,033        1,395,008
   3. Total                            $         2,388,735       $                 0   $     2,388,735   $    2,832,624


  4. Other Information Related to Accounts Payable

Fluctuation and/or Abnormalities
Intragovernmental Payables.
The DON reported a decrease of $228,913 thousand, 16 percent, in Intragovernmental payables in FY 2005. These
balances are largely driven by the trading partner process. Upon receipt of accounts receivable data reported by our
trading partners, DON records compensating accounts payable. For agencies that do not provide account receivable
data, DON records accounts payable estimates based upon historical data. The total Level One Intragovernmental
accounts payable amount recorded in FY 2005 was $430,290 thousand.


                                                                                                                          121
                                                                     GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  Decrease - the majority of the decrease was with the following trading partners:

         Intragovernmental Entities                         Level                    Amounts (in thousands)
         Navy Working Capital Fund                          Two                                   $181,589
         Other Defense Organizations
           Working Capital Funds                            Two                                     128,605
         General Services Administration                    One                                      21,507

  Increase - the decreases above were offset by increases with the following trading partners:

        Intragovernmental Entities                         Level                     Amounts (in thousands)
        Air Force General Fund                             Two                                     $38,423
        Department of Transportation                       One                                      36,728
        Department of Treasury                             One                                      35,520

  To implement new Treasury guidance, Judgment Fund Liabilities were recorded as Accounts Payable beginning in
  FY 2005, rather than Other Liabilities. This change in policy added $35,567 thousand to reported balances in
  Intragovernmental Payables.

  Nonfederal Payables.
  DON reported a decrease of $214,975 thousand, 15 percent, in Nonfederal Accounts Payable in FY 2005. Payables,
  more than any other liability, are subject to the vagaries of the business cycle and variances from the previous
  reporting period are expected.

  Definitions
  Intragovernmental Accounts Payable.
  This line consists of amounts owed to other federal agencies for goods or services ordered and received but not yet
  paid. Interest, penalties and administrative fees are not applicable to intragovernmental payables.

  Nonfederal Payables (to the Public).
  This line represents amounts owed to nonfederal government entities and individuals.

  Undistributed Disbursements.
  Undistributed Disbursements are the difference between disbursements recorded at the detailed level to a specific
  obligation or payable in the activity field records versus those reported by the Department of the Treasury. This
  should agree with the undistributed disbursements reported on monthly accounting reports. Generally, timing issues
  between systems cause undistributed disbursements. In-transit disbursements are payments that have been made
  by other agencies, entities, or systems that have not yet been recorded in the DON's accounting records. For FY
  2005, total supported undistributed disbursements were $2,678,771 thousand.

  Intragovernmental Elimination.
  Regarding inter-agency purchases; DON accounting systems do not capture trading partner data at the transaction
  level in a manner that facilitates trading partner aggregations. Therefore, the DON was unable to fully reconcile
  intragovernmental accounts payable to the related intragovernmental accounts receivable, on another agencies'
  records that generated the payable.

  Therefore, the DoD summary level seller accounts receivables were compared to the DON's accounts payable. An
  adjustment was posted to the DON's accounts payable based on the comparison with the accounts receivable of the
  DoD Components providing goods and services to the DON.


122
2005 Annual Financial Report

DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls to
eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that
after-the-fact reconciliation cannot be accomplished with existing or foreseeable resources. In the interim, DFAS
is leading an effort to identify alternative means of capturing and recognizing buyer side trading partner data.

Other Disclosures
Abnormal Account Balances.
Abnormal Accounts Payable balances may occur because 1) the DON does not consistently record Accounts
Payable upon receipt and acceptance of goods and services; 2) the application of undistributed disbursements,
and 3) as a result of the intragovernmental transaction elimination process. Per DoDFMR Vol. 6B, Ch. 13, when an
abnormal balance is created, an adjustment to Accounts Payable and Expense should be made accordingly to
recognize the shortfall.

Intragovernmental elimination adjustments are recorded at the component level, to bring the DON's
intragovernmental accounts payable into agreement with its trading partners' intragovernmental accounts receivable.
These elimination process adjustments may also result in abnormal accounts payable.

Judgment Fund Liabilities.
The DON must reimburse the Department of the Treasury for payments made from the Judgment Fund on its behalf.
These payments are a result of claims being resolved under the Contracts Dispute Act. In addition, the Notification
of Federal Antidiscrimination and Retaliatory Act (No FEAR) was implemented on Oct 1, 2003. This law requires all
agencies to reimburse the Judgment Fund for cases covered by the No FEAR Act. For FY 2005, the DON reported
$263 thousand for No FEAR Act liabilities.

Reference
See Note Disclosure 1.G. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Accounting for Intragovernmental Activities.



NOTE 13. DEBT
Not Applicable.




                                                                                                                       123
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                                             D e pa r t m e n t o f t h e N a v y


  NOTE 14. ENVIRONMENTAL LIABILITIES AND DISPOSAL LIABILITIES


                                                                                                    2005                              2004

                                                                           Current Liability Noncurrent Liability     Total           Total
      As of September 30,
      (Amounts in thousands)

        1. Environmental Liabilities - Nonfederal
           A. Accrued Environmental Restoration (DERP funded) Costs
              1. Active Installations--Environmental Restoration (ER       $      272,906     $       2,393,610 $     2,666,516   $    2,841,462
             2. Active Installations--ER for Closed Ranges                         16,458               537,997         554,455          583,001
             3. Formerly Used Defense Sites (FUDS) – ER                                 0                     0               0                0
             4. FUDS--ER for Transferred Ranges                                         0                     0               0                0

           B. Other Accrued Environmental Costs (Non-DERP funds)
              1. Active Installations--Environmental Corrective Action                   0                     0              0               0
              2. Active Installations—Environmental Closure Requirements                 0                     0              0               0
              3. Active Installations--Environ.Response at Active Ranges                 0                     0              0               0
              4. Other                                                                   0                     0              0               0

           C. Base Realignment and Closure (BRAC)
              1. BRAC Installations--Environmental Restoration (ER)               200,588               878,668       1,079,256        1,110,652
              2. BRAC Installations--ER for Transferring Ranges                     2,699                62,537          65,236           55,781
              3. BRAC Installations--Environmental Corrective Action                    0                     0               0                0
              4. Other                                                                  0                     0               0                0

           D. Environmental Disposal for Weapons Systems Programs
             1. Nuclear Powered Aircraft Carriers                                       0             6,426,100       6,426,100        5,693,000
             2. Nuclear Powered Submarines                                         42,400             5,794,800       5,837,200        5,188,700
             3. Other Nuclear Powered Ships                                             0               223,900         223,900          287,500
             4. Other National Defense Weapons Systems                              2,400               195,388         197,788          271,883
             5. Chemical Weapons Disposal Program                                       0                     0               0                0
             6. Other                                                                   0                     0               0                0
        2. Total Environmental Liabilities:                                $      537,451     $      16,513,000 $    17,050,451   $   16,031,979

        3. Other Information Related to Environmental Liabilities

  Fluctuation and/or Abnormalities
  Base Realignment and Closure (BRAC).
  DON reported a net increase of $9,455 thousand, 17 percent, for BRAC Installations Environmental Restoration for
  Transferring Ranges (Line 1.C.2) in FY 2005. The majority of the net increase is attributed to:

      • A net increase in the projects' cost to complete (CTC) estimates resulted in a $11,489 thousand increase
      • A $99 thousand allocation from FY 2004 to the Munitions Response Program (MRP) program at BRAC
        installations for environmental restoration at transferring ranges
      • The increase was offset by a decrease of $2,133 thousand in program execution for FY 2005.



124
2005 Annual Financial Report

Environmental Disposal for Weapon Systems.
The DON reported an overall increase of $733,100 thousand, 13 percent, for Nuclear Powered Aircraft Carriers (Line
1.D.1) in FY 2005. Two factors attributed to the increase in the liability estimate: (1) an increase in the labor rates;
and (2) an increase in the cost of materials used in the disposal. The source for labor rates and cost of materials is
the annual escalation guidance.

The DON reported an overall increase of $648,500 thousand, 12 percent, for Nuclear Powered Submarines (Line
1.D.2) in FY 2005. Two factors attributed to the increase in the liability estimate: (1) an increase in the labor rates;
and (2) an increase in the cost of materials used in the disposal. The source for labor rates and cost of materials is
the annual escalation guidance.

For Other Nuclear Powered Ships (Line 1.D.3), there was an increase in labor rates and cost of materials used in the
disposal however the increase was offset by an overall net decrease of $63,600 thousand, 22 percent, in FY 2005.
Two factors attributed to the decrease in the liability estimate: (1) annual review of estimates resulted in decreases in
the estimates due to changing disposal methods from a single inactivation/reactor compartment disposal/hull
recycling availability to separate inactivation and reactor compartment disposal/hull recycling availabilities and (2)
program execution such as disposal of a California class cruiser.

For Other National Defense Weapons Disposal Program (Line 1.D.4) the DON reported an overall decrease of
$74,095 thousand, 27 percent, in FY 2005. The majority of the decrease was due to $70,418 thousand for the
Trident Missile disposal program being reclassified from an environmental disposal liability to a non-environmental
disposal liability during this reporting period that is being reported in Note 15. This reclassification was based on a
review of U.S. environmental laws, regulations and management decisions by the DON program office responsible
for disposal of Trident Missile motors.

Additional Information Related to Environmental Liabilities
Overall, the Department of the Navy has a reasonable level of confidence in the estimates recognized on the face of
the financial statements. This reasonable level of confidence in the estimates is based on the fact that the estimates
for DERP/BRAC programs are based on the Cost to Complete (CTC) module of the NORM System. A verification,
validation, and accreditation was completed by a third party for the CTC module of NORM, while the environmental
program managers continue to validate the data. For the Weapons systems, the environmental program managers
base their environmental disposal estimates on actual costs for similar projects.

Accrued Environmental Restoration (DERP Funded) Cost Liabilities.
The DON Environmental Restoration (Department of Defense Environmental Restoration Program) includes those
sites that have been identified as legacy cleanup sites. For FY 2005, the DON estimated and reported $3,220,971
thousand for environmental restoration liabilities. This amount is comprised of $2,666,516 thousand in Active
Installations - Environmental Restoration (ER) liabilities and $554,455 thousand in Active Installations - ER for Closed
Ranges, liabilities, which represents Unexploded Ordnance (UXO). The DoD FMR, Volume 6B, Chapter 10 requires
that "any estimate produced must be based on site specific information and use cost models validated in accordance
with DoD Instruction 5000.61." The DON is supporting this requirement by continuing to validate its range inventory
as well as by pursuing the process of obtaining valid cost estimates for each range.

Other Accrued Environmental Costs (Non-DERP funds).
The DON defines Non-DERP environmental sites as those sites associated with on-going operations such as solid
waste management unit cleanup, landfill closure, permitted facilities, removal, replacement, retrofill, and/or disposal
of PCB transformers, underground storage tank remedial investigation and closure. A component of the DON
Financial Improvement Program is to survey, identify, estimate, and provide an inventory of Non-DERP sites



                                                                                                                           125
                                                                   GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y

  throughout the DON. The milestone for this action is to be completed by 4th Quarter FY 2006. The DON has a
  preliminary total liability of $225,038 thousand; however, the DON is currently not reporting this amount within the
  General Fund financial statements until all the site data and estimates for the Non-DERP costs are completed.

  Base Realignment and Closure (BRAC).
  BRAC environmental sites are environmental sites at DON installations that are or will be closed under the Base
  Realignment and Closure process. For FY 2005, the DON estimated and reported $1,144,492 thousand for BRAC
  funded environmental restoration liabilities. This amount includes $1,079,256 thousand for environmental restoration
  (ER) and $65,236 thousand for ER transferring ranges, which includes military munitions, chemical residues from
  military munitions, and munitions scrap at locations on or associated with a military range on a BRAC installation.

  Environmental Disposal for Weapons Systems Programs.
  Environmental Disposal for Weapon Systems are those estimates associated with the environmental disposal costs
  for the DON nuclear weapons programs that includes Nuclear Powered Aircraft Carriers, Nuclear Powered
  Submarines and Other Nuclear Powered Ships and conventional ships. The DON reported an environmental
  disposal liability for Weapons Systems Programs of $12,684,988 thousand in FY 2005. This amount includes
  nuclear powered aircraft carriers of $6,426,100 thousand, nuclear powered submarines of $5,837,200 thousand,
  other nuclear powered ships of $223,900 thousand and other national defense weapons systems of $197,788
  thousand.

  Methodology Used to Estimate Environmental Liabilities
  Accrued Environmental Restoration (DERP Funded) Costs.
  Active Installations - Environmental Restoration (ER): Accrued restoration (cleanup) liabilities represent the cost to
  correct past environmental areas that are funded under the Defense Environmental Restoration Program in
  accordance with "Management Guidance for the DERP," and "Accrued Environmental Restoration (Cleanup)
  Liabilities," Chapter 14 of Volume 4 of the DoD FMR. These liabilities relate to PP&E, including acquired land and
  Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4 of the DoD FMR.
  Environmental restoration activities may be conducted at operating installations, at FUDS, at Closed, Transferred,
  and Transferring Ranges. Environmental restoration measurements involve the use of cost estimates that consider,
  on a current cost basis, the anticipated costs of the level of effort required to affect the restoration, as well as
  applicable legal and/or regulatory requirements. Program management and support costs are included in the
  estimates. The estimates are based on the DON's cost-to-complete (CTC) module of the DON Normalization of Data
  System (NORM). Certification of the CTC module was completed early in FY 2002. Such cost estimates are based
  on the current technology available. Site inventory and estimated cost data prepared for the DERP report to the
  Congress was used by the DON as the baseline for environmental restoration (cleanup) liability measurement (i.e.,
  the current cost to acquire the required services). The Accrued Environmental Restoration (Cleanup) Costs do not
  include the costs of environmental compliance; pollution prevention, conservation activities, contamination or spills
  associated with current operations, or treaty obligations, all of which are accounted for as part of ongoing operations.
  The Department of the Navy's Environmental Restoration (ER, N) Program includes 3,692 clean-up sites while those
  installations covered by Base Realignment and Closure (BRAC) funding includes 1,057 clean-up sites.

  Active Installations - Environmental Restoration For Closed Ranges: This represents the environmental liabilities
  associated with the identification, investigation and removal and remedial actions to address environmental
  contamination at ranges that were closed prior to September 30, 2002. The contamination may include munitions,
  chemical residues from military munitions and munitions scrap at ranges on active installations that pose a threat to
  human health or the environment. The amount reported is the portion of the liability that can be estimated based on
  site level investigations and characterizations. The estimate produced is based on site-specific information and uses
  cost models validated in accordance with DoD Instruction 5000.61, "DoD Modeling and Simulation (M&S)



126
2005 Annual Financial Report

Verification, Validation, and Accreditation (VV&A)" of May 2003. Total liabilities (cost-to-complete) are not estimated
until there is sufficient site-specific data available to estimate the total liability. Beginning in FY 2001, the Department
began an inventory of closed ranges and transferring ranges under the Military Munitions Response Program
(MMRP) or UXO program. The inventory was completed September 2002 and contains 208 closed ranges at active
installations and 19 transferring ranges at BRAC sites.

Additional Disclosures
To execute the DERP/BRAC environmental cleanup program, the DON contracts with environmental vendors to
remediate legacy waste. Therefore, there are no DON direct expenditures to report for operating and capital
expenditures for remediation of legacy waste.

The DON defines environmental cleanup associated with general property, plant, and equipment as Non-DERP. As
part of the action of the DON Financial Improvement Program, the Department contracted with several environmental
vendors to survey, estimate, and establish a database of DON sites associated with cleanup associated with general
property, plant, and equipment. Therefore, the DON does not have any amount to report for the estimated and the
unrecognized portion of the total estimated cleanup costs associated with general property, plant, and equipment for
the current period and prior periods. The DON expects to have the estimates completed 4th Quarter, FY 2006.

For the Weapons Systems both current and prior periods, the changes in the estimates were a result of price growth
such as increase in labor rates and an increase in the cost of materials used in disposal. However, approximately
$60,000 thousand decrease in environmental liability estimates for weapons systems was a result in a change in
technology. Weapons systems disposal methods changed from a single inactivation/reactor compartment
disposal/hull recycling availability to separate inactivation and reactor compartment disposal/hull recycling
availabilities.

For the DERP/BRAC programs a survey data of the Department of the Navy Environmental Restoration Program cost
estimate changes for sites that had over 10 percent change indicated diverse reasons for change in estimates. The
reasons for changes include estimation changes (26 percent), regulatory changes (59 percent), and technical
changes (15 percent). Reasons for changes in estimation are as follows: cost-to-complete (CTC) overlooked or
previously unknown, better site characterization with sampling, cost avoidance rerun CTC, re-estimation based on
different assumptions and/or escalation, and re-estimation of costs based on lessons learned. Reasons for changes
in the regulatory area include: addition of range rule/munitions requirements, additional or extended long-term
monitoring requirements or 5 year reviews, no further action agreement with regulator, and risk based corrective
action. Reasons for changes in the technical area include: additional contamination level reduction with sampling,
additional or extended remedial action operation, additional sites and incomplete site data, and changes in technical
solutions.

References and Significant Laws
The following is a summary of significant laws that affect the Department's conduct of environmental policy and
regulations.

The National Environmental Policy Act (NEPA) of 1970 requires the Department to consider the environmental
impacts of proposed actions in the decision making process. Per DON regulations, the action proponent will
determine the level or amount of NEPA documentation required. The Resource Conservation and Recovery Act
(RCRA) of 1976 as amended by the Hazardous and Solid Waste Amendments of 1984 (HSWA), was the first
comprehensive federal effort to deal with safe disposal of all types of hazardous wastes, and provides for "cradle to
grave" tracking of hazardous wastes. Permits are required for treatment, storage or disposal. Requirements for
underground storage tanks (USTs) are also contained in RCRA.



                                                                                                                               127
                                                                    GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA), commonly
  referred to as the Superfund legislation, provided for Federal agencies authority to respond to the release or the
  substantial threat of release of hazardous substances into the environment. CERCLA was amended several times;
  one of the amendments was the Community Environmental Response Facilitation Act of 1992. The Department must
  identify real property on each facility that is not contaminated and that offers the greatest opportunity for expedited
  reuse and redevelopment. When property is transferred, BRAC or non-BRAC, the Department is still responsible for
  any remediation or corrective action or any response action found to be necessary after the transfer.

  DoD Instruction 5000.61, "DoD Modeling and Simulation (M&S) Verification, Validation, and Accreditation (VV&A)"
  of May 2003. This Instruction implements policy, assign responsibilities, and prescribe procedures under Directive
  5000.59 for the verification, validation, and accreditation of DoD models and simulations and their associated data.
  It also authorizes publication of DoD 5000.61-G, "DoD Verification, Validation, and Accreditation Guide".

  For the nuclear powered aircraft carriers, submarines, and other nuclear ships, the following significant laws affect
  the Department's conduct of environmental policy and regulations. The Atomic Energy Act of 1954, as amended,
  assures the proper management of source, special nuclear, and byproduct material. As in all cases with nuclear
  power, the Department coordinates all actions with the Department of Energy. The Nuclear Waste Policy Act of 1982
  required all owners and generators of high-level nuclear waste and spent nuclear fuel, to pay their respective shares
  of the full cost of the program. Finally, the Low Level Radioactive Waste Policy Amendments Act of 1986 provides
  for the safe and efficient management of low-level radioactive waste.

  For additional information concerning applicable laws and regulations, methodology for assigning estimated cleanup
  costs, description and location of sites, and technology used for cleanup consult the DON Report for FY's 2004-2008,
  "Strong Environmental Partners; Our Community, Our Navy", July 2004. The report can be found at
  http://5yrplan.nfesc.navy.mil.

  For form and content discussion on Environmental Liabilities, see Department of Defense Financial Management
  Regulation, Volume 6B, Chapter 10.




128
2005 Annual Financial Report


NOTE 15. OTHER LIABILITIES

                                                                                  2005                            2004
                                                              Current          Noncurrent
                                                                                                  Total           Total
As of September 30,                                           Liability         Liability
(Amounts in thousands)

  1. Intragovernmental:
      A. Advances from Others                             $              0 $              0   $          0    $            0
      B. Deposit Funds and Suspense Account Liabilities            311,227                0        311,227           256,784
      C. Disbursing Officer Cash                                   305,441                0        305,441           234,866
      D. Judgment Fund Liabilities                                       0                0              0            41,833
      E. FECA Reimbursement to the Department of Labor             245,145          309,136        554,281           565,884
      F. Other Liabilities                                       2,655,100                0       2,655,100         2,885,435
      G. Total Intragovernmental Other Liabilities        $      3,516,913 $        309,136   $   3,826,049   $     3,984,802
  2. Nonfederal:
      A. Accrued Funded Payroll and Benefits              $        566,829 $                0 $    566,829    $      414,999
      B. Advances from Others                                      151,215                  0      151,215                 0
      C. Deferred Credits                                                0                  0            0                 0
      D. Deposit Funds and Suspense Accounts                             0                  0            0                 0
      E. Temporary Early Retirement Authority                            0                  0            0               699
      F. Nonenvironmental Disposal Liabilities:
           (1) National Defense PP&E (Nonnuclear)                   18,491          665,023         683,514           565,796
           (2) Excess/Obsolete Structures                           53,783          182,114         235,897           343,324
           (3) Conventional Munitions Disposal                           0                0               0                 0
           (4) Other                                                     0                0               0                 0
      G. Accrued Unfunded Annual Leave                           2,650,745                0       2,650,745         2,463,860
      H. Capital Lease Liability                                         0                0               0               202
       I. Other Liabilities                                        132,917           38,719         171,636           231,947
      J. Total Nonfederal Other Liabilities               $      3,573,980 $        885,856 $     4,459,836   $     4,020,827
3. Total Other Liabilities:                               $      7,090,893 $      1,194,992 $     8,285,885   $     8,005,629



Fluctuation and/or Abnormalities
Intragovernmental Other Liabilities.
Deposit Funds and Suspense Account Liabilities (Line 1.B): The DON reported an increase of $54,443 thousand,
21 percent, in FY 2005. The increase is attributed primarily to timing issues in the Withheld State and Local Taxes
account 6275, the General Fund Proprietary Receipts account 3210, and clearance of transactions in the Recoveries
Under the Foreign Military Sales Program account 3041.

Disbursing Officer Cash (Line 1.C): DON reported an increase of $70,575 thousand, 30 percent, in FY 2005. The
increase is a reflection of a $101,521 thousand increase in Foreign Currency related to the Marine Corps
Expeditionary Forces, Camp Lejeune, depositing money into a Limited Depositary Account. This Limited Depositary
Account, in accordance with DoD FMR guidelines, is part of the Disbursing Officer's accountability for public funds.
The increase in Foreign Currency was offset by a decrease of $30,947 thousand in Cash held by various Disbursing
Officers.




                                                                                                                          129
                                                                  GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  Judgment Fund Liabilities (Line 1.D): To implement new Treasury guidance, Judgment Fund Liabilities were recorded
  as Accounts Payable starting FY 2005, rather than Other Liabilities. Therefore, there is a 100 percent decrease in
  Judgment Fund Liabilities.

  Nonfederal Other Liabilities.
  Accrued Funded Payroll and Benefits (Line 2.A): Accrued Funded Payroll and Benefits increased $151,830 thousand,
  37 percent, in FY 2005. The Marine Corps began to report Accrued Payroll in Other Liabilities in FY 2005.

  Advances from Others (Line 2.B): Advances from Others increased $151,215 thousand, 100 percent, in FY 2005 due
  to a process change whereby DON began recognizing unearned revenue on the balance sheet.

  Temporary Early Retirement Authority (Line 2.E): All liabilities related to the TERA program have been satisfied.
  Therefore, there is a 100 percent decrease in Temporary Early Retirement Authority liability.

  Military Equipment (Nonnuclear) (Line 2.F.1): Military Equipment (Nonnuclear) increased $117,718 thousand, 21
  percent, in FY 2005. The increase was due to a $70,418 thousand for the Trident Missile disposal program being
  reclassified from an environmental disposal liability to a non-environmental disposal liability during this reporting
  period and now reported in Note 15. This reclassification was based on a review of U.S. environmental laws,
  regulations and management decisions by the DON program office responsible for disposal of Trident Missile motors.

  Excess/Obsolete Structures (Line 2.F.2): Excess/Obsolete Structures decreased $107,427 thousand, 31 percent, in
  FY 2005 which is reflective of revised estimates for demolition costs in future years.

  Capital Leases Liability (Line 2.H): Capital Leases Liability decreased $202 thousand, 100 percent, in FY 2005 due to
  expiration of three leases in FY 2005.

  Intragovernmental Other Liabilities:
  Judgment Fund (Line 1.D).
  To implement the guidance from the Treasury, Judgment Fund Liabilities were recorded as Accounts Payable starting
  FY 2005, rather than Other Liabilities.

  Other Liabilities (Line 1.F.) includes the following:

                                                                As of
                                                          September 30, 2005
      (Amounts in thousands)

       Liability to Treasury & Others                      $       2,541,177
       Unemployment                                                    69,338
       Employment Benefit                                              44,585
       Total Intragovernmental Other Liabilities           $       2,655,100



  With respect to the major fiduciary balances, the DON must reconcile with the Department of Labor and the Office of
  Personnel Management. In FY 2005, the DON reported the following Intragovernmental Fiduciary liabilities:
  $554,281 thousand in FECA, $69,338 thousand in Unemployment, $44,585 thousand in Employment Benefit.




130
2005 Annual Financial Report

Nonfederal Other Liabilities:
Non-Environmental Disposal Liability Disclosure.
The DON recognizes the Non-Environmental disposal liability for nuclear powered assets when the asset is initially
placed in service. The Non-Environmental costs are included with the environmental disposal costs and reported in
Note 14. However, the $683,514 thousand reported is estimated Non-Environmental disposal liability for
conventional military equipment.

Excess/Obsolete Structures (Line 2.F.2).
The reported amount of $235,897 thousand is an estimate of disposing excess/obsolete structures at active
installations.

Other Liabilities (Line 2.I.) includes $119,062 thousand Contract Holdbacks and $52,574 thousand Contract
Incentives.

Reference
See Note Disclosure 1.S. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.


                                                                        2005                                       2004
                                                                    Asset Category
                                           Land and
                                                               Equipment           Other           Total           Total
As of September 30,                        Buildings
(Amounts in thousands)

1. Future Payments Due:
    A. 2005                            $               0   $               0   $           0   $           0   $           202
    B. 2006                                            0                   0               0               0                0
    C. 2007                                            0                   0               0               0                0
    D. 2008                                            0                   0               0               0                0
    E. 2009                                            0                   0               0               0                0
    F. After 5 Years                                   0                   0               0               0                0
    G. Total Future Lease
       Payments Due                    $               0   $               0   $           0   $           0   $           202
    H. Less: Imputed Interest
       Executory Costs                                 0                   0               0               0                 0
    I. Net Capital Lease Liability     $               0   $               0   $           0   $           0   $           202


2. Capital Lease Liabilities Covered by Budgetary Resources:                                   $           0   $            0

3. Capital Lease Liabilities Not Covered by Budgetary Resources:                               $           0   $           202
4. Other Information Related to Capital Lease Liability




                                                                                                                       131
                                                                     GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y

  Fluctuation and/or Abnormalities

  The DON reported a decrease of $202 thousand, 100 percent, in Equipment Leases, net in FY 2005. The decrease
  is due to the expiration of three leases in FY 2005.

  Other Disclosures
  The liabilities associated with capital leases are captured in legacy systems and are not consistently recorded in the
  accounting system. The DON has recognized a liability equal to the net value of the assets (i.e. gross value less
  accumulated amortization). The resulting liability was recorded as a payment due in FY 2005. The proper breakout
  of future payments to appropriate years will be done when a process for capturing lease liabilities is implemented.

  Reference
  See Note Disclosure 1.Q. - Significant Accounting Policies for additonal discussion on financial reporting
  requirements and DoD policies governing Leases.

  For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management Regulation,
  Volume 6B, Chapter 10.




  NOTE 16. COMMITMENTS AND CONTINGENCIES
  Information Related to Commitments and Contingencies:

  Legal Contingencies:
  The Department of the Navy is a party in various administrative proceedings and legal actions, which may ultimately
  result in settlements or decisions adverse to the Federal Government. These proceedings and actions arise in the
  normal course of operations and their ultimate disposition is unknown. In the event of an adverse judgment against
  the Government, some of the liabilities may be payable from the Judgment Fund. Others may be payable from the
  Department's resources, either directly or by reimbursement to the Judgment Fund.

  For fiscal years 2005 and 2004, the DON General Fund materiality threshold for reporting litigation, claims, or
  assessments was $53.2 million and $33.3 million, respectively. Legal actions affecting the DON include those for
  civil and environmental litigation, claims, and assessments. Based on information contained in the Legal
  Representation Letters, management does not have sufficient reason to believe that it is likely that the Government
  will be liable for the maximum amounts claimed.

  The DON reported a total of 21 cases as of September 30, 2005 that met the materiality threshold. However, DON
  legal counsel was unable to express an opinion concerning the likely outcome of these cases.

  Other Commitments and Contingencies
  No further disclosures required.

  Reference
  See Note Disclosure 1.S. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Contingencies and Other Liabilities.

  For regulatory discussion on Commitments and Contingencies, see Department of Defense Financial Management
  Regulation, Volume 6B, Chapter 10.


132
2005 Annual Financial Report


NOTE 17. MILITARY RETIREMENT BENEFITS AND OTHER EMPLOYMENT RELATED
ACTUARIAL LIABILITIES

                                                                                2005                                          2004
                                                  Actuarial Present
                                                                    Assumed      (Less: Assets
                                                      Value of                                        Unfunded            Unfunded
                                                                     Interest   Available to Pay
                                                   Projected Plan                                  Actuarial Liability Actuarial Liability
                                                                    Rate (%)       Benefits)
As of September 30,                                   Benefits
(Amount in Thousands)

1. Pension and Health Benefits:
   A. Military Retirement Pensions                $             0               $             0    $               0   $                0
   B. Military Retirement Health Benefits                       0                             0                    0                    0
   C. Medicare-Eligible Retiree Benefits                        0                             0                    0                    0
   D. Total Pension and Health Benefits           $             0               $             0    $               0   $                0

2. Other
   A. FECA                                        $    1,532,819                $             0    $      1,532,819    $      1,575,815
   B. Voluntary Separation Incentive Programs                  0                              0                   0                   0
   C. DoD Educational Benefits Fund                            0                              0                   0                   0
   D. Total Other                                 $    1,532,819                $             0    $      1,532,819    $      1,575,815


3. Total Military Retirement Benefits and Other
   Employment Related Actuarial Liabilities:      $    1,532,819                $             0    $      1,532,819    $      1,575,815



4. Other Information Related to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities

Military Retirement Pensions.
The portion of the military retirement benefits actuarial liability applicable to the DON is reported on the financial
statements of the Military Retirement Fund (MRF).

Military Retirement Health Benefits.
Health benefits are funded centrally at the DoD level. As such, the portion of the health benefits actuarial liability that
is applicable to DON is reported only on the DoD Agency-wide financial statements.

Federal Employees Compensation Act (FECA).
Actuarial Cost Method Used and Assumptions:
The DON's actuarial liability for workers' compensation benefits is developed by Department of Labor and provided to
DON at the end of each fiscal year. The liability for future workers' compensation (FWC) benefits includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases, plus a
component for incurred but not reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that period.
Consistent with past practice, these projected annual benefit payments have been discounted to present value using
the Office of Management and Budget's economic assumptions for 10-year Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

        FY 2005
        4.528 percent in Year 1
        5.020 percent in Year 2 and thereafter



                                                                                                                                            133
                                                                        GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  To provide more specifically for the effects of inflation on the liability for future workers' compensation benefits, wage
  inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
  CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge
  back year (CBY) 2005 were also used to adjust the methodology's historical payments to current year constant
  dollars.

                              CBY                    COLA                    CPIM
                              2005                   2.20%                   4.33%
                              2006                   3.33%                   4.09%
                              2007                   2.93%                   4.01%
                              2008                   2.40%                   4.01%
                              2009+                  2.40%                   4.01%



  The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:
  The model's resulting projections were analyzed to insure that the estimates were reliable. The analysis was based
  on two tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change
  in the actual payments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the
  beginning year calculated for the current projection to the liability-payment ratio calculated for the prior projection.

  The estimate was allocated between General Fund and Navy Working Capital Fund using a percentage based on the
  number of civilian employees taken from the Navy Budget Tracking System. The following table details the numbers
  used in support of the allocation:

                                                   Personnel        Allocation %

                          DON General Fund              111,166                57%
                          Navy Working Capital
                          Fund                           82,712                43%

                             Total                      193,878              100%

  Voluntary Separation Incentive (VSI) Program.
  The Voluntary Separation Incentive (VSI) Fund (recorded on the books of the Department of the Treasury) is used to
  accumulate funds to finance, on an actuarially sound basis, the liabilities DoD incurred under this program. The VSI
  benefit is an annual annuity paid to members who have separated under this program, and is paid for a period of
  time equal to twice the members' years of service.

  DoD Education Benefits Fund.
  The DoD Education Benefits Fund is designed to accumulate funds for the educational programs described under
  Title 10 United States Code, section 2006. This program promotes the recruitment and retention of members for the
  All-Volunteer Forces program and the Total Force Concept of the Armed Forces and aids in the readjustment of
  members of the Armed Forces to civilian life after separation from military service.

  Reference
  For regulatory discussion on Military Retirement Benefits and Other Employee Related Actuarial Liabilities, see
  Department of Defense Financial Management Regulation, Volume 6B, Chapter 10.




134
2005 Annual Financial Report


NOTE 18. DISCLOSURES RELATED                 TO THE    STATEMENT       OF   NET COST
Fluctuation and/or Abnormalities
The DON reported a decrease of $14,012,744 thousand, 11 percent, in the Net Cost of Operations in FY 2005. A
decrease of $13,247,269 was reported in Procurement, and a decrease of $6,862,725 was reported in Military
Construction. These decreases were offset by increases in Military Personnel of $3,358,701 thousand, reflecting the
Marine Corps and Navy's overseas commitments, $1,563,696 thousand in RDT&E costs due to execution of
additional appropriations and $1,359,718 thousand in the DON's Component account which includes net costs from
eliminations.

The Procurement decrease noted above is primarily in the Aircraft Procurement program where costs decreased
$5,419,734 thousand, and in the Shipbuilding and Construction program where costs decreased $4,680,000
thousand for the capitalization of Military Equipment. Extraordinary depreciation adjustments for Real Property of
$7,269,513 thousand recorded in FY 2004 accounts for the majority of the decrease in the Military Construction
account noted above.

Intragovernmental Earned Revenue (Line 1.B) increased $207,353 thousand, 6 percent, in FY 2005. Earned
Revenue from the Public (Line 1.E) increased $1,398,226 thousand, 42 percent, in FY 2005. This was due to an
increase in gains on real property additions of $2,284,242 thousand and in part from a decrease in reimbursable
activity with non-federal customers of $808,593 thousand. The trading partner identification process captures
intragovernmental exchange revenues of the DON. Once intragovernmental revenues are identified, the incremental
revenues are reclassified to Public. The relationship of Intragovernmental to Public revenues may vary at different
points of the fiscal year depending on the mix and type of programs being executed by DON.

A noteworthy example of the intragovernmental revenue relates to Hurricane Katrina. After the hurricane devastated
the Gulf Coast, the Federal Emergency Management Agency (FEMA), an agency under the Department of Homeland
Security, requested assistance from the Department of Defense, via the Joint Chiefs of Staff, for humanitarian relief
efforts. As of 30 September 2005, the DON has recognized some $60 million in customer orders (revenue) from
FEMA related to Hurricane Katrina. These orders were for diverse missions such as helicopter search and rescue
operations, medical assistance provided by the hospital ship USNS Comfort, and food, water, and other supplies. As
costs are accumulated against these FEMA customer orders, invoices will be rendered to FEMA, collections posted
to the appropriate customer orders, and the intragovernmental receivables related to FEMA will be liquidated.

Current DON accounting systems do not consistently differentiate Public costs from Intragovernmental costs.
Therefore, costs have to be controlled at the grand total level and then adjusted for trading partner submissions and
other known items. Costs are classified as Public and then allocated to Intragovernmental based upon identification
by DON's trading partners through trading partner submissions. The incremental costs then remain classified as
Public. Cost comparisons become problematic due to the elimination reclassification process and inability of cost
identification in reporting systems.
Intragovernmental Gross Costs (Line 1.A) increased $73,301 thousand, 0.2 percent, in FY 2005. These costs are
driven by DON's trading partners' seller side revenue. Since DON accounting systems cannot necessarily identify
expenses as Intragovernmental or Public, a process was developed to match reported expenses to the revenue of
DON's seller trading partners.

Gross Costs With the Public decreased $12,480,465 thousand, 13 percent, in FY 2005. Public Aircraft Procurement
costs were abnormally high in FY 2004 because erroneous expenditure data from a previous system conversion was
reconciled. Capitalization of Military Equipment assets, based upon estimates provided by the Bureau of Economic
Analysis (BEA), decreases costs of operations since expense is reduced when the assets are booked on the financial



                                                                                                                        135
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                   D e pa r t m e n t o f t h e N a v y

  statements. See Note 10 for pertinent disclosure. Capitalization of Operating Materials and Supplies (OM&S)
  decreases operating costs since expense is reduced when the assets are booked on the financial statements.
  Major drivers behind the decrease of $12,480,465 thousand are:

                                                            Increase /
                                                           (Decrease)
      (Amounts in thousands)

      Aircraft Procurement Costs                  $       (5,419,734)
      Addition of Military Equipment                      (4,680,000)
      Depreciation Adjustments                            (7,269,513)
      RDT&E Program Cost Increase                          1,638,894
      Military Personnel Cost Increase                     2,738,073



  Other Disclosures Related to the Statement of Net Cost
  The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven on
  understanding the net cost of programs and/or organizations that the federal government supports through
  appropriations or other means. This statement provides gross and net cost information that can be related to the
  amount of output or outcome for a given program and/or organization administered by a responsible reporting entity.

  The amounts presented in the Statement of Net Cost (SoNC) are based on obligations and disbursements and
  therefore may not in all cases report actual accrued costs. The DON generally records transactions on a cash basis
  and not an accrual basis as is required by Federal GAAP. Therefore, the DON systems do not consistently capture
  actual costs. As such, information presented in the SoNC is based on budgetary obligations, disbursements, and
  collection transactions, as well as non-financial feeder systems; then adjusted to record known accruals for major
  items such as payroll expenses, accounts payable and environmental liabilities.




136
2005 Annual Financial Report


NOTE 19. DISCLOSURES RELATED                    TO THE   STATEMENT         OF   CHANGES      IN   NET POSITION

                                                                    Unexpended          Cumulative         Unexpended
                                            Cumulative Results
                                                                   Appropriations       Results of        Appropriations
                                            of Operations 2005
                                                                       2005           Operations 2004         2004
 As of September 30,
 (Amounts in thousands)

 1. Prior Period Adjustments Increases
    (Decreases) to Net Position Beginning
    Balance:
    A. Changes in Accounting Standards      $                0    $                 0 $             0     $            0
    B. Errors and Omissions in Prior Year                    0                      0     (25,913,750)        25,913,750
    C. Other Prior Period Adjustments                        0                      0               0                  0
    D. Total Prior Period Adjustments       $                0    $                 0 $   (25,913,750)    $   25,913,750

 2. Imputed Financing:
    A. Civilian CSRS/FERS Retirement        $        232,513      $                 0 $      247,413      $                0
    B. Civilian Health                               319,112                        0        296,631                       0
    C. Civilian Life Insurance                         1,038                        0          1,020                       0
    D. Judgment Fund                                  33,023                        0         40,145                       0
     E. Intra-Entity                                       0                        0              0                       0
    F. Total Imputed Financing              $        585,686      $                 0 $      585,209      $                0


Errors and Omissions in Prior Year Accounting Reports
Two prior period adjustments were recorded in FY 2004 to the DON financial statements and were recognized as
errors and omissions per Statement of Federal Financial Accounting Standards (SFFAS) No. 21, "Reporting
Corrections of Errors and Changes in Accounting Principles." The errors occurred in the FY 2003 financial
statements. The overall impact of the prior period adjustments warranted the restatement of the FY 2004 DON
financial statements for comparative purposes. These adjustments will affect the following financial statements for
restatement in the fourth quarter: Balance Sheet (Net Position section) and the Statement of Changes in Net Position.
The prior period adjustments were categorized as follows:

                                                                 Cumulative Results of             Unexpended
      (Amounts in thousands)                                         Operations                   Appropriations

      Error in reporting Appropriations Used             $                 ($25,913,750) $               $25,913,750

The errors involved the inclusion of disbursement and collection amounts in Appropriations Used, accounts (USSGL
3107 and USSGL 5700) both of which are mapped to the Statement of Changes in Net Position: 3107 to
Unexpended Appropriations, and 5700 to Cumulative Results of Operations.

Imputed Financing.
The amounts the Department of Defense remits to the Office of Personnel Management (OPM) by and for employees
covered by the Civil Service Retirement System (CSRS), the Federal Employees' Retirement System (FERS), the
Federal Employees' Health Benefits (FEHB) program, and the Federal Employees' Group Life Insurance (FEGLI)
program do not fully cover the government's cost to provide these benefits. An imputed cost is recognized as the



                                                                                                                               137
                                                                      GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  difference between the government's cost of providing these benefits to employees and the Agency's contributions
  for them. The OPM provides the cost factors to the Defense Finance and Accounting Service (DFAS) for the
  computation of imputed financing costs. These costs are provided by DFAS to the Office of the Under Secretary of
  Defense (Personnel and Readiness) for validation and approval. The approved imputed costs are provided to the
  reporting components for inclusion in their financial statements.

  Judgment Fund.
  Treasury provided information related to amounts paid for Judgment Fund liabilities under the Contracts Dispute Act
  and the Notification of Federal Antidiscrimination and Retaliatory Act (No FEAR Act) on behalf of the DON, which the
  DON is required to repay. Judgment Fund payments made out of the following Treasury appropriations does not
  require reimbursement and therefore represent imputed financing to the DON: 20X1740 and 20X1742. Only those
  payments made from Treasury appropriation 20X1743, and that portion of 20X1741 that is related to the No FEAR
  Act are required to be repaid by DON.




  NOTE 20. DISCLOSURES RELATED                   TO THE    STATEMENT          OF   BUDGETARY RESOURCES


                                                                                     2005              2004
      As of September 30,
      (Amounts in thousands)

       1. Net Amount of Budgetary Resources Obligated for
          Undelivered Orders at the End of the Period                          $    76,392,061    $ 63,059,730

       2. Available Borrowing and Contract Authority at the End of
          the Period                                                                         0                  0

       3. Other Information Related to the Statement of Budgetary Resources

  The Net Amount of Budgetary Resources Obligated for Undelivered Orders in this note only represents USSGL 4801,
  Undelivered Orders - Obligations, Unpaid. However, the amount represented on the Statement of Budgetary
  Resources, line 14 C not only includes USSGL 4801, Undelivered Orders - Obligations, Unpaid but also USSGL
  4802, Undelivered Orders - Obligations, Prepaid/Advanced.

  The difference of $29,823 thousand between the SBR Appropriations Received and the Statement of Change of Net
  Position (SOCNP) Appropriations Received is due to the Trust Funds and Special Receipt Accounts, USSGL 4114,
  not being included in the Appropriations Received line of the SOCNP.

  Other Disclosures
  A noteworthy component of Reimbursable Program Obligations is $60 million of reimbursable obligations related to
  Hurricane Katrina. After the hurricane devastated the Gulf Coast, the Federal Emergency Management Agency
  (FEMA), an agency under the Department of Homeland Security, requested assistance from the Department of
  Defense, via the Joint Chiefs of Staff, for humanitarian relief efforts. As of September 30, 2005, the DON has
  recognized some $60 million in customer orders (revenue) from FEMA related to Hurricane Katrina. These orders
  were for diverse missions such as helicopter search and rescue operations, medical assistance provided by the
  hospital ship USNS Comfort, and food, water, and other supplies.



138
2005 Annual Financial Report

On the SBR: Obligations Incurred includes $137,694,376 thousand of Direct Program Obligations and $13,463,789
thousand of Reimbursable Program Obligations.

On   the SF-133 Report on Budget Execution:
 •    Direct Obligations, Category A, amounts apportioned quarterly, are $85,780,982 thousand.
 •    Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are $55,122,057 thousand.
 •    Total Direct Obligations are therefore $140,903,039 thousand.
 •    Category B Reimbursable Obligations, exempt from apportionment, are $10,146,443 thousand.

 • SF-133 Total Direct Obligations are $3,208,663 less than those reported on the SBR.
 • SF-133 Total Reimbursable Obligations are $3,317,346 greater than those reported on the SBR.
 • The SF-133 obligation grand total therefore is $108,683 thousand less than the SBR obligation grand total.

Due to accounting system deficiencies, intragovernmental transactions were not eliminated for the presentation of a
Consolidated Statement of Budgetary Resources (SBR).

In FY 2005, DoD treated Foreign Military Sales (FMS) Trust Fund transactions as Non-Federal, and was presented
as such in the Balance Sheet (BS) and the Statement of Net Cost. Accounts Receivable and Revenues related to
FMS are recognized in the SBR. Therefore, reconciling differences exist between the SBR and the BS. Office of the
Under Secretary of Defense (Comptroller) Accounting Policy is currently researching the issue to determine the
proper treatment of FMS Trust Fund transactions to ensure proper reporting.

DON has two permanent, indefinite appropriations.
National Defense Sealift Fund.
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which provides for
the construction (including design of vessels), purchase, alteration, and conversion of Department of Defense (DoD)
sealift vessels; operation, maintenance, and lease or charter of DoD vessels for national defense purposes;
installation and maintenance of defense features for national defense purposes on privately owned and operated
vessels that are constructed in the United States and documented under the laws of the United States; research and
development relating to national defense sealift; and expenses for maintaining the National Defense Reserve Fleet
(NDRF) including the acquisition, alteration or conversion of vessels built in U.S. shipyards for the NDRF. In FY 2005,
$10,085 thousand was transferred from the NDSF to the Shipbuilding and Conversion, Navy appropriation and $924
thousand was transferred to the Department of Energy.

Environmental Restoration, Navy.
Environmental Restoration, Navy (ER, N) is a transfer account that funds environmental restoration, reduction and
recycling of hazardous waste, removal of unsafe buildings and debris, and similar purposes. Funds are to remain
available until transferred, and remain available for the same purpose and same time period as the appropriations to
which transferred. In FY 2005, $265,955 thousand was transferred from ER, N to the Operations and Maintenance,
Navy appropriation and $204 thousand was transferred to the Department of Energy.




                                                                                                                          139
                                                                 GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                   D e pa r t m e n t o f t h e N a v y


  NOTE 21. DISCLOSURES RELATED                 TO THE   STATEMENT       OF   FINANCING
  Fluctuation and/or Abnormalities
  Budgetary data is not in agreement with proprietary expenses and assets capitalized. This fact causes a difference
  in net cost between the Statement of Net Cost and the Statement of Financing. Adjustments are posted to the
  Statement of Financing for these differences. For FY 2005, an adjustment of $6,012,525 thousand was made to line
  15 of the Statement of Financing so that proprietary accounts reconcile with the budgetary accounts. This alignment
  was made per the Office of the Under Secretary of Defense (Comptroller) guidance.

  Other Disclosures
  The increase of resources that finance the acquisition of assets is primarily due to the implementation of SFFAS No.
  23 "Eliminating the Category of National Defense Property, Plant, and Equipment." Correspondingly, there is also an
  increase in the reported depreciation for the military equipment.

  The Statement of Financing is presented as combined or combining statements rather than consolidated statements
  due to intragovernmental transactions not being eliminated. Adjustments in funds which are temporarily not available
  pursuant to Public Law, and those that are permanently not available (included in the "Adjustments" line on the
  Statement of Budgetary Resources), are not included in "Spending Authority From Offsetting Collections and
  Adjustments" line on the Statement of Budgetary Resources or on the Statement of Financing.

  The Statement of Financing was expanded to further articulate and detail the relationship between new obligations
  from budgetary accounting and net cost of operations from proprietary accounting.


  NOTE 22. DISCLOSURES RELATED                 TO THE   STATEMENT       OF   CUSTODIAL ACTIVITY
  Not Applicable.




140
2005 Annual Financial Report


NOTE 23. OTHER DISCLOSURES
 1. Entity as Lessee - Operating Leases



 As of September 30,                                           2005

 (Amounts in thousands)
                                  Land and
                                                   Equipment           Other           Total
                                  Buildings
 Future Payments Due
     Fiscal Year
     2006                     $         19,650 $               0 $             0 $        19,650
     2007                               20,361                 0               0          20,361
     2008                               21,372                 0               0          21,372
     2009                               22,437                 0               0          22,437
     2010                               22,187                 0               0          22,187
     After 5 Years                           0                 0               0               0
 Total Future Lease
   Payments Due               $       106,007 $                0 $             0 $      106,007



Fluctuations and/or Abnormalities
Although a comparative column is not displayed, the DON reported a decrease of $218,358 thousand, 67 percent,
in Operating Leases Future Payment in FY 2005. The decrease is due to the ongoing effort to validate operating
leases throughout the Navy shore establishment.

Definitions
Lessee - A person or entity that receives the use and possession of leased property (e.g. real estate or equipment)
from a lessor in exchange for a payment of funds.

Operating Lease - A lease that does not substantially transfer all the benefits and risk of ownership. Payments are
charged to expense over the lease term as they become payable.

Other Disclosure
The values reported for operating leases is derived from the DON data collection process. This process only
provides summary level values at this time.




                                                                                                                      141
                                                                     GENERAL FUND NOTES TO THE PRINCIPAL STATEMENTS
      D e pa r t m e n t o f t h e N a v y




142
2005 Annual Financial Report


                                                            DEPARTMENT OF THE NAVY


                                              GENERAL FUND
          SUPPORTING     CONSOLIDATING/COMBINING STATEMENTS




                                                                                             CONSOLIDATING/COMBINING STATEMENTS
                                                                                                       GF SUPPORTING




                                                                                            143
                               GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                    D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Department of the Navy
      CONSOLIDATING BALANCE SHEET
      As of September 30, 2005 and 2004
      ($ in thousands)
                                                                         Navy                Marine Corps
      ¬¬¬ASSETS¬(Note¬2)
         Intragovernmental:
            Fund Balance with Treasury (Note 3)
               Entity                                                $    77,502,779 $              8,231,880
               Nonentity Seized Iraqi Cash                                         0                        0
               Nonentity-Other                                               344,546                        0
            Investments (Note 4)                                               9,519                        0
            Accounts Receivable (Note 5)                                     233,721                   62,428
            Other Assets (Note 6)                                            661,043                   11,214
            Total Intragovernmental Assets                           $    78,751,608 $              8,305,522

         Cash and Other Monetary Assets (Note 7)                     $        109,260 $               196,180
         Accounts Receivable (Note 5)                                       3,251,549                  16,108
         Loans Receivable (Note 8)                                                  0                       0
         Inventory and Related Property (Note 9)                           55,114,331                 470,506
         General Property, Plant and Equipment (Note 10)                  154,522,006               3,806,841
         Investments (Note 4)                                                       0                       0
         Other Assets (Note 6)                                              6,695,416                 293,375
      ¬¬¬TOTAL¬ASSETS                                                $    298,444,170 $            13,088,532

      ¬¬¬LIABILITIES¬(Note¬11)
         Intragovernmental:
            Accounts Payable (Note 12)                               $     1,054,733 $                168,814
            Debt (Note 13)                                                         0                        0
            Other Liabilities (Note 15 & Note 16)                          3,547,385                  278,663
            Total Intragovernmental Liabilities                      $     4,602,118 $                447,477

         Accounts Payable (Note 12)                                  $          674,085 $             505,949
         Military Retirement Benefits and Other Employment-Related
           Actuarial Liabilities (Note 17)                                 1,321,969                  210,850
         Environmental Liabilities (Note 14)                              17,050,451                        0
         Loan Guarantee Liability (Note 8)                                         0                        0
         Other Liabilities (Note 15 and Note 16)                           3,783,131                  676,705
      ¬¬¬TOTAL¬LIABILITIES                                           $    27,431,754 $              1,840,981

      ¬¬¬NET¬POSITION
         Unexpended Appropriations                                   $     81,938,228 $             7,801,648
         Cumulative Results of Operations                                 189,074,188               3,445,903
      ¬¬¬TOTAL¬NET¬POSITION                                          $    271,012,416 $            11,247,551

      ¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                          $    298,444,170 $            13,088,532




144
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in thousands)
                                                                                                  2005                 2004
                                                  Combined Total        Eliminations
                                                                                               Consolidated         Consolidated
¬¬¬ASSETS¬(Note¬2)
   Intragovernmental:
      Fund Balance with Treasury (Note 3)
         Entity                               $        85,734,659   $               0      $       85,734,659   $        81,874,818
         Nonentity Seized Iraqi Cash                            0                   0                       0                     0
         Nonentity-Other                                  344,546                   0                 344,546               219,095
         Investments (Note 4)                               9,519                   0                   9,519                 9,457
         Accounts Receivable (Note 5)                     296,149              14,845                 281,304               250,703
         Other Assets (Note 6)                            672,257                   0                 672,257               272,723
         Total Intragovernmental Assets       $        87,057,130   $          14,845      $       87,042,285   $        82,626,796

   Cash and Other Monetary Assets (Note 7)    $           305,440   $                  0   $          305,440   $           234,865
   Accounts Receivable (Note 5)                         3,267,657                      0            3,267,657             2,895,966
   Loans Receivable (Note 8)                                    0                      0                    0                     0
   Inventory and Related Property (Note 9)             55,584,837                      0           55,584,837            53,340,667
   General Property, Plant and Equipment
     (Note 10)                                        158,328,847                   0             158,328,847           151,679,503
   Investments (Note 4)                                         0                   0                       0                     0
   Other Assets (Note 6)                                6,988,791                   0               6,988,791             5,000,348
¬¬¬TOTAL¬ASSETS                               $       311,532,702   $          14,845      $      311,517,857   $       295,778,145


¬¬¬LIABILITIES¬(Note¬11)
   Intragovernmental:
      Accounts Payable (Note 12)              $         1,223,547   $          14,845      $        1,208,702   $         1,437,616
      Debt (Note 13)                                            0                   0                       0                     0
      Other Liabilities (Note 15 & Note 16)             3,826,048                   0               3,826,048             3,984,802
      Total Intragovernmental Liabilities     $         5,049,595   $          14,845      $        5,034,750   $         5,422,418

   Accounts Payable (Note 12)                 $         1,180,034   $                  0   $        1,180,034   $         1,395,008
   Military Retirement Benefits and Other
     Employment-Related Actuarial
     Liabilities (Note 17)                              1,532,819                      0            1,532,819             1,575,815
   Environmental Liabilities (Note 14)                 17,050,451                                  17,050,451            16,031,979
   Loan Guarantee Liability (Note 8)                            0                   0                       0                     0
   Other Liabilities (Note 15 and Note 16)              4,459,836                   0               4,459,836             4,020,826
¬¬¬TOTAL¬LIABILITIES                          $        29,272,735   $          14,845      $       29,257,890   $        28,446,046

¬¬¬NET¬POSITION
    Unexpended Appropriations                 $        89,739,876   $                  0   $       89,739,876   $        79,161,774
    Cumulative Results of Operations                  192,520,091                      0          192,520,091           188,170,325
¬¬¬TOTAL¬NET¬POSITION                         $       282,259,967   $                  0   $      282,259,967   $       267,332,099

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION         $       311,532,702   $          14,845      $      311,517,857   $       295,778,145




                                                                                                                                      145
                                                     GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Department of the Navy
      CONSOLIDATING STATEMENT OF NET COST
      For the years ended September 30, 2005 and 2004
      ($ in thousands)


                                                            Navy                      Marine Corps
         Program Costs
         Military Personnel
             Intragovernmental Gross Costs              $          5,573,645    $             2,529,508
             (Less Intragovernmental Earned Revenue)                (470,476)                   (31,064)
             Intragovernmental Net Costs                $          5,103,169    $             2,498,444

            Gross Costs With the Public                 $      22,635,306       $             9,107,224
            (Less: Earned Revenue From the Public)                      0                             0
            Net Costs With the Public                   $      22,635,306       $             9,107,224
           Net Program Cost                             $      27,738,475       $            11,605,668


         Operations and Maintenance
            Intragovernmental Gross Costs               $       1,651,550       $                255,947
            (Less Intragovernmental Earned Revenue)            (4,823,575)                    (2,072,747)
            Intragovernmental Net Costs                 $      (3,172,025)      $             (1,816,800)

            Gross Costs With the Public                 $      37,740,645       $             7,890,064
            (Less: Earned Revenue From the Public)                      0                             0
            Net Costs With the Public                   $      37,740,645       $             7,890,064
           Net Program Cost                             $      34,568,620       $             6,073,264


         Procurement
            Intragovernmental Gross Costs               $         (82,486)      $                    44
            (Less Intragovernmental Earned Revenue)            (1,001,335)                      (20,953)
            Intragovernmental Net Costs                 $      (1,083,821)      $               (20,909)

            Gross Costs With the Public                 $      18,530,693       $             2,016,570
            (Less: Earned Revenue From the Public)                (24,454)                     (580,764)
            Net Costs With the Public                   $      18,506,239       $             1,435,806
           Net Program Cost                             $      17,422,418       $             1,414,897


         Research, Development, Test & Evaluation
            Intragovernmental Gross Costs               $                 0     $                     0
            (Less Intragovernmental Earned Revenue)                (382,732)                          0
            Intragovernmental Net Costs                 $          (382,732)    $                     0

            Gross Costs With the Public                 $      16,105,552       $                     0
            (Less: Earned Revenue From the Public)                      0                             0
            Net Costs With the Public                   $      16,105,552       $                     0
           Net Program Cost                             $      15,722,820       $                     0




146
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2005 and 2004
($ in thousands)


                                                      Combined Total         Eliminations       2005 Consolidated        2004 Consolidated

   Program Costs
   Military Personnel
       Intragovernmental Gross Costs              $         8,103,153    $             0    $           8,103,153    $           7,398,489
       (Less Intragovernmental Earned Revenue)               (501,540)                 0                 (501,540)                (417,526)
       Intragovernmental Net Costs                $         7,601,613    $             0    $           7,601,613    $           6,980,963

      Gross Costs With the Public                 $        31,742,530    $             0    $          31,742,530    $          29,004,446
      (Less: Earned Revenue From the Public)                        0                  0                        0                        0
      Net Costs With the Public                   $        31,742,530    $             0    $          31,742,530    $          29,004,446
     Net Program Cost                             $        39,344,143    $             0    $          39,344,143    $          35,985,409

   Operations and Maintenance
      Intragovernmental Gross Costs               $         1,907,497    $             0    $           1,907,497    $           1,862,693
      (Less Intragovernmental Earned Revenue)              (6,896,322)                 0               (6,896,322)              (5,166,255)
      Intragovernmental Net Costs                 $        (4,988,825)   $             0    $          (4,988,825)   $          (3,303,562)

      Gross Costs With the Public                 $        45,630,709    $             0    $          45,630,709    $          44,129,757
      (Less: Earned Revenue From the Public)                        0                  0                        0                  (47,276)
      Net Costs With the Public                   $        45,630,709    $             0    $          45,630,709    $          44,082,481
     Net Program Cost                             $        40,641,884    $             0    $          40,641,884    $          40,778,919

   Procurement
      Intragovernmental Gross Costs               $           (82,442)   $             0    $             (82,442)   $                 550
      (Less Intragovernmental Earned Revenue)              (1,022,288)                 0               (1,022,288)                (767,223)
      Intragovernmental Net Costs                 $        (1,104,730)   $             0    $          (1,104,730)   $            (766,673)

      Gross Costs With the Public                 $        20,547,263    $             0    $          20,547,263    $          33,100,255
      (Less: Earned Revenue From the Public)                 (605,218)                 0                 (605,218)                (248,999)
      Net Costs With the Public                   $        19,942,045    $             0    $          19,942,045    $          32,851,256
     Net Program Cost                             $        18,837,315    $             0    $          18,837,315    $          32,084,583

   Research, Development, Test & Evaluation
      Intragovernmental Gross Costs               $                 0    $             0    $                   0    $                   0
      (Less Intragovernmental Earned Revenue)                (382,732)                 0                 (382,732)                (307,534)
      Intragovernmental Net Costs                 $          (382,732)   $             0    $            (382,732)   $            (307,534)

      Gross Costs With the Public                 $        16,105,552    $             0    $          16,105,552    $          14,466,658
      (Less: Earned Revenue From the Public)                        0                  0                        0                        0
      Net Costs With the Public                   $        16,105,552    $             0    $          16,105,552    $          14,466,658
     Net Program Cost                             $        15,722,820    $             0    $          15,722,820    $          14,159,124




                                                                                                                                              147
                                                           GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Department of the Navy
      CONSOLIDATING STATEMENT OF NET COST
      For the years ended September 30, 2005 and 2004
      ($ in thousands)

                                                                   Navy                      Marine Corps
         Program Costs
         Military Construction/Family Housing
             Intragovernmental Gross Costs                     $                 0    $                        0
             (Less Intragovernmental Earned Revenue)                      (723,253)                            0
             Intragovernmental Net Costs                       $          (723,253)   $                        0

            Gross Costs With the Public                        $       3,957,738      $                        0
            (Less: Earned Revenue From the Public)                    (1,963,352)                              0
            Net Costs With the Public                          $       1,994,386      $                        0
           Net Program Cost                                    $       1,271,133      $                        0

         Other
            Intragovernmental Gross Costs                      $      25,590,597      $                3,886,084
            (Less Intragovernmental Earned Revenue)                    4,171,814                       1,714,240
            Intragovernmental Net Costs                        $      29,762,411      $                5,600,324

            Gross Costs With the Public                        $     (28,093,406)     $                (5,524,600)
            (Less: Earned Revenue From the Public)                    (2,056,662)                         (75,703)
            Net Costs With the Public                          $     (30,150,068)     $                (5,600,303)
           Net Program Cost                                    $        (387,657)     $                        21

         Total Program Costs
            Intragovernmental Gross Costs                      $      32,733,306      $                6,671,583
            (Less Intragovernmental Earned Revenue)                   (3,229,557)                       (410,524)
            Intragovernmental Net Costs                        $      29,503,749      $                6,261,059

            Gross Costs With the Public                        $      70,876,528      $               13,489,258
            (Less: Earned Revenue From the Public)                    (4,044,468)                       (656,467)
            Net Costs With the Public                          $      66,832,060      $               12,832,791
           Net Program Cost                                    $      96,335,809      $               19,093,850
         Costs Not Assigned to Programs                                        0                               0
         (Less: Earned Revenue Not Attributable to Programs)                   0                               0
         Net Cost of Operations                                $      96,335,809      $               19,093,850




148
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                                           2005                 2004
                                                             Combined Total         Eliminations        Consolidated         Consolidated
   Program Costs
   Military Construction/Family Housing
       Intragovernmental Gross Costs                     $                 0    $              0    $               0    $                0
       (Less Intragovernmental Earned Revenue)                      (723,253)                  0             (723,253)             (741,184)
       Intragovernmental Net Costs                       $          (723,253)   $              0    $        (723,253)   $         (741,184)

      Gross Costs With the Public                        $         3,957,738    $              0    $       3,957,738    $        8,910,371
      (Less: Earned Revenue From the Public)                      (1,963,352)                  0           (1,963,352)              (35,329)
      Net Costs With the Public                          $         1,994,386    $              0    $       1,994,386    $        8,875,042
     Net Program Cost                                    $         1,271,133    $              0    $       1,271,133    $        8,133,858

   Other
      Intragovernmental Gross Costs                      $        29,476,681    $        159,868    $      29,316,813    $       29,909,988
      (Less Intragovernmental Earned Revenue)                      5,886,054            (159,868)           6,045,922             4,126,862
      Intragovernmental Net Costs                        $        35,362,735    $              0    $      35,362,735    $       34,036,850

      Gross Costs With the Public                        $       (33,618,006)   $              0    $     (33,618,006)   $       (32,765,236)
      (Less: Earned Revenue From the Public)                      (2,132,365)                  0           (2,132,365)            (2,971,104)
      Net Costs With the Public                          $       (35,750,371)   $              0    $     (35,750,371)   $       (35,736,340)
     Net Program Cost                                    $          (387,636)   $              0    $        (387,636)   $        (1,699,490)

   Total Program Costs
      Intragovernmental Gross Costs                      $        39,404,889    $        159,868    $      39,245,021    $       39,171,720
      (Less Intragovernmental Earned Revenue)                     (3,640,081)           (159,868)          (3,480,213)           (3,272,860)
      Intragovernmental Net Costs                        $        35,764,808    $              0    $      35,764,808    $       35,898,860

      Gross Costs With the Public                        $        84,365,786    $              0    $      84,365,786    $       96,846,251
      (Less: Earned Revenue From the Public)                      (4,700,935)                  0           (4,700,935)           (3,302,708)
      Net Costs With the Public                          $        79,664,851    $              0    $      79,664,851    $       93,543,543
     Net Program Cost                                    $       115,429,659    $              0    $     115,429,659    $      129,442,403
   Costs Not Assigned to Programs                                          0                   0                    0                     0
   (Less: Earned Revenue Not Attributable to Programs)                     0                   0                    0                     0
   Net Cost of Operations                                $       115,429,659    $              0    $     115,429,659    $      129,442,403




                                                                                                                                         149
                                                             GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                             D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Department of the Navy
      CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
      For the years ended September 30, 2005 and 2004
      ($ in thousands)

                                                                       Navy                       Marine Corps
        Cumulative Results of Operations
         Beginning Balances                                        $     185,109,652     $                 3,060,673
          Prior period adjustments (+/-)
            Changes in Accounting Principles                                       0                               0
            Correction of Errors                                                   0                               0
         Beginning Balances, as adjusted                           $     185,109,652     $                 3,060,673
         Budgetary Financing Sources:
          Appropriations Received                                  $               0     $                         0
          Appropriations transferred in/out (+/-)                                  0                               0
          Other adjustments (rescissions, etc) (+/-)                               0                               0
          Appropriations used                                             99,600,565                      19,415,135
          Nonexchange revenue                                                    205                               0
          Donations and forfeitures of cash and cash equivalents              29,518                               0
          Transfers in/out without reimbursement (+/-)                       150,000                               0
          Other budgetary financing sources (+/-)                                  0                               0
         Other Financing Sources:
          Donations and forfeitures of property                                     0                              0
          Transfers in/out without reimbursement (+/-)                         (1,673)                            21
          Imputed financing from costs absorbed by others                    521,763                          63,923
          Other (+/-)                                                               0                              0
         Total Financing Sources                                   $     100,300,378     $                19,479,079
          Net Cost of Operations (+/-)                                    96,335,809                      19,093,850
           Net Change                                                      3,964,569                         385,229
          Ending Balances                                          $     189,074,221     $                 3,445,902

        Unexpended Appropriations
         Beginning Balances                                        $      72,627,291     $                 6,534,483
          Prior period adjustments (+/-)
            Changes in Accounting Principles                                       0                               0
            Correction of Errors                                                   0                               0
         Beginning Balances, as adjusted                           $      72,627,291     $                 6,534,483
         Budgetary Financing Sources:
          Appropriations Received                                  $     109,882,769     $                21,089,769
          Appropriations transferred in/out (+/-)                            409,256                        (244,582)
          Other adjustments (rescissions, etc) (+/-)                      (1,380,556)                       (162,886)
          Appropriations used                                            (99,600,565)                    (19,415,135)
          Nonexchange revenue                                                      0                               0
          Donations and forfeitures of cash and cash equivalents                   0                               0
          Transfers in/out without reimbursement (+/-)                             0                               0
          Other budgetary financing sources (+/-)                                  0                               0
         Other Financing Sources:
          Donations and forfeitures of property                                    0                               0
          Transfers in/out without reimbursement (+/-)                             0                               0
          Imputed financing from costs absorbed by others                          0                               0
          Other (+/-)                                                              0                               0
         Total Financing Sources                                   $       9,310,904     $                 1,267,166
          Net Cost of Operations (+/-)                                             0                               0
           Net Change                                                      9,310,904                       1,267,166
          Ending Balances                                          $      81,938,195     $                 7,801,649




150
2005 Annual Financial Report
Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                Combined Total          Eliminations            2005 Consolidated         2004 Consolidated
 Cumulative Results of Operations
  Beginning Balances                                        $       188,170,325     $                  0    $         188,170,325     $         222,565,239
   Prior period adjustments (+/-)
     Changes in Accounting Principles                                         0                        0                        0               (25,913,750)
     Correction of Errors                                                     0                        0                        0     $                   0
  Beginning Balances, as adjusted                           $       188,170,325     $                  0    $         188,170,325               196,651,489
  Budgetary Financing Sources:
   Appropriations Received                                  $                 0     $                  0    $                   0     $                   0
   Appropriations transferred in/out (+/-)                                    0                        0                        0                         0
   Other adjustments (rescissions, etc) (+/-)                                 0                        0                        0                         0
   Appropriations used                                              119,015,700                        0              119,015,700               120,198,147
   Nonexchange revenue                                                      205                        0                      205                         0
   Donations and forfeitures of cash and cash equivalents                29,518                        0                   29,518                         0
   Transfers in/out without reimbursement (+/-)                         150,000                        0                  150,000                   166,000
   Other budgetary financing sources (+/-)                                    0                        0                        0                         0
  Other Financing Sources:
   Donations and forfeitures of property                                       0                       0                         0                        0
   Transfers in/out without reimbursement (+/-)                           (1,652)                      0                    (1,652)                  11,883
   Imputed financing from costs absorbed by others                      585,686                        0                  585,686                   585,209
   Other (+/-)                                                                 0                       0                         0                        0
  Total Financing Sources                                   $       119,779,457     $                  0    $         119,779,457     $         120,961,239
   Net Cost of Operations (+/-)                                     115,429,659                        0              239,558,914               129,442,403
    Net Change                                                        4,349,798                        0                4,349,798                (8,481,164)
   Ending Balances                                          $       192,520,123     $                  0    $         192,520,123     $         188,170,325

 Unexpended Appropriations
  Beginning Balances                                        $        79,161,774     $                  0    $          79,161,774     $          50,781,179
   Prior period adjustments (+/-)
     Changes in Accounting Principles                                         0                         0                       0                         0
     Correction of Errors                                                     0                        0                        0                25,913,750
  Beginning Balances, as adjusted                           $        79,161,774     $                       $          79,161,774     $          76,694,929
  Budgetary Financing Sources:
   Appropriations Received                                  $       130,972,538     $                  0    $          130,972,538    $          123,917,983
   Appropriations transferred in/out (+/-)                              164,674                        0                   164,674                   455,059
   Other adjustments (rescissions, etc) (+/-)                        (1,543,442)                       0                (1,543,442)               (1,708,050)
   Appropriations used                                             (119,015,700)                       0              (119,015,700)             (120,198,147)
   Nonexchange revenue                                                        0                        0                         0                         0
   Donations and forfeitures of cash and cash equivalents                     0                        0                         0                         0
   Transfers in/out without reimbursement (+/-)                               0                        0                         0                         0
   Other budgetary financing sources (+/-)                                    0                        0                         0                         0
  Other Financing Sources:
   Donations and forfeitures of property                                      0                        0                        0                         0
   Transfers in/out without reimbursement (+/-)                               0                        0                        0                         0
   Imputed financing from costs absorbed by others                            0                        0                        0                         0
   Other (+/-)                                                                0                        0                        0                         0
  Total Financing Sources                                   $        10,578,070     $                  0    $          10,578,070     $           2,466,845
   Net Cost of Operations (+/-)                                               0                        0                        0                         0
    Net Change                                                       10,578,070                        0    $          10,578,070     $           2,466,845
   Ending Balances                                          $        89,739,844     $                  0    $          89,739,844     $          79,161,774




                                                                                                                                                          151
                                                                GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                                        D e pa r t m e n t o f t h e N a v y

      Department of Defense
      Department of the Navy
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2005 and 2004
      ($ in thousands)


        BUDGETARY FINANCING ACCOUNTS

                                                                       Navy              Marine Corps          2005 Combined         2004 Combined

        BUDGETARY RESOURCES
          Budget Authority:
             Appropriations Received                              $   109,912,592    $       21,089,769    $      131,002,361    $      123,948,477
             Borrowing Authority                                                0                     0                     0                     0
             Contract Authority                                                 0                     0                     0                     0
             Net transfers (+/-)                                          343,426                17,879               361,305               425,109
             Other                                                              0                     0                     0                     0
          Unobligated Balance:
             Beginning of period                                       15,567,670             2,460,324            18,027,994            14,695,238
             Net transfers, actual (+/-)                                  215,830              (262,461)              (46,631)              195,950
             Anticipated Transfers Balances                                     0                     0                     0                     0
          Spending Authority from Offsetting Collections:
             Earned                                                             0                     0                     0                     0
               Collected                                                6,724,626             2,106,014             8,830,640             7,706,650
               Receivable from Federal sources                            677,916                18,751               696,667              (360,284)
             Change in unfilled customer orders                                 0                     0                     0                     0
               Advances received                                          147,708                     0               147,708                56,010
               Without advance from Federal sources                      (706,814)               70,421              (636,393)              467,506
             Anticipated for the rest of year, without advances                 0                     0                     0                     0
                Previously unavailable                                          0                     0                     0                     0
             Transfers from trust funds                                         0                     0                     0                     0
             Subtotal                                             $     6,843,436    $        2,195,186    $        9,038,622    $        7,869,882
          Recoveries of prior year obligations                    $     6,675,919    $        4,770,516    $       11,446,435    $       13,756,981
          Temporarily not available pursuant to Public Law                      0                     0                     0                     0
          Permanently not available                                    (1,380,556)             (162,886)           (1,543,442)           (1,708,789)
          Total Budgetary Resources                               $   138,178,317    $       30,108,327    $      168,286,644    $      159,182,848




152
2005 Annual Financial Report

Department of Defense
Department of the Navy
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)


  BUDGETARY FINANCING ACCOUNTS

                                                             Navy              Marine Corps         2005 Combined         2004 Combined

  STATUS OF BUDGETARY RESOURCES
    Obligations Incurred:
        Direct                                         $    111,972,460    $      25,721,916    $      137,694,376    $      132,268,522
        Reimbursable                                         11,092,135            2,371,654            13,463,789             8,886,330
        Subtotal                                       $    123,064,595    $      28,093,570    $      151,158,165           141,154,852
    Unobligated balance:
        Apportioned                                    $     13,790,902    $       1,816,603    $       15,607,505    $       13,973,108
        Exempt from apportionment                                     0                    0                     0                     0
        Other available                                               0                    0                     0                     0
    Unobligated Balances Not Available                        1,322,820              198,154             1,520,974             4,054,888
    Total, Status of Budgetary Resources               $    138,178,317    $      30,108,327    $      168,286,644    $      159,182,848

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net - beginning of period       $     59,489,094    $       4,367,130    $       63,856,224    $       63,520,894
    Obligated Balance transferred, net (+/-)                          0                    0                     0                     0
    Obligated Balance, net - end of period:
        Accounts Receivable                                  (1,118,420)            (115,806)           (1,234,226)             (537,560)
        Unfilled customer order from Federal sources         (1,965,432)            (201,156)           (2,166,588)           (2,802,982)
        Undelivered Orders                                   63,047,525            5,683,457            68,730,982            63,723,755
        Accounts Payable                                      2,511,577              850,627             3,362,204             3,473,010
    Outlays:
       Disbursements                                        113,431,418           21,383,890           134,815,308           126,955,319
       Collections                                           (6,872,334)          (2,106,014)           (8,978,348)           (7,762,660)
       Subtotal                                        $    106,559,084    $      19,277,876    $      125,836,960    $      119,192,659
    Less: Offsetting receipts                                  (115,805)                   0              (115,805)             (115,027)
    Net Outlays                                        $    106,443,279    $      19,277,876    $      125,721,155    $      119,077,632




                                                                                                                                       153
                                                           GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
                                                                                                                    D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Department of the Navy
      CONSOLIDATING STATEMENT OF FINANCING
      For the years ended September 30, 2005 and 2004
      ($ in thousands)


                                                                                                                                   2005                 2004
                                                                                           Navy             Marine Corps
                                                                                                                                Consolidated         Consolidated


        Resources Used to Finance Activities:
        Budgetary Resources Obligated
           Obligations Incurred                                                      $ 123,064,595      $     28,093,570    $     151,158,165    $    141,154,852
           Less: Spending Authority from offsetting collections and recoveries (-)     (13,519,355)           (6,965,701)         (20,485,056)        (21,626,865)
           Obligations net of offsetting collections and recoveries                  $ 109,545,240      $     21,127,869    $     130,673,109    $    119,527,987
           Less: Offsetting receipts (-)                                                  (115,805)                    0             (115,805)           (115,027)
           Net obligations                                                           $ 109,429,435      $     21,127,869    $     130,557,304    $    119,412,960
        Other Resources
           Donations and forfeitures of property                                                 0                     0                    0                   0
           Transfers in/out without reimbursement (+/-)                                     (1,673)                   21               (1,652)             11,883
           Imputed financing from costs absorbed by others                                 521,763                63,923              585,686             585,209
           Other (+/-)                                                                           0                     0                    0                   0
           Net other resources used to finance activities                            $     520,090      $         63,944    $         584,034    $        597,092
           Total resources used to finance activities                                $ 109,949,525      $     21,191,813    $     131,141,338    $    120,010,052

        Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in budgetary resources obligated for goods, services and
            ordered but not yet provided
             Undelivered Orders (-)                                            $         (11,549,147)   $     (1,783,153)   $     (13,332,300)   $      1,796,210
             Unfilled Customer Orders                                                       (559,106)             70,421             (488,685)            523,516
          Resources that fund expenses recognized in prior periods                          (255,577)            (14,138)            (269,715)           (115,122)
          Budgetary offsetting collections and receipts that do not affect Net                    0                   0
              Cost of Operations                                                                                                            0                  0
           Resources that finance the acquisition of assets                              (14,697,507)                 0           (14,697,507)        (12,412,218)
           Other resources or adjustments to net obligated resources that do not
              affect Net Cost of Operations
              Less: Trust or Special Fund receipts related to exchange in the
               Entity's budget (-)                                                                0                   0                     0                  0
              Other (+/-)                                                                     1,673                  (21)               1,652             (11,883)
           Total resources used to finance items not part of the
            Net Cost of Operations                                                   $   (27,059,664)   $     (1,726,891)   $     (28,786,555)   $    (10,219,497)
           Total resources used to finance the Net Cost of Operations                $    82,889,861    $     19,464,922    $     102,354,783    $    109,790,555




154
2005 Annual Financial Report


Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)


                                                                                                  Marine             2005                2004
                                                                                  Navy
                                                                                                  Corps           Consolidated        Consolidated
   Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                     $     170,047     $          0    $        170,047    $       188,260
     Increase in environmental and disposal liability                           1,028,763                0           1,028,763            427,489
     Upward/Downward reestimates of credit subsidy expense (+/-)                        0                0                   0                  0
     Increase in exchange revenue receivable from the public (-)                        0                0                   0                  0
     Other (+/-)                                                                   47,633           21,458              69,091            193,243
     Total components of Net Cost of Operations that will require or
        generate resources in future periods                                $   1,246,443     $     21,458    $      1,267,901    $       808,992

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                          $ 15,659,481      $    184,822    $     15,844,303    $     17,475,862
     Revaluation of assets and liabilities (+/-)                              (1,206,574)         (578,725)         (1,785,299)          1,114,040
     Other (+/-)
       Trust Fund Exchange Revenue                                                     (10)              0                 (10)           (30,297)
       Cost of Goods Sold                                                                0               0                   0                  0
       Operating Materials and Supplies Used                                    (2,251,653)          7,483          (2,244,170)           270,967
       Other                                                                        (1,740)         (6,109)             (7,849)            12,284
     Total components of Net Cost of Operations that will not require
       or generate resources                                                $ 12,199,504      $   (392,529)   $     11,806,975    $     18,842,856
     Total components of Net Cost of Operations that will not
      require or generate resources in the current period                   $ 13,445,947      $   (371,071)   $     13,074,876    $     19,651,848
      Net Cost of Operations                                                $ 96,335,808      $ 19,093,851    $    115,429,659    $    129,442,403




                                                                                                                                                 155
                                                                  GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING STATEMENTS
      D e pa r t m e n t o f t h e N a v y




156
2005 Annual Financial Report


                                                             DEPARTMENT OF THE NAVY


                                           GENERAL FUND
        REQUIRED    SUPPLEMENTARY STEWARDSHIP INFORMATION




                                                                                              GF REQUIRED SUPPLEMENTARY
                                                                                               STEWARDSHIP INFORMATION




                                                                                             157
                               GENERAL FUND REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                           D e pa r t m e n t o f t h e N a v y


      HERITAGE ASSETS
      For Fiscal Year Ended September 30, 2005

                              (a)                      (b)              (c)         (d)            (e)           (f)
                                                   Measurement        As of                                    As of
                                                     Quantity        10/01/04    Additions      Deletions     9/30/05
      Museums                                           Each                27              0             0        27
      Monuments & Memorials                             Each               540              4            18       526
      Cemeteries                                        Sites               60              0             0        60
      Archeological Sites                               Sites           23,262            708            29    23,941
      Buildings and Structures                          Each             9,092              0             0     9,092
      Major Collections (See Supplemental
         Reporting)




  Narrative Statement

  The Department of the Navy (DON) is required to report Heritage Assets in accordance with the following public laws
  and regulations:
   • Antiquities Act of 1906
   • Historic Sites Act of 1935
   • USC 470 National Historic Preservation Act of 1966
   • National Environmental Policy Act of 1969
   • American Indian Religious Freedom Act of 1978
   • Archaeological Resources Protection Act of 1979
   • Native American Graves Protection & Repatriation Act of 1990
   • Presidential Memorandum for Heads of Executive Departments and Agencies: Government to Government
      Relations with Native American Tribal Governments Act of 1994
   • 36 CFR 79 - Curation of Federally Owned and Administered Archaeological Collections
   • 36 CFR 60.4 - National Register of Historic Places
   • Federal Accounting Standards Advisory Board (FASAB) Standard 29, "Heritage Assets and Stewardship Land"
   • Executive Order 13287 - Preserve America - of 2003
   • Executive Order 13327 - Federal Real Property Asset Management - of 2004
   • SECNAVINST 5755.1A - Navy Museums - of 1992

  In general, the DON defines Heritage Assets as items that are unique for one or more of the following reasons:
  historical or natural significance; cultural, educational or artistic importance, or significant architectural characteristics.
  Monetary values are not required for Heritage Asset reporting; only physical units of measure are reported.

  Explanation for adjustments, additions, and deletions.
  In FY 2005 adjustments to monuments were made to reflect assets acquired in prior years that were not previously
  reported.

  Accurate inventories of archaeological artifacts, archaeological sites, and buildings and structures are dependent on
  full implementation of tracking systems, notably the Internet Naval Facilities Asset Database Store (iNFADS) and the
  Department of the Navy Heritage Asset Management System (DONHAMS), and related use of historic property data
  elements for buildings and structures.




158
2005 Annual Financial Report

Process used to define assets as Heritage Assets. The processes used to define items as having heritage
significance vary between categories and type of assets being evaluated. Subject matter experts, including historians
and curators, play a significant role in the definition process in addition to other criteria such as being listed on the
National Register of Historic Places. In all cases, a myriad of federal statutes, service regulations, and other
guidelines mandate heritage significance or provide guidance in its determination.

Multi-Use Heritage Assets. Per DoD Financial Management Regulation (FMR) Volume 6B, Form and Content of the
Department of Defense Audited Financial Statements, Multi-Use Heritage Assets are reported both as Heritage
Assets on the RSSI and on the Balance Sheet as Real Property.

Information Pertaining to the Condition of DON Heritage Assets. The methodology used to report the condition of the
heritage assets was a combination of visual assessment of the objects, historic value to the DON collection, and
general display and storage standards for historic collections. The overall condition of the collection objects is good.

Museums
Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition, and
educational interpretation of objects having scientific, historical, or artistic value. Secretary of the Navy Instruction
5755.1A, Navy Museums, defines the scope of the Navy Museum program.

Monuments and Memorials
Monuments and Memorials have significant monetary and/or historical value to the DON.

Cemeteries
Cemeteries are government owned burial grounds on which gravesites of prominent historical figures may be located
in addition to other gravesites.

Archaeological Sites
Archeological Sites are lands on which items of significance are located.

Buildings and Structures
Buildings and Structures are listed as or determined eligible for listing on the National Register of Historic Places,
including Multi-Use Heritage Assets. Criteria for evaluating National Register eligibility of these sites may be
referenced at 36 CFR 60.4.

Supplemental Reporting. In addition to the data presented in the table above, the following supplemental information
was reported as of 9/30/05:


                                Measurement
          Category                Quantity           As of 10/01/04       Additions      Deletions      As of 9/30/05
    Archeological Artifacts      Cubic Feet                     13,756            515              0             14,271
           Archival              Linear Feet                    97,767          3,079          3,557             97,289
           Artwork                  Item                        38,461            210            193             38,478
      Historical Artifacts           Item                    1,140,796          5,300            381          1,145,715


Archaeological Artifacts
The FY 2004 ending balance was adjusted upward by 6 cubic feet resulting in an FY 2004 beginning balance of
13,756 cubic feet. This adjustment was the result of a reclassification of some items from artifacts to archival
records.



                                                                                                                            159
                                                    GENERAL FUND REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                            D e pa r t m e n t o f t h e N a v y

  Archival
  The FY 2004 ending balance was adjusted upward by 3,551 linear feet resulting in an FY 2004 beginning balance of
  97,767 linear feet. This adjustment reflects all archival assets previously reported by the Marine Corps Historical
  Division located at the Washington Navy Yard having been transferred to the Marine Corps University Archives
  Branch in Quantico, Virginia as part of a major consolidation of archival matters.

  Artwork
  The FY 2004 ending balance was adjusted upward by 514 items resulting in an FY 2004 beginning balance of
  38,461 items. This adjustment reflects the correction of an error in the prior reporting period.

  Historical Artifacts
  The FY 2004 ending balance was adjusted upward by 15,679 items resulting in an FY 2004 beginning balance of
  1,140,796 items. This adjustment reflects the correction of an error in the prior reporting period.

      STEWARDSHIP LAND
      For Fiscal Year Ended September 30, 2005
      (Acres in Thousands)

         (a)                        (b)          (c)             (d)            (e)
                                   As of                                       As of
      Land Use                    10/01/04    Additions       Deletions       9/30/05


      1. Mission                     2,026                0               0      2,026
      2. Parks & Historic Sites           0               0               0             0

        Totals                       2,026                0               0      2,026


  The DON followed the definition of Stewardship Land per the DoD FMR to include Public Domain, Land Set Aside,
  and Donated Land. The iNFADS was used to derive acres for Stewardship Land. Within the definition of
  Stewardship Land, land can be further categorized as Improved, Semi-Improved or in the Other Category of land.


  NONFEDERAL PHYSICAL PROPERTY
  The Department of the Navy does not fund this type of Activity.




160
2005 Annual Financial Report

INVESTMENTS IN RESEARCH AND DEVELOPMENT
Yearly Investment in Research and Development
For Fiscal Years 2001 through 2005
(In Millions of Dollars)

   (a)                                                              (b)       (c)       (d)        (e)       (f)
Categories                                                         FY01      FY02      FY03       FY04      FY05


1. Basic Research                                                  $383       $378      $399      $431       $437

2. Applied Research                                                 597        647       743       686        692

3. Development
    Advanced Technology Development                                  738       779       836        967       951
    Advanced Component Development And Prototypes                  2,418     2,415     2,536      2,361     3,030
    System Development and Demonstration                           2,086     2,836     4,200      6,115     7,094
    Research, Development, Test, and Evaluation
     Management Support                                              782       838       797        906       955
    Operational Systems Development                                2,266     2,417     2,385      1,820     3,775

  Total                                                          $9,270    $10,310   $11,896   $13,286    $16,934



Narrative Statement

Investments in Research and Development
Investment values included in this Report are based on Research and Development (R&D) outlays (expenditures).
Outlays are used because current DON systems are unable to fully capture and summarize costs in accordance with
FASAB standards.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic Research
involves the gathering of fuller knowledge or understanding of the subject under study. Major outputs are scientific
studies and research papers.

The following are two representative program examples for the Basic Research category.

Studying Dolphins to Improve Sonar Techniques
Navy News Service professionals and students from the University of Hawaii are currently studying dolphin hearing
and echolocation to help the Navy improve mining and sonar techniques and make the oceans safer for marine
mammals. The research is being conducted through the joint Marine Mammal Research Program at Marine Corps
Base, Kaneohe Bay, Hawaii. According to the Program Director there is deep concern about loud ocean sounds and
the effects of those sounds on marine mammals. Dolphins' echolocation, or the use of sound waves for vision, is
studied for the potential military, scientific, and natural science applications of this capability.




                                                                                                                       161
                                                  GENERAL FUND REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                        D e pa r t m e n t o f t h e N a v y

  Many sources, both natural and man-made, contribute to the background sound in today's oceans. Experiments are
  done that look at the acoustics that tell us how a dolphin's bio-sonar operates. The resulting information is passed
  on to those who build sonar equipment. Recognizing our obligation to protect the natural environment, the Navy has
  procedures in place, including the suspension of operations when required, to minimize potential harm to marine
  mammals from sonar use.

  The Office of Naval Research provides the majority of the funding and has an agreement to use the research facility
  on the Navy base. The University of Hawaii provides the program with research staff. The facility is also equipped to
  handle marine mammals that strand on the beaches around Oahu. Stranded animals receive appropriate medical
  care to and are eventually released back into the Pacific Ocean. The Navy commits nearly $10 million annually for
  this research program.

  Stress and Mutations - New Method of Fighting Antibiotic Resistance by Stopping Evolution
  A team of scientists at The Scripps Research Institute and the University of Wisconsin have demonstrated a new way
  of fighting antibiotic resistance: by stopping evolution.

  In the June 2005 issue of the Public Library of Science's scientific journal, PLoS Biology, the team describes how a
  protein called LexA in the bacterium Escherichia Coli promotes mutations and helps the pathogen evolve resistance
  to antibiotics. The scientists also show that E. coli evolution could be halted in its tracks by subjecting the bacteria to
  compounds that block LexA. Interfering with this protein renders the bacteria unable to evolve resistance to the
  common antibiotics ciprofloxacin and rifampicin. The research professor leading the study stated: "evolution is not an
  unstoppable force, there is a biochemistry underlying it and it is subject to intervention". The Office of Naval
  Research supported this research work.

  B. Applied Research
  Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means
  by which a recognized and specific need may be met. It is the practical application of such knowledge or
  understanding for the purpose of meeting a recognized need. This research points toward specific military needs
  with a view toward developing and evaluating the feasibility and practicability of proposed solutions and determining
  their parameters. Major outputs of applied research are scientific studies, investigations, and research papers,
  hardware components, software codes, and limited construction of, or part of, a weapon system to include
  nonsystem specific development efforts.

  The following are two representative program examples for the Applied Research category.

  Scientists Create World's Tiniest Organic Particles
  University of North Carolina at Chapel Hill chemists have developed what they believe is a breakthrough method of
  creating the world's tiniest manufactured particles for delivering drugs and other organic materials into the human
  body.

  Adapting technology pioneered by the electronics industry in fabricating transistors, the team has figured out for the
  first time how to create particles for carrying genetic material, pharmaceuticals and other compounds of
  unprecedented small size and uniformity. The tiny bits are so small they can be designed and constructed to
  measure only a hundred nanometers or so in diameter. A nanometer is a billionth of a meter.

  The distinguished professor of chemistry and chemical engineering at the university who leads the team has stated:
  "we really believe this work will have a profound positive impact down the road on human health care. This includes,
  but is not limited to, chemotherapy, gene therapy, disease detection and drug delivery". The Office of Naval
  Research supported this research work into organic particles.


162
2005 Annual Financial Report

Expeditionary Unit Water Purifier
The Office of Naval Research Expeditionary Warfare Operations Technology Division has awarded contracts to two
commercial partners to supply two tactical water purification systems designated as the Expeditionary Unit Water
Purifier (EUWP). These water purification systems can be airlifted using a C-130 transport plane to provide potable
water for reconstruction, humanitarian aid and disaster relief. In fact the EUWP was most recently deployed to the
Biloxi, Mississippi area to generate purified water in the wake of Hurricane Katrina.

EUWP design capacity is 100,000 gallons per day of potable water when treating water from a variety of sources
including turbid or saline water, and feed water that has nuclear, biological or chemical contamination.

Naval Facilities Engineering Services Center (NFESC) has received the first EUWP for initial testing and evaluation
at the Seawater Desalination Testing Facility in Port Hueneme, California. Then the EUWP will be moved to the
Tularosa Basin National Desalination Research Facility in Alamogordo, New Mexico for additional evaluation.


C. Development
Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of five
stages defined below:

1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
   directed toward proof of technological feasibility and assessment of operational and producibility rather than the
   development of hardware for service use. Employs demonstration activities intended to prove or test a technology
   or method.

2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating
   environment as possible to assess the performance or cost reduction potential of advanced technology. Programs
   in this phase are generally system specific. Major outputs of Advanced Component Development and Prototype
   are hardware and software components, or complete weapon systems, ready for operational and developmental
   testing and field use.

3. System Development and Demonstration concludes the program or project and prepares it for production. It
   consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons
   systems finalized for complete operational and development testing.

4. RDT&E Management Support is support for installations and operations for general research and development
   use. This category includes costs associated with test ranges, military construction maintenance support for
   laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the R&D
   program.

5. Operational Systems Development is concerned with development projects in support of programs or upgrades still
   in engineering and manufacturing development, which have received approval for production, for which production
   funds have been budgeted in subsequent fiscal years.




                                                                                                                        163
                                                 GENERAL FUND REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                     D e pa r t m e n t o f t h e N a v y

  The following are two representative program examples for the Development category.

  Unmanned Aerial Vehicles Collaborate
  The Joint Operational Test Bed System was initiated by the U.S. Joint Forces Command with the objective of
  improving the war fighting capabilities of unmanned aerial vehicles by using a communications network between the
  vehicles and base stations.

  The exercises held in February and March 2005 at Fort Huachuca, Arizona, and June 2005 at Cherry Point, North
  Carolina, were technical demonstrations of the capability for the different unmanned vehicles to communicate with
  each other and share information at various levels.

  Fast and Flexible, X-CRAFT/ 'Sea Fighter' May Transform Naval Warfare
  As the commanding officer scanned the Pacific Ocean, he announced proudly, "We have just reached 50 knots".
  For a fast bass boat or any car on the road, 50 knots (about 57 miles an hour) would be unimpressive. But the
  vessel under sail is nearly the length of a football field and can carry more firepower than a battleship, a dozen or
  more teams of elite Navy SEALS or a squadron of unmanned helicopters. The Navy's new experimental Sea Fighter
  looks more like a heavily armored passenger ferry than any conventional warship.

  But as the crew demonstrated that week to a group of reporters and dignitaries, the Sea Fighter is anything but
  simple. This ship is the wave of the future. The Sea Fighter is the first of a new class of Navy ships designed to
  move quickly in shallow waters with a minimal crew. The new Littoral Combat Ships (LCS) are part of an overall
  modernization program designed to help the Navy fight modern-day battles in ways that hulking battleships and giant
  aircraft carriers can not. The new class of ships is designed for patrolling coastlines, dropping mines or sensors,
  delivering assault teams, and intercepting or outrunning small terrorist boats. At the same time, they are designed to
  carry enough missiles and other weapons to bombard a good-sized city or support battlefield troops hundreds of
  miles inland.

  Off-the-shelf commercial computer components and other equipment are designed to reduce costs and make the
  ships more adaptable. They are built to be big and tough enough to withstand rough seas like bigger ships, but also
  light enough to operate in waters as shallow as 12 feet. "The ship is lighter, it's cheaper, it's more flexible" than
  anything before it, said the commander of the Office of Naval Research, which oversaw the Sea Fighter design.
  From the helm, the skipper proudly said that commanding the Sea Fighter is unlike anything he has experienced.
  What amazed him most on early sea trials was how well a 262-foot ship, controlled by joysticks, handled at nearly
  60 miles per hour.




164
2005 Annual Financial Report


                                                     DEPARTMENT OF THE NAVY


                                              GENERAL FUND
                        REQUIRED   SUPPLEMENTARY INFORMATION




                                                                                      GF REQUIRED SUPPLEMENTARY
                                                                                             INFORMATION




                                                                                     165
                                   GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                        Research,
                                                                                   Development, Test &        Operation and
                                                                 Other                  Evaluation            Maintenance            Procurement

  BUDGETARY FINANCING ACCOUNTS
  BUDGETARY RESOURCES
    Budget Authority
        Appropriations Received                              $      295,982    $            17,237,063    $        39,714,606    $      33,680,129
        Borrowing Authority                                               0                          0                      0                    0
        Contract Authority                                                0                          0                      0                    0
        Net transfers (+/-)                                        (266,159)                   (32,699)               575,882               77,090
        Other                                                             0                          0                      0                    0
     Unobligated Balance:
        Beginning of period                                          24,492                  2,175,582              2,931,296           11,473,500
        Net transfers, actual (+/-)                                       0                     45,590                (34,418)             228,105
        Anticipated Transfers Balances                                    0                          0                      0                    0
     Spending Authority from Offsetting Collections:
        Earned                                                           0                           0                      0                    0
          Collected                                                      0                     281,685              6,350,270            1,033,222
          Receivable from Federal sources                                0                     101,048                551,753              (10,933)
        Change in unfilled customer orders                               0                           0                      0                    0
          Advances received                                              0                     102,536                    564                    0
          Without advance from Federal sources                           0                     (10,239)              (637,159)                (632)
        Anticipated for the rest of year, without advances               0                           0                      0                    0
        Previously unavailable                                           0                           0                      0                    0
        Transfers from trust funds                                       0                           0                      0                    0
       Subtotal                                              $           0     $               475,030    $         6,265,428    $       1,021,657
    Recoveries of prior year obligations                     $        1,664    $               573,093    $         6,162,412    $       4,010,519
    Temporarily not available pursuant to Public Law                      0                          0                      0                    0
    Permanently not available                                             0                   (364,375)              (342,613)            (656,057)
  Total Budgetary Resources                                  $       55,979    $            20,109,284    $        55,272,593    $      49,834,943

  STATUS OF BUDGETARY RESOURCES
    Obligations Incurred
        Direct                                               $      305,883    $            17,890,459    $        44,679,439    $      34,249,529
        Reimbursable                                               (273,543)                   594,914              9,821,667            2,073,632
        Subtotal                                             $       32,340    $            18,485,373    $        54,501,106    $      36,323,161
    Unobligated balance
        Apportioned                                          $       23,638    $             1,418,243    $            45,705    $      13,054,346
        Exempt from apportionment                                         0                          0                      0                    0
        Other available                                                   0                          0                      0                    0
    Unobligated Balances Not Available                                    0                    205,667                725,783              457,436
  Total, Status of Budgetary Resources                       $       55,978    $            20,109,283    $        55,272,594    $      49,834,943

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net - beginning of period:            $       65,753    $             6,105,616    $        13,962,797    $      40,468,857
    Obligated Balance transferred, net (+/-)                              0                          0                      0                    0
    Obligated Balance, net - end of period:
        Accounts Receivable                                  $            0    $              (104,889)   $          (770,619)   $        (122,662)
        Unfilled customer order from Federal sources                      0                   (273,043)            (1,218,022)             (10,573)
        Undelivered Orders                                         (804,107)                 8,186,726             16,794,874           42,398,395
        Accounts Payable                                            864,144                   (305,131)             1,211,361              771,701
    Outlays:
      Disbursements                                          $       36,392    $            16,423,425    $        46,369,303    $      29,756,204
      Collections                                                         0                   (384,221)            (6,350,835)          (1,033,222)
      Subtotal                                               $       36,392    $            16,039,204    $        40,018,468    $      28,722,982
      Less: Offsetting receipts                                    (115,805)                         0                      0                    0
  Net Outlays                                                $      (79,413)   $            16,039,204    $        40,018,468    $      28,722,982



166
Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                            Military
                                                                                         Construction /
                                                                 Military Personnel      Family Housing       2005 Combined       2004 Combined

  BUDGETARY FINANCING ACCOUNTS
  BUDGETARY RESOURCES
    Budget Authority
        Appropriations Received                              $          38,542,601 $           1,531,980 $       131,002,361 $       123,948,477
        Borrowing Authority                                                      0                     0                   0                   0
        Contract Authority                                                       0                     0                   0                   0
        Net transfers (+/-)                                                105,862               (98,671)            361,305             425,109
        Other                                                                    0                     0                   0                   0
     Unobligated Balance:
        Beginning of period                                                 476,148              946,976          18,027,994          14,695,238
        Net transfers, actual (+/-)                                        (256,879)             (29,029)            (46,631)            195,950
        Anticipated Transfers Balances                                            0                    0                   0                   0
     Spending Authority from Offsetting Collections:
        Earned                                                                   0                     0                   0                   0
          Collected                                                        428,275               737,188           8,830,640           7,706,650
          Receivable from Federal sources                                   73,266               (18,467)            696,667            (360,284)
        Change in unfilled customer orders                                       0                     0                   0                   0
          Advances received                                                      0                44,608             147,708              56,010
          Without advance from Federal sources                              (5,227)               16,864            (636,393)            467,506
        Anticipated for the rest of year, without advances                       0                     0                   0                   0
        Transfers from trust funds                                               0                     0                   0                   0
       Subtotal                                              $             496,314 $             780,193 $         9,038,622 $         7,869,882
  Recoveries of prior year obligations                       $             668,098 $              30,649 $        11,446,435 $        13,756,981
  Temporarily not available pursuant to Public Law                               0                     0                   0                   0
  Permanently not available                                               (140,373)              (40,024)         (1,543,442)         (1,708,789)
  Total Budgetary Resources                                  $          39,891,771 $           3,122,074 $       168,286,644 $       159,182,848

  STATUS OF BUDGETARY RESOURCES
    Obligations Incurred
        Direct                                               $          39,228,152 $           1,340,914 $       137,694,376 $       132,268,522
        Reimbursable                                                       497,887               749,232          13,463,789           8,886,330
        Subtotal                                             $          39,726,039 $           2,090,146 $       151,158,165 $       141,154,852
    Unobligated balance
        Apportioned                                          $              74,533 $             991,040 $        15,607,505 $        13,973,107
        Exempt from apportionment                                                0                     0                   0                   0
        Other available                                                          0                     0                   0                   1
    Unobligated Balances Not Available                                      91,199                40,889           1,520,974           4,054,888
    Total, Status of Budgetary Resources                     $          39,891,771 $           3,122,075 $       168,286,644 $       159,182,848

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net-beginning of period:              $            1,764,351 $          1,488,850 $        63,856,224 $        63,520,894
    Obligated Balance transferred, net (+/-)                                      0                    0                   0                   0
    Obligated Balance, net-end of period:
        Accounts Receivable                                  $             (127,180) $          (108,876) $       (1,234,226) $         (537,560)
        Unfilled customer order from Federal sources                          5,859             (670,809)         (2,166,588)         (2,802,982)
        Undelivered Orders                                                  186,105            1,969,021          68,731,014          63,723,755
        Accounts Payable                                                    560,522              259,575           3,362,172           3,473,010
  OUTLAYS:
    Disbursements                                            $          40,128,948 $           2,101,036 $       134,815,308 $       126,955,319
    Collections                                                           (428,275)             (781,795)         (8,978,348)         (7,762,660)
    Subtotal                                                 $          39,700,673 $           1,319,241 $       125,836,960 $       119,192,659
    Less: Offsetting receipts                                                    0                     0            (115,805)           (115,027)
    Net Outlays                                              $          39,700,673 $           1,319,241 $       125,721,155 $       119,077,632




                                                                                                                                            167
                                                                         GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                                   D e pa r t m e n t o f t h e N a v y


  DON GENERAL PROPERTY, PLANT, AND EQUIPMENT
  Real Property Deferred Annual Sustainment and Restoration Tables
  As of September 30, 2005
  ($ in Millions)

                                            Annual Sustainment FY 2005
                                                     Required             Actual       Difference
                  Navy                                $1,321              $1,073         $248
                  Marine Corps                            535              505            30
                  Building, Structures, and           $1,856              $1,578         $278
                  Utilities

                                      Annual Deferred Sustainment Trend
                                                FY 2002         FY 2003      FY 2004      FY 2005
                Navy                             NAV             NAV          $488         $248
                Marine Corps                     NAV             NAV           24           30
                Building, Structures, and         $40            $346         $512         $278
                Utilities
                NAV = Not available

                                 Restoration and Modernization Requirements
                                          End FY 2004       End FY 2005                Change
                  Navy                          -                -                       -
                  Marine Corps                  -                -                       -
                  Building, Structures,         -                -                       -
                  and Utilities




  Narrative Statement:
  Fiscal Year 2005 represents the fourth year the Facility Sustainment Model (FSM) was utilized for the
  DON General Fund. Deferred amounts were calculated in accordance with the methodology provided by
  DoD Financial Management Regulation, Volume 6B, Chapter 12. The output of the Facility Sustainment
  Model continues to undergo quality checks to ensure its accuracy. Accordingly, utilizing an updated and
  accurate version of the model provides current requirements for each fiscal year. In FY 2005, FSM
  Version 5.0 was used for programming and budgeting for facilities sustainment.

  The DON General Fund has no material amounts of deferred sustainment for the General Property, Plant,
  and Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.




168
2005 Annual Financial Report


MILITARY EQUIPMENT
Deferred Maintenance Amounts
As of September 30, 2005
($ in Thousands)

                          Major Type                                 Amount
                          1. Aircraft                                $54,888
                          2. Ships                                    54,206
                          3. Missiles                                 58,911
                          4. Combat Vehicles                          26,679
                          5. Other Weapons Systems                   116,471
                          6. Total                                  $311,155

Narrative Statement:

Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active and
reserve), engine rework and maintenance (active and reserve), component repair, and software
maintenance. The airframe rework deferred maintenance calculation reflects executable unfunded
requirements, which represent aircraft that failed Aircraft Service Period Adjustment (ASPA) or reached
fixed Period End Date (PED) at year-end. The engine rework deferred maintenance calculation reflects
year-end actual requirements minus actual funded units. Component repair deferred maintenance cost
represents the difference between the validated requirements minus corresponding funding. Aircraft
deferred maintenance reflects only executable deferred maintenance. Unexecutable deferred
maintenance is not reported for airframe rework, engine rework and component repair, nor is it collected.

Airframe rework and maintenance (active and reserve) is currently performed under both the Standard
Depot Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs. Currently, the
AV-8B, C-130, C-2, E-2C, E-6, EA-6B, F-5, F/A-18, H-60, H-1, H-46, H-53, P-3, and S-3 aircraft programs
have been incorporated under the IMC concept. Descriptions of these aircraft can be found at
http://www.chinfo.navy.mil/navpalib/factfile/ffiletop.html. The IMC concept uses Planned Maintenance
Intervals (PMI), performing more frequent depot maintenance, with smaller work packages, thereby
reducing out of service time. The goal of this program is to improve readiness while reducing operating
and support costs. The Naval Air Systems Command's (NAVAIR) Industrial Strategy is to maintain the
minimum level of organic capacity, consistent with force levels, that is necessary to sustain peacetime
readiness and maintain fighting surge capability. NAVAIR works in partnership with private industry to
make maximum use of industry's production capabilities and for non-core related aviation depot
maintenance.

Ship Deferred Maintenance
Fleet Type Commanders provided deferred Ship Maintenance data. Data was collected from the Current
Ships' Maintenance Plan (CSMP) database, which captures maintenance actions at all levels
(organizational, intermediate, depot), for active and reserve ships. Only depot level deferred maintenance
has been provided in this report. This includes maintenance actions deferred from actual depot
maintenance work-packages as well as maintenance deferred before inclusion in a work package due to
fiscal, operational, or capacity constraints. Although there is a significant amount of deferred maintenance



                                                                                                               169
                                                         GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                               D e pa r t m e n t o f t h e N a v y


  actions, there are no ships that fall into the category of "unacceptable operating condition". Any ship that
  would be at risk of being in unacceptable operating condition would receive priority for maintenance
  funding to maintain acceptable operating condition.

  Missile Maintenance
  Four categories are used to determine missile maintenance: missiles, tactical missiles, software
  maintenance, and other. Deferred maintenance is defined as the difference between the total weapon
  maintenance requirement as determined by requirements modeling processes and the weapon
  maintenance that is funded in accordance with the annual budget controls for the Missile Maintenance
  program. The maintenance requirements model projects the quantity of missiles and missile components
  per weapon system that are required to be maintained (reworked) annually.

  Combat Vehicles
  The combat vehicles category refers to deferred vehicle overhaul maintenance for the active and reserve
  Marine Corps assets.

  Other Weapons System
  The "Other Weapons System" category is comprised of ordnance, end item maintenance for support
  equipment, camera equipment, landing aids, calibration equipment, air traffic control equipment, target
  systems, expeditionary airfield equipment, special weapons, target maintenance, and repair of repairable
  components. Three categories define ordnance maintenance: ordnance maintenance, software
  maintenance and other. Although the various programs vary in the methodology in defining requirements,
  all programs define deferred maintenance as the difference between validated requirements and funding.

  Software Maintenance
  Software maintenance requirements and deferred maintenance for aircraft, missiles and other equipment
  are determined using the same methodology and, therefore will not be addressed separately for each
  Military Equipment Deferred Maintenance reporting categories. Software maintenance includes the
  operational and system test software that runs in the airborne avionics systems (e.g., mission computer,
  display computer, radar) and the software that runs the ground based support labs used to perform
  software sustainment (e.g., compilers, editors, simulation, configuration management). The deferred
  maintenance reported for the execution year are those requirements below the funding threshold and up
  to, but not exceeding, the capacity of the Software Support Activity (SSA) in that particular fiscal year.




170
 2005 Annual Financial Report

Schedule, Part A DoD Intragovernmental
Asset Balances                                       Treasury     Fund Balance      Accounts       Loans
($ Amounts in Thousands)                              Index       with Treasury    Receivable    Receivable Investments    Other

Department of Agriculture                               12                              $1,551
Department of Commerce                                  13                                                                   $1,847
Department of the Interior                              14                                $164                             $217,616
Department of Justice                                   15                              $5,445
United States Postal Service                            18                                 $20
Department of State                                     19                              $1,431
Department of the Treasury                              20           $86,079,205          $354                    $9,519
Army General Fund                                       21                             $37,536                                 $207
Office of Personnel Management                          24                                                                  $33,830
Nuclear Regulatory Commission                           31                                 $33
International Trade Commission                          34                                  $0
Department of Veterans Affairs                          36                                 $13
Government Printing Office                               4                                  $0
General Service Administration                          47                                  $6
National Science Foundation                             49                                $424                                 $161
Air Force General Fund                                  57                             $25,208                             $101,858
Environmental Protection Agency                         68                                 $97                               $1,932
Department of Transportation                            69                              $2,316                              $98,221
Homeland Security                                       70                             $60,539
Agency for International Development                    72                                  $2
Small Business Administration                           73                                                                     $200
Department of Health and Human Services                 75                                $125                                  $24
National Aeronautics and Space Administration           80                              $2,537                               $2,329
Department of Housing and Urban Development             86                                  $6
Department of Energy                                    89                                $224                               $1,304
Department of Education                                 91                                 $63
US Army Corps of Engineers                              96                              $1,753
Other Defense Organizations General Funds               97                             $52,334
Other Defense Organizations Working Capital Funds     97-4930                          $22,810                              $30,196
Army Working Capital Fund                           97-4930.001                         $2,053
Navy Working Capital Fund                           97-4930.002                        $63,628                             $180,959
Air Force Working Capital Fund                      97-4930.003                           $634                               $1,572
Totals might not match the Principal Statements        Totals        $86,079,205      $281,306                    $9,519   $672,256




                                                                                                                            171
                                                                    GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                                            D e pa r t m e n t o f t h e N a v y


      Schedule, Part B DoD Intragovernmental
      Entity Liabilities
                                                                           Accounts       Debts/Borrowings From
                                                          Treasury Index                                            Other
      ($ Amounts in Thousands)                                              Payable          Other Agencies

      Department of Agriculture                                12               $1,106
      Department of Commerce                                   13                 $299
      Department of the Interior                               14               $2,478
      Department of Labor                                      16                                                     $623,620
      Department of State                                      19              $17,218
      Department of the Treasury                               20              $35,567
      Army General Fund                                        21              $62,306
      Office of Personnel Management                           24                                                      $44,585
      Federal Communications Commission                        27                 $596
      Nuclear Regulatory Commission                            31                  $60
      Department of Veterans Affairs                           36               $3,882
      General Service Administration                           47             $205,242
      National Science Foundation                              49                 $665
      Air Force General Fund                                   57              $43,215
      Tennessee Valley Authority                               64                 $559
      Environmental Protection Agency                          68                 $268
      Department of Transportation                             69              $36,728
      Homeland Security                                        70               $9,552
      Department of Health and Human Services                  75                  $38
      National Aeronautics and Space Administration            80               $6,395
      Department of Energy                                     89             $109,401
      US Army Corps of Engineers                               96                 $236
      Other Defense Organizations General Funds                97              $60,426                                  $2,119
      Other Defense Organizations Working Capital Funds      97-4930          $207,947
      Army Working Capital Fund                            97-4930.001         $13,783
      Navy Working Capital Fund                            97-4930.002        $386,796
      Air Force Working Capital Fund                       97-4930.003          $3,941
      The General Fund of the Treasury                         99                                                   $3,155,725
      Totals might not match the Principal Statements        Totals:         $1,208,704                             $3,826,049




172
2005 Annual Financial Report


    Schedule, Part C DoD Intragovernmental
     Revenue and Related Costs
     ($ Amounts in Thousands)                                     Treasury Index   Earned Revenue
    Executive Office of the President                                   11                     $82,446
    Department of Agriculture                                           12                      $7,694
    Department of Commerce                                              13                      $9,568
    Department of the Interior                                          14                        $682
    Department of Justice                                               15                     $14,249
    Department of Labor                                                 16                          $1
    United States Postal Service                                        18                         $23
    Department of State                                                 19                      $5,385
    Department of the Treasury                                          20                      $1,218
    Army General Fund                                                   21                    $281,890
    Nuclear Regulatory Commission                                       31                        $496
    International Trade Commission                                      34                          $1
    Department of Veterans Affairs                                      36                      $2,684
    Government Printing Office                                          4                         $186
    General Service Administration                                      47                        $515
    National Science Foundation                                         49                      $3,352
    Air Force General Fund                                              57                    $227,438
    Environmental Protection Agency                                     68                        $127
    Department of Transportation                                        69                      $8,652
    Homeland Security                                                   70                     $85,093
    Agency for International Development                                72                         $55
    Department of Health and Human Services                             75                      $4,780
    National Aeronautics and Space Administration                       80                     $15,302
    Department of Housing and Urban Development                         86                        $398
    Department of Energy                                                89                      $3,819
    Selective Service System                                            90                          $9
    Department of Education                                             91                      $5,404
    US Army Corps of Engineers                                          96                      $3,421
    Other Defense Organizations General Funds                           97                    $757,039
    Other Defense Organizations Working Capital Funds                97-4930                  $233,746
    Army Working Capital Fund                                      97-4930.001                 $36,461
    Navy Working Capital Fund                                      97-4930.002              $1,558,761
    Air Force Working Capital Fund                                 97-4930.003                    $973
    DoD Medicare-Eligible Retiree Health Care Fund                                            $125,788
    Totals might not match the Principal Statements                   Total:                $3,477,656




                                                                                                          173
                                                        GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                         D e pa r t m e n t o f t h e N a v y


      Schedule, Part E DoD Intragovernmental
      Non-exchange Revenues
      ($ Amounts in Thousands)                          Treasury Index   Transfers In     Transfers Out
      Department of the Treasury                              20                    $0                    $0
      Air Force General Fund                                  57                   $21
      Homeland Security                                       70                                   $1,673
      Navy Working Capital Fund                          97-4930.002         $150,000
      Totals might not match the Principal Statements       Total:           $150,021              $1,673




174
2005 Annual Financial Report


                                                    DEPARTMENT OF THE NAVY


                                                GENERAL FUND
                               OTHER ACCOMPANYING INFORMATION




                                                                                      GF OTHER ACCOMPANYING INFORMATION




                                                                                    175
                                      GENERAL FUND OTHER ACCOMPANYING INFORMATION
                                                                            D e pa r t m e n t o f t h e N a v y


  APPROPRIATIONS, FUNDS, AND ACCOUNTS INCLUDED                  IN THE   PRINCIPAL STATEMENTS
  Entity Accounts
  General Funds
  17X0380     Coastal Defense Augmentation, Navy
  17X0703     Family Housing, Navy and Marine Corps
  17X0730     Family Housing Construction, Navy and Marine Corps
  17X0735     Family Housing Operation and Maintenance, Navy and Marine Corps
  17X0810     Environmental Restoration, Navy
  17X1105     Military Personnel, Marine Corps
  17X1106     Operation and Maintenance, Marine Corps
  17X1107     Operation and Maintenance, Marine Corps Reserve
  17X1108     Reserve Personnel, Marine Corps
  17X1109     Procurement, Marine Corps
  17X1205     Military Construction, Navy and Marine Corps
  17X1235     Military Construction, Naval Reserve
  17X1236     Payments to Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
  171319      Research, Development, Test and Evaluation, Navy
  171405      Reserve Personnel, Navy
  17X1453     Military Personnel, Navy
  17X1506     Aircraft Procurement, Navy
  17X1507     Weapons Procurement, Navy
  17X1508     Procurement of Ammunition, Navy and Marine Corps
  17X1611     Shipbuilding Conversion
  17X1804     Operation and Maintenance, Navy
  17X1806     Operation and Maintenance, Navy Reserve
  17X1810     Other Procurement

  Revolving Funds
  17X4557     National Defense Sealift Fund, Navy

  Trust Funds
  17X8008       Office of Naval Records and History Fund
  17X8716       Department of the Navy General Gift Fund
  17X8723       Ships Stores and Profits, Navy
  17X8730       United States Naval Academy Museum Fund
  17X8733       United States Naval Academy General Gift Fund

  Special Funds
  17X5095     Wildlife Conversion, Military Reservations, Navy
  17X5185     Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
  17X5429     Rossmoor Liquidating Trust Settlement Account
  17X5562     Ford Island Improvement Account




176
2005 Annual Financial Report

Non Entity Accounts
17X3XXX       Receipt Accounts
17X6XXX       Deposit Funds
17X47X0535 Embassy Security, Construction and Maintenance, State
17X11 1081    International Military Education and Training Funds, appropriated to the President (fiscal year)
17X11X1081 International Military Education and Training Funds, appropriated to the President
17X11 1082    Foreign Military Financing Program, Funds appropriated to the President (fiscal year)
17X12X1105 State and Private Forestry, Forest Service




                                                                                                                 177
                                                                  GENERAL FUND OTHER ACCOMPANYING INFORMATION
      D e pa r t m e n t o f t h e N a v y




178
2005 Annual Financial Report


                                                 DEPARTMENT OF THE NAVY


                               NAVY WORKING CAPITAL FUND
                                     PRINCIPAL STATEMENTS




                                                                                   PRINCIPAL STATEMENTS
                                                                                          NWCF




                                                                                  179
                                 NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
                                                                                         D e pa r t m e n t o f t h e N a v y


  LIMITATIONS      TO THE    FINANCIAL STATEMENTS
  The financial statements have been prepared to report the financial position and results of operations for the entity,
  pursuant to the requirements of the Title 31, United States Code, Section 3515(b).

  While the statements have been prepared from the books and records of the entity, in accordance with the formats
  prescribed by the Office of Management and Budget, the statements are in addition to the financial reports used to
  monitor and control budgetary resources which are prepared from the same books and records.

  To the extent possible, the financial statements have been prepared in accordance with federal accounting
  standards. At times, the Department is unable to implement all elements of the standards due to financial
  management systems limitations. The Department continues to implement system improvements to address these
  limitations. There are other instances when the Department’s application of the accounting standards is different
  from the auditor’s application of the standards. In those situations, the Department has reviewed the intent of the
  standard and applied it in a manner that management believes fulfills that intent.

  The statements should be read with the realization that they are for a component of the U.S. Government, a
  sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that provides
  resources to do so.




180
2005 Annual Financial Report


PRINCIPAL STATEMENTS
The FY 2005 Navy Working Capital Fund Principal Financial Statements and related notes are presented in the
format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual activity groups and activities within the
Navy Working Capital Fund for the fiscal year ending September 30, 2005, and are presented on a comparative basis
with information previously reported for the fiscal year ending September 30, 2004.

The following statements are included in the Navy Working Capital Fund Principal Statements:

  •   Consolidated Balance Sheet
  •   Consolidated Statement of Net Cost
  •   Consolidated Statement of Changes in Net Position
  •   Combined Statement Budgetary Resources
  •   Consolidated Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act of
1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                                                    181
                                                                NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
                                                                                            D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED BALANCE SHEET
      As of September 30, 2005 and 2004
      ($ in thousands)

                                                                         2005 Consolidated        2004 Consolidated
        ASSETS (Note 2)
          Intragovernmental:
            Fund Balance with Treasury (Note 3)
                 Entity                                              $            977,865     $             861,243
                 Nonentity Seized Iraqi Cash                                            0                         0
                 Nonentity - Other                                                      0                         0
            Investments (Note 4)                                                        0                         0
            Accounts Receivable (Note 5)                                          494,499                   857,519
            Other Assets (Note 6)                                                     374                        15
                 Total Intragovernmental Assets                      $          1,472,738     $           1,718,777
          Cash and Other Monetary Assets (Note 7)                                       0                         0
          Accounts Receivable (Note 5)                                             29,686                    26,190
          Loans Receivable (Note 8)                                                     0                         0
          Inventory and Related Property (Note 9)                              15,610,774                19,239,192
          General Property, Plant and Equipment (Note 10)                       3,730,522                 3,895,542
          Investments (Note 4)                                                          0                         0
          Other Assets (Note 6)                                                   536,741                   717,191
        TOTAL ASSETS                                                 $         21,380,461     $          25,596,892

        LIABILITIES (Note 11)
          Intragovernmental:
           Accounts Payable (Note 12)                                $            199,606     $             243,982
           Debt (Note 13)                                                         381,518                   506,278
           Other Liabilities (Note 15 & Note 16)                                  457,477                   114,851
                  Total Intragovernmental Liabilities                $          1,038,601     $             865,111
          Accounts Payable (Note 12)                                            2,152,112                 1,862,567
          Military Retirement Benefits and Other Employment-
            Related Actuarial Liabilities (Note 17)                             1,192,551                 1,168,225
          Environmental Liabilities (Note 14)                                           0                         0
          Loan Guarantee Liability (Note 8)                                             0                         0
          Other Liabilities (Note 15 and Note 16)                               3,450,673                 5,679,116
        TOTAL LIABILITIES                                            $          7,833,937     $           9,575,019

        NET POSITION
          Unexpended Appropriations                                  $              6,286     $                   0
          Cumulative Results of Operations                                     13,540,238                16,021,873
        TOTAL NET POSITION                                           $         13,546,524     $          16,021,873

        TOTAL LIABILITIES AND NET POSITION                           $         21,380,461     $          25,596,892




  The accompanying notes are an integral part of these statements.


182
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Consolidated         2004 Consolidated
   Program Costs
      Intragovernmental Gross Costs                                $            5,567,551    $             5,434,981
      (Less: Intragovernmental Earned Revenue)                                (20,715,925)               (21,698,935)
      Intragovernmental Net Costs                                  $          (15,148,374)   $           (16,263,954)

      Gross Costs With the Public                                  $           19,256,819    $           17,915,614
      (Less: Earned Revenue From the Public)                                   (1,524,490)                 (613,535)
      Net Costs With the Public                                    $           17,732,329    $           17,302,079

      Total Net Cost                                               $            2,583,955    $            1,038,125
   Costs Not Assigned to Programs                                                       0                         0
   (Less: Earned Revenue Not Attributable to Programs)                                  0                         0
   Net Cost of Operations                                          $            2,583,955    $            1,038,125




The accompanying notes are an integral part of these statements.



                                                                                                                          183
                                                                         NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
                                                                                              D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
  For the years ended September 30, 2005 and 2004
  ($ in thousands)

                                                                                 2005 Consolidated      2004 Consolidated
      Cumulative Results of Operations
       Beginning Balances                                                    $          16,021,873 $            18,136,830
       Prior period adjustments (+/-)
        Changes in Accounting Principles                                                         0                       0
        Correction of Errors                                                                     0              (1,044,715)
       Beginning Balances, as adjusted                                       $          16,021,873 $            17,092,115
       Budgetary Financing Sources:
        Appropriations Received                                              $                   0 $                      0
        Appropriations transferred in/out (+/-)                                                  0                        0
        Other adjustments (recissions, etc) (+/-)                                                0                        0
        Appropriations used                                                                287,964                  130,446
        Nonexchange revenue                                                                      0                        0
        Donations and forfeitures of cash and cash equivalents                                   0                        0
        Transfers in/out without reimbursement (+/-)                                       (84,615)                (287,800)
        Other budgetary financing sources (+/-)                                                  0                 (419,775)
       Other Financing Sources:
        Donations and forfeitures of property                                                    0                       0
        Transfers in/out without reimbursement (+/-)                                             0                     126
        Imputed financing from costs absorbed by others                                    552,597                 544,886
        Other (+/-)                                                                       (653,626)                      0
       Total Financing Sources                                               $             102,320 $               (32,117)
        Net Cost of Operations (+/-)                                                     2,583,955               1,038,125
        Net Change                                                                      (2,481,635)             (1,070,242)
        Ending Balances                                                      $          13,540,238 $            16,021,873




          The accompanying notes are an integral part of these statements.

184
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Consolidated       2004 Consolidated
   Unexpended Appropriations
    Beginning Balances                                             $                  0    $                  0
    Prior period adjustments (+/-)
      Changes in Accounting Principles                                                0                       0
      Correction of Errors                                                            0                       0
    Beginning Balances, as adjusted                                $                  0    $                  0
    Budgetary Financing Sources:
     Appropriations Received                                       $            298,000    $            130,446
     Appropriations transferred in/out (+/-)                                     (3,750)                      0
     Other adjustments (recissions, etc) (+/-)                                        0                       0
     Appropriations used                                                       (287,964)               (130,446)
     Nonexchange revenue                                                              0                       0
     Donations and forfeitures of cash and cash equivalents                           0                       0
     Transfers in/out without reimbursement (+/-)                                     0                       0
     Other budgetary financing sources (+/-)                                          0                       0
    Other Financing Sources:
     Donations and forfeitures of property                                            0                       0
     Transfers in/out without reimbursement (+/-)                                     0                       0
     Imputed financing from costs absorbed by others                                  0                       0
     Other (+/-)                                                                      0                       0
    Total Financing Sources                                        $              6,286    $                  0
     Net Cost of Operations (+/-)                                                     0                       0
     Net Change                                                                   6,286                       0
     Ending Balances                                               $              6,286    $                  0




The accompanying notes are an integral part of these statements.

                                                                                                                    185
                                                                   NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
                                                                                    D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Navy Working Capital Fund
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2005 and 2004
      ($ in thousands)


       BUDGETARY FINANCING ACCOUNTS                                      2005 Combined         2004 Combined
       BUDGETARY RESOURCES
         Budget Authority:
            Appropriations Received                                  $         298,000     $          130,446
            Borrowing Authority                                                      0                      0
            Contract Authority                                                 865,296                355,172
            Net transfers (+/-)                                                 (3,750)                     0
            Other                                                                    0                      0
         Unobligated Balance:
            Beginning of period                                               2,749,720             4,513,325
            Net transfers, actual (+/-)                                         (84,615)             (287,800)
            Anticipated Transfers Balances                                            0                     0
         Spending Authority from Offsetting Collections:
            Earned                                                                    0                     0
             Collected                                                       23,151,266            23,926,810
             Receivable from Federal sources                                   (233,654)              249,344
            Change in unfilled customer orders                                        0                     0
             Advances received                                                    8,239                90,067
             Without advance from Federal sources                               249,981            (1,724,666)
            Anticipated for the rest of year, without advances                        0                     0
            Previously unavailable                                                    0                     0
            Transfers from trust funds                                                0                     0
            Subtotal                                                 $       23,175,832    $       22,541,555
         Recoveries of prior year obligations                                         0                     0
         Temporarily not available pursuant to Public Law                             0                     0
         Permanently not available                                             (247,828)             (186,529)
         Total Budgetary Resources                                   $       26,752,655    $       27,066,169

       STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                                  $                0    $                0
             Reimbursable                                                    23,935,997            24,316,448
             Subtotal                                                $       23,935,997    $       24,316,448
         Unobligated balance:
             Apportioned                                                      2,768,052             2,650,776
             Exempt from apportionment                                         (143,714)                    0
             Other available                                                         (1)                    0
         Unobligated Balances Not Available                                     192,321                98,945
         Total Status of Budgetary Resources                         $       26,752,655    $       27,066,169




  The accompanying notes are an integral part of these statements.


186
2005 Annual Financial Report

Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                       2005 Combined          2004 Combined

   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     Obligated Balance, Net - beginning of period                  $         4,238,707    $          3,274,114
     Obligated Balance transferred, net (+/-)                                        0                       0
     Obligated Balance, net - end of period:
         Accounts Receivable                                                  (356,787)                (590,442)
         Unfilled customer order from Federal sources                       (7,281,442)              (7,031,461)
         Undelivered Orders                                                  7,468,939                6,892,059
         Accounts Payable                                                    5,198,377                4,968,550
     Outlays:
        Disbursements                                                       23,129,285               24,827,178
        Collections                                                        (23,159,504)             (24,016,876)
        Subtotal                                                   $           (30,219)   $             810,302
     Less: Offsetting receipts                                                       0                        0
     Net Outlays                                                   $           (30,219)   $             810,302




The accompanying notes are an integral part of these statements.



                                                                                                                        187
                                                                       NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
                                                                                           D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED STATEMENT OF FINANCING
      For the years ended September 30, 2005 and 2004
      ($ in thousands)

                                                                                            2005                 2004
                                                                                         Consolidated         Consolidated

        Resources Used to Finance Activities:
        Budgetary Resources Obligated
           Obligations Incurred                                                      $      23,935,997    $       24,316,448
           Less: Spending Authority from offsetting collections and recoveries (-)         (23,175,830)          (22,541,554)
           Obligations net of offsetting collections and recoveries                  $         760,167    $        1,774,894
           Less: Offsetting receipts (-)                                                             0                     0
           Net obligations                                                           $         760,167    $        1,774,894
        Other Resources
           Donations and forfeitures of property                                                     0                    0
           Transfers in/out without reimbursement (+/-)                                              0                  125
           Imputed financing from costs absorbed by others                                     552,597              544,886
           Other (+/-)                                                                        (653,626)                   0
           Net other resources used to finance activities                            $        (101,029)   $         545,011
           Total resources used to finance activities                                $         659,138    $       2,319,905

        Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in budgetary resources obligated for goods, services and
            benefits ordered but not yet provided
             Undelivered orders (-)                                                  $        (684,742)   $        1,142,521
             Unfilled Customer Orders                                                          258,220            (1,634,601)
          Resources that fund expenses recognized in prior periods                                   0              (241,627)
          Budgetary offsetting collections and receipts that do not affect Net
            Cost of Operations                                                                       0                     0
          Resources that finance the acquisition of assets                                  (4,342,345)           (5,045,185)
          Other resources or adjustments to net obligated resources that do not
           affect Net Cost of Operations
             Less: Trust or Special Fund receipts related to exchange in the
                     entity's budget (-)                                                            0                      0
                    Other (+/-)                                                               653,626                   (125)
          Total resources used to finance items not part of the Net Cost of
            Operations                                                               $      (4,115,241)   $       (5,779,017)

           Total resources used to finance the Net Cost of Operations                $      (3,456,103)   $       (3,459,112)




  The accompanying notes are an integral part of these statements.


188
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                       2005                 2004
                                                                                    Consolidated         Consolidated


   Components of the Net Cost of Operations that will not Require
   or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                         $              0     $               0
     Increase in environmental and disposal liability                                          0                     0
     Upward/Downward reestimates of credit subsidy expense                                     0                     0
     Increase in exchange revenue receivable from the public (-)                               0                     0
     Other (+/-)                                                                          24,326                     0
     Total components of Net Cost of Operations that will require or
      generate resources in future periods                                      $         24,326     $               0

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                              $         205,205    $         255,203
     Revaluation of assets and liabilities (+/-)                                        1,236,002               42,924
     Other (+/-)                                                                                                     0
          Trust Fund Exchange Revenue                                                           0                    0
          Cost of Goods Sold                                                            4,574,426            4,160,738
          Operating Material & Supplies Used                                                    0                    0
          Other                                                                                99               38,372
     Total components of Net Cost of Operations that will not require
       or generate resources                                                    $       6,015,732    $       4,497,237
     Total components of Net Cost of Operations that will not
      require or generate resources in the current period                       $       6,040,058    $       4,497,237

      Net Cost of Operations                                                    $       2,583,955    $       1,038,125




The accompanying notes are an integral part of these statements.



                                                                                                                    189
                                                                        WORKING CAPITAL FUND PRINCIPAL STATEMENTS
      D e pa r t m e n t o f t h e N a v y




190
2005 Annual Financial Report


                                                            DEPARTMENT OF THE NAVY


                                       NAVY WORKING CAPITAL FUND
                           NOTES       TO THE PRINCIPAL STATEMENTS




                                                                                              NOTES
                                                                                              TO THE
                                                                                              PRINCIPAL STATEMENTS
                                                                                              NWCF




                                                                                             191
                               NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y


  NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
  1.A. Basis of Presentation
  These financial statements have been prepared to report the financial position and results of operations of the Navy
  Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990, expanded by the
  Government Management Reform Act of 1994, and other appropriate legislation. The financial statements have
  been prepared from the books and records of the NWCF in accordance with the Department of Defense (DoD)
  Financial Management Regulation, Office of Management and Budget (OMB) Circular No. A-136, "Financial
  Reporting Requirements" and to the extent possible Federal Generally Accepted Accounting Principles (GAAP). The
  accompanying financial statements account for all resources for which the NWCF is responsible except that
  information relative to classified assets, programs, and operations have been excluded from the statement or
  otherwise aggregated and reported in such a manner that it is no longer classified. The NWCF financial statements
  are in addition to the financial reports also prepared by the NWCF pursuant to OMB directives that are used to
  monitor and control the NWCF use of budgetary resources.

  The NWCF is unable to fully implement all elements of Federal GAAP and OMB Circular No. A-136 due to limitations
  of its financial management processes and systems, including feeder systems and processes. Reported values and
  information for NWCF major asset and liability categories are derived in part from feeder systems, such as inventory
  systems and logistic systems. These were designed to support reporting requirements focusing on maintaining
  accountability over assets and reporting the status of federal appropriations rather than preparing financial
  statements in accordance with Federal GAAP. The NWCF continues to implement process and system
  improvements addressing the limitation of its financial and feeder systems. A more detailed explanation of these
  financial statement elements is provided in the applicable note.

  1.B. Mission of the Reporting Entity
  The overall mission of the Department of the Navy (DON) is to organize, train, and equip forces to deter aggression
  and, if necessary, defeat aggressors of the United States and its allies. The NWCF provides goods, services, and
  infrastructure to DON and other DoD customers to help ensure our military forces are mobile, ready, and have the
  most advanced technology.

  The NWCF has prepared annual financial statements pursuant to the CFO Act of 1990, as amended for the past
  fifteen years. The Act requires that financial statements be prepared and audited for each revolving fund and
  account that performed substantial commercial functions, such as those performed by the NWCF.

  1.C. Appropriations and Funds
  The DON's appropriations and funds are divided into the general, working capital (revolving funds), trust, special, and
  deposit funds. These appropriations and funds are used to fund and report how the resources have been used in
  the course of executing the DON's missions.

  The NWCF (a revolving fund) received its initial working capital through an appropriation or a transfer of resources
  from existing appropriations or funds and used those capital resources to finance the initial cost of products and
  services. Financial resources to replenish the initial working capital and to permit continuing operations are
  generated by the acceptance of customer orders. The NWCF operates with financial principles that provide
  improved cost visibility and accountability to enhance business management and improve the decision making
  process. The activities provide goods and services on a reimbursable basis. Receipts derived from operations
  generally are available in their entirety for use without further congressional action.




192
2005 Annual Financial Report

1.D. Basis of Accounting
The NWCF generally records transactions on an accrual accounting basis as required by Federal GAAP. However,
some of the NWCF's financial and feeder systems and processes are not designed to collect and record financial
information on the full accrual accounting basis. The NWCF has undertaken efforts to determine the actions required
to bring all of its financial and feeder systems and processes into compliance with all elements of Federal GAAP.

In addition, the NWCF identifies programs based upon the major appropriation groups provided by Congress. The
NWCF is in the process of reviewing available data and attempting to develop a cost reporting methodology that
balances the need for cost information required by the Statement of Federal Financial Accounting Standards (SFFAS)
No. 4, "Managerial Cost Accounting Concepts and Standards for the Federal Government," with the need to keep the
financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources
Revenue is recognized according to the percentage of completion method for depot maintenance activities.
Research and Development activities recognize revenue according to the percentage of completion method or as
actual costs are incurred and billed. Revenue is recognized when an inventory item is sold for supply management
activities and at the time service is rendered for base support activities. Revenue for the Transportation Activity
Group is recognized on either a reimbursable or per diem basis. That is, revenue is recognized when earned. The
preponderance of per diem projects are billed and collected in the month services are rendered. In the case of
reimbursables, some per diems, and point-to-point voyages, the revenue is accrued in the month services are
rendered and collection is made the following month.

The NWCF does not include non-monetary support provided by U.S. allies for common defense and mutual security
in its list of other financing sources that appears in the Statement of Financing. The U.S. has agreements with
foreign countries that include both direct or indirect sharing of costs that each country incurs in support of the same
general purpose. Examples include countries where there is a mutual or reciprocal defense agreement, where U.S.
troops are stationed, or where the U.S. fleet is in a port. DoD is reviewing these types of financing and cost
reductions in order to establish accounting policies and procedures to identify what, if any, of these costs are
appropriate for disclosure in the financial statements in accordance with GAAP. Recognition of support provided by
host nations would affect both financing sources and recognition of expenses.

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
However, because the NWCF's financial and feeder systems were not designed to collect and record financial
information on the full accrual accounting basis, accrual adjustments are made for major items such as payroll
expenses, accounts payable, and contracts. Expenditures for capital and other long-term assets are not recognized
as expenses in the NWCF's operations until depreciated in the case of Property, Plant, and Equipment (PP&E) or
consumed in the case of Operating Materials and Supplies (OM&S). Operating expenses were adjusted as a result
of the elimination of balances between DoD Components.

1.G. Accounting for Intragovernmental Activities
The NWCF, as an agency of the federal government, interacts with and is dependent upon the financial activities of
the federal government as a whole. Therefore, these financial statements do not reflect the results of all financial
decisions applicable to the NWCF as though the agency was a stand-alone entity.

The DON's proportionate share of public debt and related expenses of the federal government are not included.
Debt issued by the federal government and the related costs are not apportioned to federal agencies. The NWCF's
financial statements, therefore, do not report any portion of the federal government public debt or interest
thereon, nor do the statements report the source of public financing whether from issuance of debt or tax revenues.


                                                                                                                          193
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  The NWCF's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
  Employees Retirement Systems (FERS); while military personnel are covered by the Military Retirement System
  (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social
  Security. The NWCF funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS
  and FERS retirement systems is the responsibility of the Office of Personnel Management (OPM). The NWCF
  recognizes an imputed expense for the portion of civilian employee pensions and other retirement benefits funded by
  the OPM in the Statement of Net Cost and recognizes corresponding imputed revenue from the civilian employee
  pensions and other retirement benefits in the Statement of Changes in Net Position.

  To prepare reliable financial statements, transactions occurring between components or activities within the NWCF
  must be eliminated. However, the NWCF cannot accurately identify all intragovernmental transactions by customer.
  The Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions between
  components or activities of the NWCF. For FY 1999 and beyond, seller entities within the Department provided
  summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
  DoD accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded costs
  and accounts payable. Intra-DoD intragovernmental balances were then eliminated.

  The Department of the Treasury, Financial Management Service is responsible for eliminating transactions between
  the Department of Defense or Navy and other federal agencies. In September 2000, the Financial Management
  Service issued the "Federal Intragovernmental Transactions Accounting Policies and Procedures Guide." The
  Department of the Navy was not able to fully implement the policies and procedures in this guide related to
  reconciling intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions. The NWCF,
  however, was able to implement the policies and procedures contained in the "Intragovernmental Fiduciary
  Transactions Accounting Guide," as updated by the "Federal Intragovernmental Transactions Accounting Policies
  Guide," revised July 1, 2005, for reconciling intragovernmental transactions. It can be found at
  http://www.fms.treas.gov/irri. These transactions pertain to investments in federal securities, borrowings from the
  United States (U.S.) Treasury and the Federal Financing Bank, Federal Employees' Compensation Act transactions
  with the Department of Labor, and benefit program transactions with the OPM.

  1.H. Transactions with Foreign Governments and International Organizations
  Each year, the DoD Components sell defense articles and services to foreign governments and international
  organizations, primarily under the provisions of the "Arms Export Control Act of 1976." Under the provisions of this
  Act, DoD has authority to sell defense articles and services to foreign countries and international organizations,
  generally at no profit or loss to the U.S. Government. Customers are required to make payments in advance.

  1.I. Funds with the U.S. Treasury
  The NWCF's financial resources are maintained in U.S. Treasury accounts. Cash collections, disbursements, and
  adjustments are processed worldwide at the DFAS, Military Services, and the U.S. Army Corps of Engineers
  (USACE) disbursing stations, as well as the Department of State financial service centers. Each disbursing station
  prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic fund transfers,
  interagency transfers and deposits.

  In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
  appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
  Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in
  the Treasury's system. Differences between the NWCF's recorded balance in the FBWT accounts and Treasury's
  FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3.




194
2005 Annual Financial Report

1.J. Foreign Currency
Not Applicable.

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from other
federal entities or from the public. Allowances for doubtful accounts due from the public are based upon analysis of
collection experience by fund type. DoD does not recognize an allowance for doubtful accounts from other federal
agencies. Claims against another federal agency are to be resolved between the agencies. Material disclosures are
provided in Note 5.

1.L. Loans Receivable
Not Applicable.

1.M. Inventories and Related Property
The majority of the NWCF inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC)
adjusted for holding gains and losses. The remaining inventory is valued using Moving Average Cost (MAC). The
NWCF uses the LAC method because its inventory systems were designed for material management rather than
accounting. The systems provide accountability and visibility over inventory items. They do not maintain the
historical cost data necessary to comply with the SFFAS No. 3, "Accounting for Inventory and Related Property."
Neither can they directly produce financial transactions using the U.S. Standard General Ledger (USSGL), as
required by the Federal Financial Management Improvement Act of 1996 (Public Law 104-208). DoD is transitioning
to a MAC methodology for valuing inventory that when fully implemented will allow the NWCF to comply with SFFAS
No. 3.

The SFFAS No. 3 distinguishes between "inventory held for sale" and "inventory held in reserve for future sale."
There is no management or valuation difference between the two USSGL accounts. Further, the DoD manages only
military or government-specific material under normal conditions. Items commonly used in and available from the
commercial sector are not managed in the DoD material management activities. Operational cycles are irregular, and
the military risks associated with stock-out positions have no commercial parallel. The DoD holds material based on
military need and support for contingencies. Related property includes Operating Materials and Supplies (OM&S)
and stockpile materials. The OM&S, including munitions not held for sale, are valued at standard purchase price.
The NWCF uses various methods of accounting for OM&S.

The DoD policy is to account for condemned material (only) as "Excess, Obsolete, and Unserviceable." The net value
of condemned material is zero, because the costs of disposal are greater than the potential scrap value. Material
that can be potentially redistributed, presented in previous years as "Excess, Obsolete, and Unserviceable," is
included in the "Held for Use" or "Held for Repair" categories according to its condition.

In FY 2003, DoD adopted the use of an allowance to reflect impaired assets, i.e., Inventory Held for Repair.
Previously, the DoD financial statements have presented its impaired assets at other than historical cost. The NWCF
will implement the allowance method in conjunction with the transition to MAC.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to
produce the reported values. Material disclosures related to Inventory and Related Property are provided at Note 9.

1.N. Investments in U.S. Treasury Securities
Not Applicable.




                                                                                                                       195
                                                  NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  1.O. General Property, Plant and Equipment
  General PP&E assets and any improvements to the asset are capitalized at historical acquisition cost when the asset
  has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD capitalization
  threshold of $100 thousand. Improvement costs over the DoD capitalization threshold of $100 thousand for General
  PP&E are required to be capitalized. All General PP&E, other than land, is depreciated on a straight-line basis.
  Land is not depreciated.

  Effective February 20, 2003, Public Law 108-7, the Consolidated Appropriations Resolution, 2003, Section 106
  increased the expense/investment unit value threshold from $100 thousand to $250 thousand. The revised threshold
  is not applicable to FY 2002 and other prior fiscal year appropriations. Since the NWCF receives its funds through
  the Capital Purchases Program (CPP), the threshold for NWCF remains at $100 thousand.

  General PP&E has been capitalized and reported on the NWCF financial statements using the following DoD
  capitalization thresholds: FY 1996 through FY 2005 - $100 thousand; FY 1995 - $50 thousand; FY 1994 - $25
  thousand; and FY 1993 - $15 thousand.

  For NWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E, whether or
  not it meets the definition of any other PP&E categories. Military Equipment, Heritage Assets and Stewardship Land
  owned or maintained on a NWCF installation are reported in the Supplemental Stewardship Report of the applicable
  Military Department. To prevent duplicate reporting of the same Heritage Assets within DON, the total number of
  DON-wide Heritage Assets are reported in the Required Supplementary Stewardship Information of the Annual
  Audited Financial Statements of the DON General Funds (Treasury Index 17).

  Material disclosures are provided at Note 10.

  1.P. Advances and Prepayments
  Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported
  as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when
  the related goods and services are received.

  1.Q. Leases
  Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital
  or operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease)
  the NWCF records the applicable asset and liability if the value equals or exceeds the current DoD capitalization
  threshold. The NWCF records the amounts as the lesser of the present value of the rental and other lease payments
  during the lease term (excluding portions representing executory costs paid to the lessor) or the asset's fair value.
  The NWCF deems the use of estimates for these costs as adequate and appropriate due to the relatively low dollar
  value of capital leases. Imputed interest was necessary to reduce net minimum lease payments to present value
  calculated at the incremental borrowing rate at the inception of the leases. In addition, the NWCF classifies leases
  that do not transfer substantially all of the benefits or risks of ownership as operating leases and records payment
  expenses over the lease term.

  1.R. Other Assets
  The NWCF conducts business with commercial contractors under two primary types of contracts - fixed price and
  cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
  the NWCF provides financing payments. One type of financing payment that the NWCF makes, for real property, is
  based upon a percentage of completion. In accordance with the SFFAS No. 1, "Accounting for Selected Assets and
  Liabilities," such payments are treated as construction in process and are reported on the General PP&E line and in
  Note 10, General PP&E, Net.


196
2005 Annual Financial Report

In addition, based on the provision of the Federal Acquisition Regulation (FAR), the NWCF makes financing
payments under fixed price contracts. The NWCF reports these financing payments as "Other Assets" because the
NWCF becomes liable only after the contractor delivers the goods in conformance with the contractual terms. If the
contractor does not deliver a satisfactory product, the NWCF is not obligated to reimburse the contractor for its costs
and the contractor is liable to repay the NWCF for the full amount of the advance.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the NWCF.
The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized
as a liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of
loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies include
the collectibility of receivables, pending or threatened litigation, possible claims and assessments. The NWCF's loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as property damages and contract disputes.

1.T. Accrued Leave
Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a liability.
The liability reported at the end of the accounting period reflects the current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations (CRO). Unexpended
appropriations represent amounts of authority which are unobligated and have not been rescinded or withdrawn.
Unexpended appropriations also represent amounts obligated but for which legal liabilities for payments have not
been incurred.

CRO for the NWCF represents the excess/loss of revenues over expenses less refunds to customers and returns to
the U.S. Treasury since fund inception.

1.V. Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have
been obtained through various international treaties and agreements negotiated by the Department of State. The
DoD capital assets overseas are purchased with appropriated funds; however, title to land and improvements is
retained by the host country. Generally, treaty terms allow the DoD Components continued use of these properties
until the treaties expire. These fixed assets are subject to loss in the event treaties are not renewed or other
agreements are not reached which allow for the continued use by the Department. Therefore, in the event treaties
or other agreements are terminated whereby use of the foreign bases is no longer allowed, losses will be recorded
for the value of any nonretrievable capital assets after negotiations between the U.S. and the host country have been
concluded to determine the amount to be paid the U.S. for such capital investments.

1.W. Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the financial position and
results of operations for FY 2005. Financial statement fluctuations greater than 2 percent of total assets on the
Balance Sheet and/or greater than 10 percent between FY 2004 and FY 2005, are explained within the Notes to the
Financial Statements.




                                                                                                                             197
                                                     NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  1.X. Unexpended Obligations
  The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
  statements do not reflect this liability for payment for goods/services not yet delivered.

  1.Y. Undistributed Disbursements and Collections
  Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
  accounting system. Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but
  the payment is greater than the amount of the obligation recorded in the official accounting system. These payments
  use available funds for valid receiving reports on delivered goods and services under valid contracts. In-transits
  represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an
  accountable activity but not yet posted in an accounting system.

  Unmatched Disbursements, NULOs, and In-Transit Disbursements, Net represent disbursements of the NWCF funds
  that have been reported by a disbursing station to the Department of the Treasury but have not yet been precisely
  matched against the specific source obligation giving rise to the disbursements. For the most part, these payments
  have been made using available funds and are based on valid receiving reports for goods and services delivered
  under valid contracts.

  The elimination of both problem disbursements and in-transits is one of the highest financial management priorities
  of the Office of the Under Secretary of Defense (Comptroller). Problem disbursements and in-transits represent a
  significant financial management concern since: (1) accuracy of accounting reports is affected; (2) availability of
  funds is more difficult to determine; and (3) the required research and resolution process becomes much more labor
  intensive as the age of the problem disbursements increase. As a result, the NWCF has efforts underway to improve
  the systems and to resolve all previous problem disbursements and process all in-transit disbursements. NWCF
  problem disbursements continue to decrease from the prior years largely due to improving system functionality and
  business processes. Additional emphasis on further reducing NWCF problem disbursements has resulted in
  corresponding efforts to analyze and improve DFAS processes and determine solutions to reduce current inflow and
  their root causes. Material disclosures are provided at Note 3.

  Undistributed disbursements and collections represent the difference between disbursements and collections
  matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
  opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
  reported on the departmental accounting reports. In-transit payments are those payments that have been made to
  other agencies or entities that have not been recorded in their accounting records. These payments are applied to
  the entities' outstanding accounts payable balance. In-transit collections are those collections from other agencies or
  entities that have not been recorded in the accounting records. These collections are also applied to the entities'
  accounts receivable balance. The Department of Defense policy is to allocate supported undistributed
  disbursements and collections between federal and nonfederal categories based on the percentage of Federal and
  nonfederal accounts payable and accounts receivable. Unsupported undistributed disbursements are recorded in
  accounts payable. Unsupported undistributed collections are recorded in other liabilities. The NWCF follows this
  procedure.




198
2005 Annual Financial Report


NOTE 2. NONENTITY ASSETS


As of September 30,                                    2005               2004
     (Amounts in thousands)
1. Intragovernmental Assets:
     A. Fund Balance with Treasury               $            0    $              0
     B. Investments                                           0                   0
     C. Accounts Receivable                                   0                   0
     D. Other Assets                                          0                   0
     E. Total Intragovernmental Assets           $            0    $              0

2. Nonfederal Assets:
    A. Cash and Other Monetary Assets            $            0    $              0
    B. Accounts Receivable                                2,725               5,141
    C. Loans Receivable                                       0                   0
    D. Inventory & Related Property                           0                   0
    E. General Property, Plant and
                                                              0                   0
        Equipment
    F. Investments                                            0                   0
    G. Other Assets                                           0                   0
    H. Total Nonfederal Assets                   $        2,725    $          5,141

3. Total Nonentity Assets                        $       2,725     $         5,141

4. Total Entity Assets                           $ 21,377,736      $    25,591,751

5. Total Assets                                  $ 21,380,461      $    25,596,892
6. Information Related to Nonentity and Entity Assets:

Fluctuations and/or Abnormalities
The Total Nonentity Assets decreased $2,416 thousand, 47 percent, in FY 2005 in nonfederal accounts receivable.
This reduction is the result of an increase in the level of collections of outstanding interest, penalties, fines and
administrative fees.

Definitions
Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that the agency
has the authority to use, or where management is legally obligated to use funds to meet entity obligations. Nonentity
accounts are assets that are held by the entity, but not available for use in the operations of the entity.

Composition of Nonentity Assets
The $2,725 thousand in Nonentity Nonfederal Accounts Receivable represents interest, penalties, fines, and
administrative fees. These fees do not belong to the Navy Working Capital Fund and will be submitted to the
Department of Treasury.

Other Disclosures Related to Nonentity Assets
No further disclosures required.




                                                                                                                        199
                                                     NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  Note Reference
  For additional line item discussion on Entity Assets, see Note 3, Fund Balance with Treasury; Note 5, Accounts
  Receivable; Note 6, Other Assets; Note 9, Inventory and Related Property; and Note 10, General Property, Plant,
  and Equipment. For regulatory discussion on Entity and Nonentity Assets, see Department of Defense Financial
  Management Regulation, Volume 6B, Chapter 10.




  NOTE 3. FUND BALANCE                WITH   TREASURY

      As of September 30,                                           2005           2004
      (Amounts in thousands)
      1. Fund Balances:
          A. Appropriated Funds                                 $       0      $              0
          B. Revolving Funds                                      977,865               861,243
          C. Trust Funds                                                0                     0
          D. Special Funds                                              0                     0
          E. Other Fund Types                                           0                     0
          F. Total Fund Balances                                $ 977,865      $        861,243



      2. Fund Balances Per Treasury Versus Agency:
          A. Fund Balance per Treasury                          $ 977,865      $        861,243
          B. Fund Balance per NWCF                                977,865               861,243

      3. Reconciling Amount                                     $          0   $               0


      4. Explanation of Reconciliation Amount:
         No reconciling amount needs to be explained for Fund Balance with Treasury.

      5. Information Related to Fund Balance with Treasury:




200
2005 Annual Financial Report

Fluctuations and/or Abnormalities
Fund Balance with Treasury (FBWT) increased $116,622 thousand, 14 percent, in FY 2005. The primary drivers of
the net increase in FBWT are summarized as follows:

(Amounts in thousands)
Business Activity              Increases        Decreases                          Explanations
Aviation Depots            $     135,962                     In May 2005, an appropriation (PL 109-13) was
                                                             received in support of the cost incurred from the
                                                             Global War on Terror in FY 2004 and Tsunami Relief.
                                                             Additional funding was received in support of the
                                                             clean-up effort from hurricane Ophelia.

Supply Management, Navy            62,641                    The increase results primarily from an appropriation
                                                             received for the purchase of pipeline spares.

Naval Undersea Warfare             31,056                    The net increase resulted from an extra billing that was
Center                                                       processed at fiscal year end. The extra billing at fiscal
                                                             year end for the Naval Undersea Warfare Center
                                                             (NUWC) was a timing issue compared with FY 2004.
                                                             Due to systems and business process improvements
                                                             during FY 2005, NUWC was able to process an extra
                                                             billing cycle in September.

Space and Naval Warfare                     $       87,285 The decrease is primarily due to the cash transfer in
Systems Center                                             September 2005 to Operations and Maintenance, Navy
                                                           (Section 107 of Public Law 108-287). Other reductions
                                                           relate to improvements in the cash matching
                                                           processes.

Supply Management,                                  36,494 The decrease is primarily due to a cash transfer in
Marine Corps                                               February 2005 from the Marine Corps Supply to the
                                                           Navy Supply.

          Totals           $      229,659   $      123,779




Composition of Fund Balance with Treasury
The FBWT of $977,865 thousand reflects the FY 2004 ending balance of $861,243 thousand plus current FY 2005
collections, disbursements, and other cash transactions recorded in the Navy Working Capital Fund (NWCF)
Treasury sub-limit 97X4930.002. The following table details the amounts recorded as of September 30, 2005.


As of September 30, 2005
(Amounts in thousands)
Collections                                           $              23,159,505
Disbursements                                         $             (23,129,647)
Other Cash Transactions, Net                          $                  86,764




                                                                                                                         201
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  The following table provides a breakout of Other Cash Transactions, Net:


      As of September 30, 2005
      (Amounts in thousands)
      Activity
      Shipyards                      Public Law 108-287                  $     (25,000)
      Ordnance                       Public Law 108-287/108-375                (25,000)
      Research and Development       Public Law 108-287/108-375                (50,000)
      Transportation                 Public Law 108-287/108-375                (50,000)
      Supply Management, Navy        Public Law 108-287                        65,385
      Transportation                 Principal Payment to FFB                (122,871)
      Navy Component                 Appropriation Received                      3,868
      Base Support                   Appropriation Received                    18,550
      Transportation                 Appropriation Received                    67,000
      Research and Development       Appropriation Received                      4,624
      Aviation Depots                Appropriation Received                   200,208
       Total                                                             $     86,764


  The principal payment of $122,871 thousand to the Federal Financing Bank relates to an outstanding debt principal
  amount reported by the Transportation Activity Group. See Note 6 for additional disclosures.

  Intragovernmental Payment and Collection (IPAC)
  IPAC differences are reconcilable differences that represent amounts recorded by Treasury but not reported by the
  organization. IPAC differences for the Department of the Navy cannot be differentiated between NWCF and General
  Funds, therefore no IPAC differences are being reported for the NWCF. All amounts, if applicable, will be reported on
  the Department of the Navy General Fund statement.

  Other Disclosures Related to Fund Balance with Treasury
  No further disclosures required.

  Note Reference
  See Note 1.I., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
  policies governing Funds with the U.S. Treasury.

  For regulatory discussion on Fund Balance with Treasury, see Department of Defense Financial Management
  Regulation (FMR), Volume 6B, Chapter 10.




202
2005 Annual Financial Report


 Status of Fund Balance With Treasury

 As of September 30,                                       2005                      2004
 (Amounts in thousands)

 1. Unobliagted Balance
     A. Available                                  $           2,624,338      $           2,650,777
     B. Unavailable                                              192,321                     98,945

 2. Obligated Balance Not Yet Disbursed                       12,667,320                11,860,610

 3. Non-Budgetary FBWT                                                  0                         0
 4. Non-FBWT Budgetary Accounts                              (14,535,420)               (13,778,755)
 5. Total                                          $              948,559 $                 831,577
 6. Information Related to Status of Fund Balance with Treasury:

Fluctuations and/or Abnormalities
Unobligated Balance - Unavailable increased $93,376 thousand, 94 percent, in FY 2005 in the Navy Supply
Management business area. An appropriation was provided partially in November 2004 and the remainder in May
2005 for a total of $65,385 thousand as a funding mechanism for the purchase of pipeline spares (material-in-transit).
The appropriation was posted to Unapportioned Authority.

Disclosure of Restrictions
Certain unobligated balances may be restricted to future use and are not apportioned for current use.

Information Related to Suspense/Budget Clearing Accounts:
The NWCF Suspense/Budget Clearing Accounts are being reported under Navy General Funds, Index 17.




                                                                                                                         203
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                   D e pa r t m e n t o f t h e N a v y


      Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                       (Decrease)/Increase
                                                 2003          2004         2005
      As of September 30,                                                               from 2004 to 2005
      (Amounts in thousands)
      1. Total Problem Disbursements,
         Abolute Value
         A. Unmatched Disbursements
            (UMDS)                              $211,270     $126,000      $67,703               ($58,297)
         B. Negative Unliquidated Obligations
             (NULO)                                     0             0            0                     0

      2. Total In-Transit Disbursements, Net            $0            $0   ($29,618)             ($29,618)

      3. Information Related to Disclosures Related to Problem Disbursements and In-Transit Disbursements

  Fluctuations and/or Abnormalities
  Total Problem Disbursements, Absolute Value - Unmatched Disbursements (UMD) decreased $58,297 thousand, 46
  percent, in FY 2005. The Defense Finance and Accounting Service (DFAS) primarily attributes the decrease in
  UMDs to the identification of root causes for Report 8. Report 8 is an internal report that provides a breakdown of
  undistributed costs by its various elements such as in-transits, UMD, and supported vs. unsupported undistributed.
  The proper categories of total undistributed by various elements based on supported, unsupported, in-transit or
  problem disbursements etc. were identified. Also, DFAS Field sites have worked to clear undistributed through root
  cause analysis and process improvements. The culmination of all these efforts has resulted in a decrease to Navy
  Working Capital Fund (NWCF) problem disbursements.

  Total In-Transit Disbursements, Net decreased $29,618 thousand, 100 percent, in FY 2005. The breakdown of this
  information was not identifiable and reported in previous years.

  Unmatched Disbursements
  An unmatched disbursement occurs when a payment is not matched to a corresponding obligation in the accounting
  system.

  Negative Unliquidated Obligations
  A negative unliquidated obligation occurs when a payment is made against a valid obligation. However, the payment
  is greater than the amount of the obligation recorded in the accounting system.

  In-Transit Disbursements
  In-transit disbursements represent the net value of disbursements and collections made by a Department of Defense
  disbursing activity on behalf of an accountable activity and have not yet been recorded in the accounting system.




  NOTE 4. INVESTMENTS AND RELATED INTEREST
  Not Applicable.




204
2005 Annual Financial Report


NOTE 5. ACCOUNTS RECEIVABLE

                                                                    2005                                2004
                                                              Allowance For
                                                 Gross                             Accounts          Accounts
                                                                 Doubtful
                                               Amount Due                        Receivable, Net   Receivable, Net
                                                                 Accounts
As of September 30,
(Amounts in thousands)
1. Intragovernmental
  Receivables:                                  $   494,499             N/A $           494,499    $      857,519
2. Nonfederal Receivables
   (From the Public):                           $    29,688   $            (2)   $       29,686    $       26,190
3. Total Accounts Receivable:                   $   524,187   $            (2)   $      524,185    $      883,709


4. Other Information Related to Accounts Receivable:

Fluctuations and/or Abnormalities
Intragovernmental Accounts Receivable decreased $363,020 thousand, 42 percent, in FY 2005. The primary drivers
of the decrease in Intragovernmental Accounts Receivable are summarized in the table below:

(Amounts in thousands)
Business Activity          Increases     Decreases                               Explanations

Component                                  $208,630 The decrease is the result of the supported undistributed
                                                    collections for the total Navy Working Capital Fund and the
                                                    reclassification of Foreign Military Sales (FMS) from
                                                    intragovernmental to nonfederal.

Supply Management,                           70,047 The decrease is attributable to more aggressive collections
Navy                                                of reimbursable operations; the fuel business transferred to
                                                    Defense Logistics Agency (DLA); and the collection of
                                                    aged outstanding fuel receivables.

Naval Surface Warfare                        63,719 The decrease is the result of the continuing effort by
Center                                              Defense Finance and Accounting Service (DFAS) and all
                                                    Naval Surface Warfare Center activities to reduce
                                                    Accounts Receivable.
          Total                            $342,396




                                                                                                                     205
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                  D e pa r t m e n t o f t h e N a v y

  Nonfederal Accounts Receivable increased $3,496 thousand, 13 percent, in FY 2005. The primary drivers of the
  increase are attributed to:

      (Amounts in thousands)
      Business Activity               Increases   Decreases                     Explanations

      Component                         $20,862               This increase is a result of the unsupported
                                                              undistributed collections for the total Navy
                                                              Working Capital Fund (NWCF) and the
                                                              reclassification of Foreign Military Sales (FMS)
                                                              funding.

      Public Works Center                16,138               The increase is due to the increased workload
                                                              for the new Installation Claimant Consolidation
                                                              (ICC2) sites, disaster relief, and fuel costs.

      Supply Management, Navy             8,462               The increase is a result of the alignment of the
                                                              trial balance data with the Seller Elimination
                                                              Report trading partner data to reflect the federal
                                                              to public ratio received. According to the
                                                              Trading partner data received by the Navy
                                                              Supply activities, the trail balance had more
                                                              federal receivables than what was reported by
                                                              the activities. Federal accounts receivable were
                                                              reclassified to nonfederal accounts receivable
                                                              as a result to match the trading partner data.


      Navy Facilities Engineering         3,096               There was an abnormal balance in nonfederal
      Services                                                accounts receivable in FY 2004, the receivables
                                                              were eliminated.

      Aviation Depots                     1,491               The increase is due to the reclassification of
                                                              the posting of FMS from government to public.

      Naval Undersea Warfare Center       1,345               The increase is due to the reclassification of the
                                                              posting of FMS from government to public. Also,
                                                              a receivable was established for a Mechanization
                                                              of Contract Administration Service (MOCAS)
                                                              payment made in error that will be corrected in
                                                              October 2005.

      Naval Air Warfare Center                      $48,012 The decrease is primarily due to system/process
                                                            solutions that provided the ability to process
                                                            collections more efficiently.

                  Totals                $51,394     $48,012




206
2005 Annual Financial Report

Allowance Method
The Statement of Federal Financial Accounting Standards No. 1, "Accounting for Selected Assets and Liabilities", and
the Department of Defense (DoD) Financial Management Regulation require that federal agencies establish an
allowance for doubtful accounts receivable nonfederal. This account has been established within the Navy Working
Capital Fund (NWCF). This amount is low, as the NWCF requires an advance deposit from all nonfederal entities
prior to the commencement of work. Therefore, an assumption is made that the amount of doubtful accounts should
be negligible. The allowance amount represents a percentage of the total that was billed after the total project cost
has been adjusted to reflect the advance deposit.

Allocation of Undistributed Collections
The DoD policy is to allocate supported undistributed collections between federal and nonfederal categories based
on the percentage of federal and nonfederal accounts receivable. Supported undistributed collections in the amount
of $257,659 thousand were applied against accounts receivable. Unsupported undistributed collections should be
recorded in United States Standard General Ledger account 2400, Liability for Deposit Funds, Clearing Accounts, and
Undeposited Collections. The NWCF follows this allocation procedure. This is required because the potential exists
that some of these unsupported undistributed collections do not belong to the NWCF and will have to be paid to the
appropriate fund holder.

Trading Partner Data
The NWCF's accounting systems do not capture trading partner data at the transaction level in a manner that
facilitates trading partner aggregations. Therefore, the NWCF is unable to reconcile intragovernmental accounts
receivable balances with most trading partners. Through an ongoing Business Management Modernization Program,
the DoD intends to develop long-term systems improvements that will capture the data necessary to perform
reconciliations. The Department of the Navy (DON) is also working on short-term solutions to gather the required
information as outlined in the DON Financial Improvement Plan.

Accounts Receivable Greater than 180 days
The amount of nonfederal and intragovernmental receivables over 180-days old is $19,945 thousand and $9,839
thousand, respectively. Significant improvements have continued during FY 2005. When compared with FY 2004,
NWCF made $570 thousand, 3 percent, improvement in collecting nonfederal accounts receivable and $9,213
thousand, 48 percent, improvement in collecting intragovernmental accounts receivable.

Nonfederal Refunds Receivable
The total amount of nonfederal refunds receivable does not exceed 10 percent of the nonfederal accounts receivable,
net amount on the Balance Sheet.

Other Disclosures Related to Accounts Receivable
No further disclosures required.

Note Reference
For additional discussion on financial reporting requirements and DoD policies governing Trading Partner Data and
Accounts Receivable, see Notes 1.G. and 1.K, Significant Accounting Policies, respectively.

For regulatory discussion on Accounts Receivable, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10.




                                                                                                                        207
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                          D e pa r t m e n t o f t h e N a v y


  NOTE 6. OTHER ASSETS

      As of September 30,                                                 2005             2004
      (Amounts in thousands)
      1. Intragovernmental Other Assets:
           A. Advances and Prepayments                               $       374      $           15
           B. Total Intragovernmental Other Assets                   $       374      $           15

      2. Nonfederal Other Assets:
          A. Outstanding Contract Financing Payments                 $         0      $           0
          B. Other Assets (With the Public)                              536,741            717,191
          C. Total Nonfederal Other Assets                           $   536,741      $     717,191

      3. Total Other Assets:                                         $   537,115      $     717,206


      4. Information Related to Other Assets:

  Fluctuations and/or Abnormalities
  Intragovernmental Other Assets, Advances and Prepayments increased $359 thousand, 2393 percent, in FY 2005.
  The primary drivers that attributed to the increase are summarized below:

      (Amounts in thousands)
      Business Activity             Increases        Decreases                      Explanations

      Component                           $250                   This increase is attributed to the posting of
                                                                 buyer-side elimination adjustments in accordance
                                                                 with DoD Financial Management Regulation (FMR),
                                                                 Volume 6B, Chapter 13. The FMR requires the
                                                                 trial balance and trading partner data to reconcile
                                                                 to each other for all federal costs. These buyer-side
                                                                 adjustments are required to reconcile the trial
                                                                 balance data to all of the seller-side trading partner
                                                                 data within the system. This is being addressed
                                                                 as part of the Financial Improvement Plan (FIP).



      Depot Maintenance, Marine             58                   This is due to an increase in outstanding travel
      Corps                                                      advances.

                 Total                    $308




208
2005 Annual Financial Report

Nonfederal Other Assets (Other Assets With the Public) decreased $180,450 thousand, 25 percent, in FY 2005. The
primary drivers that attributed to the decrease are summarized below:

(Amounts in thousands)
Business Activity               Increases      Decreases                        Explanations

Transportation Activity                           $122,836 This decrease is the result of outstanding Federal
Group                                                      Financing Bank (FFB) debt principal payment.

Naval Shipyards                                     39,693 This decrease is the due to the transition of Puget
                                                           Sound Naval Shipyard out of the Navy Working
                                                           Capital Fund.
            Total                                 $162,529



Advances and Prepayments
The buyer-side advances to others account balances were adjusted to agree with seller-side advances from others
account balances as reported on the books of other Department of Defense (DoD) reporting entities. Additionally, the
buyer-side prepayment balances were adjusted to agree with seller-side deferred credits as reported on the books of
other DoD reporting entities.

Composition of Other Assets (With the Public)
Other Assets (With the Public) includes an amount of $375,712 thousand relating to the outstanding debt principal
amount reported for the Transportation Activity Group involving Time Charter arrangements made for the long-term
use of the Afloat Prepositioning Force - Navy ships. The outstanding debt principal amount is reported in the Navy
Working Capital Fund Balance Sheet Other Assets (With the Public). See Note 13 for material disclosures.

Other Disclosures Related to Other Assets (With the Public)
None.

Note Reference
See Note 1.R., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
policies governing Other Assets.

For regulatory discussion on Other Assets, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10.




NOTE 7. CASH AND OTHER MONETARY ASSETS
Not Applicable.




NOTE 8. DIRECT LOAN AND/OR LOAN GUARANTEE PROGRAMS
Not Applicable.




                                                                                                                        209
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                                    D e pa r t m e n t o f t h e N a v y


  NOTE 9. INVENTORY AND RELATED PROPERTY


      As of September 30,                                                     2005                      2004
      (Amounts in thousands)
      1. Inventory, Net                                               $     14,888,574          $     18,505,475
      2. Operating Materials & Supplies, Net                                   722,200                   733,717
      3. Stockpile Materials, Net                                                    0                         0

      4. Total                                                        $     15,610,774          $     19,239,192


      Inventory, Net
                                                                         2005                                        2004
                                                 Inventory,          Revaluation           Inventory,              Inventory,        Valuation
      As of September 30,                       Gross Value          Allowance                Net                     Net             Method
      (Amounts in thousands)
      1. Inventory Categories:
            A. Available and Purchased for
               Resale                          $   22,897,953          (20,978,965)    $      1,918,988        $     4,140,012       LAC, MAC
            B. Held for Repair                     10,746,144            1,811,912           12,558,056             13,893,174       LAC, MAC
            C. Excess, Obsolete, and
               Unserviceable                          600,179             (600,179)                      0                      0      NRV
            D. Raw Materials                                0                      0                  0                      0      MAC, SP, LAC
           E. Work in Process                         411,530                      0            411,530                472,289          AC
                                                                                                               $
           F. Total                            $   34,655,806    $     (19,767,232)    $     14,888,574             18,505,475

      Legend for Valuation Methods:
         Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
         NRV = Net Realizable Value
         O = Other
         SP = Standard Price
         AC = Actual Cost
         MAC = Moving Average Cost

      2. Information Related to Inventory, Net:

  Fluctuations and/or Abnormalities
  Inventory Available and Purchased for Resale decreased $2,221,024 thousand, 54 percent, in FY 2005. The majority
  of the decrease is attributed to Supply Management, Navy (NAVSUP) and is comprised of an increase in inventory
  disposals, reduction in purchases at cost, net inventory transfers, and adjustments attributable to the Cost of Goods
  Sold model.

  Inventory Held for Repair decreased $1,335,118 thousand, 10 percent, in FY 2005. The primary decrease is in the
  Supply Management, Navy business area and the primary driver of the decrease is a correction in the depot level
  repairable carcass liability and inventory in-transit accounts. Reconciliation was performed between Material
  Financial Control System (MFCS) and PR04 (Carcass Tracking). NAVSUP was able to identify process irregularities



210
2005 Annual Financial Report

between MFCS and PR04 where the liability and in-transit accounts were not relieved in MFCS. An automated
transaction was entered into MFCS correcting the accounts. This reconciliation and automated transaction entry will
be performed monthly.

Work in Process (WIP) decreased $60,759 thousand, 13 percent, in FY 2005. The primary drivers of the fluctuation
are listed below:
 (Amounts in thousands)
 Business Activity            Increases    Decreases                        Explanations
 Naval Shipyards                $74,425                   This is primarily the result of the correction of the
                                                         WIP balance at Puget Sound Naval Shipyard. The
                                                         corrections were necessary as part of data
                                                         "cleanup", as the Puget Sound Naval Shipyard
                                                         transitioned from a Working Capital Fund activity to
                                                         the Department of the Navy General Fund.

 Space and Naval Warfare           3,831                 This increase is within the normal fluctuation for the
 Systems Center                                          business cycle for this business area. Percentage
                                                         of change for this business area was less than 10
                                                         percent.

 Naval Research Laboratory          358                  This increase is within the normal fluctuation for the
                                                         business cycle for this business area.

 Aviation Depot                                 58,639 The majority of the decrease is a result of the final
                                                       conversion to the Percentage of Completion
                                                       Revenue Recognition method.

                                                         The revenue recognition program is the amount of
                                                         work performed during the month and is billed at
                                                         the end of the month.

 Naval Air Warfare Center                       43,387 The primary reason for the decrease is due to
                                                       system/process improvements that has allowed for
                                                       timelier processing in FY 2005.

 Naval Surface Warfare                          19,063 The decrease is primarily due to the clearing of
 Center                                                unmatched material in transit.

 Naval Undersea Warfare                         18,026 The decrease is primarily due to the clearing of
 Center                                                unmatched material in transit.

            Total               $78,614       $139,115


Changes in Accounting Methods
The Enterprise Resource Planning (ERP) Supply Maintenance Aviation Re-engineering Team (SMART) Pilot was
discountinued in April 2005, transferring $1,876,496 thousand at Latest Acquisition Cost (LAC) into Material Financial
Control System (MFCS).

Restrictions of Inventory Use, Sale, or Disposition
Generally, there are no restrictions with regard to the use, sale, or disposition to applicable Department of Defense
(DoD) activities and personnel. Other than certain safety and war reserve levels, inventory may be sold to foreign,
state and local governments, private parties and contractors in accordance with DoD and the Department of the Navy
(DON) policies and guidance or at the direction of the President.

                                                                                                                         211
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                       D e pa r t m e n t o f t h e N a v y

  Composition of Inventory
  Except for the Work in Process, all Inventory categories apply to the Supply Management Activities only.

  Inventory Categories. Inventory represents property that is (1) held for sale, (2) in the process of production for sale
  or (3) to be consumed in the production of goods for sale or in the provision of services for a fee.

  Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable items
  owned and managed by the DON. In some cases, the consumable and repairable items are managed by other
  Military Services, the Defense Logistics Agency or the General Services Administration. Material available and
  purchased for resale includes material held due to a managerial determination that it should be retained to support
  military or national contingencies. Federal Accounting Standards requires disclosure of the amount of Inventory Held
  for "Future Sale." The Navy Working Capital Fund currently has no Inventory Held for Future Sale reported for FY
  2005 in Inventory Held for Sale, Net. All inventory is currently planned for sale next fiscal year. There is no
  management or valuation difference between the two categories.

  Included in Line 1.A., Inventory Available and Purchased for Resale, is an amount of $169,074 thousand for War
  Reserve Material for Supply Management, Navy. Supply Management, Marine Corps currently has no War Reserve
  Material.

  Inventory Held for Repair is inventory that requires repair to make suitable for sale. Many of the inventory items are
  more economical to repair than to procure. In addition, because the DON often relies on weapon systems and
  machinery no longer in production, the DON supports a process that encourages the repair and rebuilding of certain
  items. This repair cycle is an essential part of maintaining a ready, mobile, and armed military force.

  Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be economically
  repaired and are awaiting disposal. The DON does not anticipate recovering any significant costs as result of final
  disposal of these items. Therefore, Excess, Obsolete, and Unserviceable inventory reflects a net realizable value of
  zero.

  Work in Process balances includes costs related to the production or servicing of items, including direct material,
  direct labor, applied overhead and other direct costs. Work in Process also includes the value of finished products or
  completed services pending billing to the customer. The Work in Process designation may also be used to
  accumulate the amount paid to a contractor under cost reimbursable contracts, including the amount withheld from
  payment to ensure performance, and the amount paid to other Government plants for accrued costs of end items of
  material ordered but not delivered.

  Inventory Work in Process
  Work in Process at Depot Maintenance activities and Research and Development activities of approximately
  $135,531 thousand and $275,998 thousand, respectively, is included as inventory Work in Process.
  This amount represents work that has been completed, expenses incurred, and waiting to be billed to the customer.

  Other Disclosures Related to Inventory
  The general ledger values in the accounting system do not reconcile with the supporting detail record in the Navy
  segment of the Supply Management Activity logistics system. Supply Management, Navy (NAVSUP) has determined
  that program changes must be made to MFCS to correct systemic posting problems, which contribute to a
  reconciling difference between the systems. Twenty-four (24) reconciliation System Change Requests (SCR) for
  Phase 2 have been implemented at the NAVSUP field activity. NAVSUP is working with the field activity to determine
  journal voucher accounts and values. Once that is completed, the journal vouchers will be submitted to the Office of



212
2005 Annual Financial Report

Financial Operations (FMO) and the Defense Finance and Accounting Service (DFAS). Once the journal vouchers
and the adjustments posting logic SCR is approved, funded and developed, the final adjustments will be made to
inventory and financial systems to align data.

Note Reference
See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
policies governing Inventory and Related Property.

For regulatory discussion on Inventory, Net, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10.

 Operating Materials and Supplies, Net

                                                                2005                         2004
                                                OM&S
                                                Gross      Revaluation                                  Valuation
 As of September 30,                            Value       Allowance      OM&S, Net      OM&S, Net      Method
 (Amounts in thousands)
 1. OM&S Categories:
     A. Held for Use                          $ 722,200 $              0   $ 722,200    $     733,717    SP, LAC
     B. Held for Repair                               0                0           0                0
     C. Excess, Obsolete, and
       Unserviceable                                  0                0           0                0
     D. Total                                 $ 722,200    $           0   $ 722,200    $     733,717

    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost          NRV = Net Realizable Value
      adjusted for holding gains and losses         O = Other
    SP = Standard Price
    AC = Actual Cost
2. Information Related to Operating Materials and Supplies (OM&S), Net:

Fluctuations and/or Abnormalities
None.

Restrictions on OM&S
Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable to the Department
of Defense (DoD) activities.

Composition of OM&S
OM&S Held for Use represents property that is consumed during normal operations and includes consumable spare
and repair parts for use on customer work by various activities. The items are recorded using different
methodologies including actual, weighted-average and historical cost. Federal Accounting Standards requires
disclosure of the amount of OM&S Held for "Future Use." The Navy Working Capital Fund (NWCF) reports that
$14,151 thousand of OM&S is categorized as Held for Future Use.




                                                                                                                         213
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                                  D e pa r t m e n t o f t h e N a v y

  Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
  Generally, the values of the NWCF's GFM and CAM in the hands of contractors are not included in the OM&S values
  reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to determine the
  appropriate accounting treatment and the best method to annually collect and report required information without
  duplicating information already in other existing logistics systems in accordance with Volume 6B, Chapter 10 of the
  DoD Financial Management Regulation (FMR).

  Other Disclosures Related to OM&S
  No further disclosures required.

  Note Reference
  See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
  policies governing Inventory and Related Property.

  For regulatory discussion on OM&S, Net, see Department of Defense Financial Management Regulation, Volume 6B,
  Chapter 10.

  Stockpile Materials
  Not Applicable.




  NOTE 10. GENERAL PP&E, NET

                                                                                2005                                              2004

                                           Depreciation/                                    (Accumulated
                                                                                                                  Net Book       Net Book
                                           Amortization    Service Life Acquisition Value   Depreciation/
                                                                                                                   Value          Value
                                             Method                                         Amortization)
      As of September 30
      (Amounts in thousands)
      1. Major Asset Classes:
          A. Land                              N/A            N/A       $        45,848                N/A $          45,848 $       50,740
         B. Buildings, Structures,
            and Facilities                     S/L          20 Or 40          5,805,058     $   (3,797,074)        2,007,984       2,053,297
         C. Leasehold Improvements             S/L         lease term               302               (202)              100             138
         D. Software                           S/L          2-5 Or 10           442,674           (231,552)          211,122         214,095
         E. General Equipment                  S/L           5 Or 10          3,289,656         (2,516,121)          773,535         882,988
         F. Military Equipment                 S/L           Various                  0                  0                 0               0
         G. Assets Under Capital
             Lease                             S/L         lease term                  0                0                    0              0
         H. Construction-in-
             Progress                          N/A            N/A               681,761                N/A           681,761        682,665
         I. Other                                                                10,172                 0             10,172         11,619

      2. Total General PP&E                                             $    10,275,471     $   (6,544,949)   $    3,730,522 $     3,895,542


      Legend for Valuation Methods:
      S/L = Straight Line   N/A = Not Applicable




214
2005 Annual Financial Report

3. Information Related to General Property, Plant and Equipment (GPP&E):

Fluctuations and/or Abnormalities
Although the GPP&E only decreased $165,020 thousand, 4 percent, in FY 2005, the following categories changed:

 • Land transferred from the Naval Surface Warfare Center (NSWC) to Commander Naval Installations (CNI), which
   resulted in a decrease.
 • Leasehold Improvements decreased at the Transportation Activity Group as a result of the annual amortization of
   the lease.
 • General Equipment primarily decreased as a result of the Supply Management, Navy reconciliation and interface
   of the Defense Property Accountability System (DPAS) with the Defense Business Management System (DBMS)
   and the Central Data Base (CDB).
 • Other GPP&E decreased as a result of an increase at Naval Research Laboratory in Property Awaiting Disposal,
   as well as a decrease at Naval Air Warfare Center (NAWC). System/process enhancements provided the
   capability to move assets out of Assets Under Development (AUD) and into production more efficiently at NAWC.
   The ERP solution implemented in FY 2004 did not include a module for transitioning AUDs into production. This
   system/process enhancement was implemented in FY 2005. There was an increased value in Other GPP&E in
   FY 2004 due to the system inability to transition AUD into production. Once this module was implemented prior
   AUDs were correctly posted in FY 2005.

Military Equipment
Military equipment is reported on the books of the Department of Navy General Fund.

Contractor Held GPP&E
For those activities with GPP&E real property in the possession of contractors, the value of this real property is
included in the values reported for the Major Asset Classes of Buildings, Structures, and Facilities. The value of
personal property in Major Asset Classes of Automated Data Processing Software and Equipment does not include
all of the GPP&E in the possession of contractors. The net book amount of such property is immaterial in relation to
the total GPP&E net book value. In accordance with an approved strategy with the Office of Management and
Budget, the Government Accountability Office, and the Inspector General Department of Defense, the Department of
Defense is developing new policies and a contractor reporting process to capture GPP&E information for future
reporting purposes for compliance with federal-wide accounting standards.

Other Disclosures Related to GPP&E
Supply Management, Navy has initiatives underway to identify corrective actions for the reporting of land, buildings,
and software during FY 2006. These deficiencies were identified in the Department of the Navy's Financial
Improvement Plan.

Note Reference
See Note 1.O., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
Department of Defense (DoD) policies governing GPP&E.

For regulatory discussion on GPP&E, Net, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10.




                                                                                                                        215
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  Assets Under Capital Lease

  Information Related to Assets Under Capital Lease:
  The Navy Working Capital Fund has no assets under capital lease.

  Other Disclosures Related to Assets Under Capital Lease
  No further disclosures required.

  Note Reference
  See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
  DoD policies governing Leases.




  NOTE 11. LIABILITIES NOT COVERED                    BY   BUDGETARY RESOURCES

      As of September 30,                                          2005            2004
      (Amounts in thousands)
      1. Intragovernmental Liabilities:
             A. Accounts Payable                               $           0   $           0
             B. Debt                                                       0               0
             D. Other                                                  2,725           5,141
             D. Total Intragovernmental Liabilities            $       2,725   $       5,141

      2. Nonfederal Liabilities:
           A. Accounts Payable                                 $           0   $           0
           B. Military Retirement Benefits and Other
              Other Employment-Related Actuarial Liabilities       1,192,552       1,168,225
           C. Environmental Liabilities                                    0               0
           D. Loan Guarantee Liability                                     0               0
           E. Other Liabilities                                            0               0
           F. Total Nonfederal Liabilities                     $   1,192,552   $   1,168,225

      3. Total Liabilities Not Covered by Budgetary
         Resources:                                            $   1,195,277   $   1,173,366

      4. Total Liabilities Not Covered by Budgetary
         Resources:                                            $   6,638,660 $     8,401,653

      5. Total Liabilities                                     $   7,833,937   $   9,575,019

      6. Information Related to Liabilities Not Covered and Covered by Budgetary Resources:

  Fluctuations and/or Abnormalities
  Other intragovernmental liabilities decreased $2,416 thousand, 47 percent, in FY 2005. This is a result of reduced
  outstanding refunds receivable and interest. The cause of this decrease is related to collections of interest,
  penalties, fines, and administrative fees.




216
2005 Annual Financial Report

Definitions
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered as of the
balance sheet date.

The Intragovernmental Liabilities, Other amount of $2,725 thousand represents interest, penalties, fines and
administrative fees. These fees do not belong to the Navy Working Capital Fund and will be distributed directly to the
Department of Treasury.

Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
The $1,192,552 thousand included in Military Retirement Benefits and Other Employment-Related Actuarial Liabilities
represents Federal Employees' Compensation Act liabilities.

Note Reference
For additional line item discussion, see Note 12, Accounts Payable; Note 13, Debt; Note 15, Other Liabilities; Note
16, Commitments and Contingencies; and Note 17, Military Retirement Benefits and Other Employment Related
Actuarial Liabilities.




NOTE 12. ACCOUNTS PAYABLE

                                                                      2005                          2004
                                                                    Interest,
                                                    Accounts      Penalties, and     Total          Total
                                                    Payable       Administrative
                                                                      Fees
As of September 30,
(Amounts in thousands)
1. Intragovernmental Payables:                  $       199,606              N/A $    199,606   $    243,982
2. Nonfederal Payables (to the Public):         $     2,152,112 $              0 $ 2,152,112    $   1,862,567
3. Total                                        $     2,351,718 $              0 $ 2,351,718    $   2,106,549

 4. Information Related to Accounts Payable:




                                                                                                                         217
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                 D e pa r t m e n t o f t h e N a v y

  Fluctuations and/or Abnormalities
  Intragovernmental Accounts Payable decreased $44,376 thousand, 18 percent, in FY 2005. The primary drivers of
  the decrease are summarized below:

      (Amounts in thousands)
      Business Activity               Increases   Decreases                    Explanations
      Aviation Depots                   $37,420                The increase is attributed to a decrease in
                                                               undistributed disbursements.
      Component                          36,517                This increase is the buyer side adjustment to
                                                               reconcile to trading partner data and a
                                                               decrease in undistributed disbursements.
                                                               This is being addressed as part of the
                                                               Financial Improvement Plan (FIP)
      Transportation Activity Group      32,941                This increase relates to the transition from
                                                               consumption to the purchase method of fuel
                                                               accounting. Also, fuel purchases from the
                                                               Defense Energy Supply Center (DESC) are
                                                               now recorded as intragovernmental.
      Space and Naval Warfare            17,423                The increase is attributed to a decrease in
      System Center                                            undistributed disbursements.

      Supply Management, Navy                       $131,299 The decrease is attributable to realigning
                                                             payables to the cost of war. The costs to
                                                             support the war effort were transferred to an
                                                             appropriated fund. Also, an increase in
                                                             disbursements for operations carried from the
                                                             previous fiscal year. Abnormal undistributed
                                                             disbursements increased due to residual
                                                             clean up in the Defense Business
                                                             Management System.
      Naval Shipyards                                 20,041 This decrease is the result of posting
                                                             unmatched disbursements to the accounts
                                                             payable. This adjustment is temporary and
                                                             occurred because a Centralized Expenditure
                                                             Reporting System (CERPS) run was received
                                                             after month end and was not received in time
                                                             to post to the appropriate cost accounts.


      Naval Air Warfare Center                        13,407 The decrease is primarily due to a business
                                                             process change, which allows for a more
                                                             timely liquidation of accounts payable.

                  Total                $124,301     $164,747




218
2005 Annual Financial Report

Intragovernmental accounts payable consists of amounts owed to other federal agencies for goods or services
ordered and received but not yet paid. Interest, penalties, and administrative fees are not applicable to
intragovernmental accounts payables. Nonfederal accounts payable are payments to nonfederal government entities
(to the public).

Nonfederal Accounts Payable increased $289,545 thousand, 16 percent, in FY 2005. The primary drivers of the
increase are summarized below.
(Amounts in thousands)
Business Activity                    Increases      Decreases                      Explanations
Component                              $419,717                    The majority of this increase is due to
                                                                   ongoing efforts to validate and reduce
                                                                   unmatched disbursements.
Supply Management, Navy                   78,654                   An increase in abnormal undistributed
                                                                   disbursements is due to residual clean up.

Naval Surface Warfare Center                             $70,206 A majority of the decrease is due to ongoing
                                                                 efforts to validate and reduce aged accounts
                                                                 payable.

Transportation Activity Group                             69,166 This decrease relates to Military Sealift
                                                                 Command transitioning from consumption to
                                                                 the purchase method of fuel accounting. Fuel
                                                                 purchases (Defense Energy Supply Center
                                                                 (DESC) are now recorded as
                                                                 intragovernmental.

Naval Air Warfare Center                                  57,078 The decrease is primarily due to improved
                                                                 business processes. In addition, the
                                                                 decrease can be attributed to the
                                                                 concentrated effort to process month end
                                                                 transactions, as well as, a change to the
                                                                 posting of accrued labor and fringe benefit
                                                                 amounts in FY 2005.

Space and Naval Warfare                                   16,744 The decrease is attributed to an increase of
Systems Center                                                   undistributed disbursements for the current
                                                                 month.
               Total                   $498,371         $213,194



Undistributed Disbursements
Undistributed disbursements are the difference between disbursements/collections recorded at the transaction level
to a specific obligation, payable, or receivable in the activity field records as opposed to those reported by the U.S.
Treasury via the reconciled DD1329 and DD1400. The total undistributed disbursement amounts displayed in this
note should agree with the undistributed amounts reported on the accounting reports (SF133/AR(M)1307). In-transit
payments are payments that have been made for other agencies or entities that have not been recorded in their
accounting records. These payments are applied to each entity's outstanding accounts payable balance at year-end.




                                                                                                                          219
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  Allocation of Undistributed Disbursements
  The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between federal and
  nonfederal categories based on the percentage of federal and nonfederal Accounts Payable. Supported
  undistributed disbursements in the amount of $(1,139,653) thousand have been applied against accounts payable.
  Unsupported undistributed disbursements have been recorded in United States Standard General Ledger account
  2120, Disbursements in Transit. Accounts Payable was adjusted downward by $738,744 thousand for in-transit
  payments. The Navy Working Capital Fund (NWCF) follows this allocation policy.

  Composition of Undistributed Disbursements
  The majority of the undistributed disbursements represent Mechanization of Contract Administration Services
  (MOCAS) payments, which have not been liquidated. MOCAS payments represent those payments made to
  contractors for materials or services. Accruals are made when the service is performed and remain in this account
  until the provider submits an invoice for payment. Therefore, if a copy of the invoice is not received by the NWCF
  activity prior to the Defense Finance and Accounting Service making payment, the payment will go to undistributed
  disbursements. The amounts accrued to cover the anticipated materials and services are captured as Contract
  Accruals on the Other Accrued Expense line (Note 15.A., Other Liabilities, Nonfederal: Other Liabilities) and are not
  considered accounts payable.

  Trading Partner Data
  For the majority of intra-agency sales, NWCF's accounting systems do not capture trading partner data at the
  transaction level in a manner that facilitates trading partner aggregations. Therefore, the NWCF was unable to
  reconcile the majority of its intragovernmental accounts payable to the related intragovernmental accounts receivable
  that generated the payable. Through an ongoing Business Management Modernization Program, DoD intends to
  develop long-term systems improvements that will capture the data necessary to perform reconciliations. The
  Department of the Navy (DON) has outlined some processes for review and implementation in the DON Financial
  Improvement Plan, which should provide some near-term solutions.

  Eliminating Adjustments
  The DoD summary level seller accounts receivables were compared to NWCF's accounts payable. An adjustment
  was posted to the NWCF's accounts payable based on the comparison with the accounts receivable of the DoD
  Components providing goods and services to the NWCF. As required, adjustments were made to reclassify accounts
  payable from federal to nonfederal.

  Other Disclosures Related to Accounts Payable
  No further disclosures required.

  Note Reference
  See Note 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
  policies governing Trading Partner Data and Eliminating Adjustments.




220
2005 Annual Financial Report


NOTE 13. DEBT

                                                                2005                           2004
                                                   Beginning    Net             Ending        Ending
As of September 30,                                 Balance Borrowings          Balance       Balance
(Amounts in thousands)
1. Agency Debt:
     A. Debt to the Treasury                      $       0 $         0 $       0 $                    0
     B. Debt to the Federal Financing Bank          506,278   (124,760)   381,518                506,278
     C. Total Agency Debt                         $ 506,278 $ (124,760) $ 381,518 $              506,278

2. Total Debt:                                    $ 506,278 $ (124,760) $ 381,518 $              506,278

3. Information Related to Debt:

Fluctuations and/or Abnormalities
Intragovernmental Debt decreased $124,760 thousand, 25 percent, in FY 2005 as a result of the reduction of the
outstanding debt principal amount reported for the Maritime Prepositioning Ships (MPS) loan.

Other Information Related to Debt
The Afloat Prepositioning Force - Navy (APF-N) program, with Congressional approval, provides ships for time
charter to meet requirements not available in the marketplace. These ships are built or converted by private interim
vessel owners using private, non-government financing obtained from various banking institutions. There were no
payments made by the government during the building/conversion phase. APF-N time charters are for five years with
four option renewal periods of five years each, for a total of 25 years. At the end of the contract, each ship returns to
the vessel's owner.

The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners. The FFB is
reporting a debt in the amount of $381,518 thousand, which represents an outstanding principal balance of $375,712
thousand and accrued interest payable of $5,806 thousand, for the Transportation Activity Group. The Transportation
Activity Group does not owe this debt to the FFB. This debt is a public debt owed by the private vessel owners. In
order to simplify the payments to the FFB and to meet its requirements, the FFB cross-disburses the semi-annual
principal and interest payments directly from the Navy Working Capital Fund (NWCF). This is done instead of having
the Transportation Activity Group make Capital Hire payments to the vessel owners, who would in turn make its loan
obligation payments to the FFB.

The direction of the vessel owner to have the government make payments directly to a bank, in this case the FFB, is
not an uncommon practice, and mirrors other time charters where payment is assigned directly to a bank. This
occurred when the ownership of these vessels was transferred to private vessel owners; however, FFB when
establishing the loan coded the loan as a government debt.

As required by the Under Secretary of Defense (Comptroller) memorandum of January 22, 1999, Transportation
Activity Group is correctly recording these payments as an operating expense. The outstanding debt principal amount
is reported in the NWCF Balance Sheet as an Other Asset in order to reconcile with the amount reported by FFB.
The misclassification by FFB has generated this long-standing reporting problem. See Note 6 for additional
disclosures.




                                                                                                                        221
                                                      NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  As required by the Department of Defense Appropriations Act passed in December 1985, 10 percent of the fifth year
  termination value of the vessels must be obligated from Operations and Maintenance, Navy funds. This was
  completed as each vessel was delivered.

  Note References
  See Note 3, Fund Balance with Treasury and Note 6, Other Assets, for additional discussion on the Debt to the
  Federal Financing Bank.

  For regulatory discussion on Debt, Net, see Department of Defense Financial Management Regulation, Volume 6B,
  Chapter 10.



  NOTE 14. ENVIRONMENTAL LIABILITIES AND DISPOSAL LIABILITIES
  Not Applicable.


  NOTE 15. OTHER LIABILITIES

                                                                                    2005                        2004
                                                                    Current     Noncurrent
                                                                                                Total           Total
      As of September 30,                                           Liability    Liability
      (Amounts in thousands)
      1. Intragovernmental:
             A. Advances from Others                            $      416,448 $         0 $      416,448   $      72,509
             B. Deposit Funds and Suspense Account
                Liabilities                                                  0           0              0               0
             C. Disbursing Officer Cash                                      0           0              0               0
             D. Judgement Fund Liabilities                                   0           0              0               0
             E. FECA Reimbursement to the Department of Labor                0           0              0               0
             F. Other Liabilities                                       41,029           0         41,029          42,342
             G. Total Intragovernmental Other Liabilities       $      457,477 $         0 $      457,477   $     114,851

      2. Nonfederal:
            A. Accrued Funded Payroll and Benefits              $      795,598 $         0 $      795,598   $     746,226
            B. Advances from Others                                    141,884           0        141,884         477,383
            C. Deferred Credits                                         11,800           0         11,800               0
            D. Deposit Funds and Suspense Accounts                     151,206           0         151206         341,793
            E. Temporary Early Retirement Authority                          0           0              0               0
            F. Nonenvironmental Disposal Liabilities:
                (1) Military Equipment (Nonnuclear)                         0            0              0               0
                (2) Excess/Obsolete Structures                              0            0              0               0
                (3) Conventional Munitions Disposal                         0            0              0               0
                (4) Other                                                   0            0              0               0
            G. Accrued Unfunded Annual Leave                                0            0              0               0
            H. Capital Lease Liability                                      0            0              0               0
            I. Other Liabilities                                    2,350,178            7      2,350,185       4,113,714
            J. Total Nonfederal Other Liabilities               $   3,450,666            7 $    3,450,673   $   5,679,116
      3. Total Other Liabilities:                               $   3,908,143            7 $    3,908,150   $   5,793,967

      4. Information Related to Other Liabilities:


222
2005 Annual Financial Report

Fluctuations and/or Abnormalities
Total Intragovernmental Other Liabilities had an overall increase of $342,626 thousand, 298 percent, in FY 2005.
The majority this increase is within Intragovernmental Advances From Others.

This increase is primarily attributed to the business areas listed below.
 (Amounts in thousands)
 Business Activity                Increases     Decreases                      Explanations
  Naval Shipyards                    $77,638                  This increase relates to advance billings in
                                                              February 2005.

  Space and Naval                     82,395                  This increase is a result of increased workload
  Warfare Systems Center                                      from other agencies associated with the
                                                              Global War on Terror.

  Component                          204,857                  The increase is related to a reclassification of
                                                              FY 2004 Intragovernmental Advances to public
                                                              since trading partner data was not available.
                                                              The reclassification was not required in FY 2005
                                                              since the trading partner data was available due
                                                              to enhancements of collecting elimination data.


  Naval Air Warfare                                 $17,209 The decrease is due to a system/process fix
  Center                                                    that provided the capability to liquidate customer
                                                            advance amounts more efficiently.

              Total                 $364,890        $17,209


The Total Nonfederal Other Liabilities decreased $2,228,443 thousand, 39 percent, in FY 2005. The net change is
discussed below.

Nonfederal Advances from Others, decreased $335,499 thousand, 70 percent, in FY 2005. The primary drivers of
the decrease in Nonfederal Advances from Others are discussed in the table below:
 (Amounts in thousands)
 Business Activity                Increases    Decreases                       Explanations
  Component                                       $204,857 The decrease is related to a reclassification of
                                                           FY 2004 Intragoverenmental Advances to
                                                            public since trading partner data was not
                                                           available. The reclassification was not required
                                                           in FY 2005 since the trading partner data was
                                                           available due to enhancements of collecting
                                                           elimination data.

  Space and Naval                                   73,521 The majority of this decrease is caused by a
  Warfare Systems Center                                   liquidation of prior year work and a reduced
                                                           amount of new work.

  Naval Air Warfare                                 45,204 The decrease is due to a system/process fix that
  Center                                                   provided the capability to liquidate customer
                                                           advance amounts more efficiently.

              Total                               $323,582

                                                                                                                   223
                                                     NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y

  Deferred credits increased $11,800 thousand, 100 percent, in FY 2005 and consists of unfilled customers orders-
  Advances from Others, Unearned Revenue received by Supply Management, Marine Corps in third quarter FY05.
  This balance was moved to Nonfederal due to lack of trading partner data.

  Deposit Funds and Suspense Accounts decreased $190,587 thousand, 56 percent, in FY 2005. The Navy and
  Defense Finance and Accounting Service (DFAS) have been working on better identification of the breakdown of
  supported vs. unsupported undistributed on the Report 8 to aid in clearing these amounts from the systems. The
  combined efforts have reduced the unsupported undistributed collections that were reclassified to U.S. Standard
  General Ledger 2400.

  Nonfederal Other Liabilities decreased $1,763,529 thousand, 43 percent, in FY 2005. The primary driver of the
  decrease in Nonfederal Other Liabilities is due to a decrease of $1,670,972 thousand related to the Advanced Depot
  Level Repairable Carcass Returns for the Supply Management, Navy. This decrease was primarily attributable to
  identifying processing irregularities and performing reconciliation between the Material Financial Control System
  (MFCS) and Carcass Tracking. Carcass Tracking does not pass the 'A' condition asset issue transaction back to
  MFCS to close the liability. A monthly reconciliation and an automated transaction entry will be performed and
  processed to update the account in MFCS.

  Composition of Other Liabilities
  As of September 30, 2005
  (Amounts in thousands)
  Intragovernmental Other Liabilities represents liabilities of:
    Health Benefits                                               $       15,404
    Life Insurance                                                           351
    Retirement Benefits                                                   19,315
    Voluntary Separation Incentive Program                                 3,234
    Custodial Liabilities                                                  2,725
                                                                 $        41,029

  Nonfederal Deposit Funds and Suspense Account Liabilities include amounts for unsupported undistributed
  collections.

  Nonfederal Other Liabilities includes amounts that are significant portions of the total liabilities presented in the Navy
  Working Capital Fund (NWCF) Balance Sheet. A breakout of the major components of Nonfederal Other Liabilities
  follows:

  a. Accrual of Contractual Services represents an accrued liability for direct work performed by contractors or material
  and supplies purchased for a direct order in which a request for payment has not been received. The accrual is
  based on the level of effort performed for the direct order on a monthly basis.

  b. Depot Level Repairable Carcass Return Liability represents the value of returned depot level repairable carcasses
  that have been received by an accountable activity from an end-use activity but an "A" condition (serviceable) asset
  has not been issued.

  c. In addition, the Other Liabilities amount includes Property Furnished by Others. This account is used to record
  intra-fund transfers of assets when such transfers are between activities with different reporting systems (e.g.
  Financial Inventory Reporting activities transfer assets with Transactions Item Reporting activities). The logic
  currently in place was approved by DFAS upon implementation of Material Financial Control System (MFCS).



224
2005 Annual Financial Report

The remainder of the Other Liabilities amount consists of Progress Payments, which are maintained to show the
balance of payments taken for accrued costs charged to Work in Process or the value of material procured and held
for specific orders received from customers within the DoD.

Intragovernmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL)
With respect to the major fiduciary balances, the NWCF was able to reconcile with the DOL.

Other Disclosures Related to Other Liabilities
No further disclosures required.

Note Reference
See Note 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
DoD policies governing Contingencies and Other Liabilities.

Capital Lease Liability

Information Related to Capital Lease Liability:
The Navy Working Capital Fund (NWCF) has no capital lease liability.

Other Disclosures Related to Capital Lease Liability
No further disclosures required.

Note Reference
See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
DoD policies governing Leases.

For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10.




NOTE 16. COMMITMENTS AND CONTINGENCIES
Information Related to Commitments and Contingencies:

Legal Contingencies:
The Navy Working Capital Fund (NWCF) is a party in various administrative proceedings and legal actions, which
may ultimately result in settlements or decisions adverse to the Federal Government. These proceedings and
actions arise in the normal course of operations and their ultimate disposition is unknown. In the event of an adverse
judgment against the Federal Government, some of the liabilities may be payable from the Judgment Fund. Others
may be payable from the Department of the Navy's resources, either directly or by reimbursement to the Judgment
Fund.

For fiscal years 2005 and 2004, the materiality threshold for reporting litigation, claims, or assessments was $6.0
million and $3.5 million, respectively. Legal actions affecting the DON include those for civil and environmental
litigation, claims, and assessments. Based on information contained in the Legal Representation Letters,
management does not have sufficient reason to believe that it is likely that the Government will be liable for the
maximum amounts claimed.




                                                                                                                         225
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                           D e pa r t m e n t o f t h e N a v y

  The NWCF reported a total of 8 cases as of September 30, 2005 that met the FY 2005 materiality threshold.
  However, the Department of Navy legal counsel is unable to express an opinion concerning the likely outcome of
  these cases.

  Other Disclosures Related to Commitments and Contingencies
  No further disclosures required.

  Note Reference
  See Note 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
  Department of Defense (DoD) policies governing Commitments and Contingencies.

  For regulatory discussion on Commitments and Contingencies, see Department of Defense Financial Management
  Regulation, Volume 6B, Chapter 10.




  NOTE 17. MILITARY RETIREMENT BENEFITS AND OTHER EMPLOYMENT RELATED
  ACTUARIAL LIABILITIES

                                                                                    2005                                      2004

                                                           Actuarial
                                                                        Assumed     (Less: Assets                           Unfunded
                                                        Present Value                                Unfunded
                                                                         Interest    Available to                           Actuarial
                                                         of Projected                             Actuarial Liability
                                                                        Rate (%)    Pay Benefits)                            Liability
                                                        Plan Benefits
      As of September 30,
      (Amount in Thousands)
      1. Pension and Health Benefits:
         A. Military Retirement Pensions                $          0                $           0 $              0      $                0
         B. Military Retirement Health Benefits                    0                            0                0                       0
         C. Medicare-Eligible Retiree Benefits                     0                            0                0                       0
         D. Total Pension and Health Benefits           $          0                $           0 $              0      $                0

      2. Other
         A. FECA                                        $   1,192,551               $           0 $     1,192,551       $    1,168,225
         B. Voluntary Separation Incentive Programs                 0                           0               0                    0
         C. DoD Educational Benefits Fund                           0                           0               0                    0
         D. Total Other                                 $   1,192,551               $           0 $     1,192,551       $    1,168,225


      3. Total Military Retirement Benefits and Other
         Employment Related Actuarial Liabilities:      $   1,192,551               $           0 $     1,192,551       $    1,168,225

      4. Information Related to Military Retirement Benefits and Other Employment Related Actuarial Liabilities:

  Fluctuations and/or Abnormalities:
  No fluctuations and/or abnormalities need to be explained for Military Retirement Benefits and Other Employment
  Related Actuarial Liabilities.




226
2005 Annual Financial Report

Actuarial Cost Method Used
The Department of the Navy (DON) actuarial liability for workers' compensation benefits is developed by the
Department of Labor and provided to the DON at the end of each fiscal year. The liability is distributed between the
Navy Working Capital Fund and DON General Fund based upon the number of civilian employees funded in each
entity as reported in the Navy Budget Tracking System. The liability includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases. The liability is determined using a method that
utilizes historical benefit payment patterns to predict the ultimate payments.

Assumptions
The projected annual benefit payments are discounted to the present value using OMB's economic assumptions for
10-year U.S. Treasury notes and bonds. Cost-of-living adjustments and medical inflation factors are also applied to
the calculation of projected future benefits. The interest rate assumptions used in the discount calculations are as
follows for September 30, 2005:

4.528 percent in year 1,
5.020 percent in year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers' compensations benefits, wage
inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge
back year (CBY) 2005 were also used to adjust the methodology's historical payments to current year constant
dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:


                              CBY                    COLA                    CPIM
                              2005                   2.20%                   4.33%
                              2006                   3.33%                   4.09%
                              2007                   2.93%                   4.01%
                              2008                   2.40%                   4.01%
                              2009+                  2.40%                   4.01%




NOTE 18. DISCLOSURES RELATED                   TO THE     STATEMENT       OF   NET COST
Information Related to the Statement of Net Cost:

Fluctuations and/or Abnormalities
No fluctuations and/or Abnormalities need to be explained for:

 • Intragovernmental Gross Costs
 • Intragovernmental Net Costs

Intragovernmental Earned Revenue decreased $983,010 thousand, 5 percent, in FY 2005. The primary driver of this
decrease is the reclassification of Foreign Military Sales from intragovernmental to nonfederal.




                                                                                                                              227
                                                     NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y

  Gross Costs With the Public increased $1,341,205 thousand, 7 percent, in FY 2005. The primary drivers of this
  increase is Supply Management, Navy increased material cost of goods sold that was affected by the Depot Level
  Repairable carcass reconciliation. Transportation Activity Group also reported increased costs due to an increase in
  fuel consumption cost.

  Earned Revenue From the Public increased $910,955 thousand, 148 percent, in FY 2005. The primary drivers of the
  increase in Earned Revenue From the Public are discussed below:
      (Amounts in thousands)
      Business Activity             Increases       Decreases                        Explanations
      Supply Management,              $766,683                     This increase is the result of moving from the
      Navy                                                         Enterprise Resource Planning (ERP) system in
                                                                   April 2005, which valued inventory at the
                                                                   moving average coast (MAC), to Material
                                                                   Financial Control System (MCFS). This
                                                                   resulted in an increase in other gains with the
                                                                   public.

      Public Works Center               133,034                    This increase is attributed to the establishment
                                                                   of the Installation Claimant Consolidation
                                                                   (ICC2) in the Program Budget Decision 430,
                                                                   December 2003, in the President's budget.
                                                                   ICC2s were funded by a direct reimbursement
                                                                   from Operations and Maintenance, Navy
                                                                   appropriation to the Navy Working Capital
                                                                   Fund.

                 Total                $899,717


  Composition of Statement of Net Cost
  The Navy Working Capital Fund (NWCF) generally records transactions on an accrual basis as required by federal
  generally accepted accounting principles. Information presented on the Statement of Net Cost represents the net
  result of post-closing adjustments and eliminating entries made in compiling and consolidating the NWCF financial
  statements. These entries significantly affected the reported amounts of Intragovernmental Program Cost, Program
  Cost with the Public, Earned Revenue and Net Program Cost. The post-closing adjustments were made in order to
  increase or decrease certain NWCF account balances reported as of September 30, 2005 to ensure agreement with
  related balances reported by other Department of Defense (DoD) and other federal reporting entities. Eliminating
  entries are required adjustments made as part of the financial process. This process enables the matching of trading
  partner data recorded at each financial statement consolidation level -- the NWCF, DoD and Federal Government
  levels.

  Other Disclosures Related to the Statement of Net Cost
  The Statement of Net Cost was impacted by the recording of adjustments, other than the inventory valuation model,
  in the amount of $(26,555) thousand as current year transactions. These adjustments were generated in the Navy
  Activity accounting system as prior period adjustments, but were reclassified to current year operations. These
  amounts were reclassified, as their individual values did not meet the materiality threshold outlined in the Office of
  the Under Secretary of Defense (Comptroller) (OUSD(C)) memo of June 8, 2003.




228
2005 Annual Financial Report


NOTE 19. DISCLOSURES RELATED                 TO THE     STATEMENT        OF   CHANGES    IN   NET POSITION


                                                   Cumulative                       Cumulative
                                                   Results of      Unexpended       Results of    Unexpended
                                                   Operations     Appropriations    Operations   Appropriations
 As of September 30,                                 2005             2005            2004           2004
 (Amounts in thousands)
 1. Prior Period Adjustments Increases
   (Decreases) to Net Position
    A. Changes in Accounting Standards         $             0$               0 $             0 $            0
    B. Errors and Omissions in Prior Year
       Accounting Reports                                    0                0               0              0
    C. Other Prior Period Adjustments                        0                0      (1,044,715)             0
    D. Total Prior Period Adjustments          $             0$               0 $    (1,044,715) $           0

 2. Imputed Financing:
     A. Civilian CSRS/FERS Retirement          $      234,870 $               0 $      243,406 $             0
     B. Civilian Health                               316,724                 0        300,500               0
     C. Civilian Life Insurance                         1,003                 0            980               0
     D. Judgment Fund                                       0                 0              0               0
     E. Intra-entity                                        0                 0              0               0
     F. Total Imputed Financing                $      552,597 $               0 $      544,886 $             0


3. Information Related to the Statement of Changes in Net Position:

Fluctuations and/or Abnormalities
In FY 1995, the Department of the Navy received $1,044,715 thousand in undistributed Net Outlays from the Office of
the Secretary of Defense corporate account. This value was adjusted in FY 2004 to the Navy Working Capital Fund
(NWCF) Component business area.

Composition of Statement of Net Position
During FY 2004, the $1,044,715 thousand was treated as a prior period adjustment.

NWCF activities capture prior period adjustments in their accounting systems. These adjustments were reclassified
to current year operations in the amount of ($26,555) thousand. These amounts were reclassified as their individual
values did not meet the materiality threshold outlined in the Office of the Under Secretary of Defense (Comptroller)
(OUSD(C)) memo of June 8, 2003.




                                                                                                                       229
                                                     NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  Based on OUSD(C) direction, amounts generated as prior period adjustments within the Cost of Goods Sold model
  were moved to inventory allowance accounts. The amounts are as follows:


      As of September 30,                              2005          2004
      (Amount in thousands)
      Supply Management, Navy                      $   402,782 $      (533,848)
      Supply Management, Marine Corps              $   (22,867) $      178,768


  The Other Budgetary Financing Sources line on the Statement of Changes in Net Position includes $4,104,274
  thousand for amounts reclassified to Other Gains or Other Losses from Transfers-In and Transfers-Out. Transfers-In
  amounts are required to agree with Transfers-Out amounts received from seller-side data.

  Imputed Financing
  The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
  Service Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits Program and
  the Federal Employee Group Life Insurance Program do not fully cover the Government's cost to provide these
  benefits. An imputed cost is recognized as the difference between the Government's cost of providing these benefits
  to the employees and contributions made by and for them. OPM provides the cost factors to the Defense Finance
  and Accounting Service (DFAS) for computation of imputed financing cost. DFAS provides the costs to Office of the
  Under Secretary of Defense (Personnel and Readiness) for validation. Approved imputed costs are provided to the
  reporting components for inclusion in their financial statements.

  Other Disclosures Related to the Statement of Net Position
  Included in the NWCF's Net Position, Cumulative Results of Operations (CRO) are amounts that were approved by
  OUSD(C) as a deferral for recovery from, or return to, customers in later fiscal years' billing rates. As of September
  30, 2005, the total NWCF amount of CRO-Deferred was ($415,779) thousand. This amount primarily consists of
  system development costs incurred during FY 1992-1998 totaling ($389,533) thousand by the Joint Logistics Service
  Center (JLSC). With the closure of JLSC, OUSD(C) directed in August 1998 that this JLSC system development
  cost be deferred from cost recovery. As instructed by the OUSD(C), the Department of the Navy distributed this
  amount among affected NWCF activities.

  Note Reference
  For regulatory disclosure related to the Statement of Changes in Net Position, see Department of Defense Financial
  Management Regulation, Volume 6B, Chapter 10.




230
2005 Annual Financial Report


NOTE 20. DISCLOSURES RELATED                  TO THE    STATEMENT      OF   BUDGETARY RESOURCES

 As of September 30,                                               2005            2004
 (Amounts in thousands)
    1. Net Amount of Budgetary Resources Obligated
       for Undelivered Orders at the End of the Period        $   7,585,850 $      6,901,108
    2. Available Borrowing and Contract Authority at the
       End of the Period                                          6,897,192        6,156,853

3. Information Related to the Statement of Budgetary Resources:

The Statement of Budgetary Resources (SBR) is an image of the monthly Report on Budget Execution (Standard
Form 133 (SF 133)). These reports should be produced using budgetary accounts. However, the Navy Working
Capital Fund (NWCF) uses proprietary accounts because its financial accounting systems were not designed to
produce budgetary accounting data. The Department of the Navy and the Defense Finance and Accounting Service
continue with the implementation of new accounting systems designed to produce both proprietary and budgetary
reports and use the U.S. Standard General Ledger (USSGL). The Defense Industrial Financial Management System
(DIFMS) has been fully implemented at all Research and Development (R&D) activities that were scheduled for
conversion. R&D activity Space and Naval Warfare Systems Center, San Diego has successfully implemented the
Enterprise Resource Planning (ERP) pilot program (Project Cabrillo) thus moving off DIFMS. Also, the Naval Air
Warfare Centers (NAWCs) have moved from DIFMS to their ERP pilot program "Sigma". The ERPs are programmed
to complete the SBR at the activity level. The Defense Working Capital Fund Accounting System (DWAS)
implementations have been completed. Although these legacy systems have been replaced, the capability to
produce the SBR and SF 133 is still being developed by the DON.

In FY 2005, the NWCF received appropriations of $298,000 thousand, of which $3,750 thousand was transferred and
$287,864 thousand was used. The remaining balance of $6,286 thousand relates to the direct appropriation (P.L.
109-62) in support of Hurricane Katrina. The NWCF incorrectly reported an appropriation transfer of $25,200
thousand as Appropriations Received, resulting in an overstatement of Appropriations Received.

Line 3.A.2 of the SBR includes USSGL 4251, Reimbursements and Other income Earned. The amount posted on this
line is the ending balance less the beginning balance for the current fiscal year. In this case the ending balance is
less than the beginning balance, which nets to a negative balance change for this fiscal year. This is a reflection of
the Department of Navy's (DON) aggressive efforts to collect on reimbursable operations; the fuel business
transferred to Defense Logistics Agency; collections of aged outstanding fuel receivables and the continuing efforts
between the Defense Finance and Accounting Service partnering with the DON to reduce accounts receivable.

As of September 30, 2005, the SBR does not measure the NWCF's budget execution against budgetary resources.
Budgetary resources are recorded in the accounting records and reported on the basis of customer orders received
and contract authority invoked. On these reports, the spending authority from offsetting collections during the period
of execution is based upon the approved President's Budget estimate of anticipated customer orders.

For the SBR, Supply Management's revenue is defined as gross sales less credit returns. For the balance sheet,
revenue does not include credit returns because the inventory valuation model considers credit returns as inventory
allowances. The difference causes variances in the reports. On these budgetary reports, the net outlays (collections
and disbursements) year to date are reported based on the amounts reported to U.S. Treasury from the Defense
Cash Accountability System and Centralized Expenditures/Reimbursement Processing System.



                                                                                                                         231
                                                   NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
                                                                                     D e pa r t m e n t o f t h e N a v y

  As of September 30, 2005, the differences between the U.S. Treasury and the NWCF activity ledgers have been
  minimal, and the cause is related to timing or the type of transactions. The differences are recorded as undistributed
  disbursements and collections on the departmental reports. While there may be no impact upon the U.S. Treasury
  balance, the above differences have created distortions in the accounts receivable and accounts payable from a
  budgetary reporting perspective on the SBR. Also, problems with undistributed collections and disbursements have
  created abnormal balances for accounts receivable and accounts payable on the SBR.

  Intra-entity Transactions
  The SBR does include intra-entity transactions, which have not been eliminated because the statements are
  presented as combined and combining.

  Apportionment Categories
  OMB Circular A-136 requires disclosure of the amount of direct and reimbursable obligations incurred against
  amounts apportioned under categories A, B and exempt from apportionment. These amounts are as follows:


      As of September 30, 2005
      (Amounts in Thousands)
      Obligations Incurred – Direct          Line 8A    $             0
      Obligations Incurred – Reimbursable    Line 8B    $    23,935,996
      Exempt from apportionment              Line 9B    $             0


  Undelivered Orders
  Undelivered Orders presented in the SBR includes Undelivered Orders-Unpaid for both direct and reimbursable
  funds.

  Spending Authority from Offsetting Collections
  Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not
  available (included in the "Adjustments" line on the SBR), are not included in the Spending Authority from Offsetting
  Collections and Adjustments line on the SBR or the Spending Authority for Offsetting Collections and Adjustments
  line on the Statement of Financing.

  Other Disclosures Related to the Statement of Budgetary Resources
  New Contract Authority Guidance was issued by the Office of the Under Secretary of Defense on September 8, 2005.
  While the guidance was intended to be implemented for FY 2005, DFAS Cleveland (DFAS-CL) and the Navy are
  unable to adhere to this requirement for FY 2005. After doing multiple departmental level adjustments that did not
  produce the proper accounting treatment, nor were they properly supported, DFAS-CL with concurrence from their
  Navy customer made the decision to use the same logic for reporting contract authority that was used last year and
  throughout FY 2005.

  Attempting to implement this guidance without adequate time would only give the appearance that it was
  implemented properly. This could create additional problems that would have to be addressed the following fiscal
  year. The budgetary accounts for the Navy Working Capital Fund activities are currently not fully supportable.
  Adding an additional layer of unsupportable values would only hinder the process of correcting the budgetary
  accounts. DFAS-CL and the Navy will look closely at the guidance and ensure that this guidance is properly
  implemented for FY 2006. In addition, both parties will develop plans to address any areas of the guidance that the
  current systems and business practices prevent the proper full implementation of this newly issued guidance.




232
2005 Annual Financial Report


NOTE 21. DISCLOSURES RELATED                  TO THE     STATEMENT       OF   FINANCING
Information Related to the Statement of Financing:

The Statement of Financing is designed to provide information on the total resources used by an entity, to explain
how those resources were used to finance orders for goods and services not yet delivered, to acquire assets and
liabilities, and to fund the entity's net cost of operations. It is designed to report the differences and facilitate the
reconciliation of accrual-based amounts used in the Statement of Net Cost and obligation-based amounts used in the
Statement of Budgetary Resources. The computations and presentation of items in the Statement of Financing
demonstrate that the budgetary and proprietary information in an entity's financial management system is in
agreement.

The Defense Finance and Accounting Service (DFAS), Navy Working Capital Fund (NWCF) accounting systems, and
Navy Enterprise Resource Planning include budgetary accounts. However, some of the legacy accounting systems
do not. As a result, the Statement of Budgetary Resources (SBR) is generated by DFAS using data extracted from
the proprietary accounts.

The detailed level of information required to appropriately complete the SBR is being developed for those activities
that cannot provide the data due to system deficiencies. As a result of these system deficiencies, the Statement of
Financing line, Resources that Finance the Acquisition of Assets, was adjusted upward by $1,991,833 thousand at
the end of FY 2005.

Other Disclosures Related to the Statement of Financing
No further disclosures required.




NOTE 22. DISCLOSURES RELATED                  TO THE     STATEMENT       OF   CUSTODIAL ACTIVITY
Not Applicable.



NOTE 23. OTHER DISCLOSURES
No futher disclosures required.




                                                                                                                            233
                                                    NAVY WORKING CAPITAL FUND NOTES TO THE PRINCIPAL STATEMENTS
      D e pa r t m e n t o f t h e N a v y




234
2005 Annual Financial Report


                                                             DEPARTMENT OF THE NAVY


                                 NAVY WORKING CAPITAL FUND
          SUPPORTING     CONSOLIDATING/COMBINING STATEMENTS




                                                                                               CONSOLIDATING/COMBINING STATEMENTS
                                                                                                       NWCF SUPPORTING




                                                                                              235
                               NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                                  D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING BALANCE SHEET
  As of September 30, 2005 and 2004
  ($ in thousands)

                                                                    Depot              Depot               Depot
                                                                 Maintenance,       Maintenance,        Maintenance,       Ordnance
                                                                  Shipyards           Aviation          Marine Corps
      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                        $        391,391   $       194,997     $        (10,870) $         396
               Nonentity Seized Iraqi Cash                                  0                 0                    0              0
               Nonentity - Other                                            0                 0                    0              0
          Investments (Note 4)                                              0                 0                    0              0
          Accounts Receivable (Note 5)                                  6,608            66,261                9,961             32
          Other Assets (Note 6)                                             0                 0                   70              0
               Total Intragovernmental Assets                $        397,999   $       261,258     $           (839) $         428
        Cash and Other Monetary Assets (Note 7)                             0                  0                   0              0
        Accounts Receivable (Note 5)                                       97              1,836                 199              0
        Loans Receivable (Note 8)                                           0                  0                   0              0
        Inventory and Related Property (Note 9)                       227,450            436,234              96,765              0
        General Property, Plant and Equipment (Note 10)               656,493            334,669              50,524            140
        Investments (Note 4)                                                0                  0                   0              0
        Other Assets (Note 6)                                          34,626              4,363                   0              0
      TOTAL ASSETS                                           $      1,316,665   $      1,038,360    $        146,649   $        568

      LIABILITIES (Note 11)
        Intragovernmental:
          Accounts Payable (Note 12)                         $         (2,701) $        269,951     $         39,441   $        550
          Debt (Note 13)                                                    0                 0                    0              0
          Other Liabilities (Note 15 & Note 16)                       127,875             5,720                6,422              0
                Total Intragovernmental Liabilities          $        125,174 $         275,671     $         45,863   $        550
        Accounts Payable (Note 12)                                     38,914            20,843               24,347              0
        Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                           0                 0               26,667              0
        Environmental Liabilities (Note 14)                                 0                 0                    0              0
        Loan Guarantee Liability (Note 8)                                   0                 0                    0              0
        Other Liabilities (Note 15 and Note 16)                       281,121           259,398               13,819              0
      TOTAL LIABILITIES                                      $        445,209   $       555,912     $        110,696   $        550

      NET POSITION
        Unexpended Appropriations                            $              0   $             0     $              0   $          0
        Cumulative Results of Operations                              871,456           482,448               35,953             18
      TOTAL NET POSITION                                     $        871,456   $       482,448     $         35,953   $         18

      TOTAL LIABILITIES AND NET POSITION                     $      1,316,665   $      1,038,360    $        146,649   $        568




236
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in thousands)

                                                                                                     Research &         Supply
                                                             Transportation       Base Support
                                                                                                     Development      Management
  ASSETS (Note 2)
    Intragovernmental:
      Fund Balance with Treasury (Note 3)
           Entity                                        $        247,020     $       205,496    $      1,098,537 $      (917,117)
           Nonentity Seized Iraqi Cash                                  0                   0                   0               0
           Nonentity - Other                                            0                   0                   0               0
      Investments (Note 4)                                              0                   0                   0               0
      Accounts Receivable (Note 5)                                 93,821             154,952             (15,709)        108,184
      Other Assets (Note 6)                                             0                   0                   0               0
           Total Intragovernmental Assets                $        340,841     $       360,448    $      1,082,828 $      (808,933)
    Cash and Other Monetary Assets (Note 7)                             0                    0                  0               0
    Accounts Receivable (Note 5)                                      324               41,311             11,835         (29,219)
    Loans Receivable (Note 8)                                           0                    0                  0               0
    Inventory and Related Property (Note 9)                         3,922               21,446            347,913      14,477,044
    General Property, Plant and Equipment (Note 10)                45,054              653,793          1,508,989         480,860
    Investments (Note 4)                                                0                    0                  0               0
    Other Assets (Note 6)                                         376,909                1,249             10,465         109,233
  TOTAL ASSETS                                           $        767,050     $      1,078,247   $      2,962,030 $    14,228,985

  LIABILITIES (Note 11)
    Intragovernmental:
      Accounts Payable (Note 12)                         $         90,953     $        18,505    $       (86,201) $       472,486
      Debt (Note 13)                                              381,518                   0                  0                0
      Other Liabilities (Note 15 & Note 16)                         2,518               4,491            265,329           67,432
           Total Intragovernmental Liabilities           $        474,989     $        22,996    $       179,128 $        539,918
    Accounts Payable (Note 12)                                    271,772             169,994            581,857          596,850
    Military Retirement Benefits and Other Employment-
     Related Actuarial Liabilities (Note 17)
                                                                        0                   0                   0               0
    Environmental Liabilities (Note 14)                                 0                   0                   0               0
    Loan Guarantee Liability (Note 8)                                   0                   0                   0               0
    Other Liabilities (Note 15 and Note 16)                        53,268              89,064           2,115,201         470,595
  TOTAL LIABILITIES                                      $        800,029     $       282,054    $      2,876,186 $     1,607,363

  NET POSITION
    Unexpended Appropriations                            $               0 $                0    $         2,418 $              0
    Cumulative Results of Operations                               (32,979)           796,193             83,426       12,621,622
  TOTAL NET POSITION                                     $         (32,979) $         796,193    $        85,844 $     12,621,622

  TOTAL LIABILITIES AND NET POSITION                     $        767,050     $      1,078,247   $      2,962,030 $    14,228,985




                                                                                                                                     237
                                                      NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                            D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING BALANCE SHEET
  As of September 30, 2005 and 2004
  ($ in thousands)


                                                                 Component           Combined
                                                                                                       Eliminations
                                                                   Level               Total

      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                        $      (231,985)    $       977,865   $                  0
               Nonentity Seized Iraqi Cash                                 0                   0                      0
               Nonentity - Other                                           0                   0                      0
          Investments (Note 4)                                             0                   0                      0
          Accounts Receivable (Note 5)                                70,389             494,499                      0
          Other Assets (Note 6)                                          304                 374                      0
               Total Intragovernmental Assets                $      (161,292)    $     1,472,738   $                  0
        Cash and Other Monetary Assets (Note 7)                             0                  0                      0
        Accounts Receivable (Note 5)                                    3,303             29,686                      0
        Loans Receivable (Note 8)                                           0                  0                      0
        Inventory and Related Property (Note 9)                             0         15,610,774                      0
        General Property, Plant and Equipment (Note 10)                     0          3,730,522                      0
        Investments (Note 4)                                                0                  0                      0
        Other Assets (Note 6)                                            (104)           536,741                      0
      TOTAL ASSETS                                           $       (158,093)   $    21,380,461   $                  0

      LIABILITIES (Note 11)
        Intragovernmental:
          Accounts Payable (Note 12)                         $      (603,378)    $       199,606   $                  0
          Debt (Note 13)                                                   0             381,518                      0
          Other Liabilities (Note 15 & Note 16)                      (22,310)            457,477                      0
               Total Intragovernmental Liabilities           $      (625,688)    $     1,038,601   $                  0
        Accounts Payable (Note 12)                                   447,535           2,152,112                      0
        Military Retirement Benefits and Other Employment-
         Related Actuarial Liabilities (Note 17)                    1,165,884          1,192,551                      0
        Environmental Liabilities (Note 14)                                 0                  0                      0
        Loan Guarantee Liability (Note 8)                                   0                  0                      0
        Other Liabilities (Note 15 and Note 16)                       168,207          3,450,673                      0
      TOTAL LIABILITIES                                      $      1,155,938    $     7,833,937   $                  0

      NET POSITION
        Unexpended Appropriations                            $          3,868    $         6,286   $                  0
        Cumulative Results of Operations                           (1,317,899)        13,540,238                      0
      TOTAL NET POSITION                                     $     (1,314,031)   $    13,546,524   $                  0

      TOTAL LIABILITIES AND NET POSITION                     $       (158,093)   $    21,380,461   $                  0




238
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in thousands)

                                                                     2005                 2004
                                                                  Consolidated         Consolidated
  ASSETS (Note 2)
    Intragovernmental:
      Fund Balance with Treasury (Note 3)
           Entity                                             $          977,865   $          861,243
           Nonentity Seized Iraqi Cash                                         0                    0
           Nonentity - Other                                                   0                    0
      Investments (Note 4)                                                     0                    0
      Accounts Receivable (Note 5)                                       494,499              857,519
      Other Assets (Note 6)                                                  374                   15
           Total Intragovernmental Assets                     $        1,472,738   $        1,718,777
    Cash and Other Monetary Assets (Note 7)                                    0                    0
    Accounts Receivable (Note 5)                                          29,686               26,190
    Loans Receivable (Note 8)                                                  0                    0
    Inventory and Related Property (Note 9)                           15,610,774           19,239,192
    General Property, Plant and Equipment (Note 10)                    3,730,522            3,895,542
    Investments (Note 4)                                                       0                    0
    Other Assets (Note 6)                                                536,741              717,191
  TOTAL ASSETS                                                $       21,380,461   $       25,596,892

  LIABILITIES (Note 11)
    Intragovernmental:
      Accounts Payable (Note 12)                              $          199,606   $          243,982
      Debt (Note 13)                                                     381,518              506,278
      Other Liabilities (Note 15 & Note 16)                              457,477              114,851
            Total Intragovernmental Liabilities               $        1,038,601   $          865,111
    Accounts Payable (Note 12)                                         2,152,112            1,862,567
    Military Retirement Benefits and Other Employment-
      Related Actuarial Liabilities (Note 17)                          1,192,551            1,168,225
    Environmental Liabilities (Note 14)                                        0                    0
    Loan Guarantee Liability (Note 8)                                          0                    0
    Other Liabilities (Note 15 and Note 16)                            3,450,673            5,679,116
  TOTAL LIABILITIES                                           $        7,833,937   $        9,575,019

  NET POSITION
    Unexpended Appropriations                                 $            6,286   $                0
    Cumulative Results of Operations                                  13,540,238           16,021,873
  TOTAL NET POSITION                                          $       13,546,524   $       16,021,873

  TOTAL LIABILITIES AND NET POSITION                          $       21,380,461   $       25,596,892




                                                                                                                 239
                                                  NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                              D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF NET COST
  For the years ended September 30, 2005 and 2004
  ($ in thousands)


                                                                                                 2005                  2004
                                                        2005 Total         Eliminations
                                                                                              Consolidated          Consolidated
      Program Costs
      Base Support
         Intragovernmental Gross Costs              $     1,124,021    $            0     $        1,124,021    $          985,405
         (Less Intragovernmental Earned Revenue)         (1,606,064)                0             (1,606,064)           (1,602,991)
         Intragovernmental Net Costs                $      (482,043)   $            0     $         (482,043)   $         (617,586)

         Gross Costs With the Public                $       569,742                 0               569,742               595,987
         (Less: Earned Revenue From the Public)            (133,034)                0              (133,034)                    0
         Net Costs With the Public                  $       436,708    $            0     $         436,708     $         595,987
        Net Program Cost                            $       (45,335)   $            0     $         (45,335)    $         (21,599)

      Component Level
        Intragovernmental Gross Costs               $    (4,065,059)   $            0     $       (4,065,059)   $       (4,319,029)
        (Less Intragovernmental Earned Revenue)           1,779,340                 0              1,779,340             2,777,999
        Intragovernmental Net Costs                 $    (2,285,719)   $            0     $       (2,285,719)   $       (1,541,030)

         Gross Costs With the Public                $     3,287,782                 0             3,287,782             2,311,441
         (Less: Earned Revenue From the Public)                   0                 0                     0              (539,417)
         Net Costs With the Public                  $     3,287,782    $            0     $       3,287,782     $       1,772,024
        Net Program Cost                            $     1,002,063    $            0     $       1,002,063     $         230,994

      Depot Maintenance, Aviation
         Intragovernmental Gross Costs              $     1,064,650    $            0     $        1,064,650    $        1,179,235
         (Less Intragovernmental Earned Revenue)         (1,759,045)                0             (1,759,045)           (2,218,932)
         Intragovernmental Net Costs                $      (694,395)   $            0     $         (694,395)   $       (1,039,697)

         Gross Costs With the Public                $       897,689                 0               897,689             1,032,649
         (Less: Earned Revenue From the Public)             (59,948)                0               (59,948)                    0
         Net Costs With the Public                  $       837,741    $            0     $         837,741     $       1,032,649
        Net Program Cost                            $       143,346    $            0     $         143,346     $          (7,048)

      Depot Maintenance, Marine Corps
         Intragovernmental Gross Costs              $       486,784    $            0     $         486,784     $         331,518
         (Less Intragovernmental Earned Revenue)           (474,481)                0              (474,481)             (324,480)
         Intragovernmental Net Costs                $        12,303    $            0     $          12,303     $           7,038

         Gross Costs With the Public                $        (8,007)                0                (8,007)              (11,652)
         (Less: Earned Revenue From the Public)              (5,220)                0                (5,220)               (3,927)
         Net Costs With the Public                  $       (13,227)   $            0     $         (13,227)    $         (15,579)
        Net Program Cost                            $          (924)   $            0     $            (924)    $          (8,541)




240
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2005 and 2004
($ in thousands)


                                                                                             2005                   2004
                                                   2005 Total          Eliminations
                                                                                          Consolidated           Consolidated
  Program Costs
  Depot Maintenance, Shipyards
     Intragovernmental Gross Costs             $        694,618    $             0    $           694,618    $           826,312
     (Less Intragovernmental Earned Revenue)         (1,631,113)                 0             (1,631,113)            (2,241,48
     Intragovernmental Net Costs               $       (936,495)   $             0    $          (936,495)   $        (1,415,16

     Gross Costs With the Public               $       992,311                   0               992,311              1,482,58
     (Less: Earned Revenue From the Public)            (25,252)                  0               (25,252)
     Net Costs With the Public                 $       967,059     $             0    $          967,059     $        1,482,58
    Net Program Cost                           $        30,564     $             0    $           30,564     $           67,418

  Ordnance
     Intragovernmental Gross Costs             $        (12,142)   $             0    $          (12,142)    $            (8,104
     (Less Intragovernmental Earned Revenue)                  0                  0                     0
     Intragovernmental Net Costs               $        (12,142)   $             0    $          (12,142)    $            (8,10

     Gross Costs With the Public               $             (1)                 0                    (1)                    2
     (Less: Earned Revenue From the Public)                   0                  0                     0
     Net Costs With the Public                 $             (1)   $             0    $               (1)    $                2
    Net Program Cost                           $        (12,143)   $             0    $          (12,143)    $            (8,08

  Transportation
     Intragovernmental Gross Costs             $        519,666    $             0    $           519,666    $           439,176
     (Less Intragovernmental Earned Revenue)         (1,951,860)                 0             (1,951,860)            (1,792,42
     Intragovernmental Net Costs               $     (1,432,194)   $             0    $        (1,432,194)   $        (1,353,25

     Gross Costs With the Public               $      1,483,069                  0             1,483,069              1,338,02
     (Less: Earned Revenue From the Public)                   0                  0                     0
     Net Costs With the Public                 $      1,483,069    $             0    $        1,483,069     $        1,338,02
    Net Program Cost                           $         50,875    $             0    $           50,875     $          (15,23

  Research & Development
     Intragovernmental Gross Costs             $      5,714,307    $             0    $         5,714,307    $         5,854,98
     (Less Intragovernmental Earned Revenue)         (9,567,348)                 0             (9,567,348)           (10,260,46
     Intragovernmental Net Costs               $     (3,853,041)   $             0    $        (3,853,041)   $        (4,405,48

     Gross Costs With the Public               $      4,318,109                  0             4,318,109              4,441,53
     (Less: Earned Revenue From the Public)            (469,466)                 0              (469,466)                   622
     Net Costs With the Public                 $      3,848,643    $             0    $        3,848,643     $        4,442,15
    Net Program Cost                           $         (4,398)   $             0    $           (4,398)    $           36,67




                                                                                                                              241
                                                   NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                                    D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF NET COST
  For the years ended September 30, 2005 and 2004
  ($ in thousands)

                                                                2005 Total       Eliminations          2005                 2004
                                                                                                    Consolidated         Consolidated

      Program Costs
      Supply Management
         Intragovernmental Gross Costs                      $        40,706 $              0    $          40,706    $        145,488
         (Less Intragovernmental Earned Revenue)                 (5,505,354)               0           (5,505,354)         (6,036,154)
         Intragovernmental Net Costs                        $    (5,464,648) $             0    $      (5,464,648)   $     (5,890,666)

         Gross Costs With the Public                        $     7,716,125                0            7,716,125           6,725,024
         (Less: Earned Revenue From the Public)                    (831,570)               0             (831,570)            (70,813)
         Net Costs With the Public                          $     6,884,555 $              0    $       6,884,555    $      6,654,211
        Net Program Cost                                    $     1,419,907 $              0    $       1,419,907    $        763,545

      Total Program Costs
         Intragovernmental Gross Costs                      $     5,567,551 $              0    $       5,567,551    $      5,434,981
         (Less Intragovernmental Earned Revenue)                (20,715,925)               0          (20,715,925)        (21,698,935)
         Intragovernmental Net Costs                        $   (15,148,374) $             0    $     (15,148,374)   $    (16,263,954)

         Gross Costs With the Public                        $   19,256,819                 0           19,256,819          17,915,614
         (Less: Earned Revenue From the Public)                 (1,524,490)                0           (1,524,490)           (613,535)
         Net Costs With the Public                          $   17,732,329 $               0    $      17,732,329    $     17,302,079
        Net Program Cost                                    $    2,583,955 $               0    $       2,583,955    $      1,038,125
      Costs Not Assigned to Programs                                     0                 0                    0                   0
      (Less: Earned Revenue Not Attributable to Programs)                0                 0                    0                   0
      Net Cost of Operations                                $    2,583,955 $               0    $       2,583,955    $      1,038,125




242
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2005 and 2004
($ in thousands)



                                                                   Depot                  Depot               Depot
                                                                Maintenance,           Maintenance,        Maintenance,        Ordnance
                                                                 Shipyards               Aviation          Marine Corps
 Cumulative Results of Operations
  Beginning Balances                                        $         946,924      $         430,901   $          24,950   $       12,874
  Prior period adjustments (+/-)
   Changes in Accounting Principles (+/-)                                   0                      0                   0                0
   Correction of Errors (+/-)                                            (661)                  (161)                  0                0
  Beginning Balances, as adjusted                           $         946,263      $         430,740 $            24,950   $       12,874
  Budgetary Financing Sources:
   Appropriations Received                                  $               0 $                    0   $              0    $            0
   Appropriations transferred in/out (+/-)                                  0                      0                  0                 0
   Other adjustments (rescissions, etc) (+/-)                               0                      0                  0                 0
   Appropriations used                                                      0                200,208                  0                 0
   Nonexchange revenue                                                      0                      0                  0                 0
   Donations and forfeitures of cash and cash equivalents                   0                      0                  0                 0
   Transfers in/out without reimbursement (+/-)                       (25,000)                     0                  0           (25,000)
   Other budgetary financing sources (+/-)                                  0                      0                  0                 0
  Other Financing Sources:
   Donations and forfeitures of property                                    0                      0                   0                0
   Transfers in/out without reimbursement (+/-)                       (19,243)                (5,154)                  0                0
   Imputed financing from costs absorbed by others                          0                      0              10,079                0
   Other (+/-)                                                              0                      0                   0                0
  Total Financing Sources                                   $         (44,243) $             195,054 $            10,079 $        (25,000)
   Net Cost of Operations (+/-)                                        30,564                143,346                (924)         (12,143)
   Net Change                                                         (74,807)                51,708              11,003          (12,857)
   Ending Balances                                          $         871,456 $              482,448 $            35,953 $             17

 Unexpended Appropriations
  Beginning Balances                                        $                  0   $              0    $              0    $              0
  Prior period adjustments (+/-)
   Changes in Accounting Principles (+/-)                                      0                  0                   0                   0
   Correction of Errors (+/-)                                                  0                  0                   0                   0
  Beginning Balances, as adjusted                           $                  0   $              0    $              0    $              0
  Budgetary Financing Sources:
   Appropriations Received                                  $                  0   $         200,208 $                0    $              0
   Appropriations transferred in/out (+/-)                                     0                   0                  0                   0
   Other adjustments (rescissions, etc) (+/-)                                  0                   0                  0                   0
   Appropriations used                                                         0            (200,208)                 0                   0
   Nonexchange revenue                                                         0                   0                  0                   0
   Donations and forfeitures of cash and cash equivalents                      0                   0                  0                   0
   Transfers in/out without reimbursement (+/-)                                0                   0                  0                   0
   Other budgetary financing sources (+/-)                                     0                   0                  0                   0
  Other Financing Sources:
   Donations and forfeitures of property                                       0                  0                   0                   0
   Transfers in/out without reimbursement (+/-)                                0                  0                   0                   0
   Imputed financing from costs absorbed by others                             0                  0                   0                   0
   Other (+/-)                                                                 0                  0                   0                   0
  Total Financing Sources                                   $                  0   $              0    $              0    $              0
   Net Cost of Operations (+/-)                                                0                  0                   0                   0
   Net Change                                                                  0                  0                   0                   0
   Ending Balances                                          $                  0   $              0    $              0    $              0




                                                                                                                                              243
                                                            NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                                               D e pa r t m e n t o f t h e N a v y

  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
  For the years ended September 30, 2005 and 2004
  ($ in thousands)



                                                                                                                Research &            Supply
                                                                     Transportation        Base Support
                                                                                                               Development          Management
      Cumulative Results of Operations
       Beginning Balances                                        $          (25,760)   $         739,848   $         153,344    $     14,591,004
       Prior period adjustments (+/-)
        Changes in Accounting Principles (+/-)                                    0                    0                   0                   0
        Correction of Errors (+/-)                                           27,073                  668                (362)                  0
       Beginning Balances, as adjusted                           $            1,313    $         740,516   $         152,982    $     14,591,004
       Budgetary Financing Sources:
        Appropriations Received                                  $                0    $               0   $               0    $             0
        Appropriations transferred in/out (+/-)                                   0                    0                   0                  0
        Other adjustments (rescissions, etc) (+/-)                                0                    0                   0                  0
        Appropriations used                                                  67,000               18,550               2,206                  0
        Nonexchange revenue                                                       0                    0                   0                  0
        Donations and forfeitures of cash and cash equivalents                    0                    0                   0                  0
        Transfers in/out without reimbursement (+/-)                        (50,000)                   0             (50,000)            65,385
        Other budgetary financing sources (+/-)                                   0                    0                   0                  0
       Other Financing Sources:
        Donations and forfeitures of property                                     0                    0                   0                   0
        Transfers in/out without reimbursement (+/-)                           (416)              (8,207)            (36,384)           (614,859)
        Imputed financing from costs absorbed by others                           0                    0                   0                   0
        Other (+/-)                                                               0                    0              10,224                   0
       Total Financing Sources                                   $           16,584    $          10,343 $           (73,954)   $       (549,474)
        Net Cost of Operations (+/-)                                         50,875              (45,335)             (4,398)          1,419,907
        Net Change                                                          (34,291)              55,678             (69,556)         (1,969,381)
        Ending Balances                                          $          (32,978)   $         796,194 $            83,426    $     12,621,623

      Unexpended Appropriations
       Beginning Balances                                        $                0    $              0    $               0    $             0
       Prior period adjustments (+/-)
        Changes in Accounting Principles (+/-)                                    0                   0                    0                  0
        Correction of Errors (+/-)                                                0                   0                    0                  0
       Beginning Balances, as adjusted                           $                0    $              0    $               0    $             0
       Budgetary Financing Sources:
        Appropriations Received                                  $           67,000    $          18,550 $             4,624    $             0
        Appropriations transferred in/out (+/-)                                   0                    0                   0                  0
        Other adjustments (rescissions, etc) (+/-)                                0                    0                   0                  0
        Appropriations used                                                 (67,000)             (18,550)             (2,206)                 0
        Nonexchange revenue                                                       0                    0                   0                  0
        Donations and forfeitures of cash and cash equivalents                    0                    0                   0                  0
        Transfers in/out without reimbursement (+/-)                              0                    0                   0                  0
        Other budgetary financing sources (+/-)                                   0                    0                   0                  0
       Other Financing Sources:
        Donations and forfeitures of property                                     0                   0                    0                  0
        Transfers in/out without reimbursement (+/-)                              0                   0                    0                  0
        Imputed financing from costs absorbed by others                           0                   0                    0                  0
        Other (+/-)                                                               0                   0                    0                  0
       Total Financing Sources                                   $                0    $              0    $           2,418    $             0
        Net Cost of Operations (+/-)                                              0                   0                    0                  0
        Net Change                                                                0                   0                2,418                  0
        Ending Balances                                          $                0    $              0    $           2,418    $             0




244
2005 Annual Financial Report

Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2005 and 2004
($ in thousands)


                                                                  Component
                                                                                       Combined Total         Eliminations
                                                                    Level
 Cumulative Results of Operations
  Beginning Balances                                          $        (852,212) $          16,021,873 $                 0
  Prior period adjustments (+/-)
   Changes in Accounting Principles (+/-)                                     0                      0                   0
   Correction of Errors (+/-)                                           (26,557)                     0                   0
  Beginning Balances, as adjusted                             $        (878,769)            16,021,873                   0
  Budgetary Financing Sources:
   Appropriations Received                                    $               0    $                 0 $                 0
   Appropriations transferred in/out (+/-)                                    0                      0                   0
   Other adjustments (rescissions, etc) (+/-)                                 0                      0                   0
   Appropriations used                                                        0                287,964                   0
   Nonexchange revenue                                                        0                      0                   0
   Donations and forfeitures of cash and cash equivalents                     0                      0                   0
   Transfers in/out without reimbursement (+/-)                               0                (84,615)                  0
   Other budgetary financing sources (+/-)                                    0                      0                   0
  Other Financing Sources:
   Donations and forfeitures of property                                       0                     0                   0
   Transfers in/out without reimbursement (+/-)                          684,263                     0                   0
   Imputed financing from costs absorbed by others                       542,518               552,597                   0
   Other (+/-)                                                          (663,850)             (653,626)                  0
  Total Financing Sources                                     $          562,931               102,320                   0
   Net Cost of Operations (+/-)                                        1,002,063             2,583,955                   0
   Net Change                                                           (439,132)           (2,481,635)                  0
   Ending Balances                                            $       (1,317,901) $         13,540,238 $                 0

 Unexpended Appropriations
  Beginning Balances                                          $               0    $                0     $              0
  Prior period adjustments (+/-)
   Changes in Accounting Principles (+/-)                                     0                     0                    0
   Correction of Errors (+/-)                                                 0                     0                    0
  Beginning Balances, as adjusted                             $               0    $                0     $              0
  Budgetary Financing Sources:
   Appropriations Received                                    $           7,618                298,000                   0
   Appropriations transferred in/out (+/-)                               (3,750)                (3,750)                  0
   Other adjustments (rescissions, etc) (+/-)                                 0                      0                   0
   Appropriations used                                                        0               (287,964)                  0
   Nonexchange revenue                                                        0                      0                   0
   Donations and forfeitures of cash and cash equivalents                     0                      0                   0
   Transfers in/out without reimbursement (+/-)                               0                      0                   0
   Other budgetary financing sources (+/-)                                    0                      0                   0
  Other Financing Sources:
   Donations and forfeitures of property                                      0                     0                    0
   Transfers in/out without reimbursement (+/-)                               0                     0                    0
   Imputed financing from costs absorbed by others                            0                     0                    0
   Other (+/-)                                                                0                     0                    0
  Total Financing Sources                                     $           3,868    $            6,286 $                  0
   Net Cost of Operations (+/-)                                               0                     0                    0
   Net Change                                                             3,868                 6,286                    0
   Ending Balances                                            $           3,868                 6,286                    0




                                                                                                                             245
                                                            NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                      D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
  For the years ended September 30, 2005 and 2004
  ($ in thousands)


                                                                        2005                  2004
                                                                     Consolidated          Consolidated
      Cumulative Results of Operations
       Beginning Balances                                        $      16,021,873     $      18,136,830
       Prior period adjustments (+/-)
         Changes in Accounting Principles (+/-)                                  0
         Correction of Errors (+/-)                                              0            (1,044,715)
       Beginning Balances, as adjusted                           $      16,021,873            17,092,115
       Budgetary Financing Sources:
        Appropriations Received                                  $               0                     0
        Appropriations transferred in/out (+/-)                                  0                     0
        Other adjustments (rescissions, etc) (+/-)                               0                     0
        Appropriations used                                                287,964               130,446
        Nonexchange revenue                                                      0                     0
        Donations and forfeitures of cash and cash equivalents                   0                     0
        Transfers in/out without reimbursement (+/-)                       (84,615)             (287,800)
        Other budgetary financing sources (+/-)                                  0              (419,775)
       Other Financing Sources:
        Donations and forfeitures of property                                    0                     0
        Transfers in/out without reimbursement (+/-)                             0                   126
        Imputed financing from costs absorbed by others                    552,597               544,886
        Other (+/-)                                                       (653,626)                    0
       Total Financing Sources                                   $         102,320               (32,117)
        Net Cost of Operations (+/-)                                     2,583,955             1,038,125
        Net Change                                                      (2,481,635)           (1,070,242)
        Ending Balances                                          $      13,540,238     $      16,021,873

      Unexpended Appropriations
       Beginning Balances                                        $               0     $               0
       Prior period adjustments (+/-)
         Changes in Accounting Principles (+/-)                                  0                     0
         Correction of Errors (+/-)                                              0                     0
       Beginning Balances, as adjusted                           $               0     $               0
       Budgetary Financing Sources:
        Appropriations Received                                  $         298,000     $         130,446
        Appropriations transferred in/out (+/-)                             (3,750)                    0
        Other adjustments (rescissions, etc) (+/-)                               0                     0
        Appropriations used                                               (287,964)             (130,446)
        Nonexchange revenue                                                      0                     0
        Donations and forfeitures of cash and cash equivalents                   0                     0
        Transfers in/out without reimbursement (+/-)                             0                     0
        Other budgetary financing sources (+/-)                                  0                     0
       Other Financing Sources:
        Donations and forfeitures of property                                    0                     0
        Transfers in/out without reimbursement (+/-)                             0                     0
        Imputed financing from costs absorbed by others                          0                     0
        Other (+/-)                                                              0                     0
       Total Financing Sources                                   $           6,286     $               0
        Net Cost of Operations (+/-)                                             0                     0
        Net Change                                                           6,286                     0
        Ending Balances                                          $           6,286     $               0




246
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)



                                                                       Depot                Depot                Depot
                                                                    Maintenance,         Maintenance,         Maintenance,
 BUDGETARY FINANCING ACCOUNTS                                        Shipyards             Aviation           Marine Corps
 BUDGETARY RESOURCES
   Budget Authority:
      Appropriations Received                                   $              0     $        200,208     $              0
      Borrowing Authority                                                      0                    0                    0
      Contract Authority                                                  29,712               64,712                4,104
      Net transfers (+/-)                                                      0                    0                    0
      Other                                                                    0                    0                    0
   Unobligated Balance:
      Beginning of period                                                368,550              904,894              148,373
      Net transfers, actual (+/-)                                        (25,000)                   0                    0
      Anticipated Transfers Balances                                           0                    0                    0
   Spending Authority from Offsetting Collections:
      Earned                                                                    0                    0                   0
       Collected                                                        1,631,872            1,840,895             482,324
       Receivable from Federal sources                                     (5,448)             (10,213)             (3,058)
      Change in unfilled customer orders                                        0                    0                   0
       Advances received                                                   82,390                4,131                (472)
       Without advance from Federal sources                               156,357              (12,213)            103,969
      Anticipated for the rest of year, without advances                        0                    0                   0
      Previously unavailable                                                    0                    0                   0
      Transfers from trust funds                                                0                    0                   0
      Subtotal                                                  $       1,865,171    $       1,822,600    $        582,763
   Recoveries of prior year obligations                                         0                    0                   0
   Temporarily not available pursuant to Public Law                             0                    0                   0
   Permanently not available                                               (3,411)             (29,771)                  0
   Total Budgetary Resources                                    $       2,235,022    $       2,962,643    $        735,240




                                                                                                                              247
                                                           NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                            D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2005 and 2004
      ($ in thousands)


                                                                   Depot                Depot                Depot
                                                                Maintenance,         Maintenance,         Maintenance,
       BUDGETARY FINANCING ACCOUNTS                              Shipyards             Aviation           Marine Corps
       STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                         $               0    $               0    $              0
             Reimbursable                                           1,657,668            2,120,182             507,540
             Subtotal                                       $       1,657,668    $       2,120,182    $        507,540
         Unobligated balance:
             Apportioned                                    $         602,355              842,461             227,700
             Exempt from apportionment                                (25,000)                   0                   0
             Other available                                               (1)                   0                   0
         Unobligated Balances Not Available                                 0                    0                   0
         Total, Status of Budgetary Resources               $       2,235,022    $       2,962,643    $        735,240

       RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
         Obligated Balance, Net - beginning of period       $        230,817     $         17,541     $         (78,167)
         Obligated Balance transferred, net (+/-)                          0                    0                     0
         Obligated Balance, net - end of period:
             Accounts Receivable                                       (6,060)             (64,229)             (10,160)
             Unfilled customer order from Federal sources            (648,320)            (589,757)            (271,179)
             Undelivered Orders                                       395,450              364,221               66,590
             Accounts Payable                                         308,507              540,642               83,887
         Outlays:
            Disbursements                                           1,687,998            1,909,272              459,323
            Collections                                            (1,714,261)          (1,845,026)            (481,852)
            Subtotal                                        $         (26,263)   $          64,246    $         (22,529)
         Less: Offsetting receipts                                          0                    0                    0
         Net Outlays                                        $         (26,263)   $          64,246    $         (22,529)




248
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)


 BUDGETARY FINANCING ACCOUNTS                                  Ordnance           Transportation        Base Support
 BUDGETARY RESOURCES
   Budget Authority:
      Appropriations Received                              $              0   $           67,000    $         18,550
      Borrowing Authority                                                 0                    0                   0
      Contract Authority                                                  0               15,201              18,762
      Net transfers (+/-)                                                 0                    0                   0
      Other                                                               0                    0                   0
   Unobligated Balance:
      Beginning of period                                           47,574               191,461             342,464
      Net transfers, actual (+/-)                                  (25,000)              (50,000)                  0
      Anticipated Transfers Balances                                     0                     0                   0
   Spending Authority from Offsetting Collections:
      Earned                                                            0                      0                    0
       Collected                                                     (315)             1,956,460            1,714,777
       Receivable from Federal sources                                 31                 (4,353)              10,272
      Change in unfilled customer orders                                0                      0                    0
       Advances received                                                0                      0               (8,515)
       Without advance from Federal sources                             0                250,451              (24,680)
      Anticipated for the rest of year, without advances                0                      0                    0
      Previously unavailable                                            0                      0                    0
      Transfers from trust funds                                        0                      0                    0
      Subtotal                                             $         (284)    $        2,202,558    $       1,691,854
   Recoveries of prior year obligations                                 0                      0                    0
   Temporarily not available pursuant to Public Law                     0                      0                    0
   Permanently not available                                            0               (123,030)              (1,594)
   Total Budgetary Resources                               $       22,290     $        2,303,190    $       2,070,036




                                                                                                                         249
                                                       NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                         D e pa r t m e n t o f t h e N a v y


      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2005 and 2004
      ($ in thousands)




        BUDGETARY FINANCING ACCOUNTS                             Ordnance              Transportation          Base Support
        STATUS OF BUDGETARY RESOURCES
          Obligations Incurred:
              Direct                                         $               0     $                  0    $                0
              Reimbursable                                             (12,882)               2,109,770             1,756,995
              Subtotal                                       $         (12,882)    $          2,109,770    $        1,756,995
          Unobligated balance:
              Apportioned                                    $          60,172                  243,421               313,041
              Exempt from apportionment                                (25,000)                 (50,000)                    0
              Other available                                                0                       (1)                    0
          Unobligated Balances Not Available                                 0                        0                     0
          Total, Status of Budgetary Resources               $          22,290     $          2,303,190    $        2,070,036

        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
          Obligated Balance, Net-beginning of period         $         18,918      $            256,920    $              680
          Obligated Balance transferred, net (+/-)                          0                         0                     0
          Obligated Balance, net-end of period:
              Accounts Receivable                                           (33)                (93,964)             (131,790)
              Unfilled customer order from Federal sources                    0                (381,355)             (214,246)
              Undelivered Orders                                              0                 281,701               149,068
              Accounts Payable                                              551                 424,317               271,336
          Outlays:
             Disbursements                                              5,486                 1,889,893              1,697,713
             Collections                                                  315                (1,956,460)            (1,706,262)
             Subtotal                                        $          5,801      $            (66,567)   $            (8,549)
          Less: Offsetting receipts                                         0                         0                      0
          Net Outlays                                        $          5,801      $            (66,567)   $            (8,549)




250
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)



                                                              Research &            Supply            Component
  BUDGETARY FINANCING ACCOUNTS                               Development          Management            Level
  BUDGETARY RESOURCES
    Budget Authority:
       Appropriations Received                           $          4,624     $              0    $         7,618
       Borrowing Authority                                              0                    0                  0
       Contract Authority                                         128,975              603,830                  0
       Net transfers (+/-)                                              0                    0             (3,750)
       Other                                                            0                    0                  0
    Unobligated Balance:
       Beginning of period                                       1,395,635             251,037           (900,268)
       Net transfers, actual (+/-)                                 (50,000)             65,385                  0
       Anticipated Transfers Balances                                    0                   0                  0
    Spending Authority from Offsetting Collections:
       Earned                                                           0                    0                  0
        Collected                                              10,054,185            5,470,695                373
        Receivable from Federal sources                           (54,730)            (165,782)              (373)
       Change in unfilled customer orders                               0                    0                  0
        Advances received                                         (69,038)                (257)                 0
        Without advance from Federal sources                        6,120             (230,023)                 0
       Anticipated for the rest of year, without advances               0                    0                  0
       Previously unavailable                                           0                    0                  0
       Transfers from trust funds                                       0                    0                  0
       Subtotal                                          $      9,936,537 $          5,074,633    $             0
    Recoveries of prior year obligations                                0                    0                  0
    Temporarily not available pursuant to Public Law                    0                    0                  0
    Permanently not available                                     (24,637)             (65,385)                 0
    Total Budgetary Resources                            $     11,391,134 $          5,929,500    $      (896,400)




                                                                                                                     251
                                                      NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                        D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  COMBINING STATEMENT OF BUDGETARY RESOURCES
  For the years ended September 30, 2005 and 2004
  ($ in thousands)


                                                                Research &            Supply             Component
      BUDGETARY FINANCING ACCOUNTS                             Development          Management             Level
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $               0    $              0     $               0
            Reimbursable                                          10,023,085           5,327,962               445,677
            Subtotal                                       $      10,023,085    $      5,327,962     $         445,677
        Unobligated balance:
            Apportioned                                    $       1,415,630             409,216            (1,345,944)
            Exempt from apportionment                                (47,582)                  0                 3,868
            Other available                                                1                   1                    (1)
        Unobligated Balances Not Available                                 0             192,321                     0
        Total, Status of Budgetary Resources               $      11,391,134    $      5,929,500     $        (896,400)

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $        218,286     $      4,106,472     $        (532,760)
        Obligated Balance transferred, net (+/-)                          0                    0                     0
        Obligated Balance, net-end of period:
            Accounts Receivable                                       19,759             (78,964)                8,654
            Unfilled customer order from Federal sources          (4,665,271)           (511,314)                    0
            Undelivered Orders                                     2,425,470           3,786,439                     0
            Accounts Payable                                       2,536,866           1,124,764               (92,493)
        Outlays:
           Disbursements                                           9,973,157            5,509,315               (2,872)
           Collections                                            (9,985,147)          (5,470,438)                (373)
           Subtotal                                        $         (11,990)   $          38,877    $          (3,245)
        Less: Offsetting receipts                                          0                    0                    0
        Net Outlays                                        $         (11,990)   $          38,877    $          (3,245)




252
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2005 and 2004
($ in thousands)


 BUDGETARY FINANCING ACCOUNTS                                   2005 Combined            2004 Combined
 BUDGETARY RESOURCES
   Budget Authority:
      Appropriations Received                               $            298,000     $             130,446
      Borrowing Authority                                                      0                         0
      Contract Authority                                                 865,296                   355,172
      Net transfers (+/-)                                                 (3,750)                        0
      Other                                                                    0                         0
   Unobligated Balance:
      Beginning of period                                               2,749,720                4,513,325
      Net transfers, actual (+/-)                                         (84,615)                (287,800)
      Anticipated Transfers Balances                                            0                        0
   Spending Authority from Offsetting Collections:
      Earned                                                                    0                        0
       Collected                                                       23,151,266               23,926,810
       Receivable from Federal sources                                   (233,654)                 249,344
      Change in unfilled customer orders                                        0                        0
       Advances received                                                    8,239                   90,067
       Without advance from Federal sources                               249,981               (1,724,666)
      Anticipated for the rest of year, without advances                        0                        0
      Previously Unavailable                                                    0                        0
      Transfers from trust funds                                                0                        0
      Subtotal                                              $          23,175,832    $          22,541,555
   Recoveries of prior year obligations                                         0                        0
   Temporarily not available pursuant to Public Law                             0                        0
   Permanently not available                                             (247,828)                (186,529)
   Total Budgetary Resources                                $          26,752,655    $          27,066,169




                                                                                                              253
                                               NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                               D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  COMBINING STATEMENT OF BUDGETARY RESOURCES
  For the years ended September 30, 2005 and 2004
  ($ in thousands)


      BUDGETARY FINANCING ACCOUNTS                             2005 Combined            2004 Combined
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $                 0      $                   0
            Reimbursable                                            23,935,997                 24,316,448
            Subtotal                                       $        23,935,997                 24,316,448
        Unobligated balance:
            Apportioned                                    $         2,768,052                  2,650,776
            Exempt from apportionment                                 (143,714)                         0
            Other available                                                 (1)                         0
        Unobligated Balances Not Available                             192,321                     98,945
        Total, Status of Budgetary Resources               $        26,752,655      $          27,066,169

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $         4,238,707      $            3,274,114
        Obligated Balance transferred, net (+/-)                             0                           0
        Obligated Balance, net-end of period:
            Accounts Receivable                                        (356,787)                  (590,442)
            Unfilled customer order from Federal sources             (7,281,442)                (7,031,461)
            Undelivered Orders                                        7,468,939                  6,892,059
            Accounts Payable                                          5,198,377                  4,968,550
        Outlays:
           Disbursements                                             23,129,285                 24,827,178
           Collections                                              (23,159,504)               (24,016,876)
           Subtotal                                        $            (30,219)                   810,302
        Less: Offsetting receipts                                             0                          0
        Net Outlays                                        $            (30,219)    $              810,302




254
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                      Depot                Depot              Depot
                                                                                   Maintenance,         Maintenance,       Maintenance,
                                                                                    Shipyards             Aviation         Marine Corps

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                      $        1,657,668 $         2,120,182 $          507,540
     Less: Spending Authority from offsetting collections and recoveries (-)           (1,865,170)         (1,822,600)          (582,763)
     Obligations net of offsetting collections and recoveries                  $         (207,502) $          297,582 $          (75,223)
     Less: Offsetting receipts (-)                                                              0                   0                  0
     Net obligations                                                           $         (207,502) $          297,582 $          (75,223)
  Other Resources
     Donations and forfeitures of property                                                     0                    0                  0
     Transfers in/out without reimbursement (+/-)                                        (19,243)              (5,154)                 0
     Imputed financing from costs absorbed by others                                           0                    0             10,079
     Other (+/-)                                                                               0                    0                  0
     Net other resources used to finance activities                            $         (19,243) $            (5,154) $          10,079
     Total resources used to finance activities                                $        (226,745) $           292,428 $          (65,144)

  Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and
     benefits ordered but not yet provided
        Undelivered orders (-)                                                 $           7,868    $        (200,313) $        (23,504)
        Unfilled Customer Orders                                                         238,747               (8,082)          103,497
     Resources that fund expenses recognized in prior periods                                  0                    0                 0
     Budgetary offsetting collections and receipts that do not affect
      Net Cost of Operations                                                                   0                    0                  0
     Resources that finance the acquisition of assets                                    (26,170)             (22,882)           (25,545)
     Other resources or adjustments to net obligated resources that
      do not affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in
        the entity's budget (-)                                                                0                    0                  0
        Other (+/-)                                                                       19,243                5,154                  0
     Total resources used to finance items not part of the Net
       Cost of Operations                                                      $         239,688    $        (226,123) $          54,448
     Total resources used to finance the Net Cost of Operations                $          12,943    $          66,305 $          (10,696)




                                                                                                                                      255
                                                             NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                              D e pa r t m e n t o f t h e N a v y


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                              Depot                  Depot                  Depot
                                                                           Maintenance,           Maintenance,           Maintenance,
                                                                            Shipyards               Aviation             Marine Corps
  Components of the Net Cost of Operations that will not Require or
  Generate Resources in the Current Period:
  Components Requiring or Generating Resources in Future Periods:
    Increase in annual leave liability                                 $                  0   $                  0   $               0
    Increase in environmental and disposal liability                                      0                      0                   0
    Upward/Downward reestimates of credit subsidy expense                                 0                      0                   0
    Increase in exchange revenue receivable from the public (-)                           0                      0                   0
    Other (+/-)                                                                           0                      0               4,302
    Total components of Net Cost of Operations that will require or
      generate resources in future periods                             $                  0   $                  0   $           4,302

  Components not Requiring or Generating Resources:
    Depreciation and amortization                                      $          20,460      $          42,064      $           3,509
    Revaluation of assets and liabilities (+/-)                                    1,026                      0                  1,718
    Other (+/-)
        Trust Fund Exchange Revenue                                                     0                     0                      0
        Cost of Goods Sold                                                         (3,865)               34,976                    243
        Operating Material & Supplies Used                                              0                     0                      0
        Other                                                                           0                     0                      0
    Total components of Net Cost of Operations that will not require
     or generate resources                                             $          17,621      $          77,040      $           5,470
    Total components of Net Cost of Operations that will not
     require or generate resources in the current period               $          17,621      $          77,040      $           9,772
    Net Cost of Operations                                             $          30,564      $         143,345      $            (924)




   256
 2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                   Ordnance            Transportation         Base Support

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                      $       (12,882)    $         2,109,770    $        1,756,995
     Less: Spending Authority from offsetting collections and recoveries (-)               284              (2,202,557)           (1,691,854)
     Obligations net of offsetting collections and recoveries                  $       (12,598)    $           (92,787)   $           65,141
     Less: Offsetting receipts (-)                                                           0                       0                     0
     Net obligations                                                           $       (12,598)    $           (92,787)   $           65,141
  Other Resources
     Donations and forfeitures of property                                                   0                       0                    0
     Transfers in/out without reimbursement (+/-)                                            0                    (416)              (8,207)
     Imputed financing from costs absorbed by others                                         0                       0                    0
     Other (+/-)                                                                             0                       0                    0
     Net other resources used to finance activities                            $             0     $              (416)   $          (8,207)
     Total resources used to finance activities                                $       (12,598)    $           (93,203)   $          56,934

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided
       Undelivered orders (-)                                                  $          442      $         (254,862)    $          (82,452)
       Unfilled Customer Orders                                                             0                 250,451                (33,195)
    Resources that fund expenses recognized in prior periods                                0                       0                      0
    Budgetary offsetting collections and receipts that do not affect
      Net Cost of Operations                                                                   0                    0                      0
    Resources that finance the acquisition of assets                                          14              136,682                (13,545)
    Other resources or adjustments to net obligated resources that
      do not affect Net Cost of Operations
       Less: Trust or Special Fund receipts related to exchange in
       the entity's budget (-)                                                                 0                    0                      0
       Other (+/-)                                                                             0                  416                  8,207
    Total resources used to finance items not part of the Net
      Cost of Operations                                                       $           456     $          132,687     $         (120,985)
    Total resources used to finance the Net Cost of Operations                 $       (12,142)    $           39,484     $          (64,051)




                                                                                                                                       257
                                                               NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                          D e pa r t m e n t o f t h e N a v y


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)
                                                                           Ordnance           Transportation           Base Support

  Components of the Net Cost of Operations that will not Require
  or Generate Resources in the Current Period:


  Components Requiring or Generating Resources in Future Periods:
    Increase in annual leave liability                                 $              0   $                    0   $               0
    Increase in environmental and disposal liability                                  0                        0                   0
    Upward/Downward reestimates of credit subsidy expense                             0                        0                   0
    Increase in exchange revenue receivable from the public (-)                       0                        0                   0
    Other (+/-)                                                                       0                        0                   0
    Total components of Net Cost of Operations that will require or
      generate resources in future periods                             $              0   $                    0   $               0

  Components not Requiring or Generating Resources:
    Depreciation and amortization                                      $              0   $            11,392      $          18,716
    Revaluation of assets and liabilities (+/-)                                       0                     0                      0
    Other (+/-)
        Trust Fund Exchange Revenue                                                   0                        0                   0
        Cost of Goods Sold                                                            0                        0                   0
        Operating Material & Supplies Used                                            0                        0                   0
        Other                                                                         0                        0                   0
    Total components of Net Cost of Operations that will not require
     or generate resources                                             $              0   $            11,392      $          18,716
    Total components of Net Cost of Operations that will not require
     or generate resources in the current period                       $             0    $            11,392      $          18,716
    Net Cost of Operations                                             $       (12,142)   $            50,876      $         (45,335)




258
  2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                    Research &            Supply             Component
                                                                                   Development          Management             Level

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                      $      10,023,085    $       5,327,962    $       445,677
     Less: Spending Authority from offsetting collections and recoveries (-)          (9,936,538)          (5,074,632)                 0
     Obligations net of offsetting collections and recoveries                  $          86,547    $         253,330    $       445,677
     Less: Offsetting receipts (-)                                                             0                    0                  0
     Net obligations                                                           $          86,547    $         253,330    $       445,677
  Other Resources
     Donations and forfeitures of property                                                     0                   0                    0
     Transfers in/out without reimbursement (+/-)                                        (36,384)           (614,859)             684,263
     Imputed financing from costs absorbed by others                                           0                   0              542,518
     Other (+/-)                                                                          10,224                   0             (663,850)
     Net other resources used to finance activities                            $         (26,160)   $       (614,859)    $        562,931
     Total resources used to finance activities                                $          60,387    $       (361,529)    $      1,008,608

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided
       Undelivered orders (-)                                                  $        (191,054)   $         59,133     $               0
       Unfilled Customer Orders                                                          (62,918)           (230,280)                    0
    Resources that fund expenses recognized in prior periods                                   0                   0                     0
    Budgetary offsetting collections and receipts that do not affect
      Net Cost of Operations                                                                   0                    0                   0
    Resources that finance the acquisition of assets                                     (22,719)          (4,362,024)             (6,156)
    Other resources or adjustments to net obligated resources that
      do not affect Net Cost of Operations
       Less: Trust or Special Fund receipts related to exchange in
       the entity's budget (-)                                                                 0                   0                    0
       Other (+/-)                                                                        26,160             614,859              (20,413)
    Total resources used to finance items not part of the
      Net Cost of Operations                                                   $        (250,531)   $      (3,918,312)   $       (26,569)
    Total resources used to finance the Net Cost of Operations                 $        (190,144)   $      (4,279,841)   $       982,039




                                                                                                                                     259
                                                                 NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                             D e pa r t m e n t o f t h e N a v y
 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING STATEMENT OF FINANCING
 For the years ended September 30, 2005 and 2004
 ($ in thousands)

                                                                            Research &              Supply             Component
                                                                           Development            Management             Level

   Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                $                 0   $                 0   $              0
     Increase in environmental and disposal liability                                    0                     0                  0
     Upward/Downward reestimates of credit subsidy expense                               0                     0                  0
     Increase in exchange revenue receivable from the public (-)                         0                     0                  0
     Other (+/-)                                                                         0                     0             20,024
     Total components of Net Cost of Operations that will require or
       generate resources in future periods                            $                 0   $                 0   $         20,024

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                     $        115,939      $           (6,875)   $                0
     Revaluation of assets and liabilities (+/-)                                 (4,967)              1,238,225                     0
     Other (+/-)
         Trust Fund Exchange Revenue                                                  0                       0                     0
         Cost of Goods Sold                                                      74,774               4,468,298                     0
         Operating Material & Supplies Used                                           0                       0                     0
         Other                                                                        0                      99                     0
     Total components of Net Costs of Operations that will not
      require or generate resources                                    $         185,746      $       5,699,747    $                0
     Total components of Net Costs of Operations that will not
      require or generate resources in the current period              $        185,746      $        5,699,747    $         20,024
     Net Cost of Operations                                            $         (4,398)     $        1,419,906    $      1,002,063




260
2005 Annual Financial Report


Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the years ended September 30, 2005 and 2004
($ in thousands)

                                                                                              2005                    2004
                                                                                          Consolidated            Consolidated


  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                            $          23,935,997    $         24,316,448
     Less: Spending Authority from offsetting collections and recoveries (-)                   (23,175,830)            (22,541,554)
     Obligations net of offsetting collections and recoveries                        $             760,167    $          1,774,894
     Less: Offsetting receipts (-)                                                                       0                       0
     Net obligations                                                                 $             760,167    $          1,774,894
  Other Resources
     Donations and forfeitures of property                                                              0                       0
     Transfers in/out without reimbursement (+/-)                                                       0                     125
     Imputed financing from costs absorbed by others                                              552,597                 544,886
     Other (+/-)                                                                                 (653,626)                      0
     Net other resources used to finance activities                                  $           (101,029)    $           545,011
     Total resources used to finance activities                                      $            659,138     $         2,319,905

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided
       Undelivered orders (-)                                                        $           (684,742)    $          1,142,521
       Unfilled Customer Orders                                                                   258,220               (1,634,601)
    Resources that fund expenses recognized in prior periods                                            0                 (241,627)
    Budgetary offsetting collections and receipts that do not affect
      Net Cost of Operations                                                                             0                       0
    Resources that finance the acquisition of assets                                            (4,342,345)             (5,045,185)
    Other resources or adjustments to net obligated resources that
      do not affect Net Cost of Operations
       Less: Trust or Special Fund receipts related to exchange
       in the entity's budget (-)                                                                       0                        0
       Other (+/-)                                                                                653,626                     (125)
    Total resources used to finance items not part of the Net Cost
      of Operations                                                                  $          (4,115,241)   $         (5,779,017)
    Total resources used to finance the Net Cost of Operations                       $          (3,456,103)   $         (3,459,112)




                                                                                                                                 261
                                                             NAVY WORKING CAPITAL FUND CONSOLIDATING/COMBINING STATEMENTS
                                                                                             D e pa r t m e n t o f t h e N a v y


  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF FINANCING
  For the years ended September 30, 2005 and 2004
  ($ in thousands)

                                                                               2005 Consolidated       2004 Consolidated

      Components of the Net Cost of Operations that will not Require or
      Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                 $                   0   $                       0
        Increase in environmental and disposal liability                                       0                           0
        Upward/Downward reestimates of credit subsidy expense                                  0                           0
        Increase in exchange revenue receivable from the public (-)                            0                           0
        Other (+/-)                                                                       24,326                           0
        Total components of Net Cost of Operations that will require or
          generate resources in future periods                             $              24,326   $                       0

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                      $             205,205   $               255,203
        Revaluation of assets and liabilities (+/-)                                    1,236,002                    42,924
        Other (+/-)
            Trust Fund Exchange Revenue                                                        0                          0
            Cost of Goods Sold                                                         4,574,426                  4,160,738
            Operating Material & Supplies Used                                                 0                          0
            Other                                                                             99                     38,732
        Total components of Net Cost of Operations that will not require
         or generate resources                                             $           6,015,732   $              4,497,597
        Total components of Net Cost of Operations that will not
         require or generate resources in the current period               $           6,040,058   $              4,497,597
        Net Cost of Operations                                             $           2,583,955   $              1,038,485




262
2005 Annual Financial Report


                                                              DEPARTMENT OF THE NAVY


                                NAVY WORKING CAPITAL FUND
                        REQUIRED SUPPLEMENTARY INFORMATION




                                                                                               REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                            NWCF




                                                                                              263
                               NAVY WORKING CAPITAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                                      D e pa r t m e n t o f t h e N a v y

  Navy Working Capital Fund
  General Property, Plant, and Equipment
  Real Property Deferred Annual Sustainment and Restoration Tables
  As of September 30, 2005
  ($ in Millions)

                                             Annual Sustainment FY 2005
                                                                Required        Actual         Difference
             Navy                                                 $256           $256              $0
             Marine Corps                                           4             4                  0
             Building, Structures, and Utilities                  $260           $260              $0

                                         Annual Deferred Sustainment Trend
                                                     FY 2002       FY 2003       FY 2004          FY 2005

             Navy                                        -              -              -              -
             Marine Corps                                -              -              -              -
             Building, Structures, and Utilities         -              -              -              -


                                    Restoration and Modernization Requirements
                                                      End FY 2004      End FY 2005                Change
             Navy                                           -               -                       -
             Marine Corps                                   -               -                       -
             Building, Structures, and Utilities            -               -                       -



  NARRATIVE STATEMENT:
  Fiscal Year 2005 represents the fourth year the Facility Sustainment Model (FSM) was utilized for the Navy Working
  Capital Fund (NWCF). Deferred amounts were calculated in accordance with the methodology provided by DoD
  Financial Management Regulation, Volume 6B, Chapter 12. The output of the Facility Sustainment Model continues
  to undergo quality checks to ensure its accuracy. Accordingly, utilizing an updated and accurate version of the model
  provides current requirements for each fiscal year.

  In FY 2005, FSM Version 5.0 was used for programming and budgeting for facilities sustainment.

  The NWCF has no material amounts of deferred sustainment for the General Property, Plant, and Equipment
  categories of Personal Property, Heritage Assets, or Stewardship Land.




264
2005 Annual Financial Report

 Schedule, Part A DoD Intragovernmental
 Asset Balances                                       Treasury Index   Fund Balance    Accounts          Loans
                                                                       with Treasury   Receivable      Receivable    Investments    Other
 ($ Amounts in Thousands)
 Department of Agriculture                                  12                                 183
 Department of Commerce                                     13                                 965
 Department of the Interior                                 14                                 143
 Department of Justice                                      15                                 190
 Navy General Fund                                          17                             386,796
 United States Postal Service                               18                                   52
 Department of State                                        19                                  (22)
 Department of the Treasury                                 20               977,864          (214)
 Army General Fund                                          21                              10,484
 Resolution Trust Corporation                               22                                    4
 Nuclear Regulatory Commission                              31                                    9
 Department of Veterans Affairs                             36                                    6
 Government Printing Office                                  4                                   15
 General Service Administration                             47                               1,477
 Independent Agencies                                       48                                   22
 National Science Foundation                                49                                 541
 General Accounting Office                                   5                                   31
 Advisory Commission on Intergovernmental Relations         55                                    2
 Air Force General Fund                                     57                              15,615
 Consumer Product Safety Commission                         61                                    4
 Tennessee Valley Authority                                 64                                   21
 Environmental Protection Agency                            68                                 179
 Department of Transportation                               69                                 682
 Homeland Security                                          70                               9,198
 Agency for International Development                       72                                    1
 Small Business Administration                              73                               4,611
 Department of Health and Human Services                    75                                   66
 Independent Agencies                                       76                                   22
 National Aeronautics and Space Administration              80                               2,822
 Department of Energy                                       89                               1,830
 US Army Corps of Engineers                                 96                                   83
 Other Defense Organizations General Funds                  97                              36,536
 Other Defense Organizations Working Capital Funds       97-4930                            13,159                                          375
 Army Working Capital Fund                             97-4930.001                           6,634
 Air Force Working Capital Fund                        97-4930.003                           2,279
 Architect of the Capitol                                                                        73
 Totals might not match the Principal Statements          Totals            $977,864      $494,499              $0             $0       $375




                                                                                                                                                  265
                                                            NAVY WORKING CAPITAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                                            D e pa r t m e n t o f t h e N a v y


      Schedule, Part B DoD Intragovernmental
      Entity Liabilities
                                                                                            Debts/Borrowings From
                                                          Treasury Index Accounts Payable                           Other
      ($ Amounts in Thousands)                                                                 Other Agencies

      Executive Office of the President                         11                                                           37
      Department of Agriculture                                 12                    55                                     94
      Department of Commerce                                    13                   109                                    125
      Department of the Interior                                14                     6
      Department of Justice                                     15                    10                                85,454
      Navy General Fund                                         17                63,628                               180,959
      United States Postal Service                              18                 1,159                                    29
      Department of State                                       19                                                       8,453
      Department of the Treasury                                20                  (232)                 381,518        1,899
      Army General Fund                                         21                                                          11
      Office of Personnel Management                            24                37,303                                38,306
      Federal Communications Commission                         27                   860
      Library of Congress                                       3                     25                                 6,808
      Nuclear Regulatory Commission                             31                                                         591
      John F. Kennedy Center                                    33                                                         960
      Department of Veterans Affairs                            36                    56                                     2
      Government Printing Office                                4                      6
      General Service Administration                            47                 5,151                                 1,761
      National Science Foundation                               49                   546                                22,007
      Air Force General Fund                                    57                 1,029                                     3
      Consumer Product Safety Commission                        61                                                          90
      Department of Transportation                              69                    45                                 1,077
      Homeland Security                                         70                   122                               101,694
      Agency for International Development                      72                                                         204
      Small Business Administration                             73                                                        (103)
      Department of Health and Human Services                   75                    (9)                                2,135
      National Aeronautics and Space Administration             80                   329                                   239
      Department of Housing and Urban Development               86                                                         (53)
      Department of Energy                                      89                   121                                 1,531
      Department of Education                                   91                                                         122
      Independent Agencies                                      95                                                         299
      Other Defense Organizations General Funds                 97                 3,579                                     3
      Other Defense Organizations Working Capital Funds      97-4930              76,260
      Army Working Capital Fund                            97-4930.001             5,039
      Air Force Working Capital Fund                       97-4930.003             4,405
      The General Fund of the Treasury                          99                                                       2,729
      Architect of the Capitol                                                                                              13
      Totals might not match the Principal Statements        Totals             $199,602                 $381,518     $457,479




266
2005 Annual Financial Report

      Schedule, Part C DoD Intragovernmental
       Revenue and Related Costs
       ($ Amounts in Thousands)                                        Treasury Index   Earned Revenue
      Executive Office of the President                                      11                     1,081
      Department of Agriculture                                              12                     1,072
      Department of Commerce                                                 13                    14,978
      Department of the Interior                                             14                     4,654
      Department of Justice                                                  15                   150,889
      Department of Labor                                                    16                     1,572
      Navy General Fund                                                      17                18,145,378
      United States Postal Service                                           18                       134
      Department of State                                                    19                    10,909
      Department of the Treasury                                             20                     3,450
      Army General Fund                                                      21                   259,802
      Resolution Trust Corporation                                           22                        73
      Office of Personnel Management                                         24                       132
      National Credit Union Administration                                   25                     2,183
      Federal Trade Commission                                               29                        (1)
      Library of Congress                                                    3                      2,724
      Nuclear Regulatory Commission                                          31                     1,102
      John F. Kennedy Center                                                 33                     2,913
      Department of Veterans Affairs                                         36                       763
      Government Printing Office                                             4                      2,241
      General Service Administration                                         47                     4,398
      Independent Agencies                                                   48                        21
      National Science Foundation                                            49                    15,830
      General Accounting Office                                              5                         55
      Advisory Commission on Intergovernmental Relations                     55                       238
      Air Force General Fund                                                 57                   385,512
      Consumer Product Safety Commission                                     61                         7
      Tennessee Valley Authority                                             64                        92
      Environmental Protection Agency                                        68                     6,554
      Department of Transportation                                           69                     5,861
      Homeland Security                                                      70                   137,701
      Agency for International Development                                   72                        48
      Department of Health and Human Services                                75                    13,496
      National Aeronautics and Space Administration                          80                    39,163
      Export-Import Bank of the United States                                83                     1,040
      Department of Housing and Urban Development                            86                       353
      Department of Energy                                                   89                    33,878
      Independent Agencies                                                   95                     1,569
      US Army Corps of Engineers                                             96                     2,460
      Other Defense Organizations General Funds                              97                 1,170,923
      Other Defense Organizations Working Capital Funds                   97-4930                  86,525
      Army Working Capital Fund                                         97-4930.001                45,872
      Air Force Working Capital Fund                                    97-4930.003               144,981
      Architect of the Capitol                                                                        899
      Totals might not match the Principal Statements                      Total             $20,703,525




                                                                                                                267
                                                 NAVY WORKING CAPITAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                                                                           D e pa r t m e n t o f t h e N a v y


      Schedule, Part E DoD Intragovernmental
      Non-exchange Revenues
      ($ Amounts in Thousands)                            Treasury Index   Transfers In     Transfers Out
      Navy General Fund                                         17                                  $150,000
      Other Defense Organizations Working Capital Funds      97-4930             $65,385
      Totals might not match the Principal Statements         Totals             $65,385           $150,000




268
2005 Annual Financial Report


                                                           DEPARTMENT OF THE NAVY


                                   NAVY WORKING CAPITAL FUND
                               OTHER ACCOMPANYING INFORMATION




                                                                                            OTHER ACCOMPANYING INFORMATION
                                                                                                       NWCF




                                                                                           269
                                NAVY WORKING CAPITAL FUND OTHER ACCOMPANYING INFORMATION
                                                                                      D e pa r t m e n t o f t h e N a v y


  APPROPRIATIONS, FUNDS, AND ACCOUNTS INCLUDED                         IN THE   FINANCIAL STATEMENTS

  REPORTING ENTITY
  Navy Working Capital Fund

  Fund/Account Treasury Symbol and Title:
  97X4930 002

  Navy Working Capital Fund Activity Group Treasury Symbol and Title:

          97X4930.NA1* Depot Maintenance-Shipyards
          97X4930.NA2* Depot Maintenance-Aviation
          97X4930.NA4* Depot Maintenance- Other (Marine Corps)
          97X4930.NA3* aOrdnance
          97X4930.ND* Transportation
          97X4930.NE* * Base Support
          97X4930.NH** Research and Development
          97X4930.NC** Supply Management

  Notes

  * - The "*" represents alpha or numeric characters which identify an activity or reporting
       segment of the activity group.

  a - The Ordnance activity group became a part of the DON General Fund in FY 2000. The
     Ordnance information included in this report represents residual NWCF accounting for this group.




270
2005 Annual Financial Report


                               DEPARTMENT OF THE NAVY


                                 AUDIT OPINIONS




                                                          AUDIT OPINIONS




                                                        271
272
273
274
275
276
277
278
279
280
281
282
283
284
285
286
287
                                                                                    D e pa r t m e n t o f t h e N a v y


                                         COVER PAGE PHOTO CREDITS
  Top of page, from left to right:

  1. New Orleans (Sept. 7, 2005) - A U.S. Navy Chief Aviation Warfare Systems Operator assigned to the "Emerald
     Knights" of a Helicopter Anti-Submarine Squadron (HS-75) looks out from the cabin of an SH-60 Seahawk
     helicopter at the flooded streets of New Orleans in the aftermath of Hurricane Katrina. U.S. Navy photo by
     Photographer's Mate 3rd Class Kristopher Wilson

  2. Pacific Ocean (June 27, 2005) - A U.S. Marine Corps amphibious assault vehicle assigned to the 3rd Amphibious
     Assault Battalion travels through the Pacific Ocean after departing the USS Peleliu (LHA 5) for infantry and
     amphibious training. U.S. Navy photo by Journalist 2nd Class Zack Baddorf

  3. Udairi Range, Kuwait (May 20, 2005) - Marines from Echo Company, Battalion Landing Team 2nd Bn., 8th
     Marines, 26th Marine Expeditionary Unit (Special Operations Capable), fire a "battle sight zero" range at Udairi
     Range, Kuwait, during routine proficiency training. U.S. Marine Corps photo by Sgt. Roman Yurek

  4. Persian Gulf (Mar. 1, 2005) - An F/A-18A+ Hornet pilot assigned to the "Silver Eagles" of a Marine Fighter Attack
     Squadron (VMFA-115) conducts a check of his speed break prior to launch. U.S. Navy photo by
     Photographer's Mate Airman Ricardo J. Reyes

  5. Mubarek Military City, Egypt (Sept. 13, 2005) - U.S. Marines assigned to the Expeditionary Strike Group One,
     13th Marine Expeditionary Unit disembark a landing craft utility from the USS Tarawa (LHA 1). U.S. Navy photo
     by Photographer's Mate 2nd Class Brandon A. Teeples

  6. (Persian Gulf) - Sailors assigned to the "Raging Bulls" of a Fighter Attack Squadron (VFA-37) perform routine
     maintenance to an F/A-18 Hornet on the USS Harry S. Truman (CVN-75). US Navy photo by Photographers
     Mate Airman Ryan O'Connor

  7. Yokosuka, Japan (Mar. 23, 2005) - Members of an Explosive Ordnance Disposal Mobile Unit (EODMU-5) fast
     rope from an HH-60H Seahawk to the deck of the USS Kitty Hawk (CV 63) during an air power demonstration.
     U.S. Navy photo by Photographer's Mate 3rd Class Bo Flannigan

  8. Iraq (Dec. 22, 2004) - A Gunners Mate 2nd Class (left), attached to 31st Marine Expeditionary Unit's Explosive
     Ordnance Division, scans the area near the Iraqi border. U.S. Marine Corps Photo by Cpl. Christopher R.
     Rye

  9. Bahrain (May 10, 2005) - A Hull Maintenance Technician 2nd Class inspects the remaining high explosive
     material from a disrupted improvised explosive device during a training exercise in Bahrain. U.S. Navy photo by
     Photographer's Mate 1st Class Aaron Ansarov

  10. Northern Pakistan (Oct. 17, 2005) - A Pakistani woman watches from the top of a pile of rubble as supplies are
      unloaded from a U.S. Navy MH-53E Sea Stallion helicopter in northern Pakistan. U.S. Navy photo by
      Photographer's Mate 2nd Class Timothy Smith

  11. Pacific Ocean (May 29, 2005) - Crewmembers assigned to the "Red Devils" of a Marine Fighter Attack Squadron
      (VMFA-232) prepare to load an AIM-9 Sidewinder missile to an F/A-18 Hornet on the USS Nimitz (CVN 68).
      U.S. Navy photo by Photographer's Mate Airman Roland Franklin

  12. Persian Gulf (May 05, 2005) - A Senior Chief Aviation Warfare Systems Operator assigned to a Helicopter Anti-
      Submarine Squadron (HS-8) captures images of a vessel of interest during Maritime Interdiction Operations.




288
2005 Annual Financial Report

    U.S. Navy photo by Photographer's Mate Airman Chris M. Valdez

13. Atlantic Ocean (May 21, 2005) - Members of the honor guard aboard the USS Theodore Roosevelt (CVN 71)
    prepare to perform a 21-gun salute during a burial at sea ceremony. U.S. Navy photo by Photographer's Mate
    2nd Class Matthew Bash

14. Norfolk, Va. (July 31, 2005) - A Machinist's Mate 2nd Class shares a first hug with his children at pier 14 on board
    Naval Station Norfolk, during homecoming celebrations for the USS Carl Vinson (CVN 70). U.S. Navy photo by
    Journalist Seaman Christopher Okula

15. Indian Ocean (Mar. 16 2005) - Military Sealift Command hospital ship USNS Mercy (T-AH 19) sits off the coast of
    Banda Aceh, Indonesia, preparing for its return to the U.S. U.S. Navy photo by Photographer's Mate 2nd
    Class Jeffery Russell

16. Banda Aceh, Sumatra, Indonesia (Jan. 14, 2005) - A local woman and her child express appreciation to Sailors
    from the USS Abraham Lincoln (CVN-72) and Carrier Air Wing Two (CVW-2), who are distributing food and water
    in the wake of the December 2004 earthquake and tsunami. U.S. Navy photo by Photographer's Mate 1st
    Class John. D. Yoder

17. San Diego, Calif. (Mar. 23, 2005) - The Los Angeles-class fast attack submarine USS Salt Lake City (SSN 716)
    underway after departing Naval Submarine Base Point Loma, California, to conduct routine exercises in the
    Pacific Ocean. U.S. Navy photo by Photographer's Mate 3rd Class Danielle M. Sosa

18. Sumatra, Indonesia (Jan. 7, 2005) - Indonesian citizens are delighted as a U.S. Navy air crewman helicopter
    drops food, cookies, and water to them in their village. U.S. Navy photo by Photographer's Mate 3rd Class
    Jacob J. Kirk

19. Indian Ocean (Feb. 3, 2005) - Military Sealift Command hospital ship USNS Mercy (T-AH 19) navigates alongside
    USS Abraham Lincoln (CVN 72) after arriving on station near Banda Aceh, Sumatra, Indonesia. U.S. Navy
    photo by Photographer's Mate 3rd Class Gabriel R. Piper

20. Al Anbar, Iraq (May 20, 2005) - U.S. Marines, who had been conducting counter-insurgency operations with Iraqi
    Security Forces, prepare to leave Border Fort 12 via helicopter. U.S. Marine Corps photo by Sgt Michael A.
    Blaha

21. New Orleans (Sept. 5, 2005) - A U.S. Navy search and rescue swimmer and Aviation Warfare Systems Operator
    1st Class retrieves and evacuates a victim of Hurricane Katrina from a rooftop in New Orleans. U.S. Navy photo
    by Photographer's Mate 3rd Class Jay C. Pugh


Special Thanks to Rear Admiral McCreary, the Chief of Naval Information; Chris Madden, the Director of the Navy
Visual News Service; and the staff of the Office of the Chief of Naval Information for providing Department of the
Navy photographs.

Many thanks also to the Financial Operations Team at the Department of the Navy (DON) Office of Financial
Operations, the extended financial community at the DON major commands, and our accounting partners at the
Defense Finance and Accounting Service for their dedicated time and effort in producing the Department of the Navy
Fiscal Year 2005 Annual Financial Report. This FY 2005 Department of the Navy Annual Financial Report is
dedicated to the men and women of our Navy and Marine Corps warfighting team.




                                                                                                                       289
                             FOR MORE INFORMATION

                        Assistant Secretary of the Navy
                    Financial Management and Comptroller
                  Website: http://www.finance.hq.navy.mil/fmc/


                            Navy, http://www.navy.mil/


                       Marine Corps, http://www.usmc.mil/




                                   CONTACT US

An electronic copy of this report is available at http://www.finance.hq.navy.mil/fmc


            Requests for printed copies of this report may be sent to
                       DON_Financial_Report@navy.mil


                   Comments or suggestions? Send e-mail to
                      DON_Financial_Report@navy.mil
